<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-440]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 108-440, Pt. 4

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2400

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2005 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 4

                                AIRLAND

                               ----------                              

                         MARCH 11, 24, 30, 2004


         Printed for the use of the Committee on Armed Services

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                         2005--Part 4  AIRLAND

                                                 S. Hrg. 108-440, Pt. 4
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2400

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2005 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 4

                                AIRLAND

                               __________

                         MARCH 11, 24, 30, 2004


         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
93-574 PDF                 WASHINGTON DC:  2005
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                 ______

                        Subcommittee on Airland

                    JEFF SESSIONS, Alabama, Chairman

JOHN McCAIN, Arizona                 JOSEPH I. LIEBERMAN, Connecticut
JAMES M. INHOFE, Oklahoma            DANIEL K. AKAKA, Hawaii
PAT ROBERTS, Kansas                  MARK DAYTON, Minnesota
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
SAXBY CHAMBLISS, Georgia             HILLARY RODHAM CLINTON, New York
ELIZABETH DOLE, North Carolina       MARK PRYOR, Arkansas

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                          Army Transformation
                             march 11, 2004

                                                                   Page

Bolton, Hon. Claude M., Jr., Assistant Secretary of the Army for 
  Acquisition, Logistics, and Technology.........................     6
Casey, GEN George W., Jr., USA, Vice Chief of Staff, United 
  States Army....................................................    17
Curran, MG John M., USA, Director, Futures Center, Headquarters, 
  U.S. Army Training and Doctrine Command (TRADOC)...............    23

                  Navy and Air Force Aviation Programs
                             march 24, 2004

Young, John J., Jr., Assistant Secretary of the Navy for 
  Research, Development, and Acquisition; Accompanied by VADM 
  John B. Nathman, USN, Deputy Chief of Naval Operations for 
  Warfare Requirements and Programs; and Lt. Gen. Michael A. 
  Hough, USMC, Deputy Commandant for Aviation, Headquarters......    72
Sambur, Hon. Marvin R., Assistant Secretary of the Air Force for 
  Acquisition; Accompanied by Lt. Gen. Ronald E. Keys, USAF, 
  Deputy Chief of Staff for Air and Space Operations, 
  Headquarters...................................................    83

                         Army Aviation Programs
                             march 30, 2004

Cody, LTG Richard A., USA, Deputy Chief of Staff for Operations 
  and Plans, U.S. Army...........................................   134
Bergantz, MG Joseph L., USA, Program Executive Officer for 
  Aviation.......................................................   143
Sinclair, BG Edward J., USA, Commanding General, United States 
  Army Aviation Center and Fort Rucker...........................   144

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                        THURSDAY, MARCH 11, 2004

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                          ARMY TRANSFORMATION

    The subcommittee met, pursuant to notice, at 2:01 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Sessions, Dole, 
Lieberman, and Clinton.
    Majority staff members present: Ambrose R. Hock, 
professional staff member; and Thomas L. MacKenzie, 
professional staff member.
    Minority staff members present: Daniel J. Cox, Jr., 
professional staff member; and Creighton Greene, professional 
staff member.
    Staff assistants present: Andrew W. Florell and Sara R. 
Mareno.
    Committee members' assistants present: John A. Bonsell, 
assistant to Senator Inhofe; Arch Galloway II, assistant to 
Senator Sessions; Frederick M. Downey, assistant to Senator 
Lieberman; and Andrew Shapiro, assistant to Senator Clinton.

      OPENING STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. The subcommittee will come to order. 
We're not real sure what our afternoon schedule is going to be. 
They had earlier predicted some votes at 2:15, but I've not 
received confirmation, and it was just a prediction. Our plan 
certainly should be to go forward to hear the testimony of our 
distinguished guests and to make some opening statements. We 
will probably have time to complete our work, but we may be 
interrupted as we go forward.
    The Subcommittee on Airland meets today to receive 
testimony on the fiscal year 2005 President's budget request 
for Army transformation. I welcome this distinguished panel 
today.
    First, I would like to take a moment to recognize our 
ranking member, Senator Lieberman. He is a thorough expert on 
national defense, a man of great integrity and insight, who's 
listened to by both sides of the aisle whenever he speaks on 
these matters. It's a pleasure for me, Senator Lieberman, to 
work with you. I value your insight and your commitment to this 
country.
    I want to recognize, also, the men and women of our active, 
Reserve, and National Guard components, supported by civilian 
employees and contractors, who have been successful in 
executing military operations around the world in the ongoing 
war on terrorism. This is proof of the training, equipment, and 
readiness that you have provided them. Their service and 
sacrifices, and the sacrifices of their families, are deeply 
appreciated. I've talked with a number of families who have 
lost loved ones in Iraq and Afghanistan, families from Alabama. 
I've visited our soldiers at Walter Reed, and I know, as you 
do, the real, personal sacrifice that is being made.
    Today's hearing is the first of two hearings we will have 
on Army programs. Our focus this afternoon will be 
transformation. On March 30, we'll have a hearing on Army 
aviation, specifically focusing on the termination of the 
Comanche armed reconnaissance helicopter program. It's 
something that I've had an interest in and supported over the 
years, and I know Senator Lieberman has as well. We will be 
talking about that and have a full opportunity to discuss it.
    The Airland Subcommittee has supported the Comanche program 
in previous budget requests, and we are concerned with the 
impact of the termination on the future Army capabilities. I 
have, based on what I know today, decided that this termination 
is justified, but we will be going into it in more detail as 
time goes by, and we want to be sure, if there is a 
termination, that the funds that were allocated to that program 
will be used to improve Army aviation.
    For fiscal year 2005, the Army requests $98.5 billion, $2.7 
billion more than appropriated in fiscal year 2004, and 
supports the continuation of the Army transformation efforts. 
Adjusting for the Comanche termination, the Army requests $12.8 
billion in procurement, including $905 million for the Stryker 
vehicles, for the fifth of six Stryker brigades, and $2.7 
billion for Army aviation programs, and $9.3 billion in 
research, development, tests, and evaluation (RDT&E), including 
$3.2 billion for Future Combat Systems (FCS), a $1.5 billion 
increase over the amount appropriated in fiscal year 2004. FCS 
is one of the key programs for the Army transformation to the 
future force, and we have several questions regarding this 
program.
    As I noted earlier, today's hearing will focus on Army 
transformation. With the new chief of staff, the three axes of 
Army transformation--the Objective Force, Interim Force, and 
Legacy Force--have morphed into a current force that is 
organized, trained, and equipped for joint, interagency, 
multinational, full-spectrum operations, and a future force and 
operational force that will be based on network-centric 
capabilities. This is the Army's fourth year of transformation, 
and we are interested in hearing the progress the Army has made 
to date, particularly since they signed the $14.5 billion 
contract for the system development and demonstration phase of 
the program.
    The subcommittee will not only focus on Army 
transformation, but also on programs supporting Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF) and 
other deployed Army forces. We are interested in hearing your 
views on the chief of staff's plan to restructure active and 
Reserve components to create a modular force that is intended 
to provide joint and expeditionary capabilities to the 
combatant commanders.
    I support this initiative and believe the Army has taken a 
prudent approach to addressing issues related to high-demand, 
but low-density units and rotational requirements; however, 
there are still unanswered questions related to both near- and 
far-term requirements and how the Army intends to fund the 
restructure.
    We also ask you to address the impact of Operations 
Enduring Freedom and Iraqi Freedom on the current modernization 
plan, including costs associated with the plan. We understand 
the Army will use operations and maintenance funding to reset 
equipment as it is redeployed from Operation Iraqi Freedom. But 
we also understand that the Army has unfunded requirements in 
the procurement accounts for equipment attrited during the 
current operations. I am concerned that current operations will 
create resource challenges that can affect, adversely, 
transformation.
    The Army has made tremendous progress in its transformation 
initiative, and, even with Comanche's termination, this budget 
request appears to support the continued development of systems 
for Army transformation.
    Secretary Bolton, General Casey, and Major General Curran, 
we welcome you here to the Airland Subcommittee. I want to 
commend each of you for your outstanding leadership that you've 
provided and continue to provide in these challenging times. We 
look forward to your testimony.
    Before I yield to my esteemed colleague, we have a special 
guest today. We welcome Cindy Curran, Major General Curran's 
wife. Good to see you. Thank you for being here with us.
    Senator Lieberman.

            STATEMENT OF SENATOR JOSEPH I. LIEBERMAN

    Senator Lieberman. Thanks, Mr. Chairman. The presence of 
General Curran's wife will make our questioning no less 
withering. [Laughter.]
    But it's nice to have you here, Mrs. Curran.
    I thank you, Mr. Chairman. I thank you for your leadership 
of this subcommittee and for your service to our country. It 
has been really an honor to get to know you. I must say, when I 
first came back, Senator Warner said that I had been away 
without leave. I told him that I actually felt as if I had been 
actively deployed. [Laughter.]
    But, in any case, it is an honor to return to the Senate 
with people like yourself, and to work together in the best 
tradition of our country across party lines to do what is right 
to protect our national security and to support the men and 
women in uniform. You've set a high standard for that, and I 
look forward to working with you this year in pursuit of the 
goals that I know we share.
    Mr. Chairman, over the last 5 years, now in my sixth year 
on this subcommittee, I've been privileged to serve as both 
chair and ranking member. In that time, I've worked with my 
Republican colleague, strongly supporting the effort to 
transform the Army into a force more relevant to the new 
strategic environment that we are now facing. I've also had 
concerns, as this has gone along, about how the Army was 
attempting to effect that transformation, and particularly 
concerned about what I saw and, I'm afraid, still see as the 
failure to adequately fund the effort.
    In short, I've been concerned, and remain so, that the Army 
not be pressured to mortgage the future for the present. That 
goes to the affordability of the Army plan to modernize what 
used to be known as the Legacy Force, to field the Interim 
Force, and develop and field the Objective Force by 2010.
    Over the 4 years that General Shinseki led the Army, I 
supported fully the development of both the air and ground 
components of transformation to the Objective Force and fully 
supported his view that those programs should be the Army's 
highest priorities. But I must say that I was concerned about 
the Army spending that $10 billion to field the 6th Stryker 
Brigade Combat Team (SBCT) for the Interim Force, because I 
worried that the Army might move more quickly and less 
expensively to field an interim capability, and with nearly the 
same degree of effectiveness.
    Once it was clear that the resources provided would not be 
sufficient, the Army chose to take some risk in the Legacy 
Force. It was something we talked about quite openly here 
because of the limitation on resources that the Army was being 
given, cancelling scores of programs, and underfunding many 
more, including the digitization required to field the tactical 
internet to all but the counterattack corps. Some of this was 
based on what we hoped at the time would be a strategic pause 
to make the risks tolerable. But, of course, it ended up being 
short-lived, and we have felt, since Afghanistan and Iraq, some 
of the consequences of the underfunding, such as insufficient 
sets of individual body armor, uparmored high-mobility 
multipurpose wheeled vehicles (HMMWVs), aircraft survivability, 
equipment and battlefield identification systems. Obviously, I 
applaud General Schoomaker, General Casey, and all of you for 
your efforts to get such equipment to the current force as 
quickly as possible--I know that you've done that in many of 
the cases I've mentioned--and to deal with other capability 
shortfalls in the force.
    However, like his predecessor, General Schoomaker is now 
being forced to make some tough choices, and one of those is 
the one that Senator Sessions referred to: the termination of 
the Comanche, which we will hold a separate hearing on, on 
March 30, so I don't want to go into it in detail here. But, 
for quite a long time, what the Army told us--and I thought it 
was a strong argument--was that the Comanche would be the 
Army's future air combat vehicle and complement the ground FCS. 
I know--and I've heard the arguments--that the operational 
environment is now different than envisioned when Comanche was 
conceived, and the joint systems can help fill the Comanche 
void. But my concern really is that the primary reason for the 
termination was budgetary. Just as there were risks associated 
with underfunding the Legacy Force in recent years, there is 
risk associated, I want to suggest today, with underfunding 
Army transformation for the future.
    The Army has vigorously argued that the future was its 
highest priority, and I believe that, and we put some resources 
there. But even in the context of a Defense Department budget 
that some inside Congress and some outside Congress feel is 
excessive, we're pressuring you to do a lot for the current 
force and the future force, and you're finding it hard to do it 
all.
    Today, we want to look at the bigger picture of how the 
Army's ongoing operations in Afghanistan and Iraq, and in the 
larger war on terror have affected these modernization and 
transformation plans. As Army units rotate back from Iraq, 
there will be huge equipment costs as they are reset for 
follow-on contingencies. The bulk of the cost will be in the 
operation and maintenance accounts as equipment is repaired and 
serviced. Now, are there going to be additional acquisition 
costs? Of course. To replace combat losses, the Army has 
estimated that the total reset cost from the first rotation of 
forces in and out of Iraq, and the continuing rotation in and 
out of Afghanistan, will be in the range of $5 billion, largely 
unfunded. There are also going to be some acquisition costs to 
add equipment as the Army moves to create the additional 10 to 
15 active brigades in its structure and reorganize the 
remainder in the active and Reserve components to achieve a 
degree of modularity in design.
    Like the Chairman, I'm quite encouraged by these plans. 
They make a lot of sense to me. But there is a cost, of course, 
and the cost of creating the 15 additional active-duty brigades 
I've seen estimated at over $20 billion. We've seen no estimate 
for the cost of restructuring existing brigades in the Reserve 
components.
    Now, the Army Chief of Staff believes he's going to be able 
to complete the restructuring as the Army resets the force, and 
that the cost of doing so will be largely covered through 
supplemental appropriations. Whether that will be so remains to 
be seen. Unfortunately, recent history is not totally 
encouraging. Even though the Army received approximately $42 
billion of the $65 billion in fiscal year 2004 supplemental 
appropriations, it still has had to deal with nearly $3 billion 
in unfunded war-related requirements.
    For the fiscal year 2005 budget request, the Army has 
submitted a nonfunded priorities list of $6 billion, including 
$2.4 billion for the modularity requirements, and $1.2 billion 
for fiscal year 2004 reset shortfalls. Some in the Army have 
further estimated a fiscal year 2005 supplemental requirement 
of nearly $50 billion. The resulting shortfall could have a 
serious impact, again, on our Army transformation funding in 
the future, and potentially force the Army to delay or, at 
worst, terminate the FCS in order to meet current force 
requirements.
    This is a reaction to reality. It is not that I'm blaming 
anyone. In part, it's our doing. We have to figure out--and 
that's what I think the chairman and I are saying--how best, in 
this resource-constrained active-deployment reality that we're 
living in, we can support what you're doing.
    I remain concerned that the Army will sacrifice the future 
for the present. As pressing as the present is, we have to 
figure out a way to make sure that you're not forced to do 
that. Because I fear the result of that maybe that we will have 
personally modernized a current force that will end up being 
the future force. Clearly that partially modernized current 
force is necessary to do what we're doing now. But nothing 
stays static, we're going to be facing more sophisticated 
threats in the future, and we have a responsibility to help you 
fulfill your responsibility to be ready to face those threats. 
That, I hope, is what this Airland Subcommittee can do in this 
session.
    Thank you very much, Mr. Chairman.
    Senator Sessions. Thank you, Senator Lieberman. Those views 
and concerns are matters we need to take seriously, and we 
appreciate that.
    Senator Dole, it's great to have you with us. We thank you 
for your interest and your strong commitment to matters of 
defense and your regular attendance at our committees.
    Senator Dole. Thank you, Mr. Chairman. I want to thank our 
distinguished panel for appearing here today.
    The global strategic environment, as we all know, is a 
complex and dangerous landscape. With the proliferation of 
technology and weapons of mass destruction (WMD), we're 
currently witnessing a fundamental change in the security 
environment. In the future, our potential adversaries will be 
significantly more capable of threatening our national security 
at home and abroad. As a result, we must remain ever vigilant, 
with an eye to the future as we resource our military to 
develop future capabilities.
    Our Army has been, and continues to be, vigilant. As a 
result, it is relevant and it is ready. Through its ongoing 
transformation, our Army will be ready to defend our national 
security well into the future. I commend the Army for being 
proactive and for the tough resource-allocation decisions it 
has made to produce a feasible transformation plan.
    Meanwhile, our Nation is at war, and we must do everything 
possible to support our brave men and women as they valiantly 
maintain the security of the American people. I look forward to 
hearing how we, on the Senate Armed Services Committee, can 
assist the Army in executing its transformation while it 
remains engaged in 120 countries worldwide. Thank you for being 
here today.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you, Senator Dole. Well said.
    We will hear from each of you now. You could maybe discuss 
how you would like to divide your time. If we could stay around 
15 minutes, that would be good. But if you have something you 
want us to hear, I hope that you will say it.
    I'd just reiterate: we're at a point where we support 
future combat force, and the question we are having is, what 
equipment and technologies do you need to make it a reality? 
Then, do you have enough money to do it, or will you be able to 
have those resources on hand when the date in question arrives? 
That's part of what we're wrestling with. It's one thing to 
have a vision, but if you don't have the gas to get you down 
the road, we won't make it there.
    Secretary Bolton, we're delighted to have you with us, and 
we appreciate so much your service. Maybe you could start us 
off.

STATEMENT OF HON. CLAUDE M. BOLTON, JR., ASSISTANT SECRETARY OF 
      THE ARMY FOR ACQUISITION, LOGISTICS, AND TECHNOLOGY

    Mr. Bolton. Good afternoon. Thank you, Chairman Sessions, 
Senator Lieberman, and distinguished members of the Airland 
Subcommittee, for this opportunity to discuss Army 
transformation.
    This is a time, as you've already indicated, of tremendous 
change. We are most grateful for your wisdom, your guidance, 
and steadfast support.
    I respectfully request that my written statements be made a 
part of the record for today's hearing.
    Senator Sessions. We will do that. Thank you very much.
    Mr. Bolton. In the interest of time, I will truncate my 
opening comments. I believe you have perhaps four charts to 
address one of the statements in your opening comments, both 
the chairman and Senator Lieberman.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Sessions. I'm not sure I have that.
    Mr. Bolton. Then I'll just talk to it.
    We went across the berm just under a year ago in Iraq. The 
Army soldiers did an outstanding job, as did the other 
Services. We got to Baghdad in record time and concluded that 
phase of the operation. We then took our soldiers out of 
Abrams; we took them out of Bradleys, and we started the 
stabilization operation and put them into HMMWVs. The enemy 
adapted to that, and our soldiers increasingly came in harm's 
way from improvised explosive devices (IEDs) and from other 
weapons. We responded to that first with the small arms 
protection inserts (SAPI) plates. These are the inserts that go 
into the flak vests, and I will tell, just over a year ago we 
were producing about 2,000 sets per month. Today, we are 
producing 25,000 sets per month. There are 163,000-plus sets in 
country. By this time next week, everyone in Iraq and 
Afghanistan will have those vests and the SAPI plates. We will 
continue that, looking toward a goal of 840,000 sets.
    Now, that's a testament to how rapidly we can turn things 
around, but, more importantly, our industrial base, because 
when we were at 2,000, we were looking at basically two 
contractors. Today, we have six contractors. If we look at 
HMMWVs, when we took our troops out of the Bradleys and Abrams 
and put them into HMMWVs. Those HMMWVs were not designed for 
the IEDs we encountered during the stabilization operation. 
Today, we have ramped up to 170 vehicles per month. These are 
new HMMWVs, armored HMMWVs. By May, we will be at 220. By July, 
we will have the total of uparmored HMMWVs of 4,149 vehicles. 
By this October, all of those will be over there to marry up 
with vehicles we have gotten from other places around the 
world. We will keep that production as we go toward 5,000 
vehicles. Once again, a testament to industry, that when we 
started this over a year ago, we were producing somewhere on 
the order of 20 to 30 vehicles a month; now we're up to 220 in 
the month of May. That's a testament, also, to how rapidly we 
can turn things around.
    Now, who's doing this? A workforce that I'm very proud to 
lead and to represent--a workforce of 1,600 military, some of 
whom are in-theater today, working with the combatants to 
understand what they need and to provide that to them in as 
little as 72 hours--not months, not year, but hours--and also 
providing to soldiers equipment that they need, that they said 
they needed. If you have been over there, you see we now have 
arm pads, knee pads, and different sights for night vision and 
for the gun. We did 27,000 last year, we'll do 120,000 this 
year, and we'll continue that operation.
    That workforce has been reduced over the last 10 years, and 
certainly since the fall of the Soviet Union, by nearly 50 
percent; 1,600 military, 50,000 civilians are left today. Over 
the next 2 years, half the civilians are eligible to retire. 
Needless to say, that causes me some concern, and we're 
starting to work that.
    Let me close this and turn the mike over to General Casey 
by saying the following. In 1971, a new lieutenant, who was in 
a war called Vietnam was flying in the Air Force, the best 
aircraft they had available, called the F-4. He went into that 
war well-trained and well-led. He left that war a little wiser, 
having lost seven of his colleagues, to include his boss. He 
realized, at that time, that while he had the best training and 
the best leadership, he did not have the world's best aircraft. 
He dedicated the rest of his time, from that point to today, to 
ensuring that every warrior had the equipment that he or she 
needed to be the world's number one. That lieutenant sits 
before you today, trying to realize the dream of making sure 
that our soldiers are, indeed, the best-equipped, the best-led, 
the best-motivated. I can tell you, for sure, they have all of 
that, and we're working day and night to make sure that 
happens.
    On behalf of those men and women, I thank you and all the 
committee members, for your steadfast support. These charts 
here, on the SAPI plates and up-armored HMMWVs--your support in 
passing the fiscal year 2004 supplemental did that. It saved 
lives, and I thank you very much.
    Let me turn the mike over now to our Vice Chief of Staff, 
General Casey.
    [The prepared statement of Secretary Bolton follows:]

            Prepared Statement by Hon. Claude M. Bolton, Jr.

                              INTRODUCTION

    Mr. Chairman and distinguished members of the subcommittee, thank 
you for this opportunity to report to you on Army transformation. It is 
my privilege to represent the Army leadership, the military and 
civilian members of the Army acquisition workforce, and the soldiers 
who rely on us to provide them with world-class weapon systems and 
equipment so they can successfully accomplish any mission at anytime, 
anywhere in the world.
    This is a time of tremendous change, and we are most grateful for 
your wisdom, guidance, and strong support. Over the last year, our Army 
has met the demands of the global war on terrorism, with more than 
330,000 troops deployed around the world in more than 120 countries. 
Our Army was instrumental in the defeat of Saddam Hussein and the 
subsequent liberation of more than 46 million people from oppression 
and despair. Our Army remains a central and critical participant in 
Operation Iraqi Freedom and Operation Enduring Freedom in Afghanistan. 
Although these and other operations have stressed the force, our 
soldiers have responded magnificently.
    We are most grateful, too, for your continued support of our Army's 
transformation. The goals of Army transformation are to provide 
relevant and ready forces that are organized, trained, and equipped for 
full spectrum joint, interagency, and multi-national operations and to 
support future force development. Our future force is the operational 
force the Army continuously seeks to become--a strategically 
responsive, networked, precision, capabilities-based, maneuver force 
that is dominant across the range of military operations envisioned for 
the future global security environment.
    The primary goal of Army transformation is moving from the 
capabilities of the current force into the future with the development 
of the future force. Optimized for strategic versatility, this lighter, 
more agile force will dominate land operations and greatly expand the 
options available to the Joint Force. Developments in technology and 
our pursuit of network-centric warfare will allow the Army to break our 
ties with the Cold War formations that relied on the principle of mass 
and the build-up of large forces. We will possess unprecedented 
situational awareness that will enable Army formations to maneuver with 
greater precision and dispersion. We will know where the enemy is and 
where our own people are, and we will be able to impose our will on the 
enemy at the time and place of our choosing. As the Army develops the 
future force, it simultaneously is accelerating select future doctrine, 
organization, training, materiel, leadership, personnel, and facilities 
capabilities into our current force. This process will be fundamental 
to our success in enhancing the relevance and readiness of our Army and 
prosecuting the global war on terrorism. Similarly, the operational 
experience of our current force influences the development of future 
force capabilities.

                 BALANCING CURRENT AND FUTURE READINESS

    Balancing risk between current and future readiness remains a 
critical part of our Army's transformation process and one that 
requires continual assessment to ensure that plans and programs are 
aligned with overall requirements. Without question, the issue of 
current operational readiness is our Army's highest priority. During 
the last several years, our Army decided to accept a reasonable degree 
of risk to the readiness of our current force to permit investment in 
capabilities for our future force. This risk came in the form of 
reductions in and limitations to modernization and recapitalization 
programs. As part of the past four budget submissions, our Army made 
difficult choices to cancel and restructure programs, shifting 
resources to the development of transformational capabilities. Some of 
these investments have already produced results; for example, the new 
Stryker Brigade Combat Team (SBCT) formations now being fielded, the 
first of which is currently deployed on the battlefield in Iraq. Others 
are helping to develop emerging technologies and capabilities that will 
be applied to our force throughout the coming decade.

                                PROGRAMS
Stryker
    While at war, the urgency to accelerate the development and 
fielding of new and enhanced capabilities to our fighting forces in the 
field has never been greater. The rapid fielding of the Stryker vehicle 
demonstrates our Army's ability to meet a combatant commander's urgent 
needs.
    In 2003, our Army deployed our first SBCT, the 3rd Brigade, 2nd 
Infantry Division, to Operation Iraqi Freedom, delivering its enhanced 
capabilities to the Joint Force in record time: 4 years from broad 
concept to deployment. Exceptional support from Congress and the Office 
of the Secretary of Defense (OSD), along with close collaboration 
between the Army and industry made this achievement possible.
    Stryker brigades are our Army's first truly network-centric force, 
filling the capability gap between light- and heavy-force units with an 
infantry-rich, mobile force that is strategically responsive, 
tactically agile, and lethal. Improved battlespace awareness and 
battle-command technologies embedded in our SBCTs enhance combat 
effectiveness and survivability by integrating data from manned and 
unmanned air and ground-base sensors and providing real-time, 
continuous situational understanding.
    This spring, our second SBCT at Fort Lewis, Washington, will become 
operational. Our third SBCT, in Alaska, will be available in 2005. 
Continued support from Congress and OSD will ensure that subsequent 
brigades in Hawaii, Louisiana, and Pennsylvania are fielded between 
2004 and 2008.

Army Aviation Modernization
    A comprehensive review of Army programs has led to several 
strategic decisions regarding Army aviation. Because of lessons learned 
and experiences gained by the Army's recent 2\1/2\ years of combat in 
the global war on terrorism, as well as the operational environments 
envisioned in the foreseeable future, it is clear that the Army must 
provide the most effective survivability enhancements to our rotary and 
fixed-wing aircraft as soon as possible. We must upgrade, modernize, 
and rebuild our attack, utility, and cargo helicopter fleets, and 
replace our light observation and scout/attack helicopters as rapidly 
as possible.
    With the termination of the Comanche RAH-66 helicopter program and 
the resources for 121 Comanche aircraft reallocated (through fiscal 
year 2011), our plans are to restructure and revitalize Army aviation 
to meet current and future needs. The Army plans to accelerate air crew 
protection and Aircraft Survivability Equipment (ASE) fielding 
initiatives to meet the evolving threat and provide every aircraft with 
the best possible equipment; modernize 1,400 aircraft to extend 
aviation capabilities beyond 2020; acquire nearly 800 new aircraft to 
build modular active and Reserve component aviation formations; 
accelerate the unmanned aerial vehicle program to extend battlefield 
awareness and strengthen manned-unmanned teaming; transform Reserve and 
National Guard aviation; and leverage the technology base and knowledge 
gained through the Comanche program for new joint aviation initiatives. 
The net result of this reallocation will be the new procurement, 
upgrade, recapitalization, or modernization of more than 70 percent of 
the rotary winged fleet.

Unmanned Aerial Vehicles (UAVs)
    The Army is the first service to successfully pass initial 
operational test and evaluation with a UAV system. That system, the 
Shadow Tactical UAV, went from program initiation to a full-rate 
production decision in just 33 months. We now have four systems 
superbly supporting ground forces in Operation Iraqi Freedom that have 
flown more than 4,000 mission hours in theater. Twelve systems are 
fielded with 8 to operational units and 4 to the training base and an 
additional 12 will be fielded in fiscal year 2004. Ground commanders 
consider these essential for their Brigade Combat Teams to provide on-
call and responsive surveillance, force protection, and reconnaissance. 
Hunter is our interim extended-range/multi-purpose UAV that supports 
the Division/Corps. Finally, Raven is a small UAV that weighs just four 
pounds and is easily transportable in a HMMWV. It currently supports 
ground forces in Operation Enduring Freedom where terrain 
considerations and small unit needs dictate this type of responsive 
lightweight small UAV. The Army is procuring 185 of these systems in 
fiscal year 2004 and equipping small units in Iraq and Afghanistan over 
the next several months--an excellent example of responsive acquisition 
and rapid equipping.

                             PATRIOT/MEADS

    Patriot is the only fielded U.S. system capable of defeating 
Tactical Ballistic Missiles (TBMs). The Army strongly supports 
continued fielding of the Patriot Advanced Capability-3 upgrade to our 
soldiers. The Medium Extended Air Defense System (MEADS) is a 
cooperative program with Germany and Italy and is a ground-based 
terminal defense program. MEADS is intended to be a highly mobile, 
tactically deployable system to protect the maneuver force from short 
and medium range ballistic missiles, cruise missiles, and other air 
breathing threats. Beginning in fiscal year 2004, the Patriot and MEADS 
programs were combined to efficiently utilize the resources available 
to both programs.

Munitions
    A key block in the foundation of our Army's capability is the mix 
of munitions needed to provide overmatch and dominant land operations 
against hostile forces. From bullets to grenades, artillery rounds to 
missiles, from precision point target to area suppression, our charge 
is to provide a mix of munitions across Army, Joint, and International 
Forces that address training needs, the multiple targets and the myriad 
of environmental conditions faced by our soldiers. The Army is the 
single manager for conventional ammunition across the Services and has 
numerous joint and international munitions programs (Joint Common 
Missile, Excalibur, Guided Multiple Launch Rocket System) in 
development. Managing the health of current stockpiles while planning 
for their replacement is essential for the success of current and 
future forces.

3rd Armored Cavalry Regiment Modernization (3ACR)
    The Army will continue recapitalization and upgrade of the Abrams 
Main Battle Tank and the Bradley Fighting Vehicle in support of 3ACR 
modernization. This effort will provide 3ACR with an embedded digital 
capability commensurate to the 1st Cavalry Division and 4th Infantry 
Division with fielding projected for fiscal year 2006.

Future Capabilities
    Our Army plans to field a number of systems this decade that will 
provide a foundation for the transformation of our current force 
capabilities into those needed by our future force. Once fielded, these 
systems will perform as an interdependent system of systems that will 
significantly enhance joint warfighting capabilities. The following are 
some of the key transformational systems that our Army will begin to 
field during the next 6 years.

The Network
    The situational dominance of our future force will depend upon a 
comprehensive, ever-present, and joint-interoperable command, control, 
communications, computers, intelligence, surveillance, and 
reconnaissance (C\4\ISR) architecture that will enable the Joint Force 
Commander to conduct fully interdependent and network-centric warfare. 
This network will provide the backbone of our future force and the 
future Joint Force, enabling the maneuver commander to effectively 
coordinate battlefield effects. Some of the more important systems 
within the network include the following:

        <bullet> Warfighter Information Network--Tactical (WIN-T). WIN-
        T will be the communications network of our future force, 
        optimized for offensive and joint operations, while providing 
        the combatant commander the capability to perform multiple 
        missions simultaneously.
        <bullet> Joint Tactical Radio System (JTRS). JTRS is a family 
        of common, software-defined programmable radios that will 
        become our Army's primary tactical radio for mobile 
        communications.
        <bullet> Distributed Common Ground System-Army (DCGS-A). DCGS-A 
        is the Army component of the future Department of Defense (DOD) 
        integrated, ground-based, ISR processing architecture composed 
        of common hardware and software components enabling joint, net-
        centric operations.
        <bullet> Aerial Common Sensor (ACS). This ISR system and 
        platform will use robust sensor-to-shooter and links (such as 
        DCGS-A ground stations) to provide commanders at every echelon 
        the tailored, multi-sensor intelligence required for joint 
        operations.

Future Combat Systems
    The materiel core of our future force's maneuver unit of action 
(UA) is the Future Combat Systems (FCS), comprised of a C\4\ISR network 
and 18 manned and unmanned systems that are centered around the 
soldier. FCS will provide our soldiers greatly enhanced situational 
awareness, enabling them to see first, understand first, act first, and 
finish decisively. FCS will operate as a system of systems that will 
network existing systems, systems already under development, and next 
systems to be developed to meet the needs of the FCS-equipped UA. The 
network will enable improved intelligence, surveillance, and 
reconnaissance, enhanced analytical tools, joint exchange of blue and 
red force tracking down to the tactical level, battle command, real 
time sensor-shooter linkages, and increased synergy between echelons 
and within small units. FCS will be capable of generating networked 
lethal and non-lethal effects that achieve overmatch integrated with 
other Army, joint, national, and multi-national assets to bring those 
capabilities to the small unit level. In May 2003, FCS moved on 
schedule into the systems development and demonstration phase. Our Army 
is aggressively managing our FCS development effort and intends to 
achieve initial operational capability by the end of the decade.

Army Science And Technology
    The Army Science and Technology (S&T) program provides our Army 
superiority in both human and materiel systems arenas--preventing 
technological surprise. The Army S&T program retains a dynamic 
portfolio of investments that are responsive to warfighter needs today 
and into the future. The priority for Army S&T is to pursue paradigm-
shifting technologies that can alter the nature of the military 
competition to our advantage in the future and, where feasible, to 
exploit opportunities to accelerate the transition of proven technology 
to our current force.
    The Army S&T program exploits technology developments from the 
other Services, defense agencies, and commercial industry as well as 
international communities. The S&T program focuses on technology 
relevant to our Army and joint capabilities. It synchronizes 
operational concepts development and acquisition programs through 
transformational business practices that speed technology fielding to 
the soldier. The Army's S&T program is balanced to satisfy the high 
payoff needs of the future force while seeking rapid transitions for 
critical capabilities to our current force.

Accelerated Acquisition And Fielding
    We have adapted and continue to improve our acquisition and 
fielding processes. In 2002, as soldiers reported equipment shortages 
in Afghanistan and elsewhere, we implemented the Rapid Fielding 
Initiative (RFI) to ensure that all of our troops deploy with the 
latest available equipment. Equipment fielding schedules were revised 
to support unit rotation plans, and procurement and fielding cycles 
were radically compressed.
    In coordination with field commanders and our soldiers, a list of 
more than 40 mission-essential items, including the Advanced Combat 
Helmet, close-combat optics, Global Positioning System receivers, 
soldier intercoms and hydration systems, were identified for rapid 
fielding. Laying the foundation for acquisition transformation, RFI 
already has equipped nine Brigade Combat Teams (BCTs). In fiscal year 
2004, RFI will upgrade a minimum of 11 BCTs and 6 enhanced separate 
brigades serving in Iraq and Afghanistan. Additionally, we are 
accelerating fielding of select future capabilities to our current 
force. These items include thermal weapon sights, enhanced night vision 
goggles, Interceptor Body Armor, the Future Combat Rifle, and a new 
sniper rifle. It is the strong support of Congress that enables our 
Army to put this improved equipment in the hands of our soldiers.
    Support from Congress has also enabled our Army to institute a 
Rapid Equipping Force (REF) initiative to work directly with 
operational commanders and find solutions to operational requirements. 
These solutions may be off-the-shelf or near-term developmental items 
that can be made available quickly. For example, REF established a 
coordinated effort to supply our forces with immediate solutions to 
counter Improvised Explosive Device (IED) threats. Currently, IED teams 
are on location providing expertise and materiel solutions to safeguard 
our soldiers. We are acting aggressively to improve the armor 
protection of our armored and light-skinned vehicles. Other examples of 
REF products are the Well-Cam and PackBots. The Well-Cam is a camera, 
attached to an ethernet cable and a laptop, that enables soldiers in 
theater to search wells for weapons caches. PackBots are operational 
robots used to clear caves, buildings, and compounds so soldiers are 
not put in harm's way unnecessarily.
    RFI and REF provide timely support to our relevant and ready forces 
and to combatant commanders, and facilitate Army transformation.

Chemical Demilitarization
    The United States remains the world's leader in safely destroying 
stockpiled chemical weapons covered by the Chemical Weapons Convention. 
Late last year, we completed a significant task with the closing of the 
chemical weapons destruction facility at Johnston Atoll in the Pacific. 
Over the last decade, we successfully destroyed 4 million pounds of 
nerve and blister agents configured in more than 412,000 individual 
items without any serious workplace incidents or releases to the 
environment. Today, we continue to destroy these aging, outdated 
weapons at three additional stockpile sites: Tooele, Utah; Anniston, 
Alabama; and Aberdeen, Maryland. The Anniston incineration facility 
just came on line in August of last year, and it has already 
successfully and safely destroyed more than 19,000 individual 
munitions. We are implementing state-of-the-art destruction 
technologies at each site, and we are proud of our record in 
maintaining the highest caliber of workplace safety and environmental 
protection as we continue with our mission at these sites.
    Within this calendar year, we will have three more operational 
facilities, one each in Umatilla, Oregon; Pine Bluff, Arkansas; and 
Newport, Indiana. This means that by the end of the year, the chemical 
demilitarization program will have six operational facilities located 
across four time zones. We will have four incinerators and two 
neutralization plants operating, and thousands of employees working 
around the clock, to eliminate the risks posed to the communities by 
the continued storage of these weapons.
    In addition, the non-stockpile program has made significant 
progress in destroying recovered chemical weapons that are not part of 
the national stockpile. In fact, the non-stockpile program recently 
announced that it has destroyed more than 80 percent of the former 
production facilities, all of the class III items and is making 
significant progress against other non-stockpile materiel. The program 
has designed and implemented new transportable technologies that allow 
the Army to analyze recovered munitions without opening or disturbing 
them, as well as transportable treatment systems that allow on-site 
destruction of chemical agent, eliminating the need to transport agent-
filled weapons to another facility. These new technologies greatly 
enhance the Army's ability to respond to new discoveries of chemical 
munitions.
    Our challenge this year is to ensure that we maintain vigilance in 
protecting worker and community safety, and that we protect the 
environment at each stockpile and non-stockpile site. This challenge 
will be unprecedented, given the scope of activities that will be 
ongoing each day for the next few years at sites across the country, 
but I am confident that our program team will meet these challenges as 
they have every day since this program began.
    The U.S. Army is the only organization in the world that has 
successfully destroyed so many, and such a variety of, chemical 
weapons, and has demonstrated that it can do so safely. We intend to 
continue to lead the world in the development and use of state-of-the-
art technologies to eliminate the threats posed by chemical weapons.

                    COALITION PROVISIONAL AUTHORITY

    On May 21, 2003, the Deputy Secretary of Defense designated the 
Secretary of the Army as the Executive Agent for the Office of 
Reconstruction and Humanitarian Assistance, later to become the 
Coalition Provisional Authority (CPA) in Iraq. On January 14, 2004, the 
Deputy Secretary of Defense further assigned responsibility for 
Acquisition and Program Management Support for CPA to the Secretary of 
the Army. The Army is the lead Service, helping the Iraqi people build 
a stable and democratic country.

Contracting Support
    The Army, as executive agent, provides contracting and program 
management support both in Iraq and in the United States. We are 
charged with procuring all non-construction items and services to meet 
the humanitarian needs--the basic needs--of the Iraqi people as well as 
the economic reconstruction and repair of Iraq's infrastructure. To 
date in total, more than 1,500 contracts valued at more than $9.7 
billion have been awarded. Of that total, more than 1,300 contracts 
totaling $1.3 billion have been awarded by our contracting office in 
Iraq. These contracts were awarded for the repair and renovation of 
schools, banks, railway stations, clinics, mosques, and water treatment 
plants. These contracts were awarded to provide police and fire 
fighters with uniforms and equipment; hospitals with badly needed 
supplies; electrical power system equipment; rescue equipment; and 
buses. In addition, our contract awards are helping to build 
playgrounds, youth centers, emergency housing, and roads, sewer, and 
irrigation systems.
    Again, of the overall total of over $9.7 billion, contracts awarded 
within the United States total $2.5 billion for more than 200 contracts 
for restoring Iraqi oil; shutting down and repairing oil wells; fire 
fighting; explosive ordnance demolition; restoring Iraqi electricity; 
radio installation throughout Iraq; laptops; and emergency medical 
personnel in each of Iraq's 18 governorates.
    On January 6, 2004, the Army released seven design/build 
construction solicitations. Proposals were received in February and are 
under evaluation. These 7 solicitations will result in 10 contracts in 
support of electrical, public works and water, water resources, 
transportation, communications, and security projects. Contracts will 
be awarded using best value evaluation methodology based on technical, 
management, past performance, and cost factors.

Program Management Office
    Led by Admiral (Retired) David Nash, the Program Management Office 
(PMO) for rebuilding Iraq is located in Baghdad with a support office 
located in the Pentagon. As the requirement focal point for all Iraqi 
reconstruction contracting, the PMO is responsible for oversight and 
implementation of the $18.4 billion appropriated by the U.S. Congress 
to support the reconstruction of Iraq's infrastructure. The 
construction sectors are oil, electricity, public works and water, 
security and justice, transportation and communications, and buildings, 
education, and health.
    Overall, $12.6 billion will be spent towards actual construction 
over the next few years, and $5.8 billion will be spent on providing 
equipment, supplies and material to help support the construction. 
Computers are needed to monitor and control electrical and water 
systems; vehicles are needed to transport materials or to support 
system maintenance; uniforms and supplies are needed to support the 
police and civil defense corps; and supplies are needed to support 
schools.

                                 PEOPLE

    The Army Acquisition Corps (AAC) is dedicated to supporting the 
warfighter with world-class capabilities. We provide professional 
development and unsurpassed education, training and acquisition 
experiences to our acquisition, logistics, and technology workforce 
that will support the fight, improve the force, and build the future.
    With over a decade of downsizing activities and the anticipated 
retirements of 25 percent (eligible to retire based on 55 years of age 
and 10 years of service) or more of Army acquisition workforce 
personnel in the next 5 to 10 years, human capital strategic planning 
for the Army acquisition, logistics, and technology workforce is 
critical in order to proactively plan for the future acquisition 
workforce. Loss or diminishment of this highly skilled acquisition 
workforce will seriously impact warfighting capability and readiness 
unless dramatic steps are taken. The Army is using its human capital 
strategic planning process to define the current acquisition workforce, 
the required future acquisition workforce, and identify the actions 
that we need to take to make sure we have the right acquisition 
professionals where and when we need them in the future. Such planning 
will allow us to look at how many people we need with various technical 
skills and allow the leadership to prioritize needs based on our fiscal 
constraints. We have implemented process improvements that enhance 
productivity and facilitate transformation efforts and we continue to 
pursue acquisition excellence to make further productivity gains.
    The Army acquisition community has partnered with DOD to develop 
aggressive marketing and recruiting strategies to attract and retain 
private sector talent to replace retiring workforce personnel and 
reinvigorate the current acquisition workforce to ensure that vital 
defense systems are developed and maintained. Within the Army, senior 
leaders have been given the authority to approve recruitment bonuses, 
relocation expenses, and retention allowances; authority to approve 
repayment of student loans; authority to approve advanced-in-hire 
rates; and authority to direct hire for certain civilian occupational 
series/grades. These authorities should assist Army supervisors/
managers in addressing the potential talent loss. In addition, we are 
hiring recent college graduates, as well as qualified retired members 
of the Armed Forces in an effort to solve this situation.
    The Army's acquisition, logistics, and technology workforce is a 
critical resource that requires unique education, training, and 
experience in order to perform vital acquisition functions. Acquisition 
personnel perform highly technical and specialized work in areas such 
as engineering, contracting, and logistics--skills essential for 
ultimate success on the battlefield.
    The AAC is launching its own transformation effort after 13 years 
of initial development and acquisition mission execution. 
Transformation of the AAC is embedded within the Army's transformation 
in order to enable the AAC to conduct its mission. The AAC will align 
and horizontally integrate its transformation with the overall Army 
Campaign Plan; establish an Army acquisition core capability that 
develops, tests, fields, buys, inserts, and supports materiel and 
service solutions across full spectrum military operations, from all 
out war to defense of the homeland. Additionally, the AAC will develop 
flexible acquisition officers and civilian leaders that possess a 
diverse and well-rounded background in the supporting functions and 
phases of acquisition who are prepared to lead any complex, multi-
functional acquisition command, agency, organization, or team.
    The acquisition workforce is responding with great enthusiasm to 
our ongoing overseas operations. Currently, there are more than 680 
individuals from our Program Executive Offices who valiantly serve our 
Nation in Southwest Asia. Of that number, roughly 300 members of the 
acquisition workforce--military, civilian, and contractors--are serving 
in Iraq.

                               PRODUCTION

    The industrial base has responded magnificently to meet urgent 
needs in our ongoing operations in Iraq and Afghanistan. Providing body 
armor for our soldiers has been a great illustration of government 
challenging industry and industry responding superbly. Over the past 
year, industrial capacity for individual body armor has expanded 14-
fold. From the production of raw materials through the industrial 
process to the fielding to soldiers, industry has stepped-up 
unwaveringly to the challenge, giving our soldiers life saving, bullet-
stopping capability for the first time on the battlefield.
    The other exceptional example of industrial response has been in 
adding armor to our tactical vehicles. As with body armor, we learned 
that the threat to rear echelon and patrolling soldiers was potentially 
lethal. We immediately began ramping up production of the more heavily 
armored HMMWVs and adding armor to the fielded vehicles. Our arsenals 
and depots have been key in our ability to respond to this threat. With 
two steel mills in Ohio producing armor steel plates and the Army's 
arsenals and depots making kits, we expect to have all HMMWVs in 
country improved with better plate steel armor protection by the end of 
July. This response by the industrial base workforce is truly 
remarkable.
    RFI, as mentioned previously, is another excellent example of 
industry's commitment to the soldier at war. In Iraq, we see the enemy 
evolving in its response to our efforts to maintain peace. The enemy is 
becoming more sophisticated in its attacks. Beginning with truck bombs 
and suicide bombers, we now see remotely controlled mines and well 
planned assaults. Industry is playing a key role here in the rapid 
fielding of countermeasures to keep up--and keep ahead of a very 
determined enemy. Because of RFI, we equip soldiers wherever and 
whenever necessary, providing improved force protection, mobility, 
situational awareness, and lethality.
    Over the last 3 years, we have tripled the output of small caliber 
ammunition. We boosted production from 350,000 rounds per year to 1.2 
billion rounds, almost all of it coming from the government-owned, 
contractor-operated plant in Missouri, the Lake City Army Ammunition 
Plant. We recently awarded contracts to Olin Corporation and to Israeli 
Military Industries, and we plan to expand the production capacity at 
Lake City. The increased consumption of ammunition, is a result of the 
Army's decision to better train all soldiers in marksmanship. 
Industry's response has once again been exceptional.
    The health of the defense industrial base is key to the Army's 
ability to continue to provide innovative technology and 
technologically excellent systems and equipment. Production is 
primarily dependent on the privately-owned network of prime contractors 
and subcontractors. The Army also retains a small number of arsenals 
and ammunition plants.
    In the future, the weapon systems and equipment that we buy must 
respond to the evolving threats. We, along with our industry partners, 
must be agile enough to anticipate requirements and expedite 
contracting and fielding. In addition, we must take advantage of 
lessons learned and adjust the entire process to correct mistakes or 
materiel weaknesses.

                               CONCLUSION

    The real winner in our successful acquisition and sustainment of 
weapon systems and equipment is the soldier. We serve the soldier. The 
most technologically advanced platforms are useless without the 
intellect, dedication, and remarkable sense of duty of the American 
soldier. The soldier remains the centerpiece of our combat systems and 
formations and is indispensable to the Joint Team. Adaptive, confident, 
and competent soldiers, infused with the Army's values and warrior 
culture, fight wars and win the peace. Working with Congress, we will 
keep the Army ready to meet today's challenges and continue to make 
significant strides toward the fielding of our future force.

    Senator Sessions. Thank you, Secretary Bolton.
    General Casey, Vice Chief of Staff of the Army, we are so 
proud of your service, and that of General Schoomaker, and the 
vision you have and the determination you have to make our Army 
second to none, as it already is, and make it even better.
    Secretary Bolton, thank you for your comments and your 
personal observations. We have a high obligation and 
responsibility to produce, for the people that go into harm's 
way, the very best. We've got to be proud of what we've 
accomplished in Afghanistan and Iraq, for example, in such a 
short period of time, but we know the enemy will adapt, and we 
have to continue to adapt. Your remarks were right on target.
    General Casey.

   STATEMENT OF GEN GEORGE W. CASEY, JR., USA, VICE CHIEF OF 
                   STAFF, UNITED STATES ARMY

    General Casey. Thank you, Mr. Chairman, Senator Lieberman, 
Senator Dole. I appreciate the opportunity to appear before you 
today to discuss the Army's transformation, which, as you 
rightfully put, Mr. Chairman, is really about making the best 
Army in the world better and even more capable for their 
challenges of the latter half of the 21st century.
    I would like to talk to you today about our plans to meet 
our current worldwide commitments while we simultaneously 
transform to a more agile, versatile joint and expeditionary 
force. But I would like to start, though, by thanking the 
committee for their continued support of the men and women in 
uniform and our great civilians, who make up the Army, and for 
your continued support of Army transformation.
    What I will try to do here is to focus and try to give you 
a little context to put what Secretary Bolton talked about and 
what Mark will talk about here, to give you a context to put 
that in.
    Senator Dole already mentioned the 320,000 soldiers 
deployed around the world in 120 countries, so we're actively 
engaged in meeting our Nation's operational requirements. The 
vast majority of these troops are in the Central Command 
(CENTCOM) area of operations, and engaged in combat operations. 
Currently, we have the equivalent of eight Army divisions 
either deploying to or returning from their missions. This is 
the largest movement of forces since the end of World War II. 
Couple that with the mobilization of over 150,000 combat-ready 
National Guard and Army Reserve soldiers, and you can see that 
this is really an unprecedented time in our Army's history. 
Today is not business as usual for your Army.
    Now, with all of this operational activity, it may not seem 
like the best time to undertake fundamental change across the 
Army, but we think it is just the opposite. It is an 
opportunity that we can't pass up. We've looked at our 
commitments and have highlighted the stressors on our forces, 
and we've embarked on a series of near-term initiatives to do 
three things: first, to reduce the stressors on the force; 
second, to improve our capabilities; and third, as I mentioned, 
to transform into a more versatile, agile joint and 
expeditionary force in this decade. We intend to do that while 
remaining focused on our long-term goal of a strategically 
responsive, networked-capabilities-based, precision-maneuver 
force that is dominant across the spectrum of combat. What 
we're doing now, we intend to set us up for the future force 
that we've already talked to you about in the past.
    Now, let me just talk for a moment on some of our near-term 
initiatives. First of all, we're balancing the capabilities 
between our Active and Reserve Forces. We will remove about 
100,000 forces. Second, we're reorganizing our combat 
formations, Mr. Chairman, into modular brigade-based formations 
to make them more self-sufficient and to facilitate force 
packaging. We intend to increase the number of active brigades 
from 33 to 43 by fiscal year 2007, and to convert our 34 
National Guard brigades to modular formations. This process has 
already begun down at Fort Stewart, Georgia, with the 3rd 
Infantry Division (ID). To do this, the President and Secretary 
of Defense have approved our request to grow the Army by 30,000 
beyond its statutory end strength, under the authority of title 
10, section 123(a). We ask for your support in doing this. 
Third, we're initiating a force-stabilization program that will 
increase unit readiness, reduce personnel turbulence, and make 
life more predictable for our soldiers, units, and families. 
Under this program, units will form, train, and stay together 
for about 3 years, enhancing unit cohesion and, thereby, unit 
effectiveness. Soldiers will be assigned to installations for 6 
to 7 years, instead of the normal three that we see now. This 
will improve their predictability and allow them to grow some 
roots in the community. So rebalancing, modularization, and 
force stabilization will yield an Army that has the right 
capability to respond rapidly and decisively to future 
challenges in this decade, while facilitating our transition to 
a future force embodied in the FCS.
    We continue to work hard to balance the current and the 
future that you talked about, Senator Lieberman. Our short-term 
modernization efforts continue and are bearing fruit, as 
evidenced by the recent fielding and deployment to Iraq of our 
Stryker brigade, which went from concept on paper to combat in 
about 4 years, which is a great testament to your all's support 
over here. We have also, as Secretary Bolton mentioned, made 
significant improvements in our acquisition and fielding 
processes to get the best equipment possible in the hands of 
our soldiers as quickly as possible.
    We'll continue to tackle the tough choices, such as 
cancelling the Comanche program, again, that Senator Lieberman 
mentioned. I would say that we need your support to use those 
Comanche resources to fix Army aviation.
    The fiscal year 2005 budget request will enable us to 
provide the combatant commanders with the requisite land-power 
capabilities to prosecute the global war on terror, to 
facilitate homeland defense, and to meet our other worldwide 
commitments. It covers our transformation program, base 
operations, and 15 critical recapitalization systems. It does 
not address the ongoing missions in Iraq and Afghanistan nor 
the recovery from those missions.
    Your support of this budget and the war-related costs of 
our ongoing operations is critical if our units are to continue 
their remarkable performance and be ready for future 
contingencies.
    Thank you very much for your time. I look forward to taking 
your questions.
    [The prepared statement of General Casey follows:]

          Prepared Statement by GEN George W. Casey, Jr., USA

                              INTRODUCTION

    Chairman Sessions, Senator Lieberman, members of the subcommittee--
I appreciate the opportunity to appear before you to discuss the Army's 
transformation and our plans to meet current worldwide commitments, 
while we simultaneously transform to a more flexible, capable, joint 
and expeditionary force.
    I thank the members of the committee for their continued 
outstanding support to the men and women in uniform who make up our 
great Army. Your concern, resolute action, and deep commitment to 
America's sons and daughters are widely recognized throughout the ranks 
of our Service.
    We are also grateful for your continued support of the Army's 
transformation. The goals of Army transformation are to provide 
relevant and ready future forces that are organized, trained, and 
equipped for full spectrum joint, interagency, and multi-national 
operations. Our future force is the operational force the Army 
continuously seeks to become--a strategically responsive, networked, 
capabilities-based, precision, maneuver force that is dominant across 
the range of military operations envisioned for the future global 
security environment.

                            CURRENT POSTURE

    With over 320,000 soldiers deployed in 120 countries worldwide, the 
Army remains actively engaged in support of the Nation's operational 
requirements. Approximately 165,000 of our soldiers are overseas on 12-
month, unaccompanied tours, and the vast majority of these troops are 
engaged in combat operations in the U.S. Central Command Area of 
Operations. Currently, the equivalent of eight Army divisions is either 
deploying to or redeploying from our overseas missions, including 
Operations Iraqi Freedom and Enduring Freedom in Southwest Asia, the 
Stabilization Force and Kosovo Force in the Balkans, and the 
Multinational Force and Observers mission in the Sinai. This 
constitutes the largest movement of U.S. forces since World War II. 
Couple that with the mobilization of more than 150,000 combat-ready 
National Guard and Army Reserve soldiers, and you can see that this is 
an unprecedented moment in the Army's history.
    The Army is the dominant land campaign force for our combatant 
commanders. Our centerpiece is the American soldier. Today, these great 
soldiers are performing extraordinarily well in tough combat and 
stability operations around the world. They understand their missions 
and willingly undertake their roles with pride and determination. They 
make a difference every day.

                          THE ONE ARMY CONCEPT

    Side by side, the active component, Army National Guard and Army 
Reserve have proven that they are a combat-capable and ready team. Our 
Reserve components have shared a substantial portion of the Army's 
mission since September 11, 2001. Our successes would not have been 
possible without our Reserve component soldiers.
    Currently, we are in the process of deploying three more enhanced 
Separate Brigades: the 39th Infantry Brigade from the Arkansas National 
Guard with the 1st Cavalry Division; the 30th Infantry Brigade from the 
North Carolina National Guard with the 1st Infantry Division; and the 
81st Infantry Brigade from the Washington National Guard to Coalition 
Joint Task Force-7 (CJTF-7), and large numbers of combat support and 
combat service support soldiers from across the country. These units 
are well-equipped, well-trained, and well-prepared for their missions.

                      THE ARMY'S CORE COMPETENCIES

    As the Army fights the global war on terrorism and remains 
committed to transforming, we are focused on two core competencies: (1) 
training and equipping soldiers and growing leaders; and (2) providing 
relevant and ready land power to combatant commanders as part of the 
Joint Team. It is clear that the Army must be an agile and capable 
force with a joint and expeditionary mindset. We must be versatile, 
strategically deployable, and prepared for decisive operations whenever 
and wherever required. We must be lethal and fully interoperable with 
other components and our allies, as well as flexible, informed, 
proactive, responsive, and totally integrated into the joint, 
interagency, and multi-national context. Our management and support 
processes must reflect and support these same characteristics.

   MITIGATING STRATEGIC RISK THROUGH INCREASED LAND-POWER CAPABILITY

    Our Nation and Army are at war. Our extensive commitments have 
highlighted stresses to our forces. To mitigate risk, our Army has 
embarked on a series of initiatives. I would like to address several of 
these initiatives today, because it is important to understand how the 
Army is transforming itself as we provide trained and ready forces to 
combatant commanders.
    First, we are rebalancing capabilities between our active and 
Reserve component forces to improve our strategic flexibility. Second, 
we are reorganizing our combat formations into modular, brigade-based 
formations to make them more self-sufficient and to facilitate force 
packaging. Third, we are initiating a force stabilization program to 
increase unit readiness, reduce personnel turbulence, and make life 
more predictable for our soldiers, units, and families.
    These efforts will yield an Army that has the right capabilities to 
respond rapidly and decisively to future challenges.

                          REBALANCING OUR ARMY

    Being an Army at war provides focus and insights as we rebalance to 
meet the challenges of the emerging operational environment. We 
recognize that we must provide our Nation with full-spectrum, ground 
combat and support capabilities that can defeat adaptive enemies 
anywhere in the world.
    Our challenge is not necessarily that we have too few soldiers. 
Instead, it stems from the fact that our formations, designed for the 
Cold War, must now meet the requirements of the global war on terrorism 
and other operations, which will persist for years to come. To meet the 
challenges of the future, we are rebalancing more than 100,000 spaces 
in our active and Reserve components--converting them to relieve the 
burden on the low density/high demand units, e.g., military police.
    We accelerated this process after September 11, 2001, to alleviate 
the stress placed on our most-needed units. In compliance with 
Secretary of Defense's guidance to minimize involuntary mobilizations 
within the first 30 days of a contingency, we made further progress in 
2003. We expect Army rebalancing measures to continue with the same 
momentum in 2005 and beyond. Our National Guard and Army Reserve have 
been, and will continue to be, integral to the planning and 
decisionmaking process for this effort.

                               MODULARITY

    In addition to rebalancing our forces, we are creating a brigade-
based, modular Army to enhance responsiveness and to increase our joint 
and expeditionary capabilities. Webster's defines modularity as 
``composed of standardized units for easy construction or flexible 
arrangements.'' Although this may seem to be an oversimplification of 
what the Army is doing, it is precisely our concept.
    The basic maneuver element in the modular Army will be the unit of 
action, similar to today's brigade. Units of action will be flexible, 
self-contained, and capable across the entire operational spectrum.
    The Army intends to increase the number of active component 
brigades from 33 to 43 by fiscal year 2007; at that time, we will 
decide whether to continue the process to achieve 48 brigades. During 
the same time period, Army National Guard brigades will reorganize into 
34 brigade-size units using the same modular design as the active 
component.
    The Chief of Staff has approved the initial modular design of the 
3rd Infantry Division and its transformation is under way. Following 
rigorous training, to include rotations through our combat training 
centers at Fort Polk, Louisiana; and Fort Irwin, California; the 
division will be reset for potential deployment anywhere in the world 
as early as the first quarter of fiscal year 2005.

                          FORCE STABILIZATION

    The challenges associated with current operational requirements 
place significant stress on our existing force structure, both active 
and Reserve. The approval of a temporary end strength increase affords 
us the opportunity to implement permanent initiatives aimed at 
mitigating that stress to the force.
    The force stabilization initiative consists of two complementary 
policies: unit-focused stability and home basing. Under home basing, 
soldiers will remain at their initial installation for 6 to 7 years--
well beyond the current 3-year average. Unit-focused stability will 
allow soldiers to arrive, train, and serve together for roughly 36 
months, enhancing unit cohesion, training effectiveness and readiness. 
During the unit's operational cycle, soldiers can expect to complete an 
operational deployment rotation of 6 to 12 months. Overall, with force 
stabilization, units will have more reliable training and deployment 
schedules, and soldiers and families will get a greater sense of 
predictability.

                          FUTURE CAPABILITIES

    Our modernization efforts continue and are bearing fruit, as 
evidenced by the recent fielding and deployment to Iraq of our first 
SBCT. Our second SBCT will become operational this spring, and the 
third in 2005. Three more SBCTs will be fielded through 2008.
    Further, we constantly seek to achieve the right balance between 
the current and the future force, even when that entails making tough 
choices, such as canceling the Comanche program. Though it was a 
difficult decision, we believe it was unquestionably the right one. By 
reallocating funds originally intended for Comanche the Army can buy 
almost 800 new aircraft, upgrade or modernize an additional 1,400 
aircraft--modernization for almost 70 percent of our fleet--and outfit 
our aircraft with the survivability equipment they need. In fiscal year 
2005 alone, the Army will convert 19 Apaches to the Longbow 
configuration, upgrade 5 Black Hawks to the UH-60M configuration, 
purchase 27 new UH-60Ls; buy 4 new CH-47Fs; convert 16 existing CH-47s 
into F and G models; and procure 160 new, higher-power CH-47 engines. 
In addition, our Army will start a Lightweight Utility Helicopter 
program, under which we will acquire 10 new, off-the-shelf aircraft in 
fiscal year 2005. We need your support to use the Comanche resources to 
fix Army aviation.
    Additionally, the Army plans to field a number of systems this 
decade that will provide a foundation for the transformation of our 
current force capabilities into those needed by our future force. Once 
fielded, these systems will perform as an interdependent system of 
systems that will significantly enhance joint warfighting capabilities. 
The following are some of the key transformational systems that our 
Army will begin to field during the next 6 years.

                              THE NETWORK

    The situational dominance of our future force will depend upon a 
comprehensive, ever-present, and joint-interoperable C\4\ISR 
architecture that will enable the Joint Force Commander to conduct 
fully interdependent and network-centric warfare. This network will 
provide the backbone of our future force and the future Joint Force, 
enabling the maneuver commander to effectively coordinate battlefield 
effects. Some of the more important systems within the network include 
the following:

        <bullet> Warfighter Information Network-Tactical. WIN-T will be 
        the communications network of our future force, optimized for 
        offensive and joint operations, while providing the combatant 
        commander the capability to perform multiple missions 
        simultaneously.
        <bullet> Joint Tactical Radio System. JTRS is a family of 
        common, software-defined programmable radios that will become 
        our Army's primary tactical radio for mobile communications.
        <bullet> Distributed Common Ground System-Army. DCGS-A is a 
        single, integrated, ground-based, ISR processing systems 
        composed of joint, common hardware, and software components. It 
        is part of the Department of Defense DCGS family of systems.
        <bullet> Aerial Common Sensor. This ISR system and platform 
        will use robust sensor-to-shooter and reach links (such as 
        DCGS-A ground stations) to provide commanders at every echelon 
        the tailored, multi-sensor intelligence required for joint 
        operations.

                         FUTURE COMBAT SYSTEMS

    The core of our future force's maneuver unit of action is FCS, 
comprised of 18 manned and unmanned platforms that are centered around 
the soldier and integrated within a C\4\ISR network. FCS will provide 
our soldiers greatly enhanced situational awareness, enabling them to 
see first, understand first, act first, and finish decisively. Our FCS 
platforms will offer the Joint Force networked, lethal direct fire; 
indirect fire; air defense; complementary non-lethal fires and effects; 
and troop transport capability. In May 2003, FCS moved on schedule into 
the systems development and demonstration phase. Our Army is 
aggressively managing our FCS development effort and intends to achieve 
initial operational capability by the end of the decade. FCS is 
essential to the Army transformation.
    The recent termination of the RAH-66 Comanche program was a 
strategic decision to fix Army aviation now and improve our future 
capabilities, leveraging both the technology base and the knowledge we 
gained from the Comanche program. We will use the savings from the 
Comanche program to modernize aircraft and extend aviation capabilities 
beyond the 2020 timeframe, acquire almost 800 new aircraft (through 
2011) to build modular active and Reserve component aviation 
formations, and transform U.S. Army Reserve and Army National Guard 
aviation by replacing over 850 aging aircraft and standardizing active 
and Reserve component aviation systems. As importantly, we will also 
accelerate aircrew protection and aircraft survivability equipment 
fielding initiatives necessary for both ongoing and future operations.

                  ACCELERATED ACQUISITION AND FIELDING

    We have adapted and continue to improve our acquisition and 
fielding processes. In 2002, as soldiers reported equipment shortages 
in Afghanistan and elsewhere, we implemented the RFI to ensure that all 
of our troops deploy with the latest available equipment. Equipment 
fielding schedules were revised to support unit rotation plans, and 
procurement and fielding cycles were radically compressed.
    In coordination with field commanders and our soldiers, a list of 
more than 40 mission-essential items, including the Advanced Combat 
Helmet, close-combat optics, Global Positioning System receivers, 
soldier intercoms and hydration systems, were identified for rapid 
fielding. Laying the foundation for acquisition transformation, RFI 
already has equipped nine brigade combat teams (BCTs). In fiscal year 
2004, RFI will upgrade a minimum of 18 BCTs and 8 enhanced separate 
brigades serving in Iraq and Afghanistan. Additionally, we are 
accelerating fielding of select future capabilities to our current 
force. These items include thermal weapon sights, enhanced night vision 
goggles, improved body armor, the Future Combat Rifle, and a new sniper 
rifle. It is the strong support of Congress that enables our Army to 
put this improved equipment in the hands of our soldiers.
    Support from Congress has also enabled our Army to institute a 
Rapid Equipping Force (REF) to work directly with operational 
commanders and find solutions to operational requirements. These 
solutions may be off-the-shelf or near-term developmental items that 
can be made available quickly. For example, the REF established a 
coordinated effort to supply our forces with immediate solutions to 
counter improvised explosive device (IED) threats. Currently, IED teams 
are on location providing expertise and materiel solutions to safeguard 
our soldiers. We are acting aggressively to improve the armor 
protection of our armored and light-skinned vehicles. Other examples of 
REF products are the Well-Cam and PackBots. The Well-Cam is a camera, 
attached to an ethernet cable and a laptop that enables soldiers in 
theater to search wells for weapons caches. PackBots are operational 
robots used to clear caves, building, and compounds so soldiers are not 
put in harm's way unnecessarily.
    RFI and REF provide timely support to our relevant and ready forces 
and to combatant commanders, and facilitate Army transformation.

                              THE SOLDIER

    The soldier remains the centerpiece of our combat systems and 
formations and is indispensable to the Joint Team. Adaptive, confident, 
and competent soldiers, infused with the Army's values and warrior 
culture, fight wars and win the peace. As a warrior, every soldiers 
must be prepared to engage the enemy in close combat; the modern 
battlefield has no safe areas. Our Army trains our soldiers to that 
standard, without regard to their specialty or unit. Our soldiers are 
bright, honest, dedicated, and totally committed to the mission. The 
soldier--fierce, disciplined, well-trained, well-led, and well-
equipped--ultimately represents and enables the capabilities our Army 
provides to the Joint Force and the Nation.

                               CONCLUSION

    Our Army's commitment to the future is certain. We will continue to 
provide our Nation, the President, the Secretary of Defense, and the 
combatant commanders a unique set of core competencies and 
capabilities. We remain dedicated to training and equipping our 
soldiers and growing leaders. We will continue to deliver relevant and 
ready land power to the combatant commanders and the Joint Force.
    Our soldiers continue to perform magnificently around the globe. 
Simultaneously executing the global war on terrorism, implementing our 
modularity and transformation initiatives, and setting the force will 
be a challenge. However, it is also an opportunity to reshape ourselves 
for the future that we cannot pass up.
    Your support of this budget and for our ongoing operations, 
specifically in Iraq and Afghanistan, is critical if our units are to 
continue their remarkable performance and to be ready for future 
contingencies.
    We appreciate your dedication to your military and to America's 
sons and daughters, who are serving selflessly throughout the world to 
make America safe and free. Thank you again for the opportunity to 
discuss our Army and I look forward to answering any questions you may 
have.

    Senator Sessions. Thank you, General Casey.
    Major General John M. Curran is Director of Futures Center, 
Headquarters, U.S. Army Training and Doctrine Command, and has 
spent some time in Alabama, for which we're grateful. We 
appreciate your leadership, and we're delighted to hear from 
you at this time.

STATEMENT OF MG JOHN M. CURRAN, USA, DIRECTOR, FUTURES CENTER, 
 HEADQUARTERS, U.S. ARMY TRAINING AND DOCTRINE COMMAND (TRADOC)

    General Curran. Thank you, Mr. Chairman, Senator Lieberman, 
Senator Dole. I'm pleased to be here to discuss how we are 
accelerating change in the Army and the impacts of our actions 
on current and future forces.
    As Director of the Futures Center at the TRADOC, I welcome 
the opportunity to testify before you and appreciate your 
interest in our endeavors.
    I respectfully request that my written statement also be 
made part of the record here today.
    Senator Sessions. We'll certainly do that.
    General Curran. Sir, the role of the organization I lead is 
to be the Army's architect of the future. Our soldiers, both 
today and in the future, depend on us to develop a more agile, 
mobile, lethal, and survivable force. We, in the Futures 
Center, are leading the effort to build a campaign-capable 
joint and expeditionary Army. The Army is accelerating changes 
to the current force to adapt to the existing and emerging 
operational environment. Simply stated, we are meeting the 
challenges of transforming an Army that is at war.
    As the architect of the future, TRADOC's Futures Center is 
the nexus of Army innovation, with a great degree of influence 
on how the Army thinks, acts, trains, and fights. While 
relatively new, the Futures Center is the lead action agent to 
develop the future force. We enable soldiers in the current 
fight by determining capability gaps and, whenever feasible, 
integrating discrete future-force capabilities that add 
significantly to the current force. Many picture these spirals 
as materiel solutions, but our efforts span the breadth of 
doctrine, organizations, training, materiel, leadership and 
education, personnel, and facilities.
    Now, we recognize that we cannot do this alone. Futures is, 
in fact, a team sport. Partnering with the Department of 
Defense (DOD), joint and interagency communities, other 
Services, industry, academia, our allies, and with our Army 
family, is critical to our success. Chief among our partners is 
U.S. Joint Forces Command, with whom we have built a rapport 
and trust that underpins really a great team, a joint team.
    To fully realize the contribution of Army capabilities to 
the joint fight, we now work through the Joint Capabilities 
Integration and Development System (JCIDS), to articulate Army 
capability requirements instead of just focusing on systems. 
The Army's future force will evolve to meet joint, rather that 
Service-defined, capabilities.
    Now, this represents a sharp break from the bottom-up, 
systems-focused approach we used during much of the Cold War. 
Army transformation is a continuous process. The goal is to 
spiral future force capabilities into the current force so that 
over time our Army continues to meet the requirements of the 
emerging joint operational environment.
    One of the most obvious dimensions of change will be in how 
we organize to fight. Lessons learned from current operations 
highlight areas for force-design improvement. Future force 
organizations will be organized differently than today's 
formations. We will continue on our Stryker brigade path and 
reorganize our non-Stryker force into a modular brigade-based 
Army that provides combatant commanders with better 
alternatives in the near term and bridges to the FCS's equipped 
force designs.
    As you probably know, the 3rd ID will roll out the first 
provisional heavy unit of action this month, as a standing 
combined-arms brigade. The division will take this redesign to 
the National Training Center this spring to mature the 
organizational design and refine its tactics, techniques, and 
procedures. Army National Guard brigades will also convert to 
this common modular design. Both current experience and 
emerging operational imperatives confirm our judgement that the 
FCS-equipped unit of action is the organizational template 
capable of meeting the regional combatant commanders' 
requirements of the future. By accelerating the transformation 
of the current force towards a force with many of the 
characteristics of the FCS-equipped future force, we will 
accelerate our transformation in areas such as doctrine, 
training, and leader development.
    FCS-equipped formations will be part of a joint team, a 
joint team that is decisive across the full spectrum of 
conflict in all types of operations, against all threat 
capabilities, and in all terrain and weather environments. 
These formations, enabled with improved situational 
understanding, will balance the need for strategic 
responsiveness and battle-space dominance, resulting in a 
campaign-capable joint and expeditionary force.
    The human dimension is, and will remain, the most critical 
dimension of war. The soldier is indispensable to the joint 
team, the most effective, flexible, and adaptive asset we have. 
When we enhance the soldiers' lethality, protection, and 
situational awareness, we enable individual initiative and 
competence to win battles, wars, and the peace. The Army's 
transformation supports our soldiers today and will provide our 
Nation with a more capable future force for an uncertain 
future.
    We are engaged in the biggest challenge an Army can face, 
transforming while at war. Our guideposts are clear: experiment 
extensively with our joint-Service counterparts, never be 
content with only materiel solutions, aggressively use spiral 
development to get elements of the future force into the hands 
of our soldiers on today's battlefields, and ensure our 
innovation results in ``born joint'' capabilities that 
contribute to successful mission accomplishment at any point on 
the globe across the spectrum of conflict.
    We will need the full support of Congress to underpin our 
success, and I thank you, on behalf of our soldiers, for the 
support we receive.
    Thank you very much.
    [The prepared statement of Major General Curran follows:]

              Prepared Statement by MG John M. Curran, USA

    Senator Sessions, Senator Lieberman, and distinguished members of 
the subcommittee, I am pleased to be here today to discuss how we are 
accelerating change in the Army and the impact of our actions on 
current and future forces. As Director, Futures Center, U.S. Army 
Training and Doctrine Command, I welcome the opportunity to testify 
before you. I appreciate your interest in our endeavors. My intent is 
to assure you that our efforts support our soldiers today and will 
provide the Nation with a more capable force for an uncertain future.
    Much has changed since this subcommittee met a year ago tomorrow to 
hear testimony from the Army's leadership. One year ago, we were on the 
brink of war with Iraq. The hearing centered on the challenges the Army 
faced for modernization, recapitalization and the lessons learned from 
the war in Afghanistan. Since the defeat of the Iraqi Army, the U.S. 
Army achieved Milestone B for the Future Combat Systems (FCS) program, 
fielded and deployed a Stryker Brigade Combat Team (SBCT), maintained a 
strong presence to fight the insurgency in Iraq, deployed almost every 
available combat formation, institutionalized transformation by 
establishing the Futures Center, and positioned the Army for continued 
transformation into a modular force.
    The role of the organization I lead is to be the Army's architect 
of the future. We take our business very seriously. Our soldiers, both 
today and in the future, depend on us to develop a more agile, mobile, 
lethal, and survivable force. We are leading the effort to build a 
campaign capable, joint, and expeditionary Army. The Army is 
accelerating changes to the current force to adapt to the existing and 
emerging operational environments. Simply stated, we must transform an 
Army that is at war.
    TRADOC is the primary point of entry into the Army's future force 
development. Among TRADOC's core competencies are the ability to 
prepare the Army for joint operations and serve as the architect of the 
future. We develop or capture innovative ideas and carry them through 
experimentation and fielding to expand the Army's capabilities. Chief 
among our partners is the U.S. Joint Forces Command (JFCOM), with whom 
we have built a rapport and trust that underpins a great team. The 
Army's future force will evolve to meet joint rather than Service 
defined capabilities.
    As the architect of the future, TRADOC's Futures Center is the 
Army's reconnaissance force. We are continually assessing the future, 
and this assessment is driven by real-time guidance and direction from 
policy documents like the National Security Strategy and the 
Transformation Planning Guidance. The Futures Center is the nexus of 
Army innovation with a great degree of influence on how the Army 
thinks, acts, trains and fights. While relatively new, the Futures 
Center is the lead action agent to develop the future force. We have 
subsumed the mission and roles of the Objective Force Task Force, and 
we are building on the foundation of their success. We are also 
enabling soldiers in the current fight by determining capabilities gaps 
and integrating discreet future force capabilities that add 
significantly to the current force. Too often, we picture these spirals 
as materiel solutions, but our efforts span the breadth of doctrine, 
organizations, training, materiel, leadership and education, personnel 
and facilities. This is a very challenging mission, but we are uniquely 
postured to do the job.
    At the same time, we fully recognize that we cannot do this alone--
``Futures'' is a team sport. Partnering with the Department of Defense, 
Joint and Interagency communities, other Services, industry, academia, 
our Allies and the Army family is critical to our success.
    To fully realize the contribution of Army capabilities to the joint 
fight, we now work through the Joint Capabilities Integration and 
Development System (JCIDS) to articulate Army capability requirements. 
JCIDS is the top-down process involving functionally-focused teams 
centered on developing required capabilities and effects rather than 
systems. The process involves regional and functional combatant 
commanders early on in the development process to ensure their 
requirements for combat and combat support forces are being realized. 
It represents a sharp break from the bottom-up, systems-focused 
approach used during much of the Cold War.
    TRADOC executes the JCIDS process by analyzing Army warfighting 
concepts derived from strategic guidance, the Joint Operations Concept 
and subordinate joint operating, functional and integrating concepts. 
These concepts describe how the future force will operate, the 
conditions and environment in which it must operate, its required 
capabilities in terms of missions and effects, and its defining 
physical and operational characteristics. We analyze these required 
capabilities to isolate the tasks, conditions and standards that the 
force must perform. We assess these tasks to determine gaps in 
capability that pose sufficient operational risk to constitute a 
capability need requiring a solution.
    We then perform an operationally based assessment of potential 
doctrine, organization, training, leadership and education, personnel, 
and facilities (non-materiel) or materiel approaches to solving or 
mitigating one or more of the capability needs we've identified. Non-
materiel changes, product improvements to existing materiel or 
facilities, joint or other Service's capabilities or adoption of 
interagency or international solutions that solve or mitigate the 
capability need are recommended to Army senior leadership. Only when 
these solutions do not solve the capability need will TRADOC recommend 
a new materiel start and continue the JCIDS process into the Defense 
Acquisition System.
    The Army as a Service and a joint partner is an integral 
participant on committees and boards that manage the JCIDS process. 
More importantly, we see these groups as critical entry points in the 
process where Army programs are validated as we attempt to spiral 
improvements into the current and future force. As we interact with the 
joint community and our sister Services, our focus is to bring issues, 
potential programs and concepts to the Joint Requirements Oversight 
Council (JROC) as soon as possible to determine how they provide new 
warfighting capability. The scope of analysis of shortfalls does not 
simply look at the materiel side of the equation--the hardware of 
weapon systems. This is ``old think,'' a past practice that no longer 
works within JCIDS.
    We look at all Services' doctrine, organization, training, 
materiel, leadership and education, personnel and facilities (DOTMLPF) 
alternatives for solutions. Further, the JCIDS process provides the 
analytical foundation that allows members to understand the realities 
for advancing a new program or deciding to change some other element of 
the DOTMLPF equation to address the shortfall. We are 
institutionalizing the new JCIDS process into Army thinking--it is no 
longer a bureaucratic hurdle, it is the way that partners engage in 
bringing value to the whole team.
    To accelerate change and rapidly integrate future force 
capabilities into the current force, TRADOC leads the Army's concept 
development and experimentation effort; focused on four areas:

        --  Developing coherently joint Army operational concepts and 
        capabilities,
        --  Testing prototype capabilities,
        --  Providing actionable recommendations to inform DOTMLPF 
        decisions, and
        --  Integrating a broad community of practice.

    Transformation has no endstate--it is a continual process. We will 
have intermediate objectives along the transformation path, but we will 
not reach a point where we declare that we have in fact fielded the 
future force. The goal is to continually strive to spiral mature 
capabilities into the current force so that over time our Army more 
closely resembles the vision of the future force. We aggressively use 
live, virtual and constructive experimentation. Out of these 
experiments, we derive actionable recommendations to reduce future 
force development risk. Aggressive prototyping and testing satisfies 
current and future force operational needs by deploying compelling 
technology today.
    The Army is currently exploring five prototype areas:

        --  SBCT--a focus on further SBCT and unit of action (UA) 
        development.
        --  Air Assault Expeditionary Force--a focus on networked 
        lethality at the small unit level.
        --  Unit of Employment--a focus on incrementally fielded unit 
        of employment (echelon above brigade) capabilities and 
        integration with emerging USJFCOM prototypes like the Standing 
        Joint Force Headquarters (SJFHQ).
        --  Modular Force Redesign--a focus on unit organizations to 
        increase agility and effectiveness.
        --  Squad Redesign--a focus on squad organizations to increase 
        lethality and maneuverability

    Institutionally, we have adapted our structures to build a broad 
community of practice with a series of fora that harness the widest 
range of intellectual capital. In 2003, for the first time the Army and 
JFCOM entered into a partnership and co-sponsored Unified Quest (UQ03), 
the Army's premiere transformational wargame. This joint wargame 
explored not only Army concepts, but joint and inter-Service concepts 
in a future force whose capabilities must be ``born joint''. This leap 
in transforming our military through application of spiral concept 
development also creates an environment where both JFCOM and TRADOC can 
examine several unique embedded experiments that are specific to each 
organization. Following in the footsteps of UQ03, this year's wargame, 
UQ04, will set a new precedent-breaking path by extending the exercise 
play from that of UQ03. Game organizations will examine scenarios that 
involve major combat operations, stability operations, transition to 
post-conflict and network-centric command structure in the year 2015.
    We are also engaged with our sister Services in their wargames like 
the Navy's Unified Course 04, the Air Force's Unified Engagement VII, 
and the Marine Corps' Joint Urban Warrior. We complement this work with 
insights gained from our Army battle labs, which span the range of 
capabilities from air and missile defense to special operations. Forces 
that participate in developmental and readiness exercises augment our 
judgments by providing field perspectives as they go through after 
action reviews once the exercises are complete.
    Going beyond wargaming, the Army and other Services are beginning 
to enhance joint interdependence through enhanced joint training 
exercises. JFCOM's Joint National Training Capability (JNTC) exercise 
trains America's Joint Force. The JNTC links Service training 
facilities and ranges into a real-time, joint training environment 
around the world effectively bridging communications to apply the full 
range of multi-level joint capabilities into joint exercises. These 
exercises bring to bear the mutual supporting relationships of the 
Services and allow exploration of the seams and gaps existing today in 
operational settings.
    This wealth of knowledge gained through all of the examples I've 
discussed has challenged us to make adjustments to ensure we capitalize 
on what we learn. We have quarterly executive level reviews to examine 
progress to date and make adjustments to the way ahead. We have monthly 
meetings at the joint level on broad concept development and 
experimentation issues which guide joint work at all levels. There is a 
constant exchange of information in face-to-face meetings at all levels 
that is robustly augmented by a high level of online collaboration. 
This continuous process of collaboration and interaction forms the 
architecture for transformation efforts.
    We work hard at analyzing the gaps between future capabilities 
called for by the Joint Operations Concept and efforts underway in our 
prototyping and concept development programs today. We incorporate an 
Intelligence Community evaluation of potential future enemies and 
future challenges. We constantly review operational lessons learned 
like the Army's and JFCOM's Operation Iraqi Freedom ``Quick Looks,'' 
individual unit lessons learned, and combatant commander assessments. 
We support this work by a robust analytical process that assimilates 
innovative practices--including best commercial practices, 
collaborative environments, modeling, simulation, and electronic 
business solutions.
    We couple the analysis with Army-wide judgments to create a 
holistic snapshot of where we need change.
    Our snapshot of capabilities gaps for the current force is exactly 
what it implies--today's best judgment of shortfalls to guide our 
prototyping, experimentation, and concept development. The snapshot 
will change as our enemy adapts his operational methods to engage us in 
asymmetric ways and we gain experience in how to continue to achieve 
our mission in spite of those new tactics. We are looking at numerous 
areas including providing:

        <bullet> Improved soldier protection in counterinsurgency 
        environments
        <bullet> Prototype network-enabled battle command
        <bullet> Responsive, networked, precision fires
        <bullet> Protecting the force in noncontiguous battlespace 
        operations
        <bullet> Improved nonlethal capabilities
        <bullet> Improved Joint Urban Operations
        <bullet> Expanded human intelligence (HUMINT) capabilities
        <bullet> Increased ability and speed of analysis and 
        information dissemination
        <bullet> Increased ability to sustain a high operational tempo
        <bullet> Improved Special Operation Forces and conventional 
        forces integration
        <bullet> Improve joint intra- and inter-theater lift

    These examples of capabilities gaps inform both our concept 
development and prototyping efforts, which are simultaneous, parallel, 
and supporting. The plans we develop must be completely nested in what 
JFCOM is doing. This comprehensive task capitalizes on the broad Army 
community of practice from our battle labs, operational units, research 
labs, and materiel developers. The end product will resemble what those 
who coined the term ``Joint Interdependence'' envisioned--an 
understanding of the differing strengths and limitations of each 
Service's capabilities, clear agreement about how those capabilities 
will be committed in a given operational setting, and absolute trust 
that, once committed, they will be employed as agreed. The outcome is a 
Joint Force significantly stronger than the sum of its individual 
parts, one that will always be successful in fighting the Nation's wars 
when called upon.
    At the heart of the Army's vision of the future force are new 
operational concepts. These concepts are inherently joint, but will 
nonetheless have tremendous impact on every dimension of our Army. One 
of the most obvious dimensions of change will be in how we organize to 
fight. At the same time, our current operations illustrate many 
opportunities for force design improvements. Reorganizing our force now 
provides combatant commanders with better alternatives in the near 
term. Further, we believe that accelerating several changes envisioned 
for the future force into the current force, centered on modularized 
brigade combat teams, is the way ahead to maintain the high benchmark 
of success demanded of us, both in the near term and in the future.
    What led us to conclude that brigade, division, and corps 
structures, so successful for so many combat operations, must change? 
We've learned in the harsh combat conditions of Afghanistan and Iraq 
that change is both essential and possible for us to improve as a 
robust member of the U.S. joint warfighting team. There are now 
opportunities for a new level of joint interdependence that can weave 
major land, sea and air operations into a coherent joint fabric and 
push ``jointness'' down to the lowest possible tactical levels. To 
engage enemies that employ varying operational techniques, the regional 
combatant commanders require ground forces that are scalable, available 
early in a campaign and complementary to other joint capabilities. The 
elements of time, geography, and the disposition of our adversaries 
require operations that are nonlinear, noncontiguous and less 
hierarchical. We must employ improvements in weapons and techniques 
across all warfighting dimensions to make engagements more precise and 
lethal. These challenges, however, require more than just materiel 
solutions--we need new formations.
    The Army is deploying evolutionary organizations on the 
battlefields I've just described. We have a Stryker Combat Brigade Team 
deployed in Iraq providing daily insights into adjustments we can make 
in our future force redesign efforts. The 3rd Infantry Division (ID) 
will roll out the first provisional heavy UA this month as a standing 
combined arms brigade. The division will take this redesign to the 
National Training Center this spring to mature the organizational 
design and refine its tactics, techniques, and procedures. The 3rd ID 
will create three more heavy UAs by July 2004. The Army will begin 
building the first two Infantry UAs in the fall beginning with the 10th 
Mountain Division and the 101st Airborne Division. All active component 
divisions will tentatively complete conversion by fiscal year 2007. 
Army National Guard (ARNG) brigades will also convert to these common 
modular designs; the ARNG and Army staff are working on the sequence to 
do this as quickly as possible. This will enable the Army to rapidly 
tailor forces to meet the combatant commanders' requirements, and 
employ flexible, smaller formations distributed across an extended 
battlespace.
    Both our current experience and emerging operational imperatives 
confirm our judgment that the FCS-equipped UA is the organizational 
template capable of meeting the regional combatant commander's 
requirements of the future. By accelerating the transformation of the 
current force toward a force with many of the characteristics of the 
FCS-equipped future force, we will accelerate our transformation in 
areas such as doctrine, training, and leader development. Such a force 
will be agile, lethal, networked, precise, rapidly deployable, modular 
and born joint. The modular Army we are building today is the bridge to 
the FCS-equipped unit of action.
    FCSs are comprised of a family of advanced, networked air- and 
ground-based maneuver, maneuver support, and sustainment systems that 
will include manned and unmanned platforms. FCSs are networked via a 
command, control, communications, computers, intelligence, surveillance 
and reconnaissance (C\4\ISR) architecture, including networked 
communications, network operations, sensors, battle command systems, 
training and both manned and unmanned reconnaissance and surveillance 
capabilities that will enable improved situational understanding and 
operations at a level of synchronization heretofore unachievable.
    FCSs will operate as a system of systems that will network existing 
systems, systems already under development, and new systems to be 
developed to meet the needs of the FCS-equipped UA. The network will 
enable improved intelligence, surveillance, and reconnaissance (ISR), 
enhanced analytical tools, joint exchange of blue and red force 
tracking down to the tactical level, battle command, real time sensor-
shooter linkages, and increased synergy between echelons and within 
small units. It will also enable the UA to connect to unit of 
employment, joint capabilities, and national assets making these 
capabilities available to the small units of the UA. FCSs will enable 
the networked maneuver UA to develop the situation in and out of 
contact, set conditions, maneuver to positions of advantage, and to 
close with and destroy the enemy through standoff attack and combat 
assault as articulated in the UA operational and organizational plan.
    The FCS-equipped maneuver UA is not just a unique Brigade Combat 
Team, built around a family of systems, but a new concept for fighting 
those systems. This formation will be part of a joint team that is 
decisive across the spectrum of conflict, in all types of operations, 
against the complexity of threat capabilities, in a variety of terrain 
and weather environments. The UA balances the capabilities for 
strategic responsiveness and battlespace dominance, resulting in an 
expeditionary force with campaign qualities. It can perform tactical 
and operational maneuver by land, air, and sea. The UA can be tailored 
with additional capabilities for specific missions during a campaign. 
It employs its revolutionary C\4\ISR architecture to expand or contract 
its span of control and integrate unit of employment (the next higher 
Army echelon) or Joint Task Force supporting capabilities to accomplish 
missions. Its significantly improved ability to collect and process 
information using organic and external joint and Army supporting 
sensors and sources ensure that commanders will possess the timely, 
accurate intelligence necessary to achieve decision superiority. The UA 
improves the ability of soldiers and leaders to achieve lethality and 
survivability overmatch. Like our current forces, the foundational 
centerpiece of the formation remains soldiers and leaders, enabled by 
technology, within mounted and dismounted small unit fighting teams.
    As the Army's ``Architect of the Future,'' the Futures Center will 
continue to provide a warfighter perspective to the integration of 
DOTMLPF actions to enable the Army to achieve FCS-equipped future force 
capabilities by the end of this decade. We collaborate with the FCS 
Program Manager (PM) and the Lead Systems Integrator (LSI) to ensure 
simultaneous and parallel future force, UA, and FCS developments are 
properly synchronized and integrated to meet the user's requirements.
    The FCS program requires a continuous and consistent refinement of 
requirements. The JROC approved the FCS Operational Requirements 
Document in April 2003. At that time, the JROC approved seven Key 
Performance Parameters (KPPs), which were then included in the 
Acquisition Program Baseline: Joint Interoperability (which we will 
convert to the new Net Ready KPP standards), Networked Battle Command, 
Networked Lethality, Transportability, Sustainability/Reliability, 
Training, and Survivability. We are currently completing our analysis 
of these KPPs to add and refine metrics; the refined KPPs will go back 
to the JROC by September 2004 to support a Milestone B review with the 
Office of the Secretary of Defense (OSD) in November this year.
    Since entry into System Development and Demonstration (SDD) phase, 
TRADOC has worked collaboratively in a ``One Team'' structure with PM 
FCS and the LSI to develop and refine the program threshold and 
objective system of systems specifications, which represent the 
requirements baseline for the program. We are currently working with 
our partners to complete design trade studies, which will support 
selected design decisions this spring.
    This effort demands an unprecedented level of sustained TRADOC 
involvement by its best experts at the Futures Center and the Army's 
institutional schoolhouses. TRADOC is committed to providing user 
support to the program that is characterized by innovation, forwarding 
thinking, collaboration, cooperation, and team play. This support is 
distributed across the command, but integrated using the Unit of Action 
Maneuver Battle Lab (UAMBL), the TRADOC System Manager (TSM) for FCS, 
and the Futures Center. We are also assigning TRADOC user personnel to 
collocate with PM FCS and some LSI and subcontractor facilities 
involved in FCS developments to ensure rapid user feedback on design 
issues as they arise during SDD. TRADOC is also committed to supporting 
the One Team in the day-to-day management of SDD. TRADOC has designated 
subject matter experts from throughout the command to serve on each of 
fourteen Integrated Product Teams (IPT). TRADOC also provides colonels 
and general officers to serve on program change control boards, giving 
us real time visibility and participation in resolving issues affecting 
cost, schedule, and performance. The Futures Center and UAMBL are 
partners with the PM and LSI in major program reviews; we also support 
the OSD IPTs which prepare the Army for OSD-level reviews. We fully 
support our program partners in focusing FCS development at the system 
of systems level, with front-end prioritization of architectures, 
engineering, and integration. We believe this revolutionary acquisition 
process is key to achieving future force capabilities.
    TRADOC has networked its battle labs to conduct extensive 
experimentation during the SDD phase to provide real time user feedback 
to the FCS program as the family of systems are designed and developed. 
The Futures Center is strengthening its collaboration with Joint Forces 
Command to ensure joint integration. It is also strengthening TRADOC's 
links to the Marine Corps Combat Developments Center to ensure that 
Army and Marine Corps FCS common requirements are synchronized when the 
FCS program transitions to become a Joint Program Office.
    While experimentation, analysis, studies, and technology inform us 
about what the future force will use to fight the next war effectively, 
it is the individual soldier who is the centerpiece of our focus. War 
is a test of wills; the human dimension is its most crucial dimension. 
The soldier is indispensable to the joint team--the most effective, 
flexible, and adaptive asset we have. Our philosophy of equipping the 
soldier instead of manning the equipment is enduring. When we enhance 
the soldier's lethality, protection and situational awareness, we 
enable individual initiative and competence at the point in which 
battles, wars, and the peace are won.
    In summary, we're taking on the biggest challenge an Army can face: 
transforming while at war. We must rapidly adapt to a future we did not 
perfectly anticipate and we must do this with forces deployed globally. 
Our guideposts are clear--experiment widely with our joint and Service 
counterparts, never be content with only materiel solutions, 
aggressively use spiral development to get elements of the future force 
into the hands of the soldier on today's battlefields and ensure our 
innovation results in ``born joint'' capabilities that contribute to 
successful mission accomplishment at any point on the globe across the 
spectrum of conflict. The window of opportunity to do this is finite; 
we must not tire in our efforts. We will need the full support of 
Congress to underpin our success. The Army's transformation supports 
our soldiers today and will provide our Nation with a more capable 
future force for an uncertain future.
    Thank you.

    Senator Sessions. Thank you very much. Those were good 
statements. We appreciate them very much.
    Secretary Bolton, on the basic question of what you need, 
you've indicated, in your statement--which I appreciate very 
much, it is a thorough analysis of where we are and where we 
need to go. You might summarize for us what are some of the 
items that will be in this new force, like the unmanned aerial 
vehicles (UAVs) and things of that nature. How are we coming 
along with those? Are we falling behind as a result of a 
shortfall in resources? What would it take to keep us on track?
    Mr. Bolton. Let me answer the last question first. We're 
not falling behind. We went through a major milestone review 
last May, the 14th of May, right on time.
    Let me just give you an idea how important that is. The 
process or the system--and I'll describe that here shortly--is 
the most complex undertaking, in terms of the program, the DOD 
has ever done. This rivals what we did in the 1960s as a 
country for the space program. It rivals what we did in the 
1940s with the Manhattan Project.
    We have a system of systems called the FCS. This system of 
systems has in it unmanned vehicles, so it can relieve the 
pressure on the soldier by offloading things that we would 
normally put on his back, and put that onto a mobile robot. 
That robot can also have arms on it, so we can fire mortars and 
so forth. It will have a cannon, non-line-of-sight (NLOS) 
cannon. It will have airborne assets, unmanned. It will have, 
most importantly, something that we are just now seeing in the 
Stryker brigades that we saw with the 3rd ID; we called it Blue 
Force Tracking, the ability to network all of these sensors, 
all of these vehicles together, so that the soldier, for the 
first time, has the ability to know where the enemy is, to see 
what that enemy is doing, to act against that enemy, and to 
defeat that enemy.
    Why is this necessary? The combatant commanders, formerly 
the commanders in chief, have a basic requirement of the land 
force, the Army, and that's to be able to move a brigade-worth 
of combat capability anywhere in the world in 96 hours; a 
division, anywhere in the world in 120 hours; and then half, or 
five of our active divisions, in 30 days.
    Now, I've told folks, we don't have to do this FCS; we can 
meet those requirements of the combatant commanders today. But 
here's some provisos. First, you need to tell me where we're 
going to be fighting 5 years from today. Two----
    Senator Sessions. We'll have to ask Senator Lieberman 
precisely where that will be. I'm not capable. [Laughter.]
    Senator Lieberman. Can you give me a few moments? 
[Laughter.]
    Mr. Bolton. Second, I need to preposition. Third, I need 
all of the airlift and all of the sealift. Then I might be able 
to hit those prerequisites of the combatant commanders. The 
truth is, that's not going to happen. So we're going to have to 
get lighter, which is what the FCS is. Any vehicle is sized to 
fit inside a C-130 box. That doesn't mean we're going to 
transport it in C-130s all the time, but it does force us, in 
the design phase, to make capability that is smaller, lighter, 
so we can transport it faster to meet the combatant commanders' 
requirements. If you're lighter, you don't have all the armor.
    Now, my armor colleagues cringe a little bit when I tell 
them, ``We're going to put you in 20-ton, not 70-ton, 
vehicles.'' Not a lot of armor there. They're used to that. I 
have to prove to them, over the next 5\1/2\ years, you're 
survivable, as well as capable, on the battlefield. How do you 
do that? I'm going to tell you where the enemy is, and you're 
going to be able to act and put a rock, an armament, on his 
head before he can react to you. We see that today in the 
Stryker brigade. We see that as the 3rd ID went across the 
berm, and they could see where they were, the blue force, and, 
as our intelligence improved, where the bad guys were. So we 
have 18 of these systems in this FCS--unmanned vehicles, 
airborne- and ground-based, armored vehicles, infantry 
carriers, reconnaissance vehicles--18 different systems, plus 
this network wrapped around the soldier.
    Now, in this phase--and we started this system design 
development phase on May 14 last year--we will spend just under 
$15 billion to do all of this. We are on track today. We will 
have a preliminary design review about this time next year. We 
have demonstrated the basics of the network, which is the heart 
and soul of this. If I don't have this, I will not be able to 
survive on the battlefield. We've demonstrated the NLOS cannon. 
Here, last year--and there were some doubters--can you take a 
large gun, a 155 Howitzer, and shoot it from a platform that's 
only 20 tons? There were a lot of folks that said, ``You can't 
do that.'' But we already demonstrated that. We delivered that 
vehicle, the demonstrator, to Yuma in August 2003. We shot 240 
rounds-plus out of it. We have moved the vehicle, and it has a 
band track on it right now. But it may be tracked, it may be 
wheeled; we'll figure that out over the next 18 months--75-
kilometers. Firing rate, we had a goal of six rounds per 
minute. We're just over that now. As a demonstration, it works 
fine. Now we need to go on to the next phase for the NLOS 
cannon, and there's a lot of work to do there. I know there 
will be questions on that. But we're on track to make that 
happen. The senior leadership of the Army--that includes the 
Secretary, the Chief, myself, and the Vice--have all said that 
has our top priority, because that is the future.
    To give you another idea, in closing, some folks assume 
that this is a vehicle. It's a wheeled vehicle, it's a track 
vehicle, it's an aircraft, it's a gun, it's all of that. While 
we won't change the Army overnight, that is not going to happen 
in 2010, when we have our initial operational capability, or in 
2012, when we have the full operational capability, which is 
basically a brigade size; it will happen maybe 10 to 15 years 
from now as we slowly replace the entire Army with the FCS. We 
are talking about changing an entire Army.
    As General Curran aptly put it earlier, this is not just 
materiel solution. We are changing what we do in doctrine, we 
are changing how we organize, we are changing how we train 
people--how we lead them, and, of course, we are changing 
materiel to allow the soldier the ability to see where the 
enemy is, to act on that enemy, and to defeat the enemy before 
the enemy ever realizes it.
    I hope that sums it up.
    Senator Sessions. Well, that's well said, and I just wanted 
to say that what I like about what you're doing. The attitude I 
sense in the Army is that we can do better, and we're going to 
do better; but the fact is, we've demonstrated, in every 
conflict in recent years, that our capabilities--command and 
control, training, motivation--exceed that of any military in 
the world, and we can be proud of that.
    Senator Clinton, we're glad that you've joined us, and 
we'll call on you in a minute. We'll go next to Senator 
Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Thanks to the 
three of you for your excellent testimony.
    Let me begin with some questions about the restructuring 
and the addition of the brigades. I understand the Army 
restructure is to create a modular brigade-based Army that is 
more responsive to combatant commanders' needs. I want to ask 
you--and maybe we can start, General Casey and General Curran, 
however you want to do it--How will this change the operational 
capability the Army provides to the combatant commanders, 
number one? What's the impact of this transformation to 
modularity on future requirements?
    General Casey. Why don't I start this off, and then I'll 
pass it over to Mark, there, Senator.
    The impact this will have on the forces and how we provide 
forces to combatant commanders, as we mentioned, we are focused 
on transforming ourself into a joint and expeditionary Army 
that still maintains its campaign capabilities. By that, we're 
not trying to be like the Marine Corps. We're joint, and we're 
expeditionary. We want to be able to get there quickly. But 
then when we get there, we, the Army, bring to the combatant 
commander the ability to conduct sustained land operations, 
battle after battle after battle, to help him accomplish his 
objectives.
    These modular organizations will, one, allow us to tailor 
force packages more rapidly. For example, we believe that these 
now divisional headquarters that we have with three brigades--
when we deploy one brigade, we have to break up the division. 
So we have the brigade doing a mission, but now the rest of the 
division is not as capable. General Schoomaker likes to talk 
about it as his window-washer. The windowwasher on the 
skyscraper has a squeegee that's about this long, and he does a 
very nice job on this. But then when he gets the job to do 
window panes, his squeegee doesn't quite fit in the panes, so 
he's got to either break his squeegee or take a rag out of his 
pocket; so they have to improvise. These modular brigades are 
how we fight. They will be organized so that they have all of 
the capabilities they need to be self-sufficient so they can 
operate for combatant commander independently and plug right 
into a joint task force, or they can work as part of one of our 
divisions that is also supporting a combatant commander. We 
think it will give the combatant commander much more agile 
forces and much more versatile forces.
    I'll pass it over to Mark to see if he wants to add 
anything.
    General Curran. Thank you, sir.
    When you dive down into the modular brigade design, you 
find some additional capabilities that you wouldn't find in our 
BCTs today. First of all, these organizations are designed 
combined-arms, organic. The artillery, the armor, and the 
infantry are all combined as part of the brigade, and they are 
organic to the brigade. With our stabilization efforts and our 
growth patterns we have for our new brigades, these members of 
this new modular brigade will stay together longer, so team 
cohesion will be a significant advantage.
    Third, these brigades have a much more robust staff. Now, 
what does that do for the combatant commander? Well, it 
provides a combatant commander with a combined-arms formation 
that can operate independently longer because it has the staff 
capabilities to do it. It doesn't have to rely as often on a 
higher echelon or higher command for the staffing functions. It 
also will have the ability to reach back to sanctuary or to 
home station, or to a home-station operation center to be able 
to use the staff that is there that doesn't have to be deployed 
into theater to provide it with the reach-back capabilities or 
staffing functions.
    Probably the most significant is the improvements in 
reconnaissance-surveillance that is nested within the brigade. 
Within these brigades, there is a reconnaissance-surveillance 
squadron or battalion ground reconnaissance, military census, 
collections capability, tactical UAVs, small UAVs, that provide 
much better situational awareness to this brigade. It provides 
its own organic--if you compared it to a brigade combat team 
today, you would find that they only have a company or a 
platoon's worth of scouts or reconnaissance. So we really 
beefed up the reconnaissance, but we haven't increased the 
number of killing systems within the brigades to any large 
extent. The lethality of these brigades is actually going to be 
increased because of the ability to find and fix the enemy with 
this increased reconnaissance capability, plus the ability to 
leverage joint fires--much more capable at leveraging joint 
fires because of the more liaison that is built within the 
staff with the Air Force to provide lethal fires. Finally, 
there's more infantry in it than you will find in the heavy 
infantry brigade.
    Here we've created a modular brigade that is going to be 
more capable for the combatant commander and doesn't require as 
many plugs or as much support from a higher echelon as you 
would find in our brigades today.
    Now, how does that relate to the future?
    Senator Lieberman. The size will be the normal size of a 
brigade?
    General Curran. Sir, the size of the modular brigades runs 
around 3,700 for the heavy brigade; about 3,000 for the 
infantry brigade or light brigade. That is compared to today's 
BCTs, depending upon how they're task-organized, what kind of 
plugs they get from other areas, and could be as high as 4,000 
or perhaps a little bit higher.
    As we look to the future now, and to the FCS-equipped unit 
of action brigade, it's sized at about 2,900 or a little less, 
but it's equipped with a FCS that Secretary Bolton spoke about.
    Senator Lieberman. So it's smaller because it's better 
equipped and it's more productive, in a sense.
    General Curran. Sir, it is more networked. It has greater 
information capabilities to be able to provide situational 
understanding to that force than what you would have today. 
Now, we are in the modular design, applying as much as network 
capability as we can, given just existing capabilities. But 
when you move to the future, it's going to be even greater. But 
the real issue about modularity today, these brigades we are 
creating, is that they act as a bridge to the future design and 
construct. They are more like the FCS-equipped unit of action 
than what you would find in today's brigades. As we move to the 
end of the decade and we start to bring on the FCS-equipped 
unit of action into the next decade, we will have organizations 
that are already designed more similar to the organizations 
that they will be fighting in the FCS. This will pay us big 
dividends in doctrine, organization, and leader development. We 
will have soldiers who have already been operating in brigade 
organizations that are similar to what they will go to in the 
FCS. They will have already started to work with network-
enabled capabilities and a greater reconnaissance capability, 
with UAVs leveraging joint fires, joint information, 
surveillance, and reconnaissance.
    Senator Lieberman. Thanks, General.
    Let me ask one more question--I don't want to take too much 
time--and give Mr. Secretary or General Casey an opportunity to 
respond to my broader concern about the resource constraints 
and how we help you meet both the demands of the current 
situation for the current force, and not do so in a way that 
compromises the future force. Just as in recent years I've been 
concerned that we may have been taking risks in the short term 
to make bigger investments in the longer term. Now I'm worried 
that--again, because we were at war--we're investing in a kind 
of modernization or fixing of the current force. It's going to 
cost us so much that we're not going to be able to invest in 
the transformation, that I think we all support, to the future 
force.
    Mr. Bolton. Let me give you a general answer to that to 
illustrate how we're doing this already and have been doing it 
for at least 18 months. When our new chief came aboard, he 
asked that we take a look at technologies ready today. He did 
not want to wait for the FCS. He fully supports that and will 
start working with that in 2010. But if there's technology 
today, put it in the force today.
    Starting in Afghanistan, I sent a colonel to Afghanistan, 
one of my folks, a Ph.D. from the Massachusetts Institute of 
Technology, and said, ``Your job is to be with the soldier. You 
know the technology we have that is ready today. Find out what 
they need today.''
    One of the first things we did over there is put robots in 
caves. We wanted to see whether or not there were weapons down 
in those wells, and we found some. Some of the Afghani citizens 
were not happy when we came in to search houses. The doors were 
locked; we blew the locks off, we searched the house, and now 
the lock is broken. They're not wealthy people, and so how do 
you replace the lock? In a short period of time, we found ways 
of opening those locks without breaking them, doing the search. 
Coming out with that particular activity has resulted in 
getting, in as little as 72 hours to as long as 90 days, 
current technology in the hands of the combatants today.
    Along with that, I turned to the chief, and I said, ``We 
need to build for you the spiral.'' You're talking about you 
want to spiral current technology into the future force, but 
the 90 days out to a year, and so we're starting to do that.
    We have a person who works for me, a one-star; his job is 
to take a look at the soldier and find out what the soldier 
needs. I mentioned some of this in my opening statement. We 
call it the Rapid Fielding Initiative (RFI). Each soldier now 
is getting the elbow pads, the knee pads, better night-vision 
goggles, translators, and a few other things--a new helmet, so 
that when you drop down to shoot the rifle, you can actually 
see what you're doing. Others say, ``Well, gee, why haven't we 
done this before?'' He has about 300 different projects that we 
put under him that were managed--my words now--on an ad-hoc, 
unfocused fashion. Now they are focused.
    But that, back to your point, is changing our current force 
to the future force. We watch it very closely. We manage the 
money that goes into that very closely. Last year, we outfitted 
27,000 soldiers. This year, it's 120,000, and we'll keep that 
going until we outfit everyone. It is a constant balance 
between what do I need for the future, what do I need for 
today, and the resources available. That is why, since I've 
been in this position, now going into the third year, we have 
terminated some 30 programs. We've done that well, based upon 
the feedback I've gotten from Congress, industry, and the Army. 
That's to put funds where we need it for the current force, as 
well as the future force.
    Senator Lieberman. Thank you.
    General, did you want to add?
    General Casey. To get to your broader question, Senator.
    Senator Lieberman. Go ahead.
    General Casey. You're exactly right. I mentioned in my 
opening statement that we're constantly balancing the current 
and the future. Clearly, the pendulum has swung, as you 
indicated, from the future more back toward the current. 
However, we are going into this up front with an assumption in 
our mind that we must maintain program stability for the FCS 
because that is our future. So that is one of our base planning 
assumptions. Right now, in this budget, we are sticking with 
that and we intend to stick with it because, as you pointed 
out, it is our future. If we give up on that, we might have a 
more modernized current force, but it's not the force we're 
going to need in the future.
    Senator Lieberman. Thank you very much. Again, we look 
forward to working with you. We have seen extraordinary 
demonstrations of American power used in protection of our 
freedom and in pursuit of our national values over the last 
dozen years. Sometimes some people in the world resent us for 
our strength, but ultimately people depend on us, and it's all 
that you do. So we thank you for it, and look forward to 
helping you continue to do it in a way that is really 
unprecedented in human history, and bless you for that.
    Thank you.
    General Casey. Thank you, sir.
    Senator Sessions. Senator Dole.
    Senator Dole. Thank you, Mr. Chairman.
    Gentlemen, the Army National Guard and Army Reserve are now 
recognized as essential elements contributing to the Army's 
success. In support of the Army's transformation, General Blum 
has highlighted the National Guard's plan to transform in step 
with the active component. However, the 5th Battalion, 113th 
Field Artillery, of the North Carolina National Guard is among 
22 other artillery battalions that will not be upgraded with 
the high-mobility artillery rocket system until after 2012. 
General Casey, to what extent does the Future Years Defense 
Program (FYDP) support a simultaneous transformation of the 
National Guard and active component?
    If I could mention one other question, as well, for you to 
respond to: Will National Guard units and the active component 
field the FCS concurrently? If not, will there be a lack of 
modularity between the Active and Reserve Forces until all 
components have transformed?
    General Casey. Thank you, Senator.
    As we look at the Guard and Reserve, and what both Steve 
Blum and Ron Helmley have done, they've developed very 
aggressive plans to transform both the Guard and Reserve. One 
of the overriding considerations is that we will work toward 
modular formations in both the Guard and the Reserve so that we 
will be able to plug-and-play Guard under active, active under 
Guard. You're going to see some of that in Operation Iraqi 
Freedom (OIF) when we have the National Guard divisions that 
will have active-component brigades underneath it.
    We are, right now, working with the Guard and the Reserve 
on the equipping of these forces, and we are doing that as part 
of the program we're building for 2006 to 2011. We're not 
finished on that.
    I will tell you that we won't be able to give everybody all 
of the best equipment. That is just a given. There's just not 
enough new equipment to go around, and we can't afford it all. 
But I think you know there are--our 6th Stryker brigade is 
going into the National Guard in Pennsylvania. To the best of 
my knowledge--and you can help me with this--we have not made 
decisions on the FCSs, and when and which unit, Guard units, 
that will go into.
    General Curran. Sir, that's correct. We haven't made 
decisions on the active units yet.
    General Casey. We're just not that far along. But one of 
our basic premises is modular formations--active, Guard, 
Reserve--the same.
    Senator Dole. The Army's transformation plan incorporates a 
significant restructuring and rebalancing of the force. This 
appears to be a complex multidimensional realignment of forces 
and capabilities between the Service components, military 
occupational specialities, and the civilian workforce. Has the 
Army finalized a plan for rebalancing capabilities between the 
active and Reserve? I think you've just addressed parts of 
this.
    Does the FYDP provide the resources to equip, train, and 
organize the Reserve component forces affected by the 
rebalancing plan? When can we expect to see the details of the 
Reserve components restructuring plan?
    General Casey. We're probably 90 days or so away from 
having the final details of that, but we will complete that as 
part of our work on this program. It needs to be locked by 
about the July time frame, so, as I said, about 90 days. We 
will come up and lay out for everyone the impact on the Guard 
units and Reserve units in each of the States.
    Senator Dole. The Heritage Foundation recently published a 
study by Dr. Carafano that stated, ``breaking the division down 
into smaller independent commands will likely require more 
support troops than are in the current division design.'' 
General Casey, could you give us your assessment of how the 
modular design, based on units of action, will affect the 
overall support structure within the Army? How will the 
transformation of the support structure alleviate some of the 
logistics shortfalls experienced in OIF?
    General Casey. Okay, I'll take that, and I'll pass it off 
to Mark here for a second. Clearly, we had some economies of 
scale when we kept what we called the enabling forces--the 
logistics, the signal, the artillery, the engineers--at 
division level. Under modularity, those are all pushed down 
into the brigades. Keeping at the division level allowed the 
division commander to what we call ``weight,'' to give 
additional resources to his main effort, for example. So at the 
brigade level, we will probably see small increases in the 
numbers of support forces that are required to fill up those 
brigades; however, we believe, when we look at our logistical 
system, that we think we can get it down to the three-echelon 
logistics system, rather than a four- or five-level system that 
we have now. The brigade will be the tactical level. They will 
be self-sufficient, as I mentioned earlier.
    The next level will be at probably what we call the corps 
level that will link into the theater level and into the 
tactical level with the brigades. We think that theater level 
has got to be a joint theater level because you don't see a 
requirement for an Army theater of war anymore. It will be a 
joint theater of war. We think there are going to be some 
efficiencies in our logistical formations once we're able to 
work with the other Services and come to an agreement on what 
this joint logistical footprint looks like in the theater.
    Senator Dole. Thank you very much, Mr. Chairman. Thank you, 
gentlemen, for the tremendous job you're doing carrying on 
these many functions simultaneously.
    General Casey. Did you have something you wanted to add?
    General Curran. I was just going to add, because General 
Casey hit really the high points, that we have a task-force-
focused logistics. It's one of our Army task forces that the 
chief has initiated, and they are delving into the improvements 
we can make from the lessons learned from OIF, from what we're 
doing in modularity to improve our logistics focus leading to 
higher-echelon, joint-logistics capabilities. That's what we 
would like to see. Additionally, one of the things we learned 
from OIF is that in order to provide the logistics at the speed 
at which you have, you have to enable the logisticians with 
information systems that permits them to do their job. We are 
working that very hard, too, to bring that capability as a part 
of this modular effort.
    Senator Dole. Thanks very much.
    Senator Sessions. Senator Clinton. If you would like to 
make an opening statement, please do.
    Senator Clinton. No, that's fine, Mr. Chairman, thank you. 
I don't have enough voice to make both an opening statement and 
ask questions.
    I wanted to pick up where Senator Dole was leading because 
she has articulated very well some of the questions that I 
have. Maybe we could put it into more of a practical example, 
which might help me understand the modular concept as you're 
describing it because I'm very intrigued by it. It sounds as 
though not only have you given a lot of thought to it, but 
certainly, as you describe it, with full organic and 
independent capability, and with this ability to be networked 
and really be part of the joint theater. I mean, obviously, 
that makes an enormous amount of sense.
    Let's, for the sake of discussion, assume that one of these 
new modular brigades, say, a heavy brigade, is in a conflict 
similar to OIF, and they've crossed the border of an enemy 
country, and they're moving on whatever the target is. Now, 
that modular brigade, which is self-contained, as you have 
described it, General, how would that, as you envision it, deal 
with both the supply chain and logistical problems that you 
have discussed? I appreciated, when General Schoomaker 
testified before us, his assessment, which went along with some 
of the after-action reviews, that there were some real 
logistical glitches. You're now about the business of trying to 
figure those out. On the one hand, how does this modular 
brigade perform differently or more effectively in conjunction 
with whomever on the supply/logistical end?
    Then suppose this new modular brigade gets to a target 
objective and holds ground where all of a sudden you need 
military police (MPs) and civil affairs until something else 
occurs. Just kind of give me a more practical, down-to-earth 
explanation as to how we can be modular, smaller, more 
productive, and deal with these continuing challenges we have.
    Either General Curran, General Casey, or Secretary Bolton: 
I'm just really curious, because the concept is so attractive, 
but if I could just understand it better.
    General Curran. If you would permit me, I would like to 
address the last part of your point first. The brigade has 
moved, as you've stated, through a major combat operation, 
secured its objective, and is now transitioning into a 
different mission.
    Senator Clinton. But that happened so quickly.
    General Curran. It does happen very quickly. The rest of 
the modularity story is not just about these modular maneuver 
brigades, heavy and light. The rest of the modularity story is 
that there will be support units of action, or brigades, that 
are in a force pool nested at what we call the ``unit of 
employment level,'' division corps or Army of today. These 
pools of capabilities--MP, aviation, fires, psychological 
operations--will be resident and available to be tailored with 
the brigade.
    As we talked about, we're changing a number of our 
positions within the Army, reducing the amount of artillery, 
and moving to more resident MPs, civil affairs, and 
psychological-operations capabilities within the organization. 
They will fill out and round out the support units of action. 
The support units of action are also modular in design. A 
combatant commander can pick and choose from this pool. ``I 
need this many maneuver units of action. I need this many 
protection support units of action or brigades,'' which would 
include MPs and engineers. ``I need this many sustainment units 
of action.'' From the force pool, the combatant commander will 
be able to tailor the force to meet the needs.
    If we take OIF as an example, one of these new modular 
brigades is part of the 3rd ID. It's marching on to Baghdad. It 
arrives at Baghdad in the force flow. You could have additional 
support units of action that are following to flow into theater 
to meet up with that brigade. When it transitions to that new 
mission, it already will have some embedded capability. It has 
MPs and it has engineers already nested within the modular 
design. What we're speaking about now is really a transition to 
a stabilization mission, a peace mission. These will all be 
nested in modular capabilities at a higher echelon, but in a 
force pool that the combatant commander can draw upon.
    I wanted to take that part, anyway.
    Senator Clinton. Thank you very much.
    Mr. Bolton. Senator Clinton, if I could add another 
example, and really it's what our sister Services are already 
doing. The Navy, for a number of years, if not decades, have 
used carrier battle groups, which bring together certain 
capabilities to effect some type of capability that the 
combatant commander wants--will have X-number of Aegis 
cruisers, destroyers, attack boats or submarines, carriers, a 
mix of aircraft, and so forth.
    Back in the mid-1990s, the Air Force went to the 
expeditionary air forces, which then took fighters, cargo, 
tankers, and other assets, both airborne and space-borne, and 
put them in packages. The Army is doing a similar thing. But 
here, the scale is a little bit larger, particularly when you 
get onto the ground and particularly in stabilization 
situations.
    As Mark has already pointed out, there are groups that we 
will modularize to take care of stabilization, whether that's 
contracting, setting up infrastructure, the civilian policing 
forces, opening up hospitals, libraries, mail service, and 
roads, and so forth. Once again, it's the combatant commander, 
who will drive this initially, to say, ``This is what I want, 
and it's up to us to figure out which modules we're going to 
put together to meet that.''
    I agree with you, this is an interesting concept. It's 
exciting, and I'm glad to be part of it because some of my 
folks will be some of the first on the ground to take care of 
the infrastructure when we go into stabilization.
    Senator Clinton. General Casey.
    General Casey. Let me see if I can try it this way. Maybe 
if I compared it to the capabilities of a brigade moving on a 
mission today, compared to what a modular brigade would do, 
that would help out.
    If, today, a brigade formation moves, it would have a 
reconnaissance company, a small unit, about 75 to 80 folks, and 
their job is to go out and find the enemy and develop the 
situation. The modular brigade would have a battalion, about 
600 people, doing the same thing. The current brigade may get 
some time from a division-level UAV to look out in front of 
them. If they're really lucky, they may have some small UAVs 
that they can use. In the modular brigade, the reconnaissance 
squadron would have its own UAVs that they would use to develop 
the situation in front of them. The target acquisition 
battalion or element with the artillery would have their own 
UAVs to develop targets for the artillery to shoot at. Instead 
of sharing time, they have their own, and they have their own 
in a way that facilitates the commander seeing the battlefield 
at the same time, getting his targets for him.
    In the current headquarters, you have attachments showing 
up--your civil affairs, your MPs. They don't normally train 
together. Those folks are all built into the new headquarters 
of the modular brigade.
    In the current brigade, you probably will have an Air Force 
liaison officer and a few small air liaison teams that you 
share down to the units. In the current modular brigade, you 
would have a joint fires planning cell, with all of the 
appropriate connectivity to reach back into the joint fire 
system. So much better able to see the battlefield, and to 
bring joint fires and joint effects into play.
    The other thing is, because it has its own enablers, it can 
operate over a much wider piece of ground. When the division 
commander is trying to control all of his elements, they 
generally have to stay in close contact, or at least maintain 
contact. So it's a little more structured.
    These modular brigades are designed to operate in a 
nonlinear fashion.
    Senator Clinton. It sounds, too, that you've pushed a lot 
of authority down to the combatant commander.
    General Casey. That's exactly right.
    Senator Clinton. Which makes a lot of sense. When we 
visited with a lot of the commanders when I was there with 
Senator Reed, giving them maximum authority to be able to 
operate was one of the best things that we did. It was kind of 
by default in a way because there was so much unexpected that 
people ran into.
    Do you think, General, it would be possible to give us some 
sort of a visual display of this, with sort of the terms and 
the interconnections? It would be helpful to really lay it out 
because it is an incredibly creative concept, which I'm very 
intrigued by. I don't pretend to understand it, but you did the 
best you could to explain it, for which I'm grateful.
    General Casey. A picture is definitely worth a thousand 
words.
    Senator Clinton. A picture is worth a lot. Thank you.
    Senator Sessions. Those were some interesting questions. 
Along with the commander at the brigade level, I came away from 
the Iraq experience with the belief that the area commander 
needs more ability to contract with local people directly. Of 
course, that means he has to have money in the pocket, some 
money to be able to do things. Most environments into which we 
seem to be coming into, you have a situation in which there is 
some stability on the scene. In the brigade, would you have any 
capability? Would anyone comment on that--for enhanced ability 
to actually have resources to dispense on short notice, to 
utilize local people to do things that are important?
    Mr. Bolton. Yes, sir. In fact, we call them contingency 
contracting officers. Depending on the situation, a lot of 
times those officers are on the ground before the main unit 
shows up, to do exactly what you're talking about, to get with 
the locals, figure out who can bring rocks in to set up a 
landing zone and so forth. They're fully trained, and sometimes 
they even carry cash with them to start setting those up. It 
was exactly that way in the operation that we did in 
Afghanistan. You didn't see them, but they were there, starting 
to set up that infrastructure. Then as things stabilized, we, 
of course, sent in more folks.
    That was particularly true in Iraq. When our soldiers had 
taken the capital, we sent, almost 24 or 48 hours later, 
someone over there to start looking at the contracting. I then 
took a colonel out of West Point to ask him to go over there 
and start setting things up while I looked for someone to go 
over there permanently. We have put those contracts in place, 
first for the military, and now we're doing that work for the 
Coalition Provisional Authority, as well.
    Senator Sessions. Do you think, in this future concept, 
that you will have institutionalized that process better, so it 
can be more natural, and maybe people can be even trained in 
the pitfalls and advantages of contracting locally?
    Mr. Bolton. The contracting officers we send are first-
branch qualified. These are soldiers; they're not folks we just 
took off the street from somewhere and put a uniform on them. 
They understand what it means to be a soldier. I don't accept 
folks until they've been in the Army for about 8 years. Thus 
they're qualified first in arms in whatever their branch is, 
and then they're trained as contracting officers. What we will 
do, as part of modularity and working with TRADOC, as we build, 
particularly the support elements is ask: How do we get our 
folks in there? What lessons have we learned over the last few 
years, as well as previous conflicts? What do we expect in the 
future? This is slightly out of my lane, but I work with my 
counterparts in Special Operations Command (SOCOM) and special 
operations--we also have the same thing there. They 
occasionally need contracting officers, and my folks are down 
there to help them. We will learn lessons from them as well.
    But, to your point, we intend to do it much better in the 
future by being part of the modularity.
    Senator Sessions. Thank you.
    General Curran.
    General Curran. Sir, in the modularity design at the unit-
of-employment level, there is a contracting cell that has been 
mapped into that organization. What you saw in Iraq was an area 
commander, a division that is being mapped into the unit of 
employment-x (UEx) of today.
    The other point I would make--and I should have made this 
when I was answering Senator Dole's question on the logistics 
side--is that it's interesting to note that this notion of 
modularity goes back at least to 1995, when TRADOC began 
writing some doctrinal literature about modularity. The first 
people to pick up on the modular design were the logisticians. 
In fact, if you go back and look at our tables of organization 
and equipment (TO&Es) today, you'll see that at echelons above 
division, the logistics community have gone to a modular 
design. Already, on the logistics side, there are modules of 
logistics capabilities that have already been built into the 
TO&Es of our forces. Contracting would be one of those.
    Senator Sessions. I just wanted to drive home the point 
that I came away from the Iraq experience and the Afghan 
experience, from my observations, with a strong belief that a 
major contractor, like Bechtel, might be necessary to bring a 
power plant or an oil refinery up. They're not out in some 
village 200 miles, 500 miles away, as the soldiers are already 
there. They know right then what needs to be done. It gives 
them a certain credibility and enhances their respect in the 
community if they can say, ``We're going to fix this, and we'll 
pay you to fix this.'' I hope you would think about that.
    Let me ask a few more questions: Maybe one of you choose to 
answer this, and if others would like to contribute--the Army 
has requested 3.2 billion for the FCS development. The FCS is a 
network system of systems comprised of 18 systems, as you 
noted. However, there are more than 150 complementary programs 
which must be funded. In support of the Army's future force, we 
often hear that Army transformation is more than equipment. 
What is the Futures Center's role in the FCS development?
    General Curran, do you believe the user, represented by 
TRADOC has an adequate voice in the FCS development? I think 
that is important. I asked General Casey the other day. You 
have all of this theory and these ideas. We want to be doggone 
sure the average soldier knows how to access it and utilize it. 
Is that part of what you'll be working on?
    General Curran. Sir, it is. The relationship that TRADOC, 
as the user's representative, and the Futures Center have with 
both the program manager (PM), and the lead system integrator 
(LSI), is hand-in-glove. If you noted, from our remarks, that 
Secretary Bolton, in his opening remarks on his discussion of 
FCS, could speak eloquently about the required capabilities 
that that program is bringing on. That is an indication of the 
marriage we have between the requirement, people, us, the users 
representative TRADOC, and with the acquisition community that 
is bringing this program together.
    Specifically, we meet, in some cases weekly to monthly, in 
integrated concept teams between TRADOC, the PM, and LSI, that 
are working every piece-part of the FCS organization. The user 
representative is involved nearly daily with the PM and LSI in 
bringing these capabilities to the forefront. The decisions 
that need to be made with trades and those types of issues are 
brought to the user representative, because the user is the one 
who has identified and documented what the required 
capabilities are, the operational requirements doctrine that 
outlines what this family of systems is to bring as a 
capability to the Army. I would just tell you that I am very 
confident that the user is being well-represented with the PM 
and with the LSI in making sure that the required capabilities 
that we need, foresee, and update, are handled by the PM and 
the LSI.
    Mr. Bolton. Mr. Chairman, if I could add to that, 
absolutely spot on. As we're developing the requirements that 
were documented over 2 years ago, if you had gone to Fort 
Monroe to TRADOC headquarters, or out to Fort Knox, the armor 
school, you would have found in those rooms, as our TRADOC 
colleagues were writing the requirements, Doctrine Requirement 
Centers, acquisition types, testers, logisticians, funds 
managers, contractors, and others, all in support of writing 
this document. That team continues throughout. The only way we 
can make the requirement of having an initial operational 
capability (IOC) in 2010 is to keep that team together. That 
team helped us get through that milestone last year--a record-
setting milestone, by the way--and it continues today. 
Quarterly, we have a board of directors meeting. The user is 
there, all the other folks I just mentioned, and other PMs who 
manage things and systems that we need to have a FCS link to 
everything. They are there and adjusting their programs and 
what their contractors are doing so that we can all be ready to 
go in 2010. It is a tremendous effort.
    That aside, one of the first meetings I had with the former 
chief, General Shinseki, was a meeting to talk about some 
element of the FCS. At the end of that meeting, I commented to 
him, ``In the years that I've been in this part of the 
business, I had never seen senior-level attention this early in 
a program.'' Normally, we have very good people, junior 
officers or civilians, who lock a program in, do good work, and 
then we bring in the colonels and the flag officers about 5 
years down the road after they've locked in about 80 percent of 
the program. Here we have the senior leadership in the Army 
working the issues up front and then working on the 
requirements. I think that is unprecedented, but shows a 
commitment on the part of the Army and everyone else to get 
this done.
    Now, our job as a team is to get it done and to go anyplace 
we have to go so that in 2010 we can deliver to the soldiers 
the capability they need. It is an extraordinary effort.
    Senator Sessions. Well, I would agree that the top people 
need to be involved because they have a lot to offer. I asked, 
at a school system in Alabama that has tremendous academics, in 
a small town, why it was competing with the best high schools 
in the state. I asked this young principal. He said, ``The 
superintendent.'' I said, ``Well, what does he do?'' He said, 
``He meets with all the principals every morning, and we 
discuss what's going to be taught, curriculum.'' When you have 
your top people talking to the bottom people about how to win 
wars, how to fight and win, and what it takes to get it to 
them, that's better than having bureaucrats up here and 
everybody else working it. It's a good idea.
    Let me just briefly ask you a question about this. Last 
December, Boeing and the Science Applications International 
Corporation (SAIC) as LSI, received a $15.8 billion contract 
from the Army to oversee the FCS program through the system 
development and demonstration phase. What steps has the Army 
taken to work with, but also monitor, the Operating System 
Incorporated (OSI), to ensure that FCS stays within cost, 
achieves key performance parameters, and meets the schedule?
    Mr. Bolton. On the latter part, we have a measurement 
system. We call it ``Earned Value Management System''--not new. 
We do this all by contract; so while the contractor uses that 
on a daily basis to see what progress they're making on the 
work that I've asked them to do, the PM would typically get a 
monthly summary, and then quarterly I get the whole thing. I've 
told my PMs there are certain things I'm looking for on that 
program to chart progress. Thus far, we're doing very well on 
that. If we're doing well there, then it tells me we're meeting 
the objective, and the objective is to hit a certain 
requirement at a certain time at a certain cost.
    In addition, this LSI is a new concept for a program this 
large for the Army, and so we've had considerable thought about 
that before we did it. We have looked at it several times 
afterwards. We have an independent group right now out at 
Boeing, almost as we speak here, and at SAIC, to tell me, ``Is 
this concept the right concept? Can we do it better?''
    Now, why are we doing the LSI? The LSI, in my terms, is a 
general contractor. Take a house, for example. You go out and 
you pick the very best general contractor you can. You go to 
him with a blueprint of the house you want that you got from an 
architect. That's your requirement. You have so much money, and 
you want it done in a certain period of time. Then you let him 
pick the best trades, the best subcontractors, to get the job 
done. You periodically go out there and check on him.
    That's what this LSI has been asked to do. You have a 
requirement coming from TRADOC. You have a certain amount of 
funding. You have a time element. Now, go pick the very best 
contractors to get the job done.
    We went to another transaction authority because I wanted 
the very best in this country. That included folks who normally 
do not do business with the DOD. This other transaction 
authority, which allows us to put a contract in place without 
all of the rules and regulations that I would have to live, 
using the Federal Acquisition Regulations (FAR)--that is what 
we have. We have the best. Big contractors, for sure, but we 
also have some small contractors. As an example, iRobot. Most 
folks haven't heard about iRobot. But if you were at the trade 
center the day after September 11, you would have found some 
big contractors, like Raytheon, using imaging, and you would 
also have found iRobot, with small robots, looking for 
survivors. They're on our team now to help us with the unmanned 
vehicles and also helped us in Afghanistan last year.
    I've talked personally with the senior leadership of Boeing 
and SAIC. I've told them that this is the way we ought to go. 
But both of us have to understand how this is working for the 
benefit of the soldier, as well as the benefit of the 
shareholders. I'm totally confident that I have their 
commitment to doing this and doing it right.
    Senator Sessions. This has potential, and we've seen some 
good come out of that. But it is critical that we not assume, 
because we've got a contractor, we can go away, and the house 
is going to end up like we want it. The missus may not be happy 
when it's over. So the intensity of management and the holding 
their feet to the fire and watching to make sure schedules are 
met are important.
    Alabama has the third-largest number of National Guardsmen 
and women activated. Just last week, the adjutant general (TAG) 
told me that their recently deploying units received all the 
gear that they needed at the maximum-on-the-ground (MOG) 
station except for one soldier, who was so big it wouldn't fit, 
and he didn't get to go. But maybe we're making progress with 
regard to making sure that everybody is fully equipped. As a 
matter of fact, I know we are.
    General Casey. You can report to any constituents that any 
soldier going into Iraq for this OIF II rotation will cross the 
border with his full body armor on.
    Senator Sessions. Very good. Senator Lieberman mentioned 
setting the force as the Army units rotate back from Iraq. 
There is going to be a lot of damage and a need and some cost 
involved in resetting that force. We understand that most of 
the cost will be in the operation and maintenance account as 
equipment is repaired and serviced; however, we also understand 
there will be additional procurement costs to replace combat 
losses.
    General Casey, can you give us a sense of how many 
helicopters, trucks, and other equipment will require repair or 
replacement, and where does the Army intend to get this 
equipment? What's the status? We have heard some comments that 
there are boneyards for equipment in the theater that need to 
be fixed. As we learned from the last Gulf War, that was an 
expensive process to get our equipment back in first-rate 
shape. Would you like to comment on that?
    General Casey. Yes, Senator, I will. Let me just give you a 
sense of the combat losses, and then I'll transition to the 
reset and close out with Army prepositioned stocks, which I 
think will get at the boneyard question you had.
    We've lost a total of 41 aircraft, 8 M-1 tanks, 12 
Bradleys, and 76 HMMWVs, as an example of the combat losses. 
Those will all have to be replaced. We believe, I think 
rightly, that all of these losses, as well as the resetting 
requirements, are war-related expenses. We will seek to pay for 
them through the provisions of supplementals that are devoted 
to the war-related expenses.
    For the reset, we have had a triage team there in-theater 
examining the vehicles. There were basically two levels--
actually, three levels of reset for ground equipment--and an 
additional one for air. The first is what we call 10-20 
standards, which is basically a service, like you take your car 
in and get a quarterly service. That's what that is. The next 
level was what we called ``delayed desert damage,'' and that's 
a more intensive inspection to make sure that we have captured 
all of the problems on the vehicle or system that has been 
caused by spending a year in a harsh environment like Iraq. The 
third level is sending it back to depot for an overhaul. What 
we've been doing is inspecting the vehicles there in-theater, 
and, instead of sending it back with the unit, if it needed to 
go to depot, it goes straight back to depot. Then the fourth 
level--this applies just to aviation--what we call the Special 
Technical Inspection and Repair (STIR) program.
    General Curran. We call it reset now.
    General Casey. No one could remember what STIR stood for, 
and now we call it reset, and that's not an acronym. That's 
basically a program--probably it's right between the service 
center and a complete overhaul--but it gets into all of the 
engines, parts, and things, and inspects them for desert 
damage. We make sure that we're not missing anything in our 
aviation fleet as we go forward, Army prepositioned stocks.
    Senator Sessions. On the harsh conditions, how much more 
degradation have the aircraft sustained as a result of that 
than they would in normal operations?
    General Casey. I would yield to the senior aviator at the 
table.
    Senator Sessions. He should know.
    General Curran. The damage that they've experienced has 
been significant because of the fact that the major combat 
operations did not last a long time, and that we were able to 
ultimately get our platforms onto some hard stand to operate 
from; it started to reduce that. But every single aircraft that 
is coming back is going through a reset. Based upon what the 
team found when they went over there, we seem to be falling 
pretty much in line with what we expected we would have to do 
to the aircraft.
    The other part of reset, though, includes taking some 
preventive measures of the aircraft that are deploying over in 
OIF II with putting on what we call a ``desert kit.'' This 
includes better barrier filters and some additional kit that 
we're putting on the aircraft so that they do not receive as 
much damage from the harsh environment as they would if they 
didn't have these capabilities. We think the desert kits will 
save us a lot of engines. While those aircraft were operating 
over there in the desert sand, we will save some engines in 
that.
    Senator Sessions. It's the sand that does a lot of the 
damage?
    General Curran. Predominantly sand, yes, sir.
    Senator Sessions. Secretary Bolton, have you done any 
studies or planning with regard to some of the major reset 
expenditures as to whether or not you could also update the 
equipment and aircraft to a higher level of modernization at 
the same time while you're doing one? Have you done a study, or 
would that be a good idea maybe to study now? Because some of 
them are going to take a lot of work, and we may see we could 
upgrade them at the same time.
    Mr. Bolton. Well, that had already been one of our 
intentions. That is, we brought equipment back, if we have an 
opportunity during the reset, to replace those parts with parts 
that are more reliable and upgrade it. That has been nothing 
new; we try to do that as a normal course of business. If those 
are also going back to the desert, as General Curran just 
indicated, then are there things we can do to ease the burden 
on the troops in the field once it gets back over there? Desert 
kits are one. On the ground vehicles, we can put pre-filters on 
the air filters to filter out some of that powdery sand before 
it actually gets ingested in the engine. We will take a look at 
all of those. But you're absolutely right, when we have the 
opportunity, we will upgrade those parts.
    General Casey. Senator, can I get to your boneyard question 
there?
    Senator Sessions. Please.
    General Casey. We have two of our prepositioned sets still 
in use in Iraq. That's our float prepositioned number three, 
and our on-the-ground stocks, number five. Over a third of 
those are still actually in Iraq being used by units. The 
boneyard you referred to is at the prepositioned site there in 
Kuwait. We have some 9,000 vehicles that are part of these two 
sets that have been used and returned in varying states of 
repair. About a month or 6 weeks ago, we asked our Army 
Materiel Command to put a team out there to get us an 
assessment of what it's going to take to put all of this back 
together. That is in process. I would expect to have something 
in another 30 days here.
    But, again, I point out to you, both of those sets are very 
much in use with the forces in Iraq, and we will probably use a 
good portion of them to set a stay-behind equipment fleet there 
in Iraq, so we could just get to the point where we rotate 
people in and don't have to keep shipping equipment.
    Senator Sessions. Well, that would make some sense to me. I 
know the unit out of Foley, Alabama. I was there when a 
National Guard unit departed, and they were taking all their 
equipment. You wonder if there's equipment there that they 
wouldn't have to take.
    General Casey. We weren't able to get it done for this 
rotation.
    Senator Sessions. Tell me about this. I know you've been 
working on it. I know Secretary Rumsfeld and General Schoomaker 
have really taken an intense interest in this rotation. It's a 
huge deal. I know a lot of it falls on you; maybe all falls on 
you. I haven't heard any big complaints, so I guess that's a 
good sign. So far, what can you tell me? How is it going?
    General Casey. It's going very well. It has been a huge 
effort. It's a quarter of a million people going back and 
forth. It includes the mobilization of about 70,000 guardsmen 
and reservists, who have all been equipped, trained, prepared, 
and shipped over, in addition to the active components. You 
will recall the three enhanced separate brigades that are going 
over. We made it a point to give them the very best equipment 
available, this RFI. We gave it to them before we gave it to 
the Active Forces. I just happened to be up in Fort Lewis, 
Washington, when this 81st Brigade was going through the 
warehouse getting their stuff. The looks on these soldiers 
faces when they saw they were getting the best that money could 
buy, they realized they were into something serious. So well-
equipped, well-trained, all of those three combat brigades have 
been through rotations at our Joint Readiness Training Center 
or National Training Center, where they replicated the 
environments they were going into in Iraq. The mobilization has 
gone, in my view, very well. The U.S. Transportation Command 
(USTRANSCOM) has done a magnificent job managing the rotation 
of forces. We are over the hump here. Last week was really the 
peak week of movement back and forth, and we're really on the 
downhill side.
    The demobilization also continues to go well. We set a 
standard at the beginning. Ten days from the day a soldier sets 
foot on the ground in the United States, they're off active 
duty unless they have some medical problem that requires them 
to stay longer. Right now, our average is about 7 or 8 days, so 
that is also working very well.
    I, like you, judge not hearing anything as being good news, 
but we monitor this very closely from the Department of the 
Army staff.
    Senator Sessions. Well, you did one big thing, really 
important, which was realizing it was a big deal, and you put a 
lot of time and effort and foresight into it. Otherwise, it 
would not have gone as well as it has. That's good planning.
    I would just say, on behalf of the Guard and Reserve, I 
spent 10 years in the Army Reserve, and we have a lot of great 
friends still there, and still a lot of National Guardsmen from 
my State. They want to serve. They do not feel they're victims. 
They want to be utilized well, and they didn't want to come 
home. They wanted to do something worthwhile. They don't want 
to be called up to piddle around. My little observations about 
that is, if we could keep those deployment times down, 9 
months, 6 months, 9 months, and do the premobilization as much 
at home station as possible, so that a soldier is away from his 
family closer to 6 months than 13 months, that is a huge 
difference--a huge difference for the employer. That means you 
have to move more people and has certain cost in it. In 
addition, in an active combat situation, you have to do what 
you have to do. But in a post-combat hostile environment, to 
move to that direction would be something that would play well 
with our Guard and Reserve.
    For the most part, we have done well with giving them good 
work to do, and I certainly believe they have done an excellent 
job.
    General Casey. If I could, both of the Guard and the 
Reserve, Steve Blum and Ron Helmly, are developing rotational 
packages so that they'll be able to tell their guardsmen or 
reservists which package they're in. That will allow them to 
figure out when they're next up for rotation. We're working 
very hard to get this down to about once every 5 or 6 years.
    We'll be able to show you that in about 60 days, and it 
will be a paradigm shift that will allow us to bring 
predictability for the guardsmen and reservists into this 
environment of steady-state mobilization we're in.
    Senator Sessions. Very good. I know, Secretary Bolton, you 
talked about, at the beginning, force-protection issues and the 
importance of that. Is there anything you all would like to add 
about assuring the American people that we're doing what we can 
to make sure that the soldiers have as much protection as we 
could possibly get for them?
    Mr. Bolton. Well, we rely heavily upon the commanders in 
the field to tell us what's going on. We've put PMs, 
acquisition types, in the field with the combatants. As I 
mentioned earlier, their job is to report back what do they 
need, and to get it to them as quickly as possible. We will 
pull out all stops to make sure that the men and women have the 
protection that they need, both uniform and DOD civilians. 
We've done a very good job along those lines.
    There are, as I've said to industry, two issues in my mind. 
One is a tactical one, which means get the stuff and the 
protection there now. We're doing it, both land-based and 
airborne systems. When this phase is finished, we have a 
strategic phase, because I'm going to come back to you and ask 
a very simple question. The question is, how do we do what 
we've done over the last 12-plus months in 30 days, the next 
time this happens, and work through all of the hurdles between 
now and then? Because, surely as we're sitting here, we will do 
this again, and some man or woman, one of our soldiers, will 
need something that we didn't anticipate. Things change. The 
enemy changes, very adaptive. Thus how do we compress this 
time? It's just another step in trying to make sure that our 
men and women have the very best throughout the entire 
engagement.
    We're committed to that, and I'm very happy with what has 
happened in responding to what the soldiers need on the 
battlefield.
    General Curran. Senator, if I might add. As we look to the 
future and the FCS, survivability is one of the key performance 
parameters within that program. It is a holistic look at 
survivability. It is not just the platform, but it's the whole 
system of systems and its survivability, and how much 
protection is provided to the force. Within our logistics 
arena, we are also looking at our HMMWV and cargo fleet, what 
the required capabilities are going to be in a noncontinuous, 
nonlinear battlefield, as we know today and into the future. 
We're addressing survivability protection for the soldier in 
the future as we are doing it today, as Secretary Bolton spoke 
to.
    Senator Sessions. We would like to see this reset. I might 
ask you again about how we're coming with the reset situation. 
As I understand, there is money in the account to begin this. 
Our depots are not at full capacity, from what I understand. I 
hope that we're not allowing this to build up too much in hopes 
for a supplemental or something to come down, and we can take 
it all out of there. I think Senator Lieberman will be coming 
back, and I wanted to ask about the safety of our personnel, 
and will we be doing any after-action studies about that?
    I have a friend, Sergeant Larry Gill; his father was a 
police officer, and he's now a police officer in Alabama. He 
was a marine in Lebanon when the embassy was bombed, one of the 
first war-on-terrorism attacks, and received a Purple Heart. 
Then he went over with a Guard unit and was pretty badly 
injured in the lower leg from a grenade. It seems like there's 
a number of lower-leg injuries, and you wonder about things. 
Can we come up with better uniforms that have more protection? 
Maybe it won't guarantee protection in a severe attack, but 
could minimize damages. He's had a number of operations, and 
he's back at Walter Reed now. Every little bit helps. Have we 
given any thought to other more creative ways that we could 
make our soldiers safer?
    Mr. Bolton. Yes, sir. I mentioned, in my opening remarks, 
that the SAPI plates are protecting the torso from injuries 
that would have killed soldiers formerly. As you've just 
pointed out, soldiers are being injured, arms and legs and so 
forth. A bit over a year ago, we struck a relationship between 
the Army, academia, and industry to work nanotechnology--to 
work down at the atomic level with materials. One of the aims 
was to take a look at the materials we currently use in the 
body armor and see if we can't reduce the thickness of it. 
Don't reduce the capability; if anything, increase the 
capability, but reduce the thickness.
    I'm happy to say we're making great progress along those 
lines. A week or so ago, at one of our conferences, we 
demonstrated one of the materials, where you could take a 
similar thickness--and this is about the thickness of a couple 
of T-shirts. You take an icepick and the normal Kevlar 
material, and you would go right through it. With this 
material, I don't care how strong you are, you cannot go 
through it. What I've asked the folks to do is to take the 
inch-thick thickness of the SAPI plate, reduce that to the 
thickness of your shirt, and now put it over the entire 
soldier. That's one of the areas that I think we're going to be 
able to work. That will give us the torso, will give us the 
arms, and will give us the legs. It won't give you 100 percent 
against all the threat but will greatly reduce some of the 
problems we've had and injuries we've had. That's one area.
    The other is the vehicle itself, looking at lighter-weight 
composites. One of the problems we had with the armored HMMWV: 
great protection, but you've added a lot of weight, in some 
cases, as much as 7,000 pounds worth of weight. If you look at 
the original HMMWV, it was not designed to carry that. Now, the 
ones coming out that are manufactured are heavier and bigger 
suspensions and so forth. One of the concerns we have from some 
soldiers who are there is that they want to be on the 
offensive, and I would be, too. If we have an up-armored HMMWV, 
on the one hand, you're protected; on the other hand, you can't 
get after the bad guys. So how do we design a vehicle that 
allows you to be protected and, at the same time, have a lot of 
response? We're looking at materials that can give equal or 
better protection, but also lighter for the vehicle.
    On your first point, and that's lessons learned, the 
leadership we have in the Army--and this goes across the joint 
staff and the other Services, at least in my experience--is, 
for the first time, really getting all of the information, or 
most, on a real-time basis, with due consideration to security, 
back to us quickly. We see that in the Army and how we've been 
able to do the RFI and equipping, getting the information and 
getting things to the soldier in a short period of time. Taking 
the lessons learned--we just had a group over there take a look 
at the helicopters that have been shot down, what caused it, 
what can we do, providing that information and field feedback 
real-time to the pilots over there, and sharing that 
information.
    We have developed, over the last year, a concept in the 
Army we call the uniform scientist. Their job is to eventually 
be with the soldiers full time--there are some cringes from my 
colleagues sometimes when I characterize this--in the future, 
and I call it the ``Spock syndrome.'' Anyone who has seen the 
television or the movie ``Star Trek'' knows there's a science 
officer onboard. The science officer's job is to know the 
technology of that fleet better than anybody else, and, to as 
large a degree as he can, understand the enemy's technology, 
and then, on real-time, advise the commander what to do. That's 
what we're training our folks to do, and we started that over a 
year ago.
    The difference between what I intend to see happen and that 
particular television show is, I want you reporting back to the 
States what's going on, as well, so we can fix the things 
before we send the troops over and do that in real time.
    So a long way of answering the question, we are taking 
those lessons learned seriously. We are working with the 
science and technologists to provide us better equipment as 
soon as possible.
    Senator Sessions. General Curran, do you want to comment?
    General Curran. Sir, if I could add, we in the Futures 
Center have been charged to look at how to spiral matured 
capabilities into the current force, to address critical 
capability gaps in the current force as they perform their 
mission. In that process, we leaned heavily on operational 
needs statements that come out of theater, out of lessons 
learned that came from the 3rd ID, that came from all the 
forces that are participating in OIF, through our Center for 
Army Lessons Learned at Fort Leavenworth, through Joint Forces 
Command--joint lessons learned. We're pulling from those joint 
lessons learned and packaging those to determine the list of 
priorities of what are the most critical capability gaps that 
exist in the current force.
    When you look at that list today, the top of the list is 
soldier protection. Second is probably network capabilities. 
We've really focused on the top 10 or so. Through the 
partnership between our Research and Development Command and 
with Assistant Secretary of the Army for Acquisition, 
Logisitics, and Technology (ASALT), we give that list to them, 
and so they're out actively searching for what matured 
capabilities they have that could address that gap. Then 
through the vice chief of staff and through the G-3, we've 
established a rapid-equipping force that can quickly, if they 
can get it in in 30 days--and that's almost a criteria; I don't 
want to use this capability unless it's for a very quick turn--
get that kind of capability into the force. We've used that in 
addressing things like IEDs. We have done it for a number of 
other aspects of using a rapid-equipping force to get that in. 
TRADOC's role is to identify what the gaps are. We're almost in 
daily contact with leaders in the field and working that. We 
are using the students at Fort Leavenworth and in our 
schoolhouses, who have just returned from theater, and even 
canvassing them to say, ``While you were over there, it's fresh 
in your mind, tell us what kinds of capabilities you could have 
used to do your job better.'' We are collecting that 
information. It is really information technology that is 
allowing us to stay so connected, and we're leveraging that 
because, as the Secretary said, the sharing of information and 
lessons learned is moving at much faster pace, and it needs to. 
We need to leverage that information technology to make that 
happen.
    Senator Sessions. Well, I will just say this to you. One of 
the things that is most commendable about American military is 
our intense work on after-action reports and our willingness to 
learn from mistakes. That is something to be valued and 
cherished. Too often, the old mentalities is you could never 
admit a mistake; you couldn't talk about problems that 
occurred. I believe we've moved beyond that. That is why we 
continue to seem to do better each time we're in a hostile 
environment than the time before. I really salute you for that.
    We have a number of questions that I would like to submit 
to you in writing.
    This has been a very good exchange. I believe we are on the 
road to a continuing improvement. In your statement, Secretary 
Bolton, you used the phrase ``in the continual 
transformation.'' It will never end. It will always be a 
continual transformation. I do respect and value your 
decisions. If you have something new that will work now and 
will ultimately be part of the FCS, why should we wait? Why 
don't we have it in there now? We use it, we get familiar with 
it, and it actually protects or enhances the combat capability 
of our soldiers.
    Thank you for your excellent testimony. Your written 
statements will be a part of the record. We will keep the 
hearing open for questions from other members. Senator 
Lieberman wanted to get back, but I understand he has been held 
up on the floor and will not be able to make it.
    We are adjourned.
    [Questions for the record with answers supplied follow:]

     Questions Submitted by Senator Sessions and Senator Lieberman

                          ARMY REORGANIZATION

    1. Senator Sessions and Senator Lieberman. General Casey, we 
understand that between fiscal year 2004 and fiscal year 2011, the Army 
estimates the total cost for modularity to be $20 billion, including an 
fiscal year 2005 shortfall of $2.4 billion identified as part of the 
Army's unfunded priorities list. The Army has not provided an estimate 
of the costs associated with converting National Guard enhanced 
separate brigades. How does the Army intend to fund the fiscal year 
2005 shortfall?
    General Casey. The Army plans to fund the fiscal year 2005 
shortfall with supplemental dollars in fiscal year 2005. It has been 
listed and detailed as our priority on the unfunded requirements list 
for fiscal year 2005.

    2. Senator Sessions and Senator Lieberman. General Casey, is this 
restructure funded in the Future Years Defense Program (FYDP)? If not, 
how does the Army intend to fund the restructure?
    General Casey. Modularizing the Army is not currently funded in the 
FYDP. To fund modularization without placing additional risk to current 
operations or future force transformation, the Army requires assistance 
to cover the costs of modularity.

    3. Senator Sessions and Senator Lieberman. General Casey, what are 
the decision criteria for going to 48 active component brigades vice 
the 43 currently planned and approved by the Office of the Secretary of 
Defense?
    General Casey. The decision criteria for going to 48 active 
component brigades will be based on the defense strategy and its 1-4-2-
1 force sizing construct, regional combatant commander requirements, 
and the level of operational commitments we face in fiscal year 2006, 
to include the need to generate forces in support of the Force 
Stabilization concept and to sustain a forward rotational posture of 
engagement. The Secretary of Defense will make the final decision to go 
to 48 brigade units of action in fiscal year 2006, based on these 
factors and projected requirements.

    4. Senator Sessions and Senator Lieberman. General Casey, as we 
understand your plan, the Army intends to use existing platforms to 
equip the additional active and Reserve component brigades. If you are 
using existing resources, what makes these new brigades more lethal?
    General Casey. The lethality of a unit is derived from more than 
the number of combat systems it contains. It is derived through the 
application of available firepower, either organic or joint fires, and 
enablers such as command and control systems, and multi-source 
intelligence and reconnaissance capabilities. Improvements in command 
and control capabilities and joint integration have multiplied the 
effectiveness of small, agile land forces and changed the character of 
tactical and operational warfare. Consequently, modular units of action 
(UAs) will have a number of embedded enablers that will lead to more 
timely and precise engagements that yield a desired outcome. Increases 
in the number of sensors and reconnaissance platforms allow these units 
to find more of the enemy sooner, and direct more firepower against 
them from a greater variety of sources. The UA is a more flexible, 
adaptive, and self-contained entity, allowing for a more focused 
package of capabilities that can be applied against a wide array of 
enemy threats. The Army's vision for the future includes improvements 
not only in combat systems design but also improvements in soldier and 
leader training and development, systems integration, cross-service 
integration, and command, control, communication, computer, and 
intelligence capabilities, which will all enhance force lethality.

    5. Senator Sessions and Senator Lieberman. General Casey, are there 
equipment shortfalls associated with this restructure? If so, what are 
they and how do you intend to fund these shortfalls?
    General Casey. Transforming the Army to a modular design will 
result in different organizational requirements for equipment. 
Invariably, the Army will experience some shortfalls. Minimizing these 
shortfalls is accomplished by starting with a disciplined requirements 
process backed by sound analysis, which ensures that we provide the 
right quantities and types of equipment to modular units. Although we 
are still analyzing modularity requirements across the force, much work 
has been done to date and an emerging equipping strategy has been 
developed that is designed to maximize combat capabilities across the 
force at the lowest possible cost.
    The first step is to look across the current organization and 
determine where equipment can be harvested in support of the modular 
design. For example, we have found that as we transform artillery 
units, almost 75 percent of the total demand for artillery computers 
can be satisfied by cross-leveling within the units that are 
transforming. In addition to cross-leveling internally, we have also 
found that there is some excess equipment external to the transforming 
units (including pre-positioned sets and depot stocks) that can be used 
to resource the modularity effort.
    Once we have cross-leveled all available existing stocks, our next 
step is to refurbish non-operational equipment (where possible) and 
then use that equipment to fill shortfalls. Depot stocks of the Q-36 
Firefinder Radar, for example, can be rebuilt for a fraction of the 
cost of new procurement.
    A good deal of the equipment required by modular units has already 
been programmed for in previous planning periods; adjustments in 
fielding schedules will ensure that those units transforming receive 
the right equipment at the right time. When production schedules make 
that impossible, the Army will selectively authorize ``in lieu of'' 
items that provide the unit with a ``good enough'' capability until we 
can issue the proper piece of equipment. Eventually, the unit will 
receive new equipment, but the Army intends to use new procurement as a 
last resort wherever possible.
    Transforming the Army to a modular design is a process that will 
extend from fiscal year 2004 through fiscal year 2007. Since much of 
the effort will fall before our current fiscal year 2006-2011 
programming period, and because the Army is already under considerable 
fiscal pressure due to ongoing operations, we may have to ask for 
external assistance with those resourcing challenges that cannot be 
solved by the approaches discussed above. That request for assistance 
will likely take the form of a supplemental request where the Army asks 
for the minimal amount of new funding required to achieve core 
essential capabilities.

    6. Senator Sessions and Senator Lieberman. General Casey, what is 
the estimated cost to reorganize the Army National Guard to ensure its 
brigades are similarly designed?
    General Casey. The estimated cost associated with the Army National 
Guard Brigade Combat Team (ARNG BCT) modular conversion as captured in 
the fiscal year 2006-2011 Program Objective Memorandum (POM) is $7.944 
billion for 33 BCTs. This cost reflects personnel, training, 
installation, as well as equipping requirements. In terms of equipping, 
the cost reflects those requirements termed ``critical,'' which equates 
to Base Table of Organization and Equipment (BTOE), combined with 
authorized substitute items of equipment, as well as some items of 
modernization.
    The BTOE documents the minimum essential personnel and equipment 
requirements for accomplishing the wartime mission. The BTOE does not 
assure parity of equipping with the active component force, nor does it 
assure complete interoperability of the total force. The programmed 
costs do not reflect the costs associated with the emerging requirement 
for the units of employment (UEx) given that the organizational design 
has yet to be completed. There are eight UExs to be fielded into the 
Army National Guard. The UExs are intended to replace one for one the 
eight current divisional headquarters that exist within the ARNG.
    The end state for ARNG is 34 brigades. Of these brigades, 33 are 
being programmed for funding within modularity. The 34th ARNG brigade 
or the Stryker Brigade Combat Team (SBCT), the 56th SBCT Pennsylvania 
ARNG, is being funded separately as part of the Army's commitment to 
the SBCT program.

    7. Senator Sessions and Senator Lieberman. General Casey, what is 
the planned time line for Army National Guard reorganization?
    General Casey. In 2005, the following units will be converted: 30th 
Armored Brigade, North Carolina; 39th Infantry Brigade, Arkansas; 81st 
Armored Brigade, Washington; and the 34th Infantry Division 
headquarters, Minnesota.
    In 2006, the following units will be converted: 116th Armored 
Brigade, Idaho; 155th Armored Brigade, Mississippi; 256th Infantry 
Brigade, Louisiana; 278th Armored Cavalry Regiment, Tennessee; 1st 
Brigade, 34th Division, Minnesota; 56th Brigade, 36th Division, Texas; 
35th Infantry Division headquarters, Kansas; and the 42nd Infantry 
Division headquarters, New York.
    In 2007, the following units will be converted: 41st Infantry 
Brigade, Oregon; 48th Infantry Brigade, Georgia; 218th Infantry 
Brigade, South Carolina; 2nd Brigade, 28th Division, Pennsylvania; 55th 
Brigade, 28th Division, Pennsylvania; 37th Brigade, 38th Division, 
Ohio; 28th Infantry Division headquarters, Pennsylvania; and the 38th 
Infantry Division headquarters, Indiana.
    In 2008, the following units will be converted: 49th Brigade, 36th 
Division, Texas; 149th Brigade, 38th Division, Kentucky; 2nd Brigade, 
40th Division, California; 3rd Brigade, 42nd Division, New York; 50th 
Brigade, 42nd Division, New Jersey; 86th Brigade, 42nd Division, 
Vermont; 39th Infantry Division headquarters, Texas; and the 40th 
Infantry Division headquarters, California.
    In 2009, the following units will be converted: 29th Infantry 
Brigade, Hawaii; 32nd Infantry Brigade, Wisconsin; 45th Infantry 
Brigade, Oklahoma; 53rd Infantry Brigade, Florida; 92nd Infantry 
Brigade, Puerto Rico; 2nd Brigade, 34th Division, Iowa; and the 29th 
Infantry Division headquarters, Virginia.
    In 2010, the following units will be converted: 76th Infantry 
Brigade, Indiana; 207th Infantry Brigade, Alaska; 1st Brigade; 29th 
Division, Virginia; 3rd Brigade, 29th Division, Maryland; 26th Brigade, 
29th Division, Massachusetts; and the 66th Brigade, 35th Division, 
Illinois.

                          FUTURE COMBAT SYSTEM

    8. Senator Sessions and Senator Lieberman. Secretary Bolton, last 
December, Boeing and Science Applications International Organization 
(SAIC), as the Lead System Integrator (LSI), received a $14.8 billion 
contract from the Army to oversee the Future Combat System (FCS) 
program through the system development and demonstration phase. There 
may be a few concerns regarding overall FCS program management. For 
example, it appears that the LSI has awarded one of the most important 
parts of FCS, the network software, to themselves. Do you believe the 
current firewall provides adequate safeguards to assure that the Army 
and taxpayers receive the benefits of competition and innovation?
    Mr. Bolton. All FCS firewalls, including Boeing subcontract 
firewalls were reviewed in detail by Tank-Automotive Armaments Command, 
Army Materiel Command, Department of the Army (DA) legal departments 
and PM FCS acquisition personnel. The reviews concluded that Government 
Sensitive Information (GSI) and Competition Sensitive Information 
(CSI), and resulting information were held in strict confidence and 
with suitable safeguards. The U.S. Army's Office of General Counsel by 
direction of 17 June 2003 from Acting Secretary of the Army, R.L. 
Brownlee conducted a review to ensure that sufficient firewall 
safeguards were in place under the FCS for Boeing and it major 
subcontractor, SAIC. Although PM FCS was not provided a written copy of 
the report, PM FCS is aware of no concerns expressed as the result of 
this report. The Warfighter-Machine Interface (WMI) is the only 
software application awarded to Boeing entity, The Boeing Company; 
Mesa, Arizona. As the Army Acquisition Executive, I personally 
witnessed the process in action during the source selection and was 
continuously apprised of its progress. At least three independent 
reviews of the process were conducted and found that the process had 
integrity. The Army is satisfied that the process worked.

    9. Senator Sessions and Senator Lieberman. Secretary Bolton, 
describe in detail any firewall protections you have in place for both 
LSIs and, more specifically, outline how those protections will be 
managed over the life of the program.
    Mr. Bolton. On the FCS Program, Boeing, as the LSI, has procedures 
and practices in place to address potential conflicts of interest that 
might emerge as a result of operating in the dual roles of source 
selection authority and competitive bidder. Boeing has implemented an 
organizational conflict of interest mitigation plan, including the 
creation of firewalls around certain types of information. Boeing's 
established firewall procedures cover Government Sensitive Information 
(GSI) and Competition Sensitive Information (CSI). Boeing requires all 
employees/managers who may be involved in the FCS program to 
acknowledge that they will fully comply with the applicable firewall 
restrictions should they have access to GSI or CSI. Additionally all 
employees/managers involved in the evaluation of competitive 
subcontract source selection must sign a separate confidentiality form.
    Under the FCS program, the Army recommended that Boeing require 
Firewall provisions in subcontracts where access to GSI and CSI will 
occur. These subcontract firewalls establish thresholds to adequately 
safeguard information on all levels. In accordance with the Department 
of Defense best business practices, ``firewall'' procedures of the LSI 
and of the major suppliers are documented in writing and reviewed by 
the Army to ensure that proper strict segregation of information is 
maintained and that a level playing field is preserved. 

    10. Senator Sessions and Senator Lieberman. Secretary Bolton, we 
understand the FCS contract uses ``Other Transaction Authority (OTA)'' 
rather than traditional Federal Acquisition Authority contracting 
rules. Can you explain why the Army is using OTA in the management of 
the contract and how it intends to manage the program with this 
authority?
    Mr. Bolton. An OTA was chosen because it provides a continuation of 
the philosophy used for FCS CTD; a logical extension of effort in 
transition from the Defense Advanced Research Projects Agency to the 
Army and maximizes the flexibility to implement the FCS functional 
allocations and to make trades. The Army intends to transition from an 
OTA to Federal Acquisition Regulation (FAR) contract for production and 
deployment activities.
    What is an 845 Other Transaction?

        <bullet> Legally binding contractual agreement outside the FAR
        <bullet> Basic contractual requirements met--meeting of the 
        minds, legal purpose and exchange of consideration
        <bullet> Provisions are based on sound business judgment and 
        the needs of the specific acquisition--not imposed on a one-
        size-fits-all basis
        <bullet> Not authorized for production at this time
        <bullet> Typically cost reimbursement structure--profit allowed
        <bullet> Variant specifically authorized by statute for 
        prototype procurement

    11. Senator Sessions and Senator Lieberman. Secretary Bolton and 
General Casey, we understand that there are more than 150 complementary 
programs which must be funded in support of the Army's future force and 
FCS. Some of these programs are more important than other programs. For 
instance, the FCS network depends on the Joint Tactical Radio System 
and the Warfighter Information Network-Terrestrial for the 
communications architecture. Many of these complementary programs are 
not under the jurisdiction of the FCS program management office. What 
steps has the Army taken to ensure these complementary programs are 
synchronized with the FCS program?
    Mr. Bolton and General Casey. As part of the joint Army-OSD review 
and analysis process leading to a successful FCS Milestone B decision 
in May 2003, it became clear that, for the FCS program to succeed, 
other existing programs with systems essential to the system-of-systems 
employment concept for the FCS-equipped UA needed to be synchronized 
with FCS program development and fielding timelines. Accordingly, the 
Army, in coordination with OSD, has developed complementary systems 
management processes across multiple organizational levels. Within the 
FCS program, the Project Manager, Unit of Action (PM-UA) has partnered 
with the LSI to integrate complementary programs into the overall FCS 
program. Two types of arrangements are used as the primary mechanisms 
for ensuring synchronization when the FCS program identifies an 
existing or developmental program as having applicability to FCS--
associate contractor agreements (ACAs) and memorandums of agreement 
(MOA) or subordinate MOAs (SMOA). To secure contractor-to-contractor 
synchronization, the LSI develops ACAs with the prime contractor for 
each identified complementary program. To ensure government-to-
government synchronization, Program Executive Office, Ground Combat 
Systems (PEO-GCS) develops MOAs with other Program Executive Offices 
(PEOs) responsible for respective complementary programs and PM-UA 
develops SMOAs with program managers (PM) responsible for respective 
complementary programs. Within the Army, the Deputy Chief of Staff, G8 
and Military Deputy, Assistant Secretary of the Army (Acquisition, 
Logistics, and Technology) have established a complementary systems 
management and oversight process documented in a memorandum of 
agreement (MOA) signed in August 2003 [This is currently under revision 
to include the TRADOC Futures Center as ``tri-chair'' at every level of 
the synchronization effort]. This MOA established an Army Complementary 
Systems Synchronization Integrated Process Team (IPT) to synchronize 
the network, survivability, lethality, sustainability and training 
aspects of FCS with 1-, 2-, and 3-Star General Officer Steering 
Committees (GOSC) for review and approval of synchronization 
recommendations. Synchronization IPT recommendations that include 
adjustments to complementary program funding, scheduling, or 
performance requirements are provided to the Army Acquisition Executive 
(AAE) for review or resolution prior to implementation. Within OSD, FCS 
Defense Acquisition Executive Summary (DAES) reporting is now grouped 
together with key complementary system program DABS reporting to the 
DAB [i.e., FCS is now grouped together with Joint Tactical Radio 
Systems (JTRS), Warfighter Information Network-Tactical, Distributed 
Common Ground Station-Army]. If an FCS-UA Complementary System 
synchronization issue resides external to the Army and cannot be solved 
at the PEO level, the Army's Complementary Systems Synchronization IPT 
will meet with additional members included to represent their 
respective services/OSD organizations, as required. Once alternatives 
are assessed, the Synchronization IPT presents its recommendations to 
the AAB in preparation for convening an Overarching IPT (OIPT) or joint 
OIPT, depending on the issue, to assess and present a recommended 
course of action (COA). If the COA can be effectively instituted at the 
OIPT level, the DAB will be notified of the decision. If consensus 
cannot be reached, the OIPT will recommend convening a special DAB to 
bring the issue to closure. 

    12. Senator Sessions and Senator Lieberman. Secretary Bolton and 
General Casey, can failure to fund these programs derail any future 
system of system reviews for the FCS program?
    Mr. Bolton and General Casey. The Army recognizes the importance of 
key complementary programs to the development and fielding of FCS--
especially those supporting the FCS Network. Perturbations in any of 
these programs, whether due to resourcing adjustments or other causes, 
could incur unique impacts to the FCS Program, to include possible 
schedule impacts, requiring individual assessment and resolution. 
Accordingly, the FCS Program has established a robust risk mitigation 
strategy for those critical technologies and complementary systems that 
are on the FCS critical development path. The FCS Program is mitigating 
these technical risks through employment of a formal risk management 
process with OSD/DA oversight and through documentation of customer-
supplier relationships with FCS technology suppliers through written 
Technology Transition Agreements (TTA).
    The FCS Risk Management Program Plan lays out the methodology and 
processes used to manage programs for both FCS core critical 
technologies (CT) and FCS complementary programs (CP). Risk mitigation 
plans (RMP) have been developed, or are in the process of being 
developed, that address both technology maturation risk and system/
system-of-systems integration risks into the FCS Family of Systems 
(FoS) and the greater UA at the system-of-systems level. Where 
applicable, these RMPs contain technology ``off ramps'' or 
``tollgates''--specific decision points and criteria where decisions 
would potentially be made to use alternate, less risky (and potentially 
less capable) technologies and technology development and integration 
strategies--or, in the case of complementary programs, alternative 
complementary programs. Decisions to use these ``off ramps'' or 
``tollgates'' will be made based upon cost, schedule, performance, and/
or technology maturity criteria, and are included in many of the on-
going trade studies. The FCS program will execute the off ramps, as 
needed, when building the program technical baseline. However, the 
overriding consideration to any decision to execute an ``off ramp'' is 
to understand that the focus ultimately is not on these technologies or 
CPs and their respective alternatives (taken individually)--but in how 
each impacts the overall performance of the FCS system-of-systems 
construct.

    13. Senator Sessions and Senator Lieberman. Secretary Bolton and 
General Casey, the FCS network is the key aspect of the program that 
will make the current and future units of action more lethal and 
capable. Unfortunately, the two programs which will provide the 
communications backbone for the network, the Joint Tactical Radio 
System, and the Warfighter Information Network-Terrestrial, are not 
part of the FCS program. Are these two programs fully funded in the 
fiscal year 2005 budget request?
    Mr. Bolton and General Casey. The Joint Tactical Radio System and 
the Warfighter Information Network-Tactical are fully funded in the 
fiscal year 2005 budget request.

    14. Senator Sessions and Senator Lieberman. Secretary Bolton and 
General Casey, recently, an Army general stated that the Army and 
industry must do everything possible to give FCS capabilities for 
soldiers fighting terrorism now rather than waiting until 2010 when the 
Service will field the first FCS-equipped unit. What are the costs 
associated with accelerating these technologies, and are they funded in 
the fiscal year 2005 budget request? How will this effect the FCS 
program?
    Mr. Bolton and General Casey. Our materiel acquisition leadership 
understand the need to accelerate FCS and other future force 
technologies quickly into the current force to improve overall 
capabilities now rather than waiting until 2010. As such, on a case-by-
case basis, we do intend to look at the capability gaps that are 
emerging from current operations and take steps, where possible, to 
take FCS developing technologies and platforms and insert them where 
they, in fact, could fill these capability gaps early. Currently, 
because we are still in the process of identifying those FCS 
technologies and systems with the most potential for acceleration, we 
have not yet developed specific acceleration costs. As a result, these 
costs could not be included in the fiscal year 2005 budget request. 
Once technologies are identified for acceleration, we will take a 
holistic approach to determining what adjustments may need to be made 
to the FCS Program or other Army development programs to both 
accelerate designated technology and platform maturation as well as the 
fielding of these capabilities early to the current force.

    15. Senator Sessions and Senator Lieberman. Secretary Bolton, 
General Casey, and General Curran, we understand that the Army and the 
LSI are currently conducting trade studies for the final design of the 
FCS. When does the Army intend to make the final decision regarding 
these trade studies and at what point do these decisions impact the 
program schedule?
    Mr. Bolton and General Casey. Trades have been scheduled and 
prioritized based on need to support program decisions. Objective 3 is 
to have all identified trades completed by Preliminary Design Review 
(April 2005); some which do not have significant design implications 
could stretch slightly beyond.
    General Curran. The Army and LSI are not conducting assessments of 
``final designs'' at this time. We continue collaborating on design 
concepts leading to a few long-lead decisions needed by the Army, and 
to produce threshold design concepts for use at the design concept 
review to be conducted this summer. The Training and Doctrine Command 
(TRADOC) is an active participant and on track to support this effort 
and all associated technical and program reviews. The Department of 
Defense acquisition philosophy and FCS program describe a consistent 
and continuous definition of requirements. The FCS program is using the 
Joint Requirements Oversight Council-approved Operational Requirements 
Document (ORD) as the baseline for requirements. We are now updating 
the document based upon thresholds that were collaboratively developed 
by the Program Manager and LSI. Trade-off analysis and studies and 
trade-off determinations will influence the feasibility of these 
requirements thresholds. Future updates and the continued refinement of 
requirements will be timed to support key program milestones such as 
the Preliminary Design Review next year; the Design Readiness Review 
(Critical Design Review), in 2006; and the Initial Production Decision 
(IPD), 2008. ``Lock-in'' of requirements occurs at IPD with the 
capabilities production document (CPD) for the production of systems 
for the first FCS-equipped unit of action.

                                STRYKER

    16. Senator Sessions and Senator Lieberman. Secretary Bolton and 
General Casey, last year there was some doubt surrounding the 
Department's support for the Stryker Brigade Combat Teams (SBCT) 5 and 
6. However, the Secretary of Defense recently approved an Army plan 
which enhances the aviation, fire support, computer networks, and 
sensor capabilities of SBCTs 5 and 6, and retrofits brigades 1 through 
4 with newer technology as it becomes available. Are these enhancements 
funded in the fiscal year 2005 budget request and the FYDP? What is the 
cost? If not, how does the Army intend to fund these enhancements?
    Mr. Bolton. The Army's enhancements for SBCT 5 and 6 are designed 
to make the brigade more combined arms capable and joint interoperable. 
Sensors and shooters are key. Enhancements will augment capabilities in 
the areas of aviation, fires, network communications, and sensors. For 
aviation, the Army's original proposal was to field a package of 12 
Comanche helicopters to SBCT 5. With the recent cancellation of the 
Comanche program, the aviation addition to the SBCT enhancements is 
being revisited. In the area of fires, the Army is fielding the 
Lightweight (LW) 155 mm howitzer to SBCT 5 in fiscal year 2006, SBCTs 
1-4 in fiscal year 2008, and SBCT 6 in fiscal year 2009. The LW 155 
provides a lighter, more deployable, more mobile, more responsive, 
self-locating, digital firing platform that will fire precision 
munitions (Excalibur). Network communications enhancements include the 
fielding of Secure Mobile Anti-Jam Reliable Tactical Terminal (SMART-T) 
Satellite Communications terminals to each SBCT between fiscal year 
2005 and fiscal year 2007, 53 Tactical Operations Centers (TOC) to TOC 
JTRS for each SBCT that will be fielded between fiscal year 2007 and 
fiscal year 2009, and the single Shelter Switch Base Band Node (SSS-
BBN), Wide Area Network (WAN) that will be fielded to SBCTs 5 and 6 in 
fiscal year 2006 and fiscal year 2007. The research, development, test, 
and evaluation (RDT&E) and initial procurement for a 10-meter sensor 
mast for the brigade were also added. The mounted mast increases the 
SBCT's capability for target acquisition and identification from 
concealed positions. On December 8, 2003, the acting Secretary of the 
Army, Chief of Staff of the Army, and the Deputy Chief of Staff, G-8, 
briefed the Secretary of Defense on the Amy's proposed enhancements for 
SBCTs 5 and 6 as described above. The Secretary of Defense approved the 
Army's plan for the enhancement of the 5th and 6th SBCTs and authorized 
the Army to spend fiscal year 2004 funds on these brigades.
    The cost of these enhancements of SBCT 5 and 6 are fully funded as 
described in POM for fiscal years 0205-09. The retrofits of SBCT 1-4 
are also funded for LW 155, SMART-T, and JTRS. The SSS-BBN and mounted 
mast enhancements for SBCTs 1-4 are being addressed in POM 06-11. 
    General Casey. The Army's enhancements for SBCT 5 and 6 are 
designed to make the brigade more combined arms capable and joint 
interoperable. Sensors and shooters are key. Enhancements will augment 
capabilities in the areas of aviation, fires, network communications, 
and sensors. For aviation, the Army's original proposal was to field a 
package of 12 Comanche helicopters to SBCT 5. With the recent 
cancellation of the Comanche program, the aviation addition to the SBCT 
enhancements is being revisited. In the area of fires, the Army is 
fielding the LW 155mm howitzer to SBCT 5 in fiscal year 2006, SBCTs 1-4 
in fiscal year 2008, and SBCT 6 in fiscal year 2009. The LW 155 
provides a lighter, more deployable, more mobile, more responsive, 
self-locating, digital firing platform that will fire precision 
munitions (Excalibur). Network communications enhancements include the 
fielding of five SMART-T Satellite Communications terminals to each 
SBCT between fiscal year 2005 and fiscal year 2007, 53 TOC (Tactical 
Operations Center) to TOC JTRS for each SBCT that will be fielded 
between fiscal year 2007 and fiscal year 2009, and the SSS-BBN, WAN 
that will be fielded to SBCTs 5 and 6 in fiscal year 2006 and fiscal 
year 2007. The RDT&E and initial procurement for a 10-meter sensor mast 
for the brigade were also added. The mounted mast increases the SBCT's 
capability for target acquisition and identification from concealed 
positions. On December 8, 2003, the Acting Secretary of the Army, Chief 
of Staff of the Army, and the Deputy Chief of Staff, G-8, briefed the 
Secretary of Defense on the Army's proposed enhancements for SBCTs 5 
and 6 as described above. The Secretary of Defense approved the Army's 
plan for the enhancement of the 5th and 6th SBCTs and authorized the 
Army to spend fiscal year 2004 funds on these brigades.
    The cost of these enhancements of SBCT 5 and 6 and the retrofit of 
SBCT 1 thru 4 is $962 million.
    All of the enhancements for SBCTs 5 and 6 are fully funded as 
described in the POM for fiscal years 2005-2009. The retrofits of SBCT 
1-4 are also funded for LW 155, SMART-T, and JTRS. The SSS-BBN and 
mounted mast enhancements for SBCTs 1-4 are being addressed in POM 06-
11.

                           MOBILE GUN SYSTEM

    17. Senator Sessions and Senator Lieberman. Secretary Bolton and 
General Casey, we understand the Army has procured almost half of its 
Stryker vehicles under a low-rate production contract and will make a 
full-rate production decision this spring for the infantry combat 
vehicle variant. The Mobile Gun System (MGS) variant is currently in 
testing. Can you provide us with an update on the current status of MGS 
testing and whether the MGS will meet the Army requirement?
    Mr. Bolton and General Casey. MGS testing is currently on track to 
support a low rate initial production decision by September of this 
year. The limited user test we had planned to conduct in September 2003 
was postponed because of user concerns with system performance. We have 
since rectified these issues, with the exception of auto-loader 
reliability, which we expect to finish and demonstrate this week. 
Following the correction of these issues, the MGS successfully 
completed the first of a two-part force development exercise, which 
consisted of a live-fire exercise at Fort Lewis, Washington, in 
January. The next part is a force-on-force exercise scheduled for the 
end of this month at Fort Polk, Louisiana. We expect the MGS to perform 
well in this exercise. In addition, production qualification testing is 
over 50 percent complete and is ongoing at Aberdeen Proving Grounds, 
Maryland; and Yuma Proving Grounds, Arizona; as we speak. We expect to 
complete this testing in July 2004. To answer the second part of your 
question, the basic requirement for the MGS is to put a hole in a 
concrete wall through which infantry can pass. The MGS has shown that 
it can do this.

    18. Senator Sessions and Senator Lieberman. General Curran, has the 
Army explored alternatives that would meet the requirements for MGS 
should the platform fail testing?
    General Curran. We continue to have full confidence in the MGS. 
However, an alternative that would meet the requirements for MGS, 
should the platform fail testing, is the use of an Anti-Tank Guided 
Missile (ATGM) variant with a Tube-Launched, Optically-tracked, Wire 
guided (TOW) missile with bunker busting munition. This ATGM variant is 
currently in use in Operation Iraqi Freedom and proving to show some 
measure of success against the aforementioned target types. Additional 
analysis will be needed to refine this alternative should the need 
arise.

              LESSONS LEARNED FROM OPERATION IRAQI FREEDOM

    19. Senator Sessions and Senator Lieberman. General Curran, the 
deployment of the first SBCT in northern Iraq not only provides a 
unique capability for the Central Command but also provides the Army 
with an opportunity to test both near- and far-term operational 
concepts. Can you give us a sense of how lessons learned from Operation 
Iraqi Freedom (OIF) are influencing near- and far-term operational 
capabilities and requirements for SBCTs?
    General Curran. The Stryker has demonstrated its ability to be a 
highly reliable combat vehicle. It has been able to rapidly reach its 
destination and deliver soldiers rested and able to execute dismounted 
operations. With the organic equipment issued in the SBCT it is capable 
of interacting with all Army forces. Additionally, the SBCT in Iraq has 
been asked to cover an area of 450km x 150km which exceeds the expected 
doctrinal distance of 100km x 100km. Accordingly, this increase in 
battle-space has created a communication connectivity challenge. The 
planned enhancements/retrofits aligned with networks and sensors will 
focus on improving command, control, and communications thus, 
mitigating this challenge in the far-term.
    We continue to analyze the organizational construct to glean 
lessons to be spiraled either into other current force units, or into 
the future force. Examples include positive impacts of robust 
reconnaissance assets and increased situational awareness at lower 
tactical levels. We are also looking hard, from a Stryker platform 
perspective, at metrics such as the operational readiness rate and the 
mean miles between failure because of the unit's high operational 
tempo. Additionally, insights drawn from Operation Iraqi Freedom 
provide anecdotal underpinnings and support for many Future Combat 
System-equipped unit of action concepts and requirements such as Blue 
Force Tracking. Improvements will continue to be made based upon what 
we learn and will be applied accordingly to current or future force 
designs.

    20. Senator Sessions and Senator Lieberman. General Curran, how 
will these same lessons learned inform the design of the FCS-equipped 
unit of action?
    General Curran. The Army maintains an in-theater presence through 
the Center for Army Lessons Learned to capture lessons learned. 
Additionally, through interface with many stakeholders, including U.S. 
Central Command, we are able to draw insights from both Operation 
Enduring Freedom and Operation Iraqi Freedom. So far, the lessons 
learned have served to anecdotally underpin or support many future 
force unit of action and FCS concepts and requirements. Additionally, 
lessons learned have also influenced some refinement of concepts and 
requirements such as how to detect and neutralize improvised explosive 
devices, and our approach to mine detection concepts and requirements.
    Within the Training and Doctrine Command, the Futures Center, Unit 
of Action Maneuver Battle Lab, and others are reviewing lessons learned 
for application to concepts, Operational and Organizational plans, 
requirements documents, and operational architectures that support the 
unit of action integrated processes to identify gaps in concepts and 
requirements. Lessons learned have already informed the design of the 
future force and will continue to be examined for application to the 
future force.

                        RESURRECTION OF PROGRAMS

    21. Senator Sessions and Senator Lieberman. Secretary Bolton and 
General Casey, last year the Army cancelled 24 systems and restructured 
another 24 more in order to fund Army transformation. With the Army at 
war, new Army leadership has decided that the cancellation of programs 
in the current force had gone too far in some instances and has chosen 
to resurrect some of those programs. Chief among these is the M1A2 
System Enhancement Program (SEP) tank. Are there other programs that 
the Army is also considering resurrecting?
    Mr. Bolton and General Casey. No. The Army is not considering 
further ground system modernization/recapitalization beyond 3rd Armored 
Cavalry Regiment (3ACR) modernization efforts.
    The Army is currently executing affordable Abrams Tank and Bradley 
Fighting Vehicle (BFV) programs that provide selected armored forces 
within the Counterattack (CATK) Corps (4th Infantry Division, 1st 
Calvary Division, and 3ACR) with superior technology and a digitally 
enhanced warfighting capability. Most recently, the Army decided to 
continue recapitalization of the Abrams Tank in support of the 3ACR 
modernization. 4ID and 1CD will be equipped with M2/2A3 BFV, while 3ACR 
will be equipped with the M2/3A2 OIF BFV configuration. Procurement 
funding supporting 3ACR modernization is fiscal year 2004 through 
fiscal year 2006. MIA2SEP and M2/3A2 OIF fielding for 3ACR will occur 
in 1QFY2006 through 2QFY2007.

    22. Senator Sessions and Senator Lieberman. Secretary Bolton and 
General Casey, how does the Army intend to solve the combat 
identification problem to prevent or minimize fratricides?
    Mr. Bolton and General Casey. We have fielded thousands of quick 
fix combat identification devices to the deployed forces supporting 
Operation Iraqi Freedom/Operation Enduring Freedom (OIF/OEF), and we 
continue to work hard in the development of more advanced combat 
identification solutions. One of our primary concerns is the capability 
of solutions to work in a joint, multifaceted operational environmental 
(ground-to-ground, air-to-ground, ground-to-air, and air-to-air). We 
recently conducted a three-star general officer level Army/Marine Corps 
board including participants from all Services to review combat 
identification. Based on their recommendations, we are beginning a 
joint effort with the Marine Corps to determine the best solution set 
and investment strategy for the future combat identification needs of 
both Services. Our view continues to be that the cornerstone of an 
effective combat identification solution is a combination of improved 
situational awareness and target identification. Technology is 
important. We are making significant investments in combat 
identification in the technology base, but other elements, such as 
doctrine, training, tactics, techniques and procedures, organizations, 
and leadership are also important pieces. The joint effort we have 
undertaken with the Marine Corps will consider all of these elements. 
Regarding OIF/OEF, we have redirected significant funding from other 
Army programs over the past two years to provide thermal and infrared 
combat identification devices to forces in Iraq and Afghanistan. These 
devices enable forces equipped with forward-looking infrared (FLIR) and 
night vision devices to identify other friendly forces. Our budget 
request includes funding to continue fielding these devices to new 
force rotations deploying to the Iraq and Afghanistan theaters. We are 
also leveraging the combat identification capabilities of digitized 
systems and improved optical systems. We have integrated the Force XXI 
Battle Command Brigade and Below system with satellite-based blue force 
tracking to provide situational awareness information for key leaders 
in Army, Marine Corps, and coalition ground units in Iraq and 
Afghanistan. Fratricide prevention training has been ingrained into 
institutional, individual, and collective unit level training 
environments. To sharpen soldier visual identification skills, we have 
issued an interactive vehicle-recognition training device called 
Recognition of Combat Vehicles (ROC-V). ROC-V is a computer-based 
training system that soldiers may use to improve on individual vehicle 
identification skills. We consistently upgrade and expand the library 
of vehicle images in ROC-V. The fielding of improved optical systems 
that incorporate advanced FLIR technology, such as Second Generation 
FLIR, Long Range Advanced Scout Surveillance System (LRAS3), and 
Thermal Weapon Sights (TWS) enable soldiers to detect and visually 
identify ground targets with greater fidelity and at greater ranges 
than was ever possible in the past. We will continue to give this 
problem the highest priority until we have the right set of solutions 
in the hands of soldiers.

    23. Senator Sessions and Senator Lieberman. Secretary Bolton and 
General Casey, will the Army resurrect the Battlefield Combat 
Identification System program that the Army cancelled in prior years?
    Mr. Bolton and General Casey. The Army does not plan to resurrect 
the Battlefield Combat Identification System (BCIS) program. The BCIS 
program was cancelled primarily due to affordability concerns 
associated with the following factors: cost of the basic hardware (B-
Kit); cost to integrate the system on vehicles (A-Kit), particularly 
the Abrams and Bradley; and the large number of vehicles we would have 
to equip to ensure that the system would be effective from an 
operational standpoint. While we have no plans to resurrect the BCIS 
program, we continue to have interest in the millimeter wave technology 
that was developed in the BCIS program, and continue to pursue a 
millimeter wave-based combat identification concept, along with other 
technology concepts, in the technology base. This millimeter wave 
technology base effort, called Battlefield Combat Identification Device 
(BTID), was initiated in 2001 prior to the cancellation of the BCIS 
program as part of a Coalition Combat Identification Advanced Concept 
Technology Demonstration (CCID ACTD). The CCID ACTD is focused on 
developing combat identification solutions that are more affordable 
than BCIS and which are interoperable without NATO allies. BTID 
prototypes are currently undergoing government technical testing in the 
CCID ACTD and will undergo operational demonstrations in fiscal year 
2005 along side similar millimeter wave candidates developed by the 
United Kingdom and France. Our fiscal year 2005 budget request includes 
technology base funding required to support the United States share of 
the operational demonstrations, as well as research, development, test, 
and evaluation funding to support cost-reduction efforts on BTID. 
Results from the operational demonstrations will be used by the Joint 
Forces Command to render joint military utility assessments on each 
nation's system. The assessments will assist in the Army's 
determination of any future efforts on BTID.

    24. Senator Sessions and Senator Lieberman. Secretary Bolton and 
General Casey, does the Army intend to continue to limit 
recapitalization and selective modernization of equipment to two 
divisions and the armored cavalry regiment of the counterattack corps 
or will that program be extended to the rest of the force?
    Mr. Bolton and General Casey. Yes. The Army continues to limit 
recapitalization and selected modernization efforts. The Army is not 
considered further ground system modernization/recapitalization beyond 
the already identified two division and the 3ACR modernization efforts.
    Most recently, the Army decided to continue recapitalization of the 
Abrams Tank in support of 3ACR modernization. 3ACR will be equipped 
with the MIA2 SPOE tank commensurate with the 1st Cavalry Division 
(1CD) and 4th Infantry Division (4ID). 4ID and 1CD will be equipped 
with the M2/3A2 Operation Iraqi Freedom BFV configuration. Procurement 
funding supporting 3ACR modernization is fiscal year 2004 through 
fiscal year 2006. MIA2 SEP and M2/3A2 OIF fielding for 3ACR will occur 
in the first quarter fiscal year 2006 through the second quarter fiscal 
year 2007.

          CURRENT AND FUTURE ARMY REQUIREMENTS AND PRIORITIES

    25. Senator Sessions and Senator Lieberman. Secretary Bolton, 
General Casey, and General Curran, in your professional judgment, does 
the Army's current requirements determination and prioritization 
process meet the needs of the Army? If not, how do you intend to 
address your concerns?
    Mr. Bolton and General Casey. Yes, the Army develops and 
prioritizes its warfighting requirements utilizing the processes 
outlined in the Joint Capabilities Integration and Development System. 
The Army's requirements determination process will provide a current 
and future army capable of success in any contingency from humanitarian 
assistance to full tactical operations in joint and combined 
environments. The Army's process will be responsive to the urgent 
material requirements of the deployed warfighter, as well as project 
the full set of doctrine, training, leader development, organizational, 
material, and soldier requirements for the Army to be mission capable 
in current and future operations.
    General Curran. Yes, it does. Within the TRADOC, the Army Futures 
Center will lead the Army in developing all aspects of doctrine, 
organization, training, materiel, leadership and education, personnel, 
and facilities (DOTMLPF) solutions to meet the requirements of a 
modularized Army.
    To fully realize the contribution of Army capabilities to the joint 
fight, we now work through the Joint Capabilities and Integration and 
Development System (JCIDS) to articulate Army capability requirements. 
JCIDS is the top-down process involving functionally-focused teams 
centered on developing required capabilities and effects rather than 
systems. TRADOC executes the JCIDS process by analyzing Army 
warfighting concepts derived from strategic guidance, the Joint 
Operations Concept and subordinate joint operating, functional, and 
integrating concepts. These concepts describe how the future force will 
operate, the conditions and environment in which it must operate, its 
required capabilities in terms of missions and effects, and its 
defining physical and operational characteristics. We analyze these 
required capabilities to isolate the tasks, conditions and standards 
that the force must perform. We assess these tasks to determine gaps in 
capability that pose sufficient operational risk to constitute a 
capability need requiring a solution.
    Our challenge is to identify desired warfighting capabilities and 
balance the application of resources between current modernization and 
the future force. Through the Futures Center we develop a broadly based 
integrated vision of future requirements, both Army and joint. We 
integrate the development of Army and joint doctrine for needed 
capabilities, and support the Army in resource development and in the 
acquiring the DOTMLPF means of producing capabilities. Current and 
future combatant commanders require that these capability and 
prioritization decisions be made in a joint context, informed by our 
Nation's goals and objectives. The Department of Defense, with the Army 
in full support, continues to fine tune the planning and programming 
processes so that prioritization decisions support both current and 
future operations, and most importantly, in a joint context. We are 
aggressively seeking analysis, backed with the best joint 
experimentation, combined with threat assessments to drive our 
decisionmaking processes.

    26. Senator Sessions and Senator Lieberman. Secretary Bolton, 
General Casey, and General Curran, what impact have the lessons learned 
from Operations Enduring Freedom and Iraqi Freedom had on near- and 
far-term requirements?
    Mr. Bolton and General Casey. The Army has systematically captured 
all emerging requirements from OIF/OEF operations and is currently 
analyzing them across all Doctrine, Training, Leader Development, 
Organizational, Material, and Soldier (DTLOMS) domains. All 
requirements will be operationally based, and joint capabilities 
focused, as they are developed to support the combatant commander's 
operational capabilities gaps. A material requirement will only be 
developed for a capability gap only after all DTLOMS solutions are 
deemed unable to solve the required capability.
    General Curran. The Army maintains an in-theater presence through 
the Center for Army Lessons Learned to capture lessons learned. 
Additionally, through interface with many stakeholders, including U.S. 
Central Command, we are able to draw insights from both Operation 
Enduring Freedom and Operation Iraqi Freedom. The SBCT provides a good 
example of the impact of lessons learned. The Stryker has demonstrated 
its ability to be a highly reliable combat vehicle. It has been able to 
rapidly reach its destination and deliver soldiers rested and able to 
execute dismounted operations. With the organic equipment issued in the 
SBCT it is capable of interacting with all Army forces. Additionally, 
the SBCT can conduct information and voice information exchange with 
other services command, control, communications, computers, 
intelligence, surveillance, and reconnaissance (C\4\ISR) equipment at 
varying levels depending on distance.
    We continue to analyze the SBCT organizational construct to glean 
lessons to be spiraled either into other current force units, or into 
the future force. Examples include positive impacts of robust 
reconnaissance assets and increased situational awareness at lower 
tactical levels. We are also looking hard, from a Stryker platform 
perspective, at metrics such as the operational readiness rate and the 
mean miles between failure because of the unit's high operation tempo. 
Finally, insights drawn from Operation Iraqi Freedom provide anecdotal 
underpinnings and support for many Future Combat System-equipped Unit 
of Action concepts and requirements such as Blue Force Tracking. 
Improvements will continue to be made based upon what we learn and will 
be applied accordingly to current or future force designs.
    So far, the lessons learned have served to anecdotally underpin or 
support many future force UA and FCS concepts and requirements. 
Additionally, lessons learned have also influenced some refinement of 
future force concepts and requirements such as how to detect and 
neutralize improvised explosive devices, and our approach to mine 
detection concepts and requirements.
    Within the Army Training and Doctrine Command, the Futures Center, 
Unit of Action Maneuver Battle Lab, and others are reviewing lessons 
learned for application to concepts, operational and organizational 
plans, requirements documents, and operational architectures to 
identify gaps in concepts and requirements. Lessons learned have 
already informed the design of the future force and will continue to be 
examined for application to the future force.

    27. Senator Sessions and Senator Lieberman. Secretary Bolton, 
General Casey, and General Curran, have these lessons learned had an 
impact on Army priorities?
    Mr. Bolton and General Casey. Certainly, Since September 11, 2001, 
the Army's top priority has been to win the global war on terrorism. 
The experiences from the last 2\1/2\ years have refined specific 
priorities, to which the Army has responded. As we prepared for 
Operation Iraqi Freedom, the Army established priorities for 
supplemental funding to address urgent operational needs, such as 
Interceptor Body Armor, the Rapid Fielding Initiative, and Blue Force 
Tracking. Since then, our focus has shifted to the stabilization effort 
in Iraq and force protection, such as Uparmored High Mobility Multi-
Wheeled Vehicles, Aviation Survivability Equipment, and Add-on 
Ballistic Vehicle Armor. In each of these areas, the Army has adjusted 
its priorities within its base budget to expand and accelerate fielding 
of these key programs. Major high priority initiatives captured in the 
Army Focus Areas--the Soldier, Modularity, Active Component Rebalance, 
and Force Stabilization-Zero provide the changes necessary for the Army 
to successfully execute the global war on terrorism while ensuring our 
ability to provide the commanders of tomorrow with Joint and 
Expeditionary Forces with campaign qualities.
    General Curran. Yes. Generating more combat power, and thereby 
increasing rotational forces, is the Army's top priority. The lessons 
learned from recent and ongoing operations highlight the need to 
address this priority. Accordingly, the Army is creating modular 
brigade sized organizations to increase combat power and move us in the 
direction of Future Combat Systems equipped units of action. The Army 
is also implementing lessons learned to improve the training and design 
of future Army Aviation forces.
    Lesson learned encouraged us to reinvigorate training to ensure all 
soldiers embrace the warrior ethos. Lesson learned informed the 
rebalancing of Active and Reserve Forces to enhance the capabilities of 
both. Lessons learned are helping us to reset the force in order to 
best prepare for the future during this time of dynamic activity and 
change. Lesson learned guide us in our continuous improvement of leader 
development and education systems to better train, educate and grow 
leaders that are the centerpiece of a joint and expeditionary Army with 
campaign capabilities. Finally, lessons learned from OEF and OIF have 
highlighted both opportunities and needs for enhancing current forces 
while providing insights for future force development.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                              END STRENGTH

    28. Senator Inhofe. General Casey, a lot of controversy has 
surrounded the discussion of adequate end strength. As I understand the 
proposal from the administration, you plan to dramatically reorganize 
the Army while fighting this global war and do all of it with a 
temporary increase of up to 30,000 active duty soldiers. You plan to 
convert up to 10,000 soldier jobs to civilian jobs and you plan to pay 
for all of this with supplemental funding, which is never assured until 
it is passed. I am concerned that we are trying to do too much with too 
few resources. I have been told by several leaders in the Pentagon 
during my time in Congress that underfunding defense is easier to deal 
with than volatile up and down funding that leads to wasted money over 
time. Are we setting the Army up for this unsure, volatile funding by 
relying on supplementals to pay for reorganization and temporary troop 
increases?
    General Casey. The increase in authorized end strength is directly 
related to the global war on terrorism and is being made under 
emergency authority. Because the increase is temporary, we believe the 
supplemental appropriations are a proper funding approach. We are 
funding the military to civilian conversions from the base budget. We 
understand that we are taking on a lot and that there is potential for 
volatile funding conditions, but we cannot afford not to undertake 
these efforts now. The temporary increase and military to civilian 
conversions give us the flexibility to reorganize our combat 
formations. They are essential to our efforts to win the global war on 
terror and provide the combat ready ground force that the joint team 
needs.

    29. Senator Inhofe. General Casey, how confident are you in the 
accuracy of the cost estimates you project for the reset and 
reorganization of your forces? Are we going to see you cut 
modernization programs to pay for this reorganization over time if you 
get the cost estimates wrong?
    General Casey. The Army Staff, commanders in the field, and our 
training and doctrine community are working hard to get this right. We 
are fairly confident in our estimates and are continually fine-tuning 
them as plans evolve. We plan to use supplemental funding to pay for 
this effort to the degree it is related to the global war on terrorism. 
Clearly, reset is part of that effort. Reorganizing these units at the 
same time makes good fiscal sense and prepares them for any future 
missions for which we need them. We're constantly balancing the needs 
of the current force with the future. Modernization programs are key to 
our future force, and we do not intend to cut them.

                            FORCE STRUCTURE

    30. Senator Inhofe. General Casey, as part of your plan to 
restructure the Guard and Reserve you are going to reduce the force 
structure and keep the end strength. This sounds like a good plan. Do 
you plan to keep the Reserves fielded with the latest equipment under 
this new plan so that we do not create a have and have not situation?
    General Casey. The Army has maintained a high operational tempo 
because we are a fully engaged, ready, relevant, and reliable force 
supporting the Nation's global war on terrorism. Since recent world 
events indicate that the Army will continue to be engaged in and 
support a wide variety of contingency operations, equipment 
modernization and sustainment efforts must be a high priority in order 
to continue to successfully meet the full spectrum of operations. The 
Army's Reserve components provide essential support and critical 
expansion capability to enable the Army to sustain itself over any 
duration across the full spectrum of military operations. The increased 
operational tempo throughout all Army components and the limited new 
equipment procurement funding requires that the Army prioritize new 
equipment procurement to best meet the current and emerging world 
threats. Balanced modernization is part of the overall strategy for 
weighing current requirements against the need to transform continually 
to meet the changing world threats. It is critical that new equipment 
programmed for the Army Reserve is procured and distributed as planned. 
New equipment procurement funding is limited, but the Army will 
continue to equip and modernize its Reserve components along a timeline 
that ensures equipment remains interoperable and compatible with the 
active component and to keep pace with the Army's ongoing 
transformation efforts through new equipment procurements, the 
redistribution of equipment from the active component, and the 
recapitalization or rebuilding existing systems.

                          FUTURE COMBAT SYSTEM

    31. Senator Inhofe. General Curran, during my trip to California 
last week I saw your plans for the FCS. I am very impressed with the 
direction the Army is headed. My only concern is with survivability. 
How do you plan to provide adequate protection of soldiers in support 
vehicles in this new system?
    General Curran. Survivability of FCS is framed in the FCS 
Survivability key performance parameter (KPP) as a holistic approach 
that includes, but is much broader than ballistic protection. The KPP 
approved by the Joint Requirements Oversight Council states:
    Increment 1: The FCS Family of Systems (FoS) must provide essential 
protection to mounted and dismounted soldiers through the best 
combination of ground and air systems. Rationale: FCS-equipped unit of 
action characteristics of tactical dispersion and rapid offensive 
maneuver demand superior FCS FoS survivability against lethal and non-
lethal threats. Integrated survivability of the FCS FoS must provide 
essential protection to soldiers while they perform their mission of 
seeing first, understanding first, acting first, and finishing 
decisively. Soldiers and leaders must be able to see themselves, the 
enemy, and the environment. The holistic system of systems 
survivability concept uses active and passive capabilities to see the 
enemy, maneuver out of contact, and destroy the enemy at extended 
ranges or in close contact. Cornerstone enabling capabilities include 
networked battle command, integration of signature management, active 
and passive protection systems, Land Warrior, early and long-range 
acquisition and targeting, network lethality, obscurants, dash speed 
and degradation of enemy detection and targeting.
    The focus is on protection of soldiers through active and passive 
capabilities. The holistic system of systems survivability concept uses 
active and passive capabilities to provide manned FCS crews as much, if 
not more, protection than current systems with the exception the 
passive defense capabilities of the M1 Abrams tank; however, the M1 is 
not invulnerable, either. The FCS ORD and the FCS Program system-of-
systems specifications include specific thresholds for Manned Ground 
Vehicle (MGV) ballistic threats. Each FCS manned system must provide a 
best combination of detection avoidance, target acquisition avoidance, 
hit avoidance, ballistic protection, and kill avoidance. Specific 
metrics include protecting crews and passengers from life-threatening 
incapacitation resulting from: 14.5mm; 30 mm against frontal 60-degree 
arc; rocket-propelled grenade (RPG); ATGM; and high-explosive/high-
explosive anti-tank (HF/HEAT), as a threshold capability, and kinetic 
energy (KE) effects, as an objective capability.

    32. Senator Inhofe. General Curran, the combat vehicles like Non-
Line-of-Sight Cannon (NLOS-C) have what seems to be adequate armor 
protection but the resupply vehicles that bring the beans and bullets 
to the front line don't. Why?
    General Curran. The future joint operational environment will be 
non-contiguous and have no ``front lines.'' Essential to the 
survivability of our forces will be superior situational awareness and 
decisionmaking, based on advanced C\4\ISR capabilities embedded at all 
levels. Blue Force Tracking during Operation Iraqi Freedom provides a 
glimpse of the power of a networked force.
    Survivability is much broader than ballistic protection; the focus 
is on protection of all soldiers, including those who ``bring the beans 
and bullets.'' Adequate armor protection is only one part of 
survivability. Extensive, passive, heavy armament protection of all 
manned platforms is neither feasible nor affordable for a balanced, 
effective force. The Army has been and will remain a hybrid force with 
a mix of platforms for maneuver and support forces and protection for 
each will be addressed. The design of future forces consists of a 
careful balance of transportability, lethality, interoperability and 
survivability.
    The FCS remains the material centerpiece of the Army's future force 
commitment and will reduce the presence of soldiers required to perform 
sustainment functions. However, even if FCS meets all expectations, we 
will remain a hybrid force for the foreseeable future, and we continue 
to seek ways to improve all of the platforms we will operate. What we 
seek in the future is to prevent the past disparity in protection 
between vehicles designed for combat and those intended for support. 
Solutions will exist across the doctrine, organizations, training, 
material, leadership and education, personnel and facilities.
    Throughout, soldiers will remain the centerpiece of our formations. 
Embedding the warrior ethos during initial military training is an 
example of a non-material solution to improve soldier protection. The 
effects of changes in organizations, material, doctrine and facilities 
are additive. Those of training are multiplicative. Those of leadership 
are exponential. Simultaneous consideration of current and future 
requirements will be the integrating mechanism in all our change 
processes. Change is already underway at the Combat Training Centers 
(CTC). In very short order, the threat environment has been transformed 
to reflect the complexity and ambiguity experienced by our deployed 
forces, not only at the Joint Readiness Training Center, but also at 
the National Training Center.

                        NON-LINE-OF-SIGHT CANNON

    33. Senator Inhofe. General Casey, after the cancellation of 
Crusader in 2002, Congress passed a law that required the fielding of 
an NLOS-C system no later than 2008. Plans that I have seen do not 
field a cannon in the traditional sense of fielding by 2008. They show 
a pre-production model being produced in 2007 as part of a prototype 
unit.
    But neither the current budget for fiscal year 2004 nor the 
President's budget request for fiscal year 2005 seems to fund this 
strategy. The current acquisition contract has no provisions in it to 
produce such a unit. I am told that a letter recently sent to Congress 
asks the committees to consider the production of a prototype to be the 
``fielding'' mandated by law. The current program plan, contract, and 
funding seem inconsistent with each other and the law.
    It seems to me that asking the committees to change what the law 
means by ``fielding'' is counterproductive and will only delay the 
program. Shouldn't the Army be devoting its resources to resolving the 
technical issues and actually complying with the law, rather than 
trying to change what the law means?
    General Casey. The objective of the FCS program is to field an 
integrated combat capability at the unit level as opposed to developing 
individual systems. Central to this approach is the integrated 
development and acquisition of sensors, unmanned air and ground 
systems, and manned combat systems working together and connected by a 
network that provides increased combat effectiveness. The Army and the 
entire FCS development team are engaged in executing the integrated 
schedule and work plan that will achieve the objective of fielding 
transformational integrated capabilities in the shortest possible time.

    34. Senator Inhofe. General Casey, why aren't the resources needed 
to do this included in the President's budget for fiscal year 2005?
    General Casey. The NLOS-C is an integral and vitally important part 
of FCS. Accordingly we have made it the lead system of the FCS family 
of manned ground vehicles. It is the Army's position that embedding 
NLOS-C funding within the overall FCS program as approved by Congress 
in the fiscal year 2004 budget, enables the FCS system-of-systems 
approach. This plan includes completing requirements and functional 
reviews in 2004, completing preliminary design in 2005 and pre-
production design in 2006, leading to assembly and delivery of the 
initial pre-production NLOS-C in fiscal year 2007. The Army's three 
primary manned ground vehicle industry partners for FCS--Boeing, 
General Dynamics, and United Defense--support this approach.
    The NLOS-C funding profile, to include fiscal year 2005, is in 
accordance with the above strategy. Again, if this approach is not 
acceptable to Congress, the Army's only recourse is to seek 
congressional relief from the law.

    35. Senator Inhofe. General Casey, is there a way to satisfy the 
requirements of the law in regard to this stage of the program without 
changing what the law means?
    General Casey. No. To separate NLOS-C from the overall FCS 
development, at this time, would be detrimental to the complex 
integration effort so critical to the success of the FCS program. The 
NLOS-C design would not be compatible with the integrated 
architectures, to include sustainment, developed specifically for the 
unit of action. In order to fully field a system in the traditional 
sense would cause the creation of a new cannon program.

    36. Senator Inhofe. General Casey, what are your plans for the 
funding stream for the NLOS-C?
    General Casey. The funding stream necessary to support development 
of the NLOS-C as part of FCS system-of-systems development effort 
within the FCS development and demonstration phase is in accordance 
with the fiscal year 2005 President's budget.

                            STRYKER BRIGADES

    37. Senator Inhofe. General Curran, I am going to Iraq to see the 
Stryker brigade. I supported the development of the system. However, I 
have been concerned that the brigade does not have a self-propelled 
artillery piece. The system in place is towed while the rest of Stryker 
is self-propelled.
    Before Secretary Rumsfeld would support the last two Stryker 
brigades he challenged the Army to go back and enhance the capability 
for the 5th and 6th Brigades. The Army submitted a report that included 
Comanche as one of the proposed enhancements. With Comanche gone, it 
seems the addition of a self-propelled artillery system would be a 
capability. Is there a plan to provide an upgrade in capability to the 
Stryker brigade?
    General Curran. Planned enhancements to the Stryker brigades will 
incorporate still-developing technologies in the areas of aviation, 
fires, network communications, and sensors. The first enhancement will 
be to the communications networking in order to enhance satellite 
communications by offering high-speed compatibility and 
interoperability with the joint forces. Another enhancement will be to 
improve sensor capabilities within the Stryker brigade by adding 10-
meter masts on Stryker vehicles. The masts will allow soldiers to 
employ the sensor system from a concealed position and identify targets 
up to 10 kilometers away. The next generation enhancements to 
communications and sensors will improve soldiers' abilities to conduct 
command and control, communications, logistics, target acquisition and 
intelligence.
    Further, Stryker brigades 1 through 4 will each have 12 M-198 155mm 
howitzers. Army's current plan is that Stryker brigades 5 and 6 will be 
enhanced with 18 of the new lightweight 155mm howitzers followed by 
retrofits to SBCTs 1-4. The Army does not currently plan to provide a 
self-propelled howitzer capability within the Stryker brigades. 
Rotations for both Stryker brigades 1 and 2 to our National Training 
Center and Joint Readiness Training Center validated that the current 
in-lieu-ofs (M198 howitzers) provide the necessary fires capability 
required for the Stryker brigades. Most important, the Army continues 
to review performance of the Stryker brigades in order to identify 
necessary enhancements, as evidenced by the decision to apply selected 
enhancements to brigades 5 and 6, then retrofit the fleet. We will 
continue to do so in the future.

    38. Senator Inhofe. General Curran, which enhancements are funded 
and which enhancements are not funded?
    General Curran. The Army's enhancements for SBCTs 5 & 6 are 
designed to make the brigade more combined arms capable and joint 
interoperable. Sensors and shooters are key. Enhancements will augment 
capabilities in the areas of aviation, fires, network communications, 
and sensors. For aviation, the Army's original proposal was to field a 
package of 12 Comanche helicopters to SBCT 5. With the recent 
cancellation of the Comanche program, the aviation addition to the SBCT 
enhancements is being revisited. In the area of fires, the Army is 
fielding the LW 155mm howitzer to SBCT 5 in fiscal year 2006, SBCTs 1-4 
in fiscal year 2008, and SBCT 6 in fiscal year 2009. The LW 155 
provides a lighter, more deployable, more mobile, more responsive, 
self-locating, digital firing platform that will fire precision 
munitions. Network communications enhancements include the fielding of 
five SMART-T Satellite Communications terminals to each SBCT between 
fiscal year 2005 and fiscal year 2007, 53 TOCs to TOC JTRS for each 
SBCT that will be fielded between fiscal year 2007 and fiscal year 
2009, and the SSS-BBN, WAN that will be fielded to SBCTs 5 and 6 in 
fiscal year 2006 and fiscal year 2007. The RDT&E and initial 
procurement for a 10-meter sensor mast for the brigade were also added. 
The mounted mast increases the SBCT's capability for target acquisition 
and identification from concealed positions. All of the enhancements 
for SBCTs 5 and 6 are fully funded as described in POM 2005-2009. The 
retrofits of SBCT 1-4 are also funded for LW 155, SMART-T, and JTRS. 
The SSS-BBN and mounted mast enhancements for SBCTs 1-4 are being 
addressed in POM 2006-2011. On 8 December 2003, the acting Secretary of 
the Army, Chief of Staff of the Army, and Army G-8 briefed the 
Secretary of Defense on the Army's proposed enhancements for SBCTs 5 
and 6 as described above. The SECDEF approved the Army's plan for the 
enhancement of the 5th and 6th SBCTs, and authorized the Army to spend 
fiscal year 2004 funds on these brigades.

    39. Senator Inhofe. General Curran, doesn't something like the 
NLOS-C make sense as part of the enhancement package? It would give 
more crew protection and a much smaller crew size as well as increased 
lethality. Why can't an early version of NLOS-C be part of that 
enhancement?
    General Curran. Although the capabilities of the NLOS-C will be 
exceptional, and are appealing as a component of the Stryker brigade, 
fundamental to all our design efforts is the need to field effective 
systems of systems. The NLOS-C is an important component of the FCS and 
shares common FCS characteristics in areas such as communications and 
sustainment. The technical and support characteristics of the Stryker 
units are different than the characteristics of the NLOS-C system. 
Mixing the two types of systems, NLOS-C and Stryker, within one 
organization would reduce the capabilities of their respective families 
due to incompatibilities in force structure, sustainment, and 
communications. The Army would face significant demands on resources in 
order to redesign NLOS-C and Stryker platforms to make them compatible 
within their respective families of systems. In order to balance risk 
across the Army, early versions of NLOS-C will not be part of Stryker 
brigade enhancements.

    [Whereupon, at 4:09 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                       WEDNESDAY, MARCH 24, 2004

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                  NAVY AND AIR FORCE AVIATION PROGRAMS

    The subcommittee met, pursuant to notice, at 2:03 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Sessions, McCain, 
Chambliss, Lieberman, and Pryor.
    Majority staff members present: Regina A. Dubey, research 
assistant; Ambrose R. Hock, professional staff member; and 
Thomas L. Mackenzie, professional staff member.
    Minority staff members present: Daniel J. Cox, Jr., 
professional staff member; Creighton Greene, professional staff 
member; and Peter K. Levine, minority counsel.
    Staff assistants present: Andrew W. Florell, Sara R. 
Mareno, and Bridget E. Ward.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; Arch Galloway II, assistant to 
Senator Sessions; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Frederick M. Downey, assistant to Senator Lieberman; 
and Terri Glaze, assistant to Senator Pryor.

      OPENING STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. All right. We will commence our meeting, 
and we will have some other Senators join us before the 
subcommittee is concluded.
    Today, the Airland Subcommittee meets to receive testimony 
from a distinguished panel of witnesses to discuss those 
aviation programs which this subcommittee has oversight 
responsibility. We are pleased to have John Young, the 
Assistant Secretary of Navy for Research Acquisition and 
Development; Dr. Marvin Sambur, the Assistant Secretary of the 
Air Force--we are glad you are here. Vice Admiral John Nathman, 
Deputy Chief of Naval Operations for Warfare Requirements--it 
is good to see you. Lieutenant General Michael Hough, the 
Deputy Commander of Marine Corps for Aviation; and Lieutenant 
General Ronald Keys, the Deputy Chief of Staff of the Air Force 
for Air and Space Operations.
    Thank you, gentlemen, for taking time out of your schedule 
to be with us. We do have an oversight function, and we need to 
talk about some of the significant programs that are ongoing.
    Tactical aircraft from the Navy, Marine Corps, and Air 
Force have delivered spectacular performances in Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF). Air 
supremacy was never challenged in these operations, giving our 
ground forces freedom to maneuver, while also being able to 
call on our air assets to deliver precision-guided munitions 
(PGMs). These weapons have allowed our aircraft to stand off, 
beyond the range of lethal surface-to-air defenses. Instead of 
multiple aircraft being required to destroy a single target, 
now a single aircraft has the capability to destroy multiple 
targets.
    I want to extend my sincere appreciation to the brave men 
and women who have flown these missions, and to all those who 
support them. In fact, we seek not just air superiority but air 
domination. It is key to our whole defense strategy, it seems 
to me, and I am glad that we will have the opportunity to 
discuss whether or not we can maintain that.
    With the exception of the new F/A-18 Super Hornet, which 
first saw combat in Operation Iraqi Freedom, these missions 
were flown with legacy aircraft, most designed in the 1970s. 
New aircraft are in varying stages of development to replace 
these aircraft. The F/A-22 Raptor is in low-rate production and 
is preparing to begin its initial operational test and 
evaluation.
    The Joint Strike Fighter (JSF) is in system design and 
development. Further on the horizon are the joint unmanned 
combat air systems (JUCAS), whose concepts are being explored 
by the Defense Advanced Research Projects Agency (DARPA). One 
of the capabilities that is key to enabling not only our 
tactical aircraft, but also our long-range strike and mobility 
aircraft, is the aerial refueling delivered by a fleet of 
tanker aircraft. The subcommittee is interested in hearing 
about the progress of our programs' production rates to restock 
our inventories of precision-guided weapons, and progress to 
capitalize our fleet of tanker aircraft.
    In a hearing later this month, on March 30, the 
subcommittee will review the status of Army aviation programs. 
Last year, when this subcommittee received testimony, we were 
told the F/A-22 was going to begin its initial operational test 
and evaluation in October 2003. At that time, production 
deliveries of the aircraft were behind the contractual delivery 
dates by eight aircraft, and the aircraft was experiencing 
software stability problems. The JSF was starting its design 
reviews. The Navy and Air Force were on independent tracks in 
concept exploration for unmanned combat aerial vehicles 
(UCAVs). The subcommittee was aware that the Air Force was 
negotiating a proposal to lease KC-767 tanker aircraft, but no 
proposal had been submitted. So much has changed in this past 
year, and this hearing will be an opportunity to bring us up-
to-date.
    So thank you, again, gentlemen, for your service to your 
country. I have been thoroughly impressed with the intensity of 
interest, time, and effort everyone in the Defense Department 
has given to supporting our men and women in uniform in combat. 
You are making incredible sacrifices, also, to make sure that 
those soldiers, sailors, airmen, and marines have the finest 
equipment as soon as possible.
    I want to thank Senator Lieberman for his service as the 
ranking member on this subcommittee. He has a long history of 
dedicated service to the Senate. He has the respect of Senators 
on both sides of the aisle, and he is an expert and most 
knowledgeable on defense matters, and been most supportive of 
defense matters. It has just been a pleasure for me to work 
with him and to learn from him.
    Senator Lieberman.

            STATEMENT OF SENATOR JOSEPH I. LIEBERMAN

    Senator Lieberman. Thank you, Mr. Chairman, for your kind 
words. I wish you had had a vote in the Democratic presidential 
primaries. [Laughter.]
    But getting back to the subject----
    Senator Sessions. You are right about that.
    Senator Lieberman. Thank you. It has been a great honor to 
work with you, in truly bipartisan fashion, on this 
subcommittee to support our national security and the people 
who protect us every day.
    I want to join you in expressing gratitude to the witnesses 
for being here today, but also, through them, to pay tribute to 
the extraordinary heroism, professionalism, and effectiveness 
of the coalition Armed Forces presently engaged in Iraq. All 
those who are serving our country in the Middle East right now 
really represent the bravest and the brightest that our country 
has to offer. It makes our future a lot safer and better than 
it would otherwise be.
    It is against that backdrop of active duty, of continued 
bravery and exemplary performance, that you have convened this 
session, Mr. Chairman, of the Airland Subcommittee, to discuss 
the present and future of our aviation programs. It is an 
exciting and inspiring backdrop, indeed, and it does remind us 
every day, as I know it reminds those who are our witnesses 
today, of the importance of what we do. In this case, we have 
the honor and the opportunity in this subcommittee to begin, 
for the Senate and Congress, deliberation on matters that 
ultimately will result in lives saved, though that may be years 
down the road, in conflicts, some of which we can foresee today 
and others that are beyond our imagination. So this is 
important work that we are honored to be involved in.
    To that end, I appreciate the opportunity to speak to, 
listen to, and ask some questions of the witnesses. I want to 
mention a few of the areas that I am interested in. Some 
overlap with what the chairman has said.
    I do note, with dismay, that the testing of the F/A-22 
Raptor has been delayed yet again. I have been a strong 
supporter of this program as long as I have been here in the 
Senate. Last year at this time, the Air Force was predicting 
that the program, which is so essential to our continued 
American air superiority, would start operational testing and 
evaluation in October of last year. Since that time, there have 
been continuing problems with the F-22 in two major areas. 
First, delayed aircraft deliveries have slowed the progress of 
the development testing leading up to the initial operational 
test and evaluation. Second, problems with the aircraft's 
software have apparently proven harder to correct than 
anticipated. I want to hear from our witnesses today about how 
we are doing on both of those programs, and I hope that we will 
have some good news.
    Third, I am troubled that the JSF may have hit a snag since 
last year. The concerns that were expressed at the comparable 
hearing about a potential weight problem apparently have become 
real, and I do want to talk about that. It is also not 
encouraging that we are only 2 years into the system 
development and demonstration phase of the program, and are 
presented with a cost increase that is estimated from $33 
billion to more than $40 billion for development of the JSF. 
Such price inflation also usually means, unfortunately, that 
there will be increases in recurring production costs. In the 
threat environment we are operating in and the always 
constrained resource environment, we have to ask some important 
questions about that.
    Whichever the case, I really would urge the Services and 
the contracting team to do everything it possibly can--I am 
speaking here of the JSF--to fix the problem now, in such a way 
that it will not create a bow wave of further complications as 
we approach delivery dates. Hasty weight-reduction fixes that I 
have seen in my time here have been responsible for substantial 
cost increases in other aircraft developments later in the 
programs. I do not think any of us want to see that history 
repeated in the JSF program, which really is a very exciting 
transformational airplane.
    Was it Benjamin Franklin who said, ``Haste makes waste?'' 
But if not, it should have been. [Laughter.]
    But the point is that we really need you to get this fixed 
now, and then go forward together to develop this extraordinary 
airplane.
    Once again, I thank you, and I look forward to your 
testimony.
    Thank you, Mr. Chairman.
    Senator Sessions. Very good. We do have some questions to 
ask about those programs, and I thank you for those comments.
    Let's see, I believe Secretary Young and Secretary Sambur, 
you were going to present the statements. If you would do that, 
then we will ask some questions.

  STATEMENT OF JOHN J. YOUNG, JR., ASSISTANT SECRETARY OF THE 
NAVY FOR RESEARCH, DEVELOPMENT, AND ACQUISITION; ACCOMPANIED BY 
VADM JOHN B. NATHMAN, USN, DEPUTY CHIEF OF NAVAL OPERATIONS FOR 
  WARFARE REQUIREMENTS AND PROGRAMS; AND LT. GEN. MICHAEL A. 
   HOUGH, USMC, DEPUTY COMMANDANT FOR AVIATION, HEADQUARTERS

    Mr. Young. Mr. Chairman, Senator Lieberman, it is a great 
privilege to appear before the subcommittee to discuss the 
status of Navy and Marine Corps aviation programs and the 
fiscal year 2005 budget request. Admiral Nathman, the Deputy 
Chief of Naval Operations for Warfare Requirements and 
Programs, and Lieutenant General Hough, the Deputy Commandant 
for Aviation, are with me today on behalf of the Department of 
the Navy.
    Your Navy and Marine Corps team, as you noted, has 
performed in an exceptional manner in Operations Enduring 
Freedom and Iraqi Freedom that, last year, underscored the high 
return on your investment in combat readiness, our people, and 
our unique maritime warfighting capabilities. The fiscal year 
2005 request includes funds for 108 aircraft, reflecting our 
continuous successful efforts to increase the number of 
aircraft we are purchasing to recapitalize our fleet. Within 
these efforts, it is also important to improve how we buy 
aircraft and combat systems to recapitalize tactical aviation.
    Congress' steady calls for jointness and discipline in 
acquisition in support of new initiatives has enabled the 
Department of the Navy to take a different approach to 
contracts. I would like to emphasize some key examples.
    Congress' support of multi-year contracts for the F/A-18E/
F, KC-130J, and the E-2C have allowed us to stabilize budgets 
and work with our industry partners to control costs. The 
Department has also worked to link incentives to performance in 
order to measure and reward performance and focus management 
attention on problems. Such incentives have helped the H-1 
upgrade program recover from the Nunn-McCurdy breach. In new 
contracts, we have also worked to shift fees to the later 
phases of a program when we can appropriately measure and 
reward results.
    Secretary Sambur and I have worked together successfully on 
the Joint Tactical Radio System (JTRS), JSF, C\4\I systems, and 
other programs to create jointness in common programs between 
the Air Force, Navy, and Marine Corps.
    The fiscal year 2005 President's budget request balances 
continued recapitalization by obtaining new capabilities, and 
reducing operating costs, while simultaneously sustaining the 
legacy fleet of aircraft that are performing magnificently in 
current operations. We have also sought to fully fund our 
aircraft production programs, while adding funds to develop 
important new capabilities, such as JSF, the advanced Hawkeye, 
the E/A-18G, and the multi-mission maritime aircraft (MMA).
    The JSF, as you noted, will provide our Naval Forces with 
greater survivability, commonality, range, and capability. The 
air system preliminary design review was completed in June 
2003. The first F-135 production engine successfully began 
tests in October 2003. The short takeoff and vertical landing 
(STOVL) lift system will begin testing in April 2004. Over 70 
percent of the production drawings have been released for the 
first conventional takeoff and landing (CTOL) air vehicle. The 
Department decided to allocate approximately 1 additional year 
to the design effort in order to refine the three variant 
designs and deliver greater capability to the warfighter.
    The V-22 flight-test program is proceeding with discipline, 
and continues to successfully demonstrate that platform's great 
capability.
    The budget also provides funds to sustain the P-3 fleet and 
its high operating tempo, while also moving ahead with the 
development of the MMA to replace the aging P-3 fleet.
    Finally, the Broad Area Maritime Surveillance (BAMS) 
Unmanned Aerial Vehicle (UAV) system will provide a multiple 
sensor, persistent maritime ISR capability that will allow us 
to operate and monitor maritime and littoral areas. The 
Department has determined that at least three candidates can 
potentially meet the BAMS requirement, so the Navy is 
proceeding with a competitive program. All of these programs 
contribute to an integrated warfare strategy, which relies on 
knowledge, persistence, and precision to bring combat power to 
bear on an adversary at rates faster than the enemy's response 
and reaction times.
    Even as we plan for the future, we are also focused on the 
challenges of today. In support of the 1st Marine Expeditionary 
Forces (IMEF) return to Iraq taking place as we speak, the 
acquisition team has worked with IMEF to install aircraft 
survivability equipment on helicopters, to add armor kits to 
vehicles, and to provide systems to address the improvised 
explosive device threat.
    Secretary England directed the establishment of a 
formalized process, we call ``Operation Respond,'' to rapidly 
react to additional technological and materiel requirements 
generated by the deployed Marine Corps. A senior Navy and 
Marine Corps team, co-chaired by Lieutenant General Hanlon and 
myself, will review and coordinate technical and materiel 
solutions for deployed units' problems, and utilize the 
expertise throughout the Department of the Navy to expedite 
solutions to counter these threats.
    Mr. Chairman, out of respect for the subcommittee, I will 
stop, leaving much more to say. You and the members of the 
subcommittee have been key factors in all of this progress. I 
offer my great thanks on behalf of myself, the Department, and 
the sailors and marines who will rely on the equipment we 
acquire. Congressional support for the Navy and Marine Corps 
aviation plan is essential to achieving the vision we have, and 
I thank you for your consideration of our requests.
    [The joint prepared statement of Mr. Young, Admiral 
Nathman, and Lieutenant General Hough follows:]

   Joint Prepared Statement by Hon. John J. Young, Jr., VADM John B. 
           Nathman, USN, and Lt. Gen. Michael A. Hough, USMC
    Mr. Chairman, distinguished members of the subcommittee, thank you 
for this opportunity to appear before you to discuss the Department of 
the Navy's fiscal year 2005 Acquisition and Research, Development, 
Test, and Evaluation (RDT&E) programs.
    Your Navy and Marine Corps Team's outstanding performance in the 
global war on terrorism and Operations Enduring Freedom (OEF) and Iraqi 
Freedom (OIF) last year underscored the high return on your investment 
in our combat readiness, our people, and our unique maritime 
warfighting capabilities. Your return on investment included the lift 
for 94 percent of the Nation's joint warfighting capability and more 
than 8,000 naval combat sorties in support of OIF. It demonstrated the 
latest technology in surveillance, command and control and persistent 
attack operating from sovereign U.S. territory and exploiting the vast 
maneuver space provided by the sea.
    The global war on terrorism, OEF and OIF demonstrated the enormous 
contributions Naval Forces make to the effectiveness of joint and 
coalition forces. Analyses of these conflicts indicate that the 
warfighting concepts, capabilities development process, and advanced 
technologies we are pursuing in our Naval Power 21 vision are on the 
right vector. Experimentation with forward deployed Expeditionary 
Strike Groups has increased credible global combat capability with 
which to fight the war on terror and project power. We have leveraged 
OIF experience to implement the Fleet Response Plan (FRP)--increasing 
the number of Carrier Strike Groups (CSG) deployed or readily 
deployable. The Navy and Marine Corps Team now faces a rare inflection 
point in history with technological infusions and several new ship 
classes coming on line within the next few years. This year, we will 
pursue distributed and joint networked solutions that could 
revolutionize our capability. With the fiscal year 2005 budget request 
we intend to:

        <bullet> Shape the 21st century workforce and deepen the growth 
        and development of our people, and
        <bullet> Accelerate our investment in Naval Power 21 to 
        recapitalize and transform our force and improve its ability to 
        operate as an effective component of our joint warfighting 
        team.
        developing transformational joint seabasing capabilities
    The Naval Power 21 vision defines the capabilities that the 21st 
century Navy will deliver. Our overarching transformational operating 
concept is seabasing; a national capability, for projecting and 
sustaining naval power and joint forces that assures joint access by 
leveraging the operational maneuver of sovereign, distributed, and 
networked forces operating globally from the sea. Seabasing unifies our 
capabilities for projecting offensive power, defensive power, command 
and control, mobility and sustainment around the world. It will enable 
commanders to generate high tempo operational maneuver by making use of 
the sea as a means of gaining and maintaining advantage.
    Sea Shield is the projection of layered defensive power. It seeks 
maritime superiority to assure access, and to project defense overland.
    Sea Strike is the projection of precise and persistent offensive 
power. It leverages persistence, precision, stealth, and new force 
packaging concepts to increase operational tempo and reach. It includes 
strikes by air, missiles, and by maneuver by Marine Air Ground Task 
Forces (MAGTF) supported by sea based air and long-range gunfires.
    Sea Base is the projection of operational independence. It provides 
the Joint Force Commander the capability to retain command and control 
and logistics at mobile, secure locations at sea and enables 
Expeditionary Maneuver Warfare and Ship-To-Objective-Maneuver (STOM).
    FORCEnet is the operational construct and architectural framework 
for naval warfare in the joint, information age. It integrates 
warriors, sensors, networks, command and control, platforms and weapons 
into a networked, distributed combat system.
    Sea Trial is the Navy's recently created process for formulating 
and testing innovative operational concepts, most of which harness 
advanced technologies and are often combined with new organizational 
configurations, in pursuit of dramatic improvements in warfighting 
effectiveness. Sea Trial concept development and experimentation (CD&E) 
is being conducted in close coordination with the Marine Corps combat/
force development process and reflects a sustained commitment to 
innovation. These efforts tie warfare innovation to the core 
operational challenges facing the future joint force.
    Sea Enterprise is the flagship effort for freeing up additional 
resources to support military transformation initiatives through 
streamlining naval business processes. Involving the Navy headquarters, 
the systems commands and the Fleet, Sea Enterprise seeks to improve 
organizational alignment, refine requirements and reinvest savings to 
buy the platforms and systems needed to transform the naval 
contribution to the joint force.
    As a means of accelerating our investment in Naval Power 21, we 
employ the Naval Capability Development Process (NCDP) and 
Expeditionary Force Development System (EFDS). The NCDP and EFDS take a 
concepts-to-capabilities approach to direct investment to achieve 
future warfighting wholeness. The NCDP takes a sea-based, offensive 
approach that provides power projection and access with distributed and 
networked forces featuring unmanned and off board nodes with 
penetrating surveillance via pervasive sensing and displaying that 
rapidly deliver precision effects. The EFDS assesses, analyzes and 
integrates MAGTF warfighting concepts, and requirements in a naval and 
joint context to support the overarching operational concept of Joint 
Seabasing. Both processes are designed to incorporate innovative 
products of service and joint concept development and experimentation 
(CD&E) and science and technology (S&T) efforts.
    The fiscal year 2005 budget request reflects the investments that 
will most improve our warfighting capability by developing and 
investing in future sea based and expeditionary capabilities for the 
Navy and Marine Corps.

                           AVIATION PROGRAMS

    The fiscal year 2005 President's budget request balances continued 
recapitalization in obtaining new capabilities and reducing operating 
costs while simultaneously sustaining the legacy fleet aircraft that 
are performing magnificently in current operations. Taking advantage of 
multi-year procurement (MYP) to achieve significant savings in 
procurement accounts, the Navy has entered, or will soon enter numerous 
MYP contracts that will define the future of weapons systems and 
further investment. The Department's fiscal year 2005 budget request 
will utilize MYP arrangements for the F/A-18E/F (both airframe and 
engine), the KC-130J and the E-2C to maximize the return on our 
investment. Our proposed plan will procure 44 tactical, fixed wing 
aircraft (42 F/A-18E/F, and 2 E-2C), as well as 8 MV-22, and 9 upgraded 
UH-1Y/AH-1Z helicopters. This plan also continues the development of 
the F-35, the E-2C Advanced Hawkeye, the EA-18G, Multi-mission Maritime 
Aircraft (MMA), and the Aerial Common Sensor (ACS) and initiates the 
Broad Area Maritime Surveillance (BAMS) Unmanned Aerial Vehicles (UAV) 
development.
Sea Shield
    Multi-mission Maritime Aircraft (MMA)/P-3C
    Current P-3 aircraft are flying in excess of 150 hours per month in 
support of OEF and OIF. This high flight utilization requires special 
structural inspections to keep the aircraft safely flying and the Navy 
has developed a comprehensive sustainment, modernization, and re-
capitalization plan for the force. The fiscal year 2005 budget request 
reflects $56.9 million for Special Structural Inspections (SSI) and 
Special Structural Inspections--Kits (SSI-K), which will allow for 
sustainment and continued operation of approximately 148 aircraft. The 
fiscal year 2005 budget request also reflects $53.8 million for ASW 
Improvement Program (AIP) to continue to meet COCOM requirements. To 
replace these critical aircraft, the Navy is procuring an MMA. The 
program is completing component advanced development (CAD) and in 
December 2003 received proposals for the System Development and 
Demonstration (SDD) contract from both competitors (Boeing with 737 
commercial derivative and Lockheed-Martin with Orion 21 military 
derivative). Evaluations of these proposals are ongoing to support down 
select to final system provider and contract award after Milestone B in 
May 2004. The fiscal year 2005 budget requests $496 million for 
continuation of SDD of MMA. Our comprehensive and balanced approach has 
allowed for re-capitalization of these critical assets.
    MH-60R and MH-60S
    The fiscal year 2005 budget requests $409 million in procurement 
and $79 million in RDT&E for the replacement and upgrade of Light 
Airborne Multi-Purpose System (LAMPS) MK III SH-60B and carrier-based 
SH-60F helicopters to the new configuration designated as MH-60R. 
Procurement quantity was reduced to mitigate delays in developmental 
and operational testing. Testing identified stability issues with the 
Multi-mode Radar (MMR) and software performance issues with MMR/IFF 
Interrogator, electronic support measures and acoustic systems. Fiscal 
year 2005 funding will fully support a revised procurement profile.
    The fiscal year 2005 budget requests $400 million in procurement 
and $81 million in RDT&E funds for the MH-60S, which is the Navy's 
primary combat support helicopter designed to support Carrier and 
Expeditionary Strike Groups. It will replace a number of legacy 
platforms with a newly manufactured H-60 airframe. The MH-60S program 
entered into a full rate 5-year MYP contract with the Army in September 
2002, for up to 237 aircraft. The fiscal year 2005 budget request 
supports the recently awarded MH-60 Common Cockpit MYP. The $423 
million contract delivers common cockpits for both MH-60R and MH-60S 
aircraft, saving the Navy up to $63 million.
    AIM-9X
    The fiscal year 2005 budget requests $35.2 million for 157 
missiles. AIM-9X was deployed to operational sites last summer after a 
successful LRIP 4 decision. Test asset availability that slowed the 
Operational Test was overcome, and the operational evaluation (OPEVAL) 
completed in late summer. The Full Rate Production decision is 
scheduled for March 2004.
Sea Strike
    F/A-18 E/F
    The F/A-18E/F is a significant step forward in improving the 
survivability and strike capability of the carrier air wing. The Super 
Hornet provides a 40-percent increase in combat radius, 50 percent 
increase in endurance, and 25 percent increase in weapons payload over 
our older Hornets. Three Super Hornet squadrons deployed during OIF as 
Fleet transition of the F/A-18E/F continues. The latest squadron to 
stand up is based with the carrier air wing forward deployed in Japan.
    The fiscal year 2005 budget requests $2.98 billion for 42 F/A-18 E/
F aircraft for the first year of the second 5-year MYP contract (fiscal 
year 2005 to fiscal year 2009). The Super Hornet has used a spiral 
development approach to incorporate new technologies, such as the Joint 
Helmet Mounted Cueing System, Advanced Targeting Forward Looking 
Infrared (ATFLIR), Shared Reconnaissance Pod System (SHARP) and 
Multifunctional Information Distribution System (MIDS) data link. Last 
year, the ATFLIR successfully passed the Full Rate Production (FRP) 
decision, while the Advanced Electronically Scanned Antenna Radar 
system received Low Rate Initial Production (LRIP) authority and the 
SHARP pod completed a successful early operational capability (EOC) 
onboard U.S.S. Nimitz with VFA-41.
    F-35 Joint Strike Fighter (JSF)
    Our recapitalization plan includes the JSF, a stealthy, multi-role 
fighter aircraft designed jointly to be an enabler for Naval Power 21. 
The fiscal year 2005 budget request contains $2.2 billion for 
continuation of SDD on the JSF. The JSF will enhance the Department of 
the Navy's precision strike capability with unprecedented stealth, 
range, sensor fusion, improved radar performance, combat ID and 
electronic attack capabilities compared to legacy platforms. CV JSF 
complements the F/A-18E/F and EA-18G in providing long range strike 
capability and much improved persistence over the battlefield. STOVL 
JSF combines the multi-role versatility of the F/A-18 and the basing 
flexibility of the AV-8B. The commonality designed into the JSF program 
will reduce acquisition and operating costs of Navy and Marine Corps 
tactical aircraft and allow enhanced interoperability with our Allies 
and sister Services.
    The JSF has completed the second year of its development program, 
and the program continues working to translate concept designs to three 
producible variants. The JSF development activities for propulsion, 
subsystems, avionics, and autonomic logistics have gone well. The Air 
System Preliminary Design Review was completed in June 2003, and the 
F135 First Engine to Test was successfully completed in October 2003. 
The airframe design effort, however, is taking longer and is more 
complex than had been originally anticipated. Additional design work is 
required to address technical issues, primarily weight projections, 
resulting in a SDD cost increase, SDD schedule delays, and a 1-year 
slip to starting LRIP to fiscal year 2007 vice fiscal year 2006. These 
technical issues have put pressure on our ability to meet several 
performance specification requirements as well as some [M.A.1] Key 
Performance Parameters. We believe current issues are solvable within 
normal parameters of design fluctuation and we are re-planning JSF SDD 
to make sure we succeed. Specifically, our SDD plan recognizes that 
STOVL performance is absolutely vital. As such, we are focused to 
ensure STOVL viability for our warfighters; aggressively pursuing trade 
studies to improve performance by reducing weight; and aggressively 
pursuing propulsion enhancements to improve performance. An independent 
review team is also examining the program to make sure we are following 
the correct path.
    V-22
    The fiscal year 2005 budget request includes $918 million for eight 
MV-22s and $304 million for continued testing and evaluation. The V-22 
Osprey resumed flight-testing in May 2002, and it has flown in excess 
of 1,500 hours. Flight-testing continues along an event-driven schedule 
and is going well. In August 2003, OSD directed the Services to reduce 
the number of aircraft from 20 to 17 in fiscal year 2006. Subsequently, 
the aircraft procurement ramp should increase by approximately 50 
percent per year and use the savings accrued from the production 
adjustments for reinvestment into program interoperability improvements 
and cost reduction initiatives.
    CH-53X
    The fiscal year 2005 budget requests $103.1 million RDT&E to begin 
the SDD phase of the CH-53X program. The Marine Corps' CH-53E continues 
to demonstrate its value as an expeditionary heavy-lift platform, with 
significant assault support contributions in Afghanistan, the Horn of 
Africa, and Iraq. Vertical heavy lift will be critical to successful 
21st century operations in anti-access, area-denial environments 
globally, enabling force application and focused logistics envisioned 
within the joint operating concepts. The CH-53E requires significant 
design enhancements to meet future interoperability requirements, 
improve survivability, expand range and payload performance, improve 
cargo handling and turn-around capabilities and reduce operations and 
support costs. An independent Analysis of Alternatives determined that 
a ``new build'' helicopter would be the most cost-effective solution. 
The Operational Requirements Document that will guide the development 
of this aircraft is in review. The CH-53X series aircraft will address 
our emerging heavy-lift requirements.
    F/A-18 A/B/C/D
    The fiscal year 2005 budget request contains $19.9 million for the 
continuation of the upgrade program for our F/A-18As. The Marine Corps 
continues to upgrade Lot 7-11 F/A-18As (with a program objective of 76) 
to Lot XVII F/A-18C aircraft capability as well as digital 
communications and tactical data link. The Marine Corps anticipates 
programmed upgrades to enhance the current capabilities of the F/A-18C/
D with digital communications, tactical data link and tactical 
reconnaissance systems. This upgrade ensures that our F/A-18s remain 
viable and relevant in support of Tactical Air (TACAIR) Integration and 
Expeditionary Maneuver Warfare. The Marines expect the F/A-18A to 
remain in the active inventory until 2015. The Marines are also 
exploring the feasibility of placing the Litening targeting pod on the 
F/A-18D aircraft. When combined with data link hardware from Predator 
UAVs, this pod provides real time video to the ground commander and 
serves as an interim solution to support real world operations until 
the ATFLIR pod is operationally fielded in sufficient numbers. This new 
start notification has been sent to Congress.
    Integrated Defensive Electronic Countermeasures (IDECM)
    The fiscal year 2005 budget reflects $13.4 million in RDT&E to 
continue the development of the IDECM Block III (ALQ-214 w/the ALE-55 
(fiber optic towed decoy)) that will support an fiscal year 2006 
OPEVAL. Additionally, $99 million in APN is included for the 
procurement of 38 ALQ-214 systems, and $9 million in procurement of 
ammo, Navy and Marine Corps (PANMC) for the procurement of 400 ALE-50 
towed decoys. ALE-55 procurement is scheduled for fiscal year 2006. 
Congress added $9 million to RDT&E, N in the fiscal year 2004 budget 
for the IDECM program. This funded resolution and testing of (then) 
remaining technical issues. As a result, OPEVAL was completed and the 
IDECM Block II OPEVAL Report was signed October 3, 2003, with both a 
finding of ``Operationally Effective and Operationally Suitable'', and 
a recommendation for fleet introduction. Initial operational capability 
(IOC) is planned for September 2004. Full Rate Production deliveries 
begin in fiscal year 2005.
    EA-18G
    The E/A-18G is the Navy's replacement for the EA-6B Airborne 
Electronic Attack aircraft and represents an entirely new way of 
looking at legacy aircraft replacement. Leveraging existing production 
capabilities at Boeing and Northrop Grumman, the Navy is using the F/A-
18E/F MYC to buy an additional quantity of `F' Aircraft, and marrying 
those airframes with Northrop Grumman's in-production Improved 
Capabilities (ICAP)-III Airborne Electronic Attack (AEA) system to 
produce the E/A-18G to replace the aging EA-6B aircraft. This allows us 
to deliver the next generation Airborne Electronic Attack capability at 
reduced cost and in the shortest possible timeframe. The Marine Corps 
is examining a range of possibilities that will provide the needed 
capability.
    The fiscal year 2005 budget request reflects $359 million for SDD 
leading to Critical Design Review currently planned for April 2005. 
During fiscal year 2004, EA-18G efforts focused on risk reduction and 
development activities concerning the integration of EA-6B Improved 
Capabilities (ICAP III) electronic attack technologies into the F/A-
18E/F air vehicle. The EA-18G was approved to enter SDD on December 18, 
2003, as an ACAT ID program. A total quantity of 30 systems will be 
procured in LRIP with a planned fiscal year 2009 IOC and fiscal year 
2012 FOC. The EA-18G will replace carrier-based Navy EA-6B aircraft by 
2012.
    AH-1Z/UH-1Y/Existing Marine Corps Helicopters
    The fiscal year 2005 budget requests $241.8 million APN funds to 
procure 9 UH-1Y/AH-1Z aircraft and $90.4 million RDT&E funds to 
complete the H-1 Upgrades test program. The Engineering and 
Manufacturing Development phase of the H-1 Upgrades Program to 
remanufacture 180 AH-1W and 100 UH-1N helicopters into state-of-the-art 
AH-1Z and UH-1Y models is progressing well. The development program is 
over 90 percent complete and the aircraft are meeting all Key 
Performance Parameters. Cost and schedule performance projections are 
tracking well to the Performance Measurement Baseline. LRIP Lot I was 
approved in October 2003, with the contract awarded to Bell Helicopter 
in December 2003. The technical performance of the flight test remains 
strong with the five flight test aircraft completing over 1,500 flight 
hours during combined contractor/government testing at Patuxent River, 
MD, and completing the Block ``C'' modification that added the Helmet-
Mounted Sight/Display and active elevator. The program is on track for 
a second Operational Assessment in March 2004, followed by an LRIP Lot 
II decision planned for August 2004.
    The Marine Corps continues to support its fleet of existing of UH-
1N, AH-1W, CH-53E, CH-53D, and CH-46E helicopters with numerous 
enhancements and Operational Safety Improvement Programs (OSIPs). As an 
example, the fiscal year 2005 budget requests $56.4 million for the CH-
46E T-58 Engine Reliability Improvement Program; this program will 
restore the capability of these engines to their original power 
specifications and reduce maintenance requirements.
    AV-8B
    The fiscal year 2005 budget requests $12.3 million RDT&E funds to 
support development of the Tactical Moving Map Display and the Engine 
Life Management Plan and $20.8 million APN funding for procurement of 
Open Systems Core Avionics Requirement (OSCAR) and Engine Life 
upgrades. The AV-8B we fly today is not the same aircraft that we flew 
10 years ago. Over the last decade, the Harrier has gone from a daytime 
air-ground attack aircraft to a night/adverse weather precision strike 
platform. The AV-8B Remanufacture Program not only updated the Harrier 
to a more capable and more reliable aircraft, but also provided an 
additional 6,000 hours of airframe life, making the AV-8B one of the 
newest airframes in the fleet. Today's AV-8B includes a night-attack 
avionics suite (Navigation FLIR, digital moving map, color displays, 
night vision goggle lighting), APG-65 multi-mode radar, a more powerful 
and reliable Pegasus (408) engine, and the Litening targeting pod. The 
AV-8B OSCAR program, currently in LRIP, will also add new Mission 
Systems and Warfare Management Computers, open systems architecture and 
commercial software and JDAM capability. Our AV-8B Harriers have flown 
extensively in support of Special Operations Forces in OEF, as well as 
during OIF last year. AV-8Bs demonstrated the expeditionary flexibility 
of short take-off/vertical landing (STOVL) aircraft while becoming the 
most forward deployed tactical aircraft in theater. Several Harriers 
employed Litening targeting pods with real-time video downlink 
capability that provided visual target verification by ground 
personnel. The Litening pods' inherent capability to laser designate 
targets for precision munitions also marked spots on the ground with 
infrared energy.
    EA-6B
    The fiscal year 2005 budget requests $51.7 million for Wing Center 
Section modifications and $53 million for procurement of 10 Improved 
Capability (ICAP) III systems. The aging EA-6B has been in ever-
increasing demand as the Department of Defense's (DOD) only tactical 
radar jamming aircraft that also engages in communications jamming and 
information operations. This demand has been particularly evident 
during OIF and OEF. Safety considerations, due to wing center section 
and outer wing panel fatigue have driven aircraft inventory (aircraft 
available to the fleet) from 95 to 71. Aircraft inventory is projected 
to return to above 90 by the first quarter of fiscal year 2006. 
Congress provided a $85 million supplemental in fiscal year 2004 that 
has accelerated the procurement and installation efforts to replace 
both wing center sections and outer wing panels. Priorities for this 
platform are current readiness and successful fleet introduction of 
ICAP III selective reactive jamming system. The Marine Corps expects to 
fly the EA-6B ICAP III until transitioning to a new electronic attack 
aircraft yet to be determined.
    Precision Munitions
    Precision-Guided Munitions (PGMs) are where the effects of decisive 
power ``from the sea'' are realized most clearly. From more than 870 
Tomahawks fired from more than 35 surface and subsurface combatants to 
thousands of other Navy PGMs deployed in OEF and OIF, PGMs provided key 
Navy combat strike power and lethality.
    The Navy made investments in PGMs to ramp-up production for OEF/OIF 
and subsequently support ongoing replenishment of needed wartime 
expended inventories. Due to the effectiveness of the Navy PGMs and the 
ways in which they were employed in combat, we did not use as many as 
we had expected. Therefore, we now find ourselves able to reduce the 
procurement rate for refilling our required inventories.
    The fiscal year 2005 budget request will continue to enhance the 
Navy's warfighting capability by supporting ongoing production 
programs, improving existing PGMs and establishing new programs. All of 
these PGM programs will facilitate continued domination in the maritime 
environment, support in-land operational forces and enhance the overall 
department strategy to deter and dissuade potential adversaries while 
supporting our allies and friends.
    Joint Standoff Weapon (JSOW). The fiscal year 2005 budget requests 
$9.5 million for development and integration of the Selective 
Availability Anti-Spoofing Module (SASSM), and $74.6 million for 
procurement of 216 JSOW-A missiles and $64.8 million for procurement of 
173 JSOW-C missiles. The fiscal year 2005 budget request supports 
continued production of the combat proven JSOW-A submunition variant 
and continued development of the new JSOW-C penetrator variant. We 
approved JSOW-C for LRIP in June 2003 and plan for Full Rate Production 
approval in 2004.
    Advanced Anti-Radiation Guided Missile (AARGM). The fiscal year 
2005 budget request of $61.5 million supports ongoing development of 
the next generation anti-radiation missile. It should be noted that 
recently, the AARGM successfully demonstrated its ability to ignore a 
friendly radar site yet destroy an enemy radar site that had shut down 
in an effort to avoid attack. Additional funding in the fiscal year 
2005 budget request enables acceleration of the IOC from fiscal year 
2010 to fiscal year 2009.
    Joint Common Missile (JCM). The fiscal year 2005 budget requests 
$82.8 million for JCM development. The fiscal year 2005 budget request 
reflects increased support for the development of the JCM that is 
planned for use by Navy, Marine Corps and Army aviation assets to close 
a capability gap in precision point attack for fixed-wing and rotary-
wing aircraft against time critical, moving and short-dwell relocatable 
targets. The Milestone B decision is planned for March 2004.
    Other Direct Attack PGMs. The fiscal year 2005 budget requests 
$151.2 million for procurement of Joint Direct Attack Munition (JDAM) 
Kits and $60.2 million for procurement of Laser Guided Bomb (LGB) Kits. 
The fiscal year 2005 budget request for other PGM hardware such as the 
JDAM and LGB kits reflects adequate support for the production of these 
essential combat-proven weapons.
  Tactical Tomahawk
    The fiscal year 2005 budget requests $256.2 million for 293 
missiles, an increase of $64 million and 75 missiles over the amount 
projected for fiscal year 2005 in the fiscal year 2004 budget. Tactical 
Tomahawk represents a tremendous improvement over the successful Block 
III Tomahawk cruise missile. The state-of-the-art components allow 
reduced response time, multiple pre-planned outcomes, and improved 
lethality and navigation improvements through innovations in 
manufacturing and production techniques. We have committed to replenish 
our precision-guided munitions inventories, and we will utilize a 
multi-year acquisition strategy to maximize the quantity of Tomahawk 
missiles procured. The Full Rate Production decision is on track for 
June 2004. Additionally, we are in the final stages of our second 
remanufacture program, converting all available older Tomahawk 
airframes to the latest Block III configuration. This effort will be 
complete in May of this year and will yield an additional 456 missiles.

Sea Base
    KC-130
    The fiscal year 2005 budget requests $324 million for four KC-130J 
Hercules aircraft. These aircraft will be procured as part of an 
existing Air Force MYC. The Marine Corps has taken delivery of 13 KC-
130J aircraft and has an additional 25 planned for procurement within 
the Future Years Defense Plan (FYDP). The KC-130 fleet once again 
proved itself as a workhorse during operations in Iraq. The KC-130J 
provides a major enhancement to this proven platform, extending its 
range, payload, and refueling capabilities. Bold steps in simulator 
training and joint flight instruction place the KC-130J program on the 
leading edge of the transformation continuum. Additionally, we have 
continued to ensure the tactical capability of our existing KC-130F, R 
and T series aircraft by installing night vision kits and upgraded 
Aircraft Survivability Equipment.
    C-40
    The fiscal year 2005 budget requests $65.4 million for one C-40 
(Boeing 737-700C). This aircraft replaces the aging C-9 providing 
intra-theater logistics support. The Navy has taken delivery of six 
with two more on contract. An additional six are planned for 
procurement in the FYDP.

FORCEnet
    E-2C and Advanced Hawkeye
    A critical enabler of transformational intelligence, surveillance 
and reconnaissance, the E-2C Advanced Hawkeye (AHE) program will 
provide a robust overland capability against current and future cruise 
missile-type targets. The AHE program will modernize the E-2 weapons 
system by replacing the current radar and other system components to 
maintain open ocean capability while adding transformational 
surveillance as well as theater air and missile defense capabilities.
    The fiscal year 2005 budget requests $248 million to procure one E-
2C and one TE-2C as the second year of a 4-year MYP. This effort will 
keep the production line viable while the E-2 AHE, formerly known as 
the Radar Modernization Program, continues spiral development toward an 
IOC in fiscal year 2011. Congressional notification of full funding and 
economic rate was sent in January 2004. The MYP contract was awarded on 
January 22, 2004. A critical enabler of transformational intelligence, 
surveillance and reconnaissance, the E-2C AHE program will provide a 
robust overland capability against current and future cruise missile-
type targets. The AHE program will modernize the E-2 weapons system by 
replacing the current radar and other system components to maintain 
open ocean capability while adding transformational surveillance as 
well as theater air and missile defense capabilities. The AHE program 
successfully entered the SDD phase in June 2003. Further, open 
architecture standards are being integrated into our E-2C aircraft and 
the AHE program to improve interoperability with DOD systems.
    Aerial Common Sensor (ACS)/EP-3
    The fiscal year 2005 budget requests $25 million for joint 
requirements for ACS aircraft development. ACS is a joint program with 
the Army that will replace the EP-3E aircraft. It will provide a 
transformational multi-intelligence platform capable of providing 
strike support and Direct Threat warning to the warfighter. The ACS is 
in a competitive source selection between Lockheed-Martin's Embraer 
145-CS and Northrop Grumman's Gulfstream 450 RC-20 and a source select 
decision is scheduled for May 2004. The Navy will report to a Milestone 
Decision Authority for an Interim Program Review in October 2004.
    Unmanned Aerial Vehicles (UAV)
    The global war on terrorism continues to place emphasis on the 
importance of UAVs. The fiscal year 2005 budget request reflects our 
commitment to a focused array of UAVs that will support and enhance 
both surveillance and strike missions with persistent, distributed, 
netted sensors. The Navy's UAV programs are focused on two areas.
    Broad Area Maritime Surveillance (BAMS) UAV. The fiscal year 2005 
budget requests $113.4 million for development of the BAMS UAV. The 
BAMS UAV program will meet the Navy requirement for a persistent 
intelligence, surveillance and reconnaissance (ISR) capability as well 
as address the growing ISR gap and the shortfall in maritime 
surveillance capability. The BAMS UAV System will be a force multiplier 
for the Fleet Commander, enhancing situational awareness of the battle-
space and shortening the sensor-to-shooter kill chain. BAMS UAV will 
work as an adjunct to the new MMA to provide a more affordable, 
effective and supportable maritime ISR option than current ISR aircraft 
provide. The BAMS UAV System is intended to be a Navy fleet asset for 
tactical users such as the ESG, the CSG and the Joint Forces Maritime 
Component Commander (JFMCC).
    Fire Scout UAV. The fiscal year 2005 budget requests $42.9 million 
to continue development of the Fire Scout UAV. The Fire Scout is a 
vertical takeoff and landing tactical UAV (VTUAV) designed to operate 
from all air-capable ships, carry modular mission payloads, and operate 
using the Tactical Control System and Tactical Common Data Link. The 
Fire Scout UAV will provide day/night real time ISR and Targeting as 
well as communication-relay and battlefield management capabilities to 
support core Littoral Combat Ship (LCS) mission areas of ASW, MIW, and 
ASUW for the Naval Forces. Upgrades will include four-bladed rotor, 
increased payload capacity, and weaponization to address small surface 
threats. Upgraded Fire Scout capability will be fielded with LCS Flt 1 
in fiscal year 2010. The Navy Fire Scout program plans coordination 
with the U.S. Army Future Combat System program.
    Marine Corps UAV. The Marine Corps continues to examine options for 
the sustainment and eventual replacement of its aging Pioneer fleet. 
Pioneer flew more than 2,350 hours in support of Operation Iraqi 
Freedom I, highlighting the criticality of these systems for our Marine 
forces. Requirements for vertical unmanned aerial vehicle (VUAV) are 
being developed in consonance with Ship to Objective Maneuver concepts 
from Expeditionary Maneuver Warfare and with lessons learned from 
recent operational experience.
    Joint Unmanned Combat Air System (JUCAS). The Department is 
committed to a JUCAS initiative, developed in partnership with the Air 
Force. The Navy and the Air Force have defined a common set of science 
and technology requirements that recognizes the unique needs of each 
Service. This work will support a competitive acquisition strategy for 
a JUCAS program.

Other Significant Capabilities
    T-45
    The fiscal year 2005 budget requests $254 million for eight T-45 
aircraft. The request also includes full funding for the Required 
Avionics Modernization Program (RAMP). A performance-based logistics 
contract was awarded to L3 COM Corporation for the airframe and Rolls 
Royce for the engine in July 2003. This enhanced performance-based 
logistics concept will provide cost wise readiness and save the DOD 
approximately 10 percent over the previous contract.
    Presidential Helicopter Replacement Aircraft (VXX)
    The fiscal year 2005 budget requests $777.5 million RDT&E for SDD 
efforts on the VXX program. The goal of this accelerated program is to 
introduce a new Presidential airlift aircraft by end of calendar year 
2008. The VXX program will utilize an evolutionary acquisition approach 
through a two-part incremental development to meet this need. The goal 
of the VXX development is to deliver a safe, survivable, and capable 
vertical lift aircraft while providing uninterrupted communications 
with all required agencies. To support the accelerated VXX program, the 
Department will award a SDD contract in the third quarters of fiscal 
year 2004.
       sea trial and sea enterprise in action: operation response
    In support of the I Marine Expeditionary Force's (I MEF) return to 
Iraq scheduled to begin March 2004, and in support of deployed Marines 
in Afghanistan, the Secretary of the Navy directed the establishment of 
a formalized process and action team, ``Operation Response,'' to 
rapidly respond to technological and materiel requirements generated 
from deployed marines. A senior Navy-Marine Corps team co-chaired by 
the Assistant Secretary of the Navy (Research, Development, and 
Acquisition) and the Deputy Commandant for Combat Development will 
review and coordinate technical and materiel requirements for deployed 
units and utilize the technical and engineering expertise throughout 
the Department of the Navy and industry to expedite the best solutions 
available to counter rapidly evolving threats. This process will 
leverage and expand the current roles and capabilities of our 
established requirements generation and materiel development and 
acquisition commands in order to better respond to innovative enemy 
threats.

Intelligence, Surveillance, and Reconnaissance (ISR)
    The Marine Corps will be rapidly fielding a number of systems to 
provide enhanced ISR capabilities in the theater of operations. These 
systems include Unmanned Aerial Vehicles (UAVs), such as Dragon Eye and 
an ONR developed vehicle, Silver Fox. A recent demonstration of the 
Scan Eagle UAV went very well and I MEF is preparing an Urgent Needs 
Statement for the system. The Marines also plan to employ aerostat 
balloons and possibly smaller, Army Rapid Equipping Force-derived 
platforms to provide persistent ISR coverage.

Aircraft Survivability Equipment (ASE)
    The Navy and Marine Corps aviation has partnered with industry to 
expedite the application of ASE on the Marine Corps rotary and fixed 
wing aircraft deploying to the CENTCOM area as part of the MEF's 
Aviation Combat Element (ACE). Rotary wing aircraft will have the 
requisite ASE installed by industry teams prior to their departure, 
enroute on ships, upon arrival in-theater, or shortly after their 
arrival in-theater. KC-130 aircraft, which were not planned to receive 
ASE upgrades, will now receive some ASE upgrades initially shortly 
after they arrive in-theater and additional design work is being 
completed for full upgrades to be applied while in-theater.

                                SUMMARY

    Our Naval Forces are unique in their contribution to the Nation's 
defense. Versatile naval expeditionary forces are the Nation's first 
responders, relied upon to establish the tempo of action, control the 
early phases of hostilities, and set conditions for decisive 
resolution. America's ability to protect its homeland, assure our 
friends and allies, deter potential adversaries, and project decisive 
combat power depends on maritime superiority. The transformation of 
Naval Forces is dedicated to greatly expanding the sovereign options 
available worldwide to the President across the full spectrum of 
warfare by exploiting one of our Nation's asymmetric advantages--
control of the sea. The transformation of our Naval Forces leverages 
enduring capabilities for projecting sustainable, immediately 
employable joint combat power by facilitating the accelerated 
deployment and flexible employment of additional joint capabilities 
through a family of systems and assets afloat. Our fiscal year 2005 
budget request seeks to accelerate our investment in Naval Power 21 to 
transform our force and its ability to operate as an effective 
component of the joint warfighting team. Congressional support of this 
plan is essential to achieving this vision--I thank you for your 
consideration.

    Senator Sessions. Thank you, Secretary Young, and we thank 
you, Admiral Nathman and General Hough, for your work.
    Secretary Sambur.

STATEMENT OF HON. MARVIN R. SAMBUR, ASSISTANT SECRETARY OF THE 
 AIR FORCE FOR ACQUISITION; ACCOMPANIED BY LT. GEN. RONALD E. 
KEYS, USAF, DEPUTY CHIEF OF STAFF FOR AIR AND SPACE OPERATIONS, 
                          HEADQUARTERS

    Dr. Sambur. Thank you, Mr. Chairman and Ranking Member 
Lieberman, for this opportunity to discuss with you and your 
Subcommittee the acquisition plans and status of our tactical 
weapons systems programs. I am particularly delighted to 
present a brief excerpt of my written statement, which, with 
your approval, Mr. Chairman, I hope to be made part of the 
official record.
    Senator Sessions. We will make that a part of the record, 
and Secretary Young's.
    Dr. Sambur. Thank you.
    The purpose of my statement is to provide some examples of 
the success we have achieved during the past year, both on 
selected acquisition programs, as well as in our agile 
acquisition initiatives. In the F/A-22 Defense Acquisition 
Board (DAB) this week, the acting Under Secretary of Defense 
for AT&L was ``very encouraged'' by the program's progress, and 
saw, ``no impediment to entering IOT&E in the April time 
frame.'' The program completed phase one of its operational 
testing on February 20. While the Air Force's Operational Test 
and Evaluation Center (AFOTEC) has not formally completed their 
analysis, the AFOTEC commander characterized the jet's 
effectiveness as ``very impressive.'' In particular, during 
recent training missions with simulated air-to-air engagement, 
a force of Raptors has been clearing the skies of adversaries 
in a matter of minutes. In trials pitting four F/A-22s versus 
eight F-15Cs, all adversaries were killed before a single 
missile could be launched from any of the F-15s, and that is 
our current number-one fighter.
    The program has also made tremendous strides improving 
avionics software stability. Avionics startup is no longer an 
issue, and total system reboots that plagued the program last 
year no longer occur. Overall stability has improved more than 
tenfold with the stability measure of effectiveness now 
exceeding the required threshold of 5 hours. The development 
program is nearing completion, and there are just a handful of 
final details required before beginning Initial Operational 
Test and Evaluation (IOT&E).
    While the F/A-22 production delivery rate is not yet to our 
satisfaction, we are implementing numerous producability 
improvements that have pointed us in the right direction and 
have resulted in a more credible replanned schedule. Having 
said that, we closely manage and monitor aircraft deliveries on 
a daily basis, to include how quickly the contractor is 
implementing the identified manufacturing improvements. We are 
very confident Raptor production will recover to the original 
schedule before Lot-4 deliveries.
    To add to the good news, we have reached verbal agreement 
on Lot-4 production for 22 jets, exactly on the required target 
price curve--that's good news--showing that program stability 
and management attention pay big dividends.
    On the munitions side, the Air Force successfully 
demonstrated the power-up, data-transfer, launch- and impact-
accuracy of 80--that's eight-zero--independently targeted 500-
pound JDAMs from a single B-2 bomber. In practical terms, this 
translates into the ability to destroy an entire enemy airfield 
in a single pass, or to attack up to 80 independent, individual 
targets on a given sortie. The JDAM program currently exceeds 
performance requirements, is under budget, and is on schedule 
to meet the Chief's required asset-availability date of 
November 2004. In addition, the JDAM program recently achieved 
the 3,000 kits-per-month milestone necessary to sustain peak 
consumption and replenish stock. This represents a twofold 
increase in production rate in a little more than 1 year.
    I am proud to report that JDAM and several other mission 
programs were also recognized last year with quality, 
acquisition, and engineering awards, including the William J. 
Perry Award and Aviation Week's 2004 Quality Center Award.
    I would like to shift gears and take a minute to highlight 
some of our acquisition initiatives. The goal for acquisition 
is simple: deliver what we promise when we promise. To that 
end, we are institutionalizing increased collaboration among 
the various acquisition entities so as to create an integrated, 
more effective acquisition enterprise. These policies have 
touched the requirements phase, the testing phase, and even 
that of development, technology development.
    Most significantly, late last year we took the first step 
in cementing true collaboration with the Air Force Materiel 
Command by moving the majority of our program executive offices 
to the field and assigning the Program Executive Officers 
(PEOs) responsibility to the Product Center commander. This 
movement and reassignment have clarified lines of 
responsibility and increased the speed and credibility of our 
acquisition programs. In accomplishing this realignment, the 
chain of acquisition authority flows through the PEO directly 
to my office, as the Assistant Secretary for Acquisition. By 
geographically co-locating the PEOs at the point where most of 
these programs are executed, we are enhancing our ability to 
deliver on acquisition promises.
    Finally, I would like to highlight some successful 
interactions I have had with Service counterparts in creating 
an environment of jointness. For example, as Secretary Young 
has said, we have worked together to merge two of the joint 
tactical radio systems developments into one. This merging 
should lead to assured interoperability and lower overall cost 
to both Services. In addition, just last week the Air Force 
hosted another major armament summit at Eglin with senior 
acquisition and operational leaders from all Services. Through 
collaborations such as this, we are seeking ways to ``join the 
swords,'' to make our armaments developments truly joint.
    In closing, I wish to reiterate that the Air Force 
acquisition has had a very successful year. I thank you, and I 
look forward to answering your questions, with General Keys, 
who is with me from the Acquisitions Operations part of the Air 
Force.
    [The prepared statement of Dr. Sambur follows:]

                Prepared Statement by Dr. Marvin Sambur

                              INTRODUCTION

    Thank you for this opportunity to discuss with you and your 
subcommittee today, the Air Force's Tactical Weapons Systems. I am also 
happy to report to you in this written statement, some of the successes 
and outstanding efforts of your Air Force Professionals as we strive to 
improve the way we do business, while transitioning critical technology 
to warfighting capability. General Keys and I are proud to come before 
you today and discuss our plan for maintaining the United States Air 
Force as the dominant air force in the world. We seek your committee's 
support. Together we can achieve the mutual commitment necessary for 
those critical programs that ultimately deliver on the promise of 
warfighting capability that ensure victory when necessary.
    Throughout the past year, we have made progress toward achieving my 
vision of a more efficient and effective acquisition process. Despite 
numerous challenges, we succeeded in developing new capability for, and 
in many instances transitioning that capability to, the joint 
warfighter. As I will shortly describe, my staff and I continue to seek 
ways to improve our approach to the acquisition process, 
institutionalizing an enterprising paradigm and enjoying individual 
successful outcomes along the way. In this manner, we do our part in 
serving our Nation's defense.
    We have continued to play a starring role in the Air Force core 
competency of turning technology into warfighting capability. The 
challenge, which we confidently embrace, remains doing so amidst the 
often-unpredictable dynamics of world events, business interests, 
technology maturation, and public support. Despite these challenges, I 
can assure you that we in the Air Force stand as committed as ever to 
meet those challenges of today, as well as tomorrow, and to follow the 
direction provided by our Secretary of Defense.

                        AGILE ACQUISITION UPDATE

    During similar testimony last year, I told of a mandate given me by 
the Secretary and Chief of Staff of the Air Force to change the way we 
in Air Force Acquisition do business. Our programs have all-too-often 
suffered from development cost and schedule overruns, which have in 
turn led to fielding delays, fewer production quantities, and even 
reduced capability. I identified and presented several root-cause 
factors that I believe can lead to poor program execution and 
subsequently laid out a series of policies instituted to address these 
underlying causes. These areas included unstable requirements, lack of 
test community buy-in, inadequate systems engineering, unstable 
funding, and faulty cost estimates. By getting a handle on these 
problems, our intent was, and still is, to bring back stability and 
credibility to our modernization efforts.
    The goal is simple, if difficult: deliver what we promise, when we 
promise. I am pleased to report on our progress this past year in 
addressing the areas identified above.

                       STAKEHOLDER COLLABORATION

    During similar testimony last year, I emphasized the importance of 
establishing and fostering collaboration as an enabling theme in our 
quest to achieve ``Agile Acquisition.'' We believe that greater 
cooperation among stakeholders in defining priorities and key 
requirements, especially as they inform development of a capability-
based acquisition strategy, is of paramount importance. For the first 
time ever, during the past year the Acquisition and Operations 
communities collaborated on simultaneous revisions to regulations 
governing their respective portions of the capabilities acquisition 
system. High Performance (Integrated Product) Teams (HPT) with members 
from all stakeholder organizations were formed to work on these 
efforts, synchronizing all the policies and making clear along the way 
that speed and credibility are the underpinning of what we do. The goal 
was simple: a seamless, collaborative process that smoothly implements 
the DOD 5000 series and the Joint Capabilities Integration and 
Development System (CJCSI 3170.01C). As might have been expected, we 
found that the very exercise of bringing these regulations into harmony 
has served to open vital lines of communications and collaboration that 
we expect to pay dividends in the future.
    In fact, General Keys and I have jointly signed out a policy 
statement that further stipulates how this collaborative environment 
will be put into practice. System acquisition management plans and 
acquisition strategies will be routinely developed using the HPT 
process. The responsible acquisition organization will convene the same 
HPT that initially developed the required operational capability to 
subsequently generate acquisition courses of action (COA) (COAs should 
contain: cost, schedule, contract strategy, spiral approach, etc.). 
Ultimately, we will call on Major Command (MAJCOM) commanders to commit 
to the COA that best addresses warfighter needs. We expect this 
environment to foster a mutual understanding of what is required, and 
what is possible.
    In January, I further operationalized the program execution end of 
this collaboration by instituting Capabilities Program Execution 
Reviews (CPER). The goal here is to provide timely information on 
program issues so that MAJCOM commanders can make informed decisions. 
During these CPERS, which will be held twice a year with each MAJCOM, 
we will identify program execution issues and develop corresponding 
options. We'll provide a proposed action and relate impacts to the 
master capabilities as identified in the Capabilities Review and Risk 
Assessment. The decision to institutionalize the CPER process was the 
result of positive feedback from last year's pilot sessions with Air 
Combat and Air Mobility Commands.
    A key aspect of the collaborative environment that has already been 
alluded to is an overall approach to straight talk that I have dubbed, 
``Expectation Management.'' With the belief that ``surprises'' can be 
kept in check when all stakeholders maintain realistic expectations, I 
have directed my Program Executive Officers (PEO) to identify program 
changes in a timely fashion, no matter what their source, communicate 
those changes to leadership and then drive new expectations. We can no 
longer allow changes in funding, requirements, or even schedule without 
documentation and stakeholder agreement on just what the effects on the 
program will be. Under the Expectation Management policy, we will no 
longer ``just work it out later.'' When fact-of-life changes occur, we 
will honestly assess the impact, document it, and along with all 
stakeholders, collaboratively agree on a way ahead.
    In addition to the operator-acquirer collaboration already 
discussed, we have also this past year fostered similar collaboration 
with the test community. Major General William Peck, Commander Air 
Force Operational Test and Evaluation Center (AFOTEC), and I have 
signed out a policy that calls for ``Seamless Verification'' of our 
modernization programs. Seamless Verification is designed to eliminate 
the seams between contractor, developer, and operational testers. It 
requires the warfighter, contractor, developer, and operational tester 
to collaboratively develop, test and evaluation activities with the 
goal to produce efficient schedules and reduce risk of program failure. 
These requirements are being codified into the test community's 
Capabilities Based Test and Evaluation instruction in the same fashion 
as was done with the acquisition and operational instructions discussed 
above. The Small Diameter Bomb acquisition will be a pilot program for 
Seamless Verification.
    Having turned policy into action, I expect these collaborative 
environments to produce real results as we execute the task of 
capability-based acquisition. It would not by itself develop technology 
any quicker, but should reduce the risks associated with 
misunderstanding and unrealistic expectations.

                          SYSTEMS ENGINEERING

    Last year, I identified the need to re-instill an adequate systems 
engineering foundation within the acquisition process. Systems 
engineering is one of the bedrocks of acquisition management because it 
ensures that contractor-proposed solutions are consistent with sound 
engineering principles. It is all the more critical because of the Air 
Force-adopted spiral development approach to acquisition that 
incrementally delivers weapon system capability quickly and hedges 
technology risk. We must have the capability to smoothly proceed from 
one spiral effort to the next. I implemented a process to ensure 
Milestone Decision Authorities adequately review the proposed approach 
to systems engineering prior to approving Acquisition Strategy Plans. I 
also demanded that system-engineering performance be linked to contract 
award fee or incentive fee structures.
    To be clear, the system engineering approach used by the AF and our 
industry partners must focus on an end state that quickly delivers 
high-quality, best value products (capabilities) that fully meet the 
warfighters' need, and are designed to easily and inexpensively 
accommodate growth of capabilities in subsequent increments. In January 
of this year, I signed out Increment 2 of our new ``Revitalizing Air 
Force and Industry Systems Engineering'' policy. The intent of this 
latest move is to institutionalize key attributes of an acceptable 
system engineering approach and outcome across the combined AF/Industry 
enterprise. For example, we have generated appropriate language that 
should be included into key acquisition documents such as 
solicitations, award fee plan/incentive fee contracts, and other 
contracts. I have further directed that this language, which is 
intended to be an example and not boilerplate, be incorporated into 
governing acquisition instructions. Our hope is to see meaningful 
progress within the next 18 months.

                    PROGRAM STABILITY AND EXECUTION

    While funding stability is an age-old problem that in many cases is 
beyond our control, there are measures nonetheless that we have 
undertaken to improve our ability to manage the instability and also 
ensure accountability for program execution. One way of better dealing 
with instability, for example, is through informed decisionmaking. As I 
have already discussed, increased collaboration, expectation 
management, and formal exchanges like the CPER should allow us to 
collectively make decisions that provide the best use of limited 
resources, given the annual ebb and flow of funding profiles. Another 
way of handling instability more efficiently and credibly is through 
improved acquisition program management.
    I have spent a great deal of time this past year working with the 
Commander of the Air Force Materiel Command, General Gregory Martin, on 
a plan to realign and relocate our Air Force PEO. I am very proud to 
report that this plan, which is designed to clarify lines of 
responsibility and increase the speed and credibility in acquisition 
programs, is proceeding on schedule. In October of last year, we took 
the first major step of Phase 1 of this realignment when the PEO for 
weapons moved from the Pentagon to Eglin Air Force Base. Major General 
Robert Chedister, who is also the commander of the Air Armaments 
Center, is now the PEO, backed up by an acquisition execution deputy. 
Similar moves were subsequently made for the Aeronautical and 
Electronic Systems Centers at Wright-Patterson AFB, OH and Hanscom AFB, 
MA respectively. Phase 1 of this realignment is now complete and the 
PEOs are responsible for the PEO programs as well as those smaller, 
previously designated ``Designated Acquisition Commander'' programs, 
that have been mapped into their portfolios. There are important 
details still remaining to be worked, but we have already gained a lot 
of momentum in the right direction: improved ability to manage limited 
resources and improved accountability for program execution.
    Assisting us in working out these details now is an overarching 
game plan, or Concept of Operations (CONOPs), that General Martin and I 
agreed to last December. This CONOPs will govern the acquisition roles 
and responsibilities between the Office of the Assistant Secretary of 
the Air Force for Acquisition and the Air Force Materiel Command. The 
very success of efforts such as the ones already discussed often finds 
itself in the details, and the agreed-to CONOPs will go a long way 
toward fostering the kind of mutual support and can-do effort that will 
ultimately make Agile Acquisition a success.

                        IMPROVED COST ESTIMATING

    A final area that I introduced during testimony last year was the 
problem of faulty cost estimates. I had implemented a policy whereby 
acquisition programs be designed to a 90-percent confidence level. 
Since, we have convened two Integrated Product Teams (IPT) to consider 
how we might go about achieving that improved confidence level. Within 
our contracting division, we are considering how better-incentivized 
contractors might produce more realistic proposals. Also, in 
conjunction with the Air Force's Financial Management Directorate, the 
Government Most-Probably Cost IPT also seeks methods to establish and 
sustain better budgets through incentivized cost estimates. Clearly, in 
order to improve our credibility with the warfighter and facilitate 
better investment decisions, we need to produce better cost estimates 
up front. I look forward to receiving the results and recommendations 
of these IPTs in the next few months.

           LEVERAGING SCIENCE AND TECHNOLOGY (S&T) INVESTMENT

    The Air Force remains committed to an S&T program that enables us 
to achieve our vision of becoming an integrated air and space force 
capable of rapid and decisive global engagement. By continuing our 
investment in transformational technologies that support a reduced 
cycle-time, spiral development acquisition process, the Air Force will 
retain its dominance of air and space in future conflicts, against both 
traditional and asymmetrical threats. It is a part of the Air Force's 
proud legacy to be on the cutting edge of technology, and S&T programs 
have historically been a major contributor to its superior warfighting 
capability.
    During this past year I entered into an agreement with the 
Commander, Air Force Research Laboratory (AFRL), Major General Paul 
Nielsen, to improve the timeliness of advanced technology transition 
from the laboratories into acquisition programs. Similar to the other 
agreements I have discussed, this one begins with new levels of 
collaboration and communication. It calls on the AFRL to establish a 
broad-based initiative to focus and accelerate its technology efforts 
in support of warfighting capabilities. The initiative includes a 
capability-based investment strategy, systems engineering, 
collaborative portfolio reviews, and an annual assessment of the 
progress and results of this initiative.
    Steady investment and rapid transition will support the current 
preferred acquisition strategy of spiral development. Most, if not all, 
of the programs to be discussed below, unmanned aerial vehicles, 
propulsion systems, munitions, aircraft structures and materials, have 
all been touched by Air Force S&T. Under Agile Acquisition, the goal is 
to bring these technologies to warfighting success stories faster and 
more efficiently than ever.

        TECHNOLOGY TO WARFIGHTING SUCCESSES (SELECTED PROGRAMS)

F/A-22
    We are extremely pleased with the progress of the F/A-22 program 
this past year. With its revolutionary combination of stealth, 
supercruise (i.e., cruise above 1.5 mach without afterburner), 
maneuverability, and integrated avionics, the F/A-22 is living up to 
its promises. The advertised capability is here now--it is no longer 
just a test program. Our focus is clearly on providing proven 
capability to the Nation's warfighters soon.
    One year ago, we had 16 missile shots completed. Today, after over 
5,000 flight test hours there have been 47 successful missile shots (12 
guided, 35 separations), and both the flight envelope and weapons 
envelope are cleared for Initial Operational Test & Evaluation (IOT&E) 
start. The program has made tremendous strides improving avionics 
stability--the issues today are not the same as they were a year ago. 
Total system reboots no longer occur. The program incorporated full 
functionality required for operational test and simultaneously improved 
overall stability more than tenfold. The development program is now 
nearly complete with all necessary events to proceed into IOT&E; and we 
now anticipate a full-rate production decision in December 2004.
    At this time last year, we had only delivered 3 production 
aircraft, compared to 13 to date. While deliveries have lagged, we know 
much more about the manufacturing processes than we did a year ago. 
Experience gained with these 13 production Raptors allowed both Air 
Force and Lockheed-Martin production experts to complete an end-to-end 
production process proofing and schedule re-baseline in December 2003. 
The joint government and contractor team addressed leadership, 
manufacturing processes, tooling, and parts reliability. They 
identified 171 quality corrective actions, 120 tool improvements, 17 
major producibility improvements, and corrective actions for 68 high 
failure rate parts. The time needed to implement these improvements is 
built into the re-baselined delivery schedule, and we are about 40 
percent through the implementation plan. As we continue through Lot 2 
and Lot 3 final assembly, we will fully realize the benefit of these 
improvements. We now have a credible schedule, and the Air Force is 
confident we will recover to schedule before Lot-4 deliveries--December 
2005 initial operational capability (IOC) will not be impacted.
    In fact, Raptors are now operating in three locations. Ten jets 
assigned to Edwards Air Force Base (AFB) are wrapping up developmental 
test and are well into operational test. At Nellis AFB, five Raptors 
are developing operational tactics and techniques. At Tyndall AFB four 
jets, and counting, are training pilots today. Additionally, the first 
operational jet will arrive at Langley AFB in November of this year. 
Through a year of perseverance and teamwork, IOC is now clearly within 
visual range, and the Air Force is now postured to deliver this 
transformational capability as anticipated.

                                  F-35

    Acting in concert with the F/A-22 will be the F-35 Joint Strike 
Fighter (JSF). The F/A-22/F-35 force mix will balance affordability, 
capability and force structure--critical capabilities for the Global 
Strike concept of operations--to ensure sufficient quantities of 
advanced fighter aircraft to give the U.S. dominant force across the 
full spectrum of conflicts.
    Over the past year, the JSF program has experienced some 
challenges, most notably achieving weight goals, but the government-
industry team has taken aggressive measures to ensure program success. 
In fact, the Conventional Take-off and Landing, and Carrier Variants of 
the aircraft are still projected to meet all of their Key Performance 
Parameters, while plans are already in place to ensure success with the 
Short Take-off and Vertical Landing variant.
    In spite of these challenges, the F-35 acquisition program has also 
achieved several milestones during this past third year of System 
Development and Demonstration (SDD). These include the Air System 
Requirements Review, the Integrated Baseline Review, and the Air System 
Preliminary Design Review. In addition, the program was ahead of 
schedule for the First Engine To Test milestone, and we have over 200 
hours of successful operating time on 2 test engines.
    As the Air Force assumes responsibility for execution of the JSF 
program later this year, it will apply all of the appropriate Agile 
Acquisition initiatives to effectively address and overcome weight 
issues. With all that is riding on the department's largest cooperative 
development program, we will deliver.

             JOINT AIR-TO-SURFACE STANDOFF MISSILE (JASSM)

    The JASSM is a ``kick down the door'' type weapon to be used in the 
early stages of a war to neutralize enemy's defenses and war 
infrastructure by targeting high value, fixed and relocatable targets. 
Last year, there was concern among some members about JASSM's 
performance during test that ultimately resulted in a reduction in 
fiscal year 2004 production funding and direction to maintain Low Rate 
Initial Production (LRIP).
    Since then, all JASSM test programs, developmental and initial 
operational test, have been successfully completed. All issues 
identified during these tests have been or are being addressed. 
Furthermore, the Air Force is confident that all fixes have been 
verified in testing or will be verified with follow-on test. In fact, 
AFOTEC rated JASSM ``Effective and Potentially Suitable,'' with the 
major issue affecting suitability being mission planning time. The 
introduction of a PC-based tool is in work and will reduce the mission 
planning time and meet requirements. As a result of this past year's 
success, the Air Force believes all criteria to enter full rate 
production have been met; however, a final decision will be made after 
release of the Beyond LRIP report and its subsequent receipt by 
Congress.
    Also of note, last year witnessed the start of a JASSM-Extended 
Range (ER) program. JASSM-ER is a solid example of the preferred spiral 
development approach that delivers incremental capability to the 
warfighter sooner than later. JASSM-ER will increase the range 
capability to greater than 500 nm without changing the outer mold-line. 
In fact, with a contract award in February of this year, Phase 2 is 
already underway, leading to ground and flight test in fiscal year 
2005.

              B-2 AND JOINT DIRECT ATTACK MUNITION (JDAM)

    In September 2000, the Chief of Staff of the Air Force directed the 
development and integration of a 500 lb. JDAM capability on the B-2 
Spirit using ``Smart'' Bomb Rack Assemblies (SBRA). The SBRA program is 
a key warfighting enabler that improves the B-2's persistent precision 
engagement capability. It increases the B-2 guided weapon capability to 
80 independently targeted, smart weapons.
    Last fall, the Air Force successfully demonstrated the power-up, 
data transfer, launch, and impact accuracy of 80 independently targeted 
500-lb. JDAM munitions at the Utah Test and Training Range. In 
practical terms, this translates into the capability to destroy an 
enemy airfield in a single pass or attack up to 80 targets on a given 
sortie. More significantly in light of today's testimony is this 
program has exceeded performance requirements, is under budget, and is 
on schedule to meet the Air Force Chief of Staff's ``Required Assets in 
Place'' deadline of November 2004.
    The JDAM program also reached a milestone of its own recently. 
During recent operations, JDAMs were being used at rates up to 3,000 
per month. In order to prevent exhaustion of Air Force inventories, the 
JDAM program was challenged to increase its production rate from a pre-
September 11 rate of approximately 750 per month, all the way to 3,000 
kits per month. Last month, the JDAM production line achieved a monthly 
output rate of 3,000 units. This happily reflects the determination and 
effort on the part of our highly successful contractor-government 
acquisition team and in turn, the principles of Agile Acquisition. For 
these sustained efforts, the government-industry JDAM team was recently 
named winner of the 2004 William J. Perry Award by the Precision Strike 
Association at its Winter Roundtable meeting and recipient of Aviation 
Week's 2004 Quality Center Award. The Perry award is presented annually 
to the public or private sector for outstanding leadership or technical 
achievements resulting in significant contribution to precision strike 
systems. The Aviation Week award identifies and celebrates quality, 
manufacturing excellence, R&D innovation and other best practices in 
the civil, military and space sections.

                       SMALL DIAMETER BOMB (SDB)

    SDB will provide fighter and bomber aircraft with a tactically 
significant standoff attack capability from outside of point defenses 
against fixed targets, while increasing loadout and minimizing 
collateral damage. Last year I reported that the SDB acquisition 
program was in the middle of a competitive 2-year concept development 
phase. As promised, that effort culminated in a highly successful down-
select decision in September of last year. SDD is now well underway and 
the program is on schedule to enter LRIP in May 2005.
    The program down-select decision and subsequent negotiations 
provided great news for the warfighter because the result was a weapon 
system average unit cost that met warfighter cost goals and an overall 
acquisition program that is meeting its other requirements. The success 
of last year's negotiations will allow the Air Force to consider a 
second developmental spiral of the SDB to provide a moving target 
attack capability.

                              GLOBAL HAWK

    A key enabler to the tactical engagement, Global Hawk utilizes 
conventional technology operating at altitudes up to 60,000 feet for up 
to 30 hours to achieve on-demand, long-dwell Intelligence, Surveillance 
and Reconnaissance coverage of up to 40,000 sq nm per day. During OEF 
and OIF, Global Hawk flew 79 combat sorties and collected over 21,800 
images. In OIF, building on lessons learned from its previous 
deployment, Global Hawk flew 5 percent of the high-altitude 
reconnaissance sorties, yet accounted for 55 percent of the air defense 
equipment time sensitive targets. It is remarkable warfighting 
capability for a weapon system that has not yet reached IOC. In fact, 
following extremely successful demonstrations in their two countries, 
Australia and Germany are entertaining plans to acquire their own 
Global Hawks.
    The Global Hawk program acquisition strategy also exemplifies the 
preferred spiral development strategy. The successful capability in use 
today will be subsequently upgraded to include increased payload, a 
signals intelligence collection capability, and the multi-platform 
radar technology insertion program (MP-RTIP) for enhanced Ground-Moving 
Target Indication/Search and Rescue capability (GMTI/SAR).

                                PREDATOR

    First deployed in 1995 for operations over Bosnia, Predator 
continues to be employed as the most responsive sensor throughout OEF 
and OIF. We now have over 75,000 flying hours on this system with over 
22,000 this past year alone. OIF was Predator's first ``networked'' 
operation. By using both in- and out-of-theater control stations with 
beyond line-of-sight aircraft control, we provided the Combined Forces 
Air Component Commander (CFACC) additional capability and redundancy to 
simultaneously control five aircraft over the battlefield, three of 
which were controlled via reach-back from the United States. This 
combined reach-back operation allowed our units to increase their 
operational flexibility, more efficiently manage manpower, minimize 
forward footprint, and reduce our high operations tempo. Moreover, of 
interest to some members, Predator has extended its success this past 
year by providing tactical imagery directly to ground combat forces and 
by providing targeting information to AC-130 gunships. As has been 
noted in previous hearings, this capability can greatly enhance force 
protection, situational awareness and our ability to rapidly engage 
targets.
    By arming MQ-1 Predator A we now have a very long endurance 
platform that can find and engage time critical targets. Additionally, 
we have recently begun enhancing the aircraft to perform better at 
higher altitudes, increase aircraft endurance, and increase available 
payload electrical power.
    Most noteworthy is our development of the MQ-9 Predator B `Hunter-
Killer' aircraft which will be capable of automatically cueing and 
prosecuting critical emerging time sensitive targets with a self-
contained, hard-kill capability to include precision-guided munitions. 
This will provide a persistent, armed reconnaissance, multi-mission, 
remotely piloted aircraft (RPA), operating higher and faster than the 
MQ-1 and with a greatly increased payload capacity.

                               CONCLUSION

    Over the past year, we in Air Force Acquisition have made great 
strides in institutionalizing the changes we believe are necessary to 
achieve the vision of Agile Acquisition: delivering what we promise 
when we promise. This stems from our ongoing commitment and 
contributions to the Air Force's core competency of transitioning 
technology to warfighting. Given the ever-present need to invest our 
limited resources efficiently and effectively, we must succeed in our 
endeavors.
    I appreciate the support of this committee and today's opportunity 
to make part of the record some of the great things that are happening 
in Air Force Acquisition.

    Senator Sessions. Thank you very much, Secretary Sambur and 
General Keys. We thank you for your service and your assistance 
with this presentation.
    Last year, we did, in this committee, cut two Raptor 
aircraft, and we questioned the schedule and how far behind 
they were. This was restored in conference, although there was 
a modest reduction in funding, $160-some-odd million. When you 
were testifying last year, Secretary Sambur, you were 
projecting that the F/A-22 would not begin its dedicated 
initial operational testing until October 2003, a delay that 
was necessary to work on software stability issues. The 
subcommittee understands that those have been recently solved, 
and you indicated in your statements that they are. How 
confident are you that this is what we need? Are we where we 
need to be, or do you expect further improvements in the 
software?
    Dr. Sambur. We will have further improvements. We are above 
the threshold with the latest software release. We are making 
one more release before the start of IOT&E, and we expect the 
software stability to increase even further.
    Right now, on the metrics that you want from us, the mean 
time between critical software anomalies, we are close to 20 
hours. When you look at another metric that says the total mean 
time between avionics anomalies were approximately 6.1 hours, 
which is above the 5-hour threshold.
    Senator Sessions. So we are comparing apples to apples.
    The threshold that was expected, the 5 hours, has been 
exceeded, according to----
    Dr. Sambur.--factor of four. The threshold that you have 
asked us for is the mean time between critical anomalies, type 
one, when you have to shut down the system, and that is almost 
at 20 hours. When you look at all anomalies, we are at 6.1 
hours mean time between those events, which is still above. So 
we're very confident. As I read in my statement, the acting 
Under Secretary for AT&L was ``very encouraged,'' and he also 
indicated that there was no impediment to starting in April. We 
did miss the October date, but we were always, as we said 
before, event-driven. We're pretty confident about this April 
date.
    Senator Sessions. All right. Now, I understand the Defense 
Acquisition Board met Monday?
    Dr. Sambur. Monday.
    Senator Sessions. They determined the readiness to enter 
the test phase. Where are we on that? What can you tell us 
about that?
    Dr. Sambur. As I indicated, the AFOTEC director said, from 
an effectiveness point of view--and I gave you some examples--
he was ``very impressed.'' There are some issues with 
maintainability and sustainability that we have to finalize. We 
have to, for example, really define the trajectory that is 
required during IOT&E. The key performance parameters talk 
about sortie generation, for example, at the hundred-thousand-
hour point. However, we will not be there at IOT&E, and there 
needs to be some metric to guide us. We are in the process of 
formulating those metrics.
    We will get there in the April time frame. We just need to 
finalize those metrics, do some more training for the pilots 
and for the maintainers, and do this last software lot that I 
talked to you about just recently.
    Senator Sessions. Now, is there a specific event that 
allows official testing to begin?
    Dr. Sambur. Now, that is a decision that we will make in 
the Air Force in consultation with AT&L, but it involved the 
metrics----
    Senator Sessions. AT&L is what?
    Dr. Sambur. Acquisition, Technology, and Logistics. That is 
the Department of Defense (DOD) OSD-level of management 
oversight. They have asked us to, first of all, certify that we 
are meeting the avionics stability that is required.
    Senator Sessions. You have not done that yet.
    Dr. Sambur. We need to get a few more hours. The measure I 
talked about before is over three or four jets. We will now do 
this analysis over several other jets to give you a certified 
number. That is within a matter of weeks. There should not be 
any difference between the jets, but we want to make sure that 
the stability is there, and we want to be able to come back and 
certify that the numbers that I just talked to you about are 
truly what we're achieving. We are also looking to make sure 
that we have the right training for the pilots and for the 
maintainers to start IOT&E so we can be successful. We do not 
want to start something and fail. We want to be event driven 
and start something that will pass first.
    Senator Sessions. Maybe Senator Lieberman also would like 
to inquire about that.
    I would note that last year you testified we were eight 
aircraft behind, and you produced a new delivery schedule----
    Dr. Sambur. Right.
    Senator Sessions.--that would catch up to the contractual 
deliveries by this June, although we have seen a lot of 
improvement. The committee staff has gone to Georgia to see the 
facility and was impressed. I was supposed to be there, with 
Senator Chambliss, but the weather got me, and, in a matter of 
minutes, we could not take off and be there. We understand that 
things are improving on the production line, but the deliveries 
are still behind, as I understand it, seven aircraft. The 
projected date for catching up has now slid to December 2004. 
This is at least the fourth schedule given to us by the Air 
Force in as many years, yet we are still a significant number 
of aircraft behind. What is the schedule? How confident are you 
about it?
    Dr. Sambur. You picked it exactly right. We are as 
frustrated as you are, and we are certainly making sure that 
Lockheed is doing everything possible to put in the 
producability enhancements necessary to get us back on 
schedule. We created for you a more confident schedule. The 
last couple of deliveries, we have been very close to that 
schedule. The last one, we have missed it a little bit. We are 
constantly trying to manage that. We are as concerned as you 
are.
    Senator Sessions. Let me see if I can get this straight 
now. When we say, by your goal, December 2004, does that mean 
you will eliminate the entire backlog and be on schedule?
    Dr. Sambur. That is to be on schedule with the original 
schedule.
    Senator Sessions. Catch up the seven that you are behind.
    Dr. Sambur. Catch up the original schedule.
    Senator Sessions. That is a big leap. Is that really a 
practical thing to expect?
    Dr. Sambur. Actually, things are starting to move in the 
right direction. What has happened here is, not only have we 
looked at producability improvements, but also Lockheed Martin 
actually brought back a whole host of experienced manufacturing 
pros, who were with them at the beginning with the F-16. They 
brought back several people from retirement who had a 
tremendous skill base, who are actually managing the program on 
a day-to-day basis now. These people have the expertise to turn 
this around. They have demonstrated the expertise. But, more 
importantly, we have put in place processes that were lacking 
before that will get us back there.
    We have put together a more credible schedule. Is it 
perfect? Is it exactly the schedule that will be exactly 
pinpointing every delivery? I do not think so. But is it moving 
in the right direction? Yes. Will we make every delivery? 
Again, I do not think so. But will we get back on schedule by 
the beginning of Lot-4? We are quoting a number of about 95 
percent confidence on that. The reason for that is that we have 
actually added margin in the schedules; we have actually looked 
at past performances to try to extrapolate, so we are 
reasonably confident that we will get there at the end of the 
day. We are not reasonably confident that every delivery will 
happen on time, but we are reasonably confident that we put in 
place the right processes, and we now have the right management 
team, both within the Air Force and at Lockheed Martin to 
really turn this program around.
    We have demonstrated that on the development program. Last 
year, we were in horrible shape, as you read in your statement. 
Now we have really turned that around. The software stability 
was less than 1 hour on--the number I am talking about is now 
almost 20. There has been improvement.
    Senator Sessions. That was a very troubling thing last 
year.
    Dr. Sambur. It was.
    Senator Sessions. I remember. That is a remarkable 
improvement.
    Dr. Sambur. Exactly, troubling. As your staff has 
indicated, if you go to the factory there, you can see an 
amazing improvement, amazing improvement in the attitudes of 
the people, even in the cleanliness of the facility. It is just 
dramatic.
    We will get there. Will we be perfect? No. But we will get 
there at the end of--or at the beginning of Lot-4.
    Senator Sessions. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman, and thanks again 
to all of you.
    Secretary Young, I wanted to take up an aviation program 
that we have not talked about today. It is of national and 
local significance in my case, which is the decision that you 
announced yesterday to delay a decision on the presidential 
helicopter. Obviously, Sikorsky is actively interested, since 
the helicopter has been made there since the late 1950s. I 
wonder if you would just take a moment to describe why the 
decision was made. Does it indicate any fundamental concerns 
about the program? What is the time frame now in which you hope 
to make the final decision?
    Mr. Young. We have always recognized, from the beginning, 
that this program is very challenging. The requirements to 
enhance the survivability, achieve the range and payload that 
the White House desires, and also provide the communications 
suite that is necessary for the President to remain connected, 
is a pretty daunting challenge in a helicopter.
    Having said that, there is great urgency to replacing the 
fleet right now, which does not adequately support the 
President. We embarked on an aggressive program; we issued our 
request for a proposal, in December, and had targeted award of 
a contract at the end of April.
    As we have gotten the initial proposals, we have recognized 
that industry understands our requirements, but we need greater 
dialogue with them on where are the trade spaces, and what 
aspects of those requirements are driving costs and schedule. 
We need to be more confident that they can deliver the product 
they have outlined. You are potentially aware that both 
helicopters to meet the requirements have to change the engine 
variants in the helicopters, so there are substantial things 
that need to be done. In a bigger context, we typically would 
take on the order of 12 months from a release of an RFP to a 
contract award, usually in programs like JSF and DDX, supported 
by 2 to 3 years of demonstration efforts and probably 
engineering models. We do not have that behind us on VXX. We do 
have existing risk-reduction contracts that we plan to extend 
and augment to work through several of the issues on the 
survivability equipment, the cockpit equipment, analysis of the 
engine changes and how comfortable we are with their ability to 
do that, and achieve the performance they have advertised.
    All of these things make me uncomfortable, consistent with 
what I said at the beginning, that we can award a contract and 
sign that contract to terms and conditions and with incentives 
that everybody can go into with a high confidence we can 
deliver to. So I would finish by saying, at the end of this 
year I will be more comfortable about recommending to you, to 
the White House, and to Secretary Rumsfeld that we can make a 
defendable and high-confidence source-selection decision and 
lay out a program that we can deliver for the cost we tell you.
    Senator Lieberman. Okay, so you hope to be in a position to 
make a decision by the end of the year.
    Mr. Young. Yes, sir. We had asked the program executive 
officer and the program manager to talk to us about what things 
need to be done in this extension of the risk-reduction program 
and see how that ties with letting the companies update these 
initial proposals and the additional data and definition we 
need to make the decision and proceed.
    Senator Lieberman. Very good.
    I appreciate that. Here, again, there obviously is a 
pressure of time, because of the current threat and the 
security environment we are in, we want to make sure that this 
is the best possible. But you have to do it right. So we will 
be following that carefully.
    Secretary Young, the Marine Corps variant of the Joint 
Strike Fighter, the STOVL, I gather may now be coming in 
overweight by as much as 3,000 pounds. Obviously, weight is 
much more of a concern for these aircraft, since the added 
weight for the STOVL flight profile will probably reduce the 
payload or the range, or both. I wanted to get your assessment.
    First, am I right that it is now coming in that much 
overweight? Second, what is your overall assessment of the 
current situation regarding the weight, generally, on the Joint 
Strike Fighter?
    Mr. Young. You are exactly correct, Senator. The bottom-up 
number-four estimate projects the STOVL could be a little over 
3,000 pounds heavy. The company and the program office have a 
path to reduce that weight. Within that weight, there is also a 
margin that they hope to not realize, but we have some margin 
that is not all known weight. We have a plan to go down a path 
and achieve a weight that could be as much as 2,300 pounds 
over.
    Senator Lieberman. Excuse me for interrupting--this is a 
substantial percentage of the overall weight of the plane, 
right?
    Mr. Young. The empty target weight for the STOVL is 32,850 
pounds, and we are on a path that could lead us to be 2,300 
pounds over that.
    Senator Lieberman. Right. Now the concern is it may be 10 
percent over. Is this because we have added requirements as we 
have gone along?
    Mr. Young. Candidly, I do--we have not changed the 
requirements. Requirements-creep is a very fractional issue 
here, both in terms of dollars and weight. I think what I have 
said to try to arrange this in my own mind is that--from the 
concept demonstrators that flew at roughly weights of 27,000 to 
29,000 pounds with limited structural life and no avionics--we 
projected to, in 4 years, and at only about 3,500 to 4,000 
pounds more weight, have a full-up operating plane with a 30-
year life. We were more optimistic, maybe, than we should have 
been in time and in design. So we have had to allow ourselves 
an additional year to work on those designs and try to get the 
weight down closer to those IFC capabilities.
    I want to emphasize, the CTOL and the CV variants are 
somewhat heavier, a little over 1,400 pounds, roughly, both of 
which meet their key performance parameters, and both of which 
are green, maybe with a little margin, in some cases, on their 
specifications. STOVL cannot be bought at its current weight, 
and we have to take the time. It was right to make a decision, 
to work all the designs to reduce the weight to get more 
capability and growth margin for the future. So a team is 
attacking them in sequence. CTOL, the lessons we learned on the 
conventional takeoff for the Air Force, will be applied to the 
STOVL Marine variant, and hopefully all three planes will come 
in at lower weight and have greater growth margin.
    Senator Lieberman. Going back to something I said in my 
opening statement, is it fair to say that you are committed to 
doing this on an event-based schedule, as opposed to calendar 
driven? I know there is always pressure to go as fast as you 
can, but to get this right?
    Mr. Young. The first executive-level illustration I could 
give you is that we could have held the CTOL and CV schedule, 
and there would have been some goodness, and possibly less cost 
in that. The decision was made to get greater capability and, 
as you said, let success in achieving weights and maturity of 
the design drive the program to its appropriate points for 
first flight, and the low-rate production, and other steps.
    Senator Lieberman. Mr. Secretary, let me ask you if there 
are lessons that you feel we have drawn from some of the 
problems we have had with the Raptor, with the F/A-22, in terms 
of development, and getting it through development and into 
testing, that will help us with the Joint Strike Fighter 
program.
    Basically so we do not make the mistakes and missteps.
    Mr. Young. The dominant responsibility lies with Lockheed 
Martin, and the company is aggressively trading lessons learned 
between the two programs. I would further highlight the 
specific examples that people have learned from all tactical 
aircraft programs. We have margin and time for software 
development. We have approximately 40 percent of the initial 
1.8 million lines of software in tests now to support the A-1 
flight test. The first engine to test occurred in October. 
There were delays in several other programs on getting a first 
engine to test. The STOVL lift system will go to test this 
April, next month.
    So we have started to do things earlier in the process, 
including paying attention to software and other issues that 
are long poles in the tent, so to speak. The program--this 
program, relative to almost any other program in the 
Department--has well-laid-out structure, as you both noted. 
Last year, we knew we had to continue to work weight. We are 
continuing to do that. The team is achieving some success. We 
need some more time to get an optimal product, because this 
program will be three Services and over 2,000 airplanes.
    A hasty fix might not be the right fix, so we are at, 
unfortunately, a cost-making decision to get it right.
    Senator Lieberman. I appreciate that. It is the right 
decision.
    Secretary Sambur, in 1997 the Air Force, long before you 
were where you are now, testified to this subcommittee that 
annual operating and support costs for the F/A-22 would be 
about 50 percent cheaper than those for the F-15C that it was 
intended to replace. I feel a responsibility periodically to 
ask, how are we doing on that prophecy? In other words, what 
are your current estimates of what it will cost to operate the 
F/A-22 aircraft?
    Dr. Sambur. I will have to get back to you for the record. 
I do not have the exact number. We will get back and give you 
the exact number for the record.
    [The information referred to follows:]

    In fiscal year 2001, the Air Force completed an FA/-22/F-15 
comparative operation and sustainment (O&S) estimate. This estimate 
calculated the F/A-22 Average Annual Cost per Squadron to be 28 percent 
less than the F-15C. The Air Force is updating this O&S estimate to 
support the fiscal year 2006 PB build. Later this year, the Air Force 
will also calculate a new Service Cost Position (SCP) to support the F/
A-22 Full Rate Production (FRP) decision. As part of the SCP, the Air 
Force will re-compute the F/A-22 O&S predicted average annual cost per 
squadron. The Air Force plans to complete an analysis comparing the F/
A-22 to the F-15 O&S average annual cost per squadron prior to the FRP 
decision in December 2004.

    Senator Lieberman. Fine. I would welcome that.
    Let me ask you a different kind of question, Secretary 
Sambur. In the statement you have submitted for the record, you 
refer to your realignment of the program executive officer 
structure within the Air Force, in which you have the Warfare 
Center commanders double-hatted as the program executive 
officers. I want you to speak--to take a look at what you have 
done, in the historical context, which is to say that 
Goldwater-Nichols removed the system's command officials, 
including the Warfare Center commanders, from the acquisition 
chain of command, in order to streamline that chain of command 
and to have the program executive officer spending full time on 
the important acquisition programs of the Services. It is not 
to say that everything in Goldwater-Nichols was perfect and 
never should be changed, but this does look like a step away 
from that vision. I wanted to ask you to comment on it, and, 
more specifically, whether you are concerned that the attention 
of the program executive officers is going to be diluted by 
their day-to-day activities, to the detriment of Air Force 
acquisition management.
    Dr. Sambur. You ask a very good question. When we made the 
initial attempt at doing this, I was very much concerned about 
exactly the issues you talked about. But what I made sure of 
is, at the end of the day, the PEOs, or the center commanders, 
were reporting directly to me for acquisition, and acquisition 
was defined as their dominant task. The base support and 
training and ops was really aligning to a deputy underneath 
them, so their dominant attention, the center commanders', was 
on acquisition. The reason we did that was to break, in a 
sense, the conflict between having the people that were doing 
the program reporting to a center commander who was not in the 
acquisition loop. By getting him now in the acquisition loop, 
and being accountable primarily for acquisition, we got 
everybody's attention. That was the real benefit of this. 
Everybody is now working together on a common goal.
    Senator Lieberman. Were you aware of the Goldwater-Nichols 
history?
    Dr. Sambur. Probably not in the details.
    Senator Lieberman. Yes. Take a look at it, if you would.
    Dr. Sambur. I will.
    Senator Lieberman. As you continue to evaluate the changes 
you have made, I hope you will keep that in mind. I will be 
interested in hearing from you periodically about how it is 
working.
    Dr. Sambur. I will do that.
    Senator Lieberman. Mr. Chairman, I have other questions, 
but I am going to yield; and if you have a second round, I will 
get back to them.
    Senator Sessions. We certainly will.
    I wanted to follow up a little bit on the weight problem 
for the STOVL on Joint Strike Fighter. As I see the numbers on 
the chart I have, it shows a 3,400-pound overweight.
    Mr. Young. It is a bottom-up four-number estimate.
    Senator Sessions. That's about----
    Mr. Young. A couple of months ago, I think.
    Senator Sessions.--a little more than 10 percent. Right, 
now taking 10 percent out of a aircraft is a chunk. Is that 
realistic, to think we can achieve that? How serious a problem 
is that?
    Mr. Young. It was serious enough that we took the time to 
work the design. The company has tabled options that can take 
all of that weight out, and potentially even get them below the 
IOC weight. You have to assign a risk to whether they can 
achieve those weights or not. As I have pointed out, there are 
700 to 800 pounds of planned growth in those numbers. There is 
a path to take weight out of the program. We really need to 
spend time--you had initial layouts, and now we are doing 
detailed designs of parts. An engineer decides to make a part a 
certain thickness, and then you can build that part, test it, 
stress it, and decide whether you can take some weight out or 
not. Then as we have designed this plane to be produced, people 
have made some conservative assumptions to make sure it is easy 
to assemble. We need to go back and look at those assumptions 
and see if they have added significant weight for the ease of 
producability at the expense of performance.
    We do not want to under-design the plane. I want to be 
clear about that. Secretary England and Secretary Roche's 
guidance to us is to be careful, and then think through where 
we are at the end of that. Those decisions will get as much 
weight out as we can, and then look at how we are going to 
operate the jet. There are certain things we can make choices 
about, like takeoff at higher horizontal tail and flap 
settings, and recover--or fly successfully at a slightly 
heavier weight. Then we look at requirements adjustments or 
other things.
    That is the last thing on the list.
    Senator Sessions. So that is all well and good, but I guess 
what I am saying to you is, do you remain confident that this 
is a matter that is not going to be a significant roadblock to 
the eventual effectiveness of this aircraft?
    Mr. Young. Performance potential of the aircraft is 
significant, and the company has paths that are very credible 
and laid out in detail so we can achieve that weight. We need 
to spend some time, and I assure you we will.
    Senator Sessions. Who is eating the cost of this? Is it the 
contractor or the Defense Department that is having to pay the 
cost of getting this overweight down?
    Mr. Young. It is a cost on the contract, sir, and the 
Defense Department is paying the costs. Frankly, the Defense 
Department was a key--made the decision to extend the program 
for a year and take the time to get the designs to a better 
performance level and lower weight.
    Senator Sessions. I am not sure I got my answer. Now, you 
are confident that we need to plan on this aircraft being in 
the inventory, to do what the STOVL is expected to do, and it 
is just a matter of a delay, some delay, in working out this 
weight problem.
    Mr. Young. I hesitate to guarantee you, but we have laid 
out very detailed plans to adjust this design. We have options 
to change how we operate the plane so that STOVL will be 
extremely effective for the Marine Corps.
    Senator Sessions. Secretary Sambur, you will be taking over 
this program soon. Do you have any comments to add?
    Dr. Sambur. I would just add to what Secretary Young talked 
about, that this is a multi-faceted approach. As you correctly 
surmised, taking out 10 percent of the weight is really a 
Herculean task. We are looking at other things, such as 
increasing the engine capabilities, looking at concept of 
operations (CONOPs) changes, and all of these facets. We have a 
program plan that will get us to the ultimate goal, which is 
not weight, but meeting the key performance parameters. Weight 
is an indication of being able to meet that. But, in and of 
itself, there are other ways of getting there.
    So the ultimate goal is meeting the key performance 
parameters. Weight is one of the aspects of getting it, but 
there are other things we can do--engine and performance 
enhancements, CONOPs changes.
    Senator Sessions. Right. Now, we have already gone from, 
what, $33 billion to $40 billion, a $7 billion increase in 
development costs for the program. Is this a big part of that? 
Can we expect to see more cost as a result of this?
    Dr. Sambur. I will just tell you that my experience on the 
F/A-22 has indicated the most stressing part of the program is 
when you enter integration, and that is yet to come. We have 
tried to do everything to minimize the impact of that, but that 
is always the most difficult part of the program when you start 
putting everything together. The software has to go together, 
all of the aspects, and that is yet to come. So I would tell 
you that we have tried to give you a legitimate estimate of the 
cost impact, but there may be more to come.
    Mr. Young. Could I emphasize that in making that decision, 
though, some key points that you may have heard were funded 
assuming that 50 percent of the things that could go wrong went 
wrong, and 50 percent did not. In adding this additional year, 
and agreeing to spend additional funds, we now funded 80 
percent of the things going wrong that could go wrong, and we 
only have to be lucky on 20 percent.
    We have added, based on the lessons of F-22, additional 
inefficiency assumptions, if you will, about how fast we can 
generate software code, as well as adding additional funds and 
time for the generation of software code. So in several of the 
risk areas that we have seen, as I said, on other tactical 
aircraft, they were addressed by this painful decision to 
increase the price and extend to $40 billion--and the program a 
year.
    Senator Sessions. All right. Just briefly, let me ask you, 
the Defense's cost-analysis improvement group estimates it will 
take $11.7 billion to basically convert the F-22 to an attack 
aircraft. Is that figure correct? Does the Air Force concur 
with that, Secretary Sambur and General Keys?
    Dr. Sambur. No. We have actually built into the F/A-22 
program a series of spirals. The next three spirals, up to 
spiral 3B, which includes JDAM, small-diameter bomb, radar and 
sensor improvements, have already been budgeted and are in the 
program. We are budgeted at $3.5 billion. The fourth spiral 
contains a lot of wish-list types of items, things that we are 
dreaming about, we may not ask for. So the $11 billion number 
that has been quoted really contains--you can go into a house, 
and you want to put everything under the sun in here. We are 
not thinking of doing anywhere near that.
    The plane, at the end of IOC, is a very capable air-to-
ground aircraft. It will have subsonic JDAM. When we finish 
spiral 3B--and General Keys can add to this--we will have a 
incredibly good plane. You might want to add to that, General 
Keys.
    General Keys. No, we believe the program, as it is budgeted 
now, gives us an airplane that will be a world-class air-to-air 
and air-to-ground platform. That money is in there. Now, beyond 
spiral 3B, the money is not in it. We have a number of programs 
that we are looking at, to increase the sensors, increase some 
of the capability of the weapons, but we have not yet put them 
into the program.
    Senator Sessions. You do not expect $11 billion above this 
number.
    General Keys. I do not think we have budgeted for that.
    Senator Sessions. Now, General Keys, you might share with 
Senator Chambliss and Senator McCain--and I will yield the 
floor here to Senator Chambliss--briefly follow-up on Secretary 
Sambur's comments about how well the F/A-22 is performing as a 
combat aircraft.
    General Keys. I have talked to the pilots who are flying 
the airplane. When you talk to them, they have nothing but a 
big smile. The airplane is working well. The avionics were well 
above the minimum required threshold for avionics stability. 
When they flew, in all of the engagements that I have talked to 
them about flying, these adversaries, they die, and die before 
they even get a missile off.
    The airplane is easy to fly. It is flying well. We have 
turned a number of the force three times a day with only four 
airplanes, which says something about--at this stage in 
maturity--how well the airplane is working. So, from an 
operational standpoint, we see this airplane as being 
everything we expected it to be. We are lusting after the air-
to-ground capability as we get through IOT&E.
    Senator Sessions. Senator Chambliss, I am sorry I missed my 
visit down to Georgia. I was ready to get on the plane, and 
they would not let me.
    Senator Chambliss. We intended to let you be the first 
Senator to fly an F-22. [Laughter.]
    Secretary Sambur and General Keys, you were talking about 
the operation of the F-22. I have had the same experience 
talking to those pilots. They are nothing but excited about the 
way this weapons system flies and operates. I understand you 
did some simulated flights, combat flights, against the F-15, 
which has been ``the'' airplane that has allowed us to, early 
on, capture air superiority in every conflict it has been 
involved in. Could you tell us what happened when you simulated 
the combat with the F-22 against the F-15?
    Dr. Sambur. I had put a portion of that in my oral 
statement, and General Keys can add some background. But what I 
did say in my oral statement was that a four-ship F/A-22 versus 
eight F-15Cs, all of the F-15Cs were killed in a matter of 
moments, and they did not get one single missile off. That has 
been the experience. They did not even see the F/A-22s. It was 
almost as if they were down and out in the first round of a 
fight, with the first punch. So very significant.
    As I characterized the AFOTEC commander when he talked 
about effectiveness during phase 1, his quote was ``very 
impressive.''
    General Keys.
    General Keys. I cannot add much to that. Again, it is 
everything that we desired it to be, everything we have 
designed it to be. The performance that we are seeing in the 
hands of our pilots is absolutely astounding.
    Senator Chambliss. In spite of it being a great weapons 
system--and I have been a fan of it since I have been a Member 
of Congress--the cost of it keeps escalating. I know some of 
that is due to problems we have had; some is due to delays in 
production; some has been due to the reduction in the number of 
overall purchases. But where are we today, relative to cost? 
Because with the tight budget times we have, tell us where we 
are.
    Dr. Sambur. Okay, I can comment on that. We have just 
completed, verbally, the negotiations for Lot-4. We have a 
target price curve that we are hoping to meet in order to 
achieve the full complement within our budget of F/A-22s. We 
were able to settle with Lockheed Martin exactly on that target 
price curve, which means that the stability that you have given 
us in Congress, in terms of maintaining the funding, and the 
management attention that you have been asking us to give, is 
paying off. We are actually achieving the price reductions and 
producability enhancements that we expected. If we continue 
along this trend, with the OSD budget we will get the 277 
aircraft, and we may even do better.
    Senator Chambliss. But what is our per-copy cost in Lot-4?
    Dr. Sambur. There are different ways of characterizing it, 
but the flyaway cost, the recurring flyaway cost, without 
engines, is about $110 million. With engines, you add another 
$20 million; it's about $130 million. If you talk about flyaway 
costs including tooling and all of the other attributes, I 
think it is in the $150 million range. But it is exactly on the 
budgets that we predicted.
    Senator Chambliss. Okay. The Defense Acquisition Board, I 
know, met on Monday to review the F/A-22 program, and 
particularly relative to the avionics stability and 
functionality during the OT&E phase 1, and made a decision to 
move forward, that all the testing is on track.
    Dr. Sambur. What they actually said was that there are no 
impediments for an April delivery. They were very 
``encouraged,'' was the words of Mike Wynne, the Under 
Secretary for AT&L, with the progress. He just wanted to make 
sure that we certified to Congress that we are achieving the 
milestone, the criteria of 5 hours mean time between critical 
avionic instability events, which, I mentioned before, we are 
about four times that threshold. We will certify that. Plus, we 
need an additional bit of training for the pilots and the 
maintainers. We are definitely on track for April. As Mike 
Wynne indicated, there is no impediment, and we do not think 
there is any impediment. We think we will get there, and we 
will be within the cost that we projected. That is good news, 
as well.
    Senator Chambliss. Last, there was a problem last year 
relative to the avionics stability. Where are we with regard to 
that issue and any other problems that may have been incurred 
in the last 12 months?
    Dr. Sambur. Last year at this time, there were a number of 
avionics stability issues. First of all, when you turned on the 
system, there was a fairly significant probability that it 
would not start up. Now our probability is 100 percent that it 
will start up. At the DAB that you mentioned, it specifically 
made the point that startup is no longer an issue on this 
program.
    In addition, the stability between events, critical events, 
where you have to reset the program, is no longer an issue. 
There are no major resets. You have anomalies in the software, 
but it comes back. We have no reset issues where the pilot has 
to intervene in the scenario.
    So we are making extremely good progress, and we are 
encouraged.
    Senator Chambliss. Thank you, Mr. Chairman.
    Senator Sessions. Senator McCain.
    Senator McCain. Secretary Sambur, what is the status now of 
the tanker situation?
    Dr. Sambur. We are on course, and we are strictly, and I 
mean----
    Senator McCain. We are what?
    Dr. Sambur. We are on course, there are no activities with 
respect to any of the tanker negotiations. We are strictly--and 
I mean strictly--adhering to all of the OSD guidance with 
respect to the tanker program.
    Senator McCain. Meaning that an analysis of alternatives 
(AOA) will be conducted?
    Dr. Sambur. The AOA will be conducted in accordance with 
the OSD guidance, yes.
    Senator McCain. When do you expect that to be completed?
    Dr. Sambur. We are looking at a August 2005 date.
    Senator McCain. So you would disagree--or would you agree 
with this statement? ``The plan we have for the 767 is valid. 
The options are contracted, and it's operationally viable. The 
options of re-engining old 707s gives us a re-engined 50-year-
old Eisenhower air tanker, not viable, from my perspective, or 
the ability to go look at something out there that is outside 
the boundary--outside the boundaries of a 767 airplane.'' Yes? 
You would not agree with that statement? Or would you agree 
with that statement?
    Dr. Sambur. I would say that, Senator McCain, we are living 
exactly within the dictates of the AOA. We have an option to 
look at----
    Senator McCain. That is----
    Dr. Sambur. We are within the dictates of the OSD guidance 
on the AOA.
    Senator McCain. The reason why I mentioned that, General 
Moseley made those statements just a short time ago. Is that 
standard procedure, where a high-ranking Air Force officer 
comes over here and testifies in direct contradiction to what 
you just said when I asked you the status of the tanker deal?
    Dr. Sambur. I do not think I can comment on that. All I can 
tell you----
    Senator McCain. He works for you, does he not?
    Dr. Sambur. No, he does not work for me.
    Senator McCain. I see.
    Dr. Sambur. All I can tell you is that, from the 
acquisition point of view, we are strictly--strictly--and I 
want to emphasize that--living within the OSD guidance, we are 
on course, and we are faithfully following the guidance with 
respect to the AOA.
    Senator McCain. Secretary Young, for a tanker that would be 
used both Service-wide and NATO-wide, should that tanker be 
capable of refueling receptacle- and probe-equipped receive 
aircraft on the same mission?
    Mr. Young. Admiral Nathman is really the appropriate person 
to answer your question.
    Senator McCain. Admiral?
    Admiral Nathman. On the same mission? Not necessarily, sir. 
That's one of the issues we have. The Air Force has to have a 
certain amount of liquidity or a certain amount of room, 
understanding that you frag inside your air tasking order what 
tankers are going to support which aircraft.
    Senator McCain. Let me tell you, on June 25, 2002, the 
interim Vice Chief of Naval Operations, Admiral Fallon, 
conditionally signed off on a Joint Requirement Oversight 
Council memorandum on Air Force refueling aircraft operational 
requirements document, ORD, in concurring with the ORD, 
stipulated the following, ``Critical. Change sentence to read: 
The aircraft must have the capability to refuel two receivers 
simultaneously.'' His rationale was, ``Dual drogues maintain 
the current refueling capability of the KC-10 and KC-135 
aircraft for probe-equipped aircraft.'' Do you agree with that?
    Admiral Nathman. Yes, sir, I do. I want to explain my 
previous statement, sir.
    Senator McCain. Yes.
    Admiral Nathman. What I meant by that was, the aircraft 
would have the capability. You would not necessarily load or 
task organize each aircraft to have that capability. It would 
be smarter, in some cases, in terms of operational availability 
of those aircraft, that they had the ability--if you were 
doing, let's say, a trans-Atlantic escort of F-15s, you would 
configure the airplane a certain way. If you got into the 
mission area, you would configure the airplane for dual 
capability. So a Navy aircraft, a Marine Corps aircraft, or an 
Air Force aircraft could refuel from those particular aircraft. 
That is what I meant by my earlier statement. So we stand by 
the order that our threshold is to have the dual capability. 
That is important.
    Senator McCain. It is your understanding that that was not 
part of the ORD for the tankers.
    Admiral Nathman. No, sir. My understanding was part of the 
ORD for the tankers would have dual-mission capability.
    Senator McCain. Actually, it was taken out.
    Dr. Sambur, I do not like to keep re-plowing old ground, 
but I am still intrigued by your communications with Boeing 
Aircraft. A former colleague of yours has been fired and is now 
under investigation. A lot of interesting things happened, 
including messages that were sent to you that were immediately 
dispatched to the Boeing lobbyists. There was a message sent to 
you on Tuesday, April 15, 2003, and it is to you from Mr. 
Wynne. It says, ``Marv, some good news, some bad news. Good 
news,'' et cetera, ``about OMB in discussions with,'' and then 
he goes on, ``we'll reset the baseline, and so here's our 
current strategy.'' Within minutes, you transmitted that to 
Boeing. Within minutes.
    Dr. Sambur. Can I explain?
    Senator McCain. Sure.
    Dr. Sambur. Mike Wynne and I had a strategy to let Boeing 
know--if you read the rest of that e-mail, it says, at the 
bottom of that, ``We will give Boeing one last chance to lower 
their price, or else it's all over. It's the end of the day.'' 
Mike Wynne and I deliberately wanted to make sure that Boeing 
understood, no matter what political clout that they had, if 
they did not give us, not only a good deal, but the best deal, 
we were not going to go forward. If you read the bottom of that 
e-mail, it specifically says we will give Boeing one last 
chance.
    Senator McCain. Why did Mr. Wynne have to go through you?
    Dr. Sambur. Because they were not listening to anyone. They 
felt that, at that particular point in time, that they had the 
political power with respect to this deal. So we wanted to make 
sure, in the building, which we always did, that we were going 
to get not only a good deal, but the best deal for the 
taxpayers, and we wanted Boeing to understand that.
    That we, within this building, were going to pull the plug 
unless they lowered their price and gave us the best deal. You 
have e-mails--because I know you--your assistant, your staffer, 
has shown me them--where I told Boeing that unless they 
guaranteed to us that we were getting the best deal, it was no 
good; it was off.
    Senator McCain. I have never seen that, but----
    Dr. Sambur. Oh, he has it----
    Senator McCain.--I do have an e-mail here, Dr. Sambur, that 
says, ``Jim''--that's Mr. Albaugh, Jim, the first name basis 
with the lobbyist--``Jim, Please treat as sensitive. I 
documented your visit to create a sense of urgency. Marv.'' Any 
objective, Marv, Jim and Marv are communicating with each 
other, the lobbyist and the Secretary in charge of the deal? It 
is just----
    Dr. Sambur. Jim Albaugh is the executive vice president of 
Boeing.
    Senator McCain. Yes.
    Dr. Sambur. The new modern management technology is that 
you have a cooperative, collaborative environment with the 
people you deal with. That gives----
    Senator McCain. Really?
    Dr. Sambur. Collaboration is the way things are best done.
    Senator McCain. Dr. Sambur, I have been around too long to 
buy that line. The fact is that all of these cumulative e-mails 
indicate you had an unsavory, close relationship with the 
employees of Boeing Aircraft. You are stating that you were 
going to get the best price. OMB, GAO, and somebody else all 
assess your deal to cost $5.7 billion more to the taxpayers of 
America, the deal you were trying to push through----
    Dr. Sambur. Can I comment on that?
    Senator McCain.--the one--let me finish and then I will let 
you comment on it. The one that even after the Secretary of 
Defense said they were going to be on hold, you sent out an e-
mail--and I will show this to you--``We should sign the deal 
today.''
    Dr. Sambur. Let me comment first on that e-mail. If you 
read the originating part of that e-mail, I was specifically 
asked by OSD to comment on two items. The two items were which 
was the preference, because if you remember, after the 
Secretary of Defense made his statement about potentially 
pausing, he also indicated he would ask his staff for comments 
and opinions as to whether to go forward.
    Senator McCain. No, he did not say he was thinking about 
it. He said, ``The deal is on hold,'' Dr. Sambur. He did not 
say ``tentatively thinking about it.'' He said, ``The deal is 
on hold.'' Then you wrote, saying, ``Let's sign the deal 
today.''
    Dr. Sambur. Senator----
    Senator McCain. That is fact.
    Dr. Sambur.--that is not----
    Senator McCain. That is just fact.
    Dr. Sambur. Senator, I happen to have the e-mail that 
actually says----
    Senator McCain. I happen to have e-mails, too.
    Dr. Sambur. Do you have the originating e-mail from Dr. 
Spruel from OSD that says, ``Please feel free to give us your 
opinion''?
    Senator McCain. No, because you refuse to give us those e-
mails, Dr. Sambur.
    Dr. Sambur. How did you get this e-mail?
    Senator McCain. Get the e-mails to us, and that way we 
would be able to make an objective judgment. The Air Force has 
refused to give us your internal e-mails.
    Dr. Sambur. Our e-mails will show that we were dedicated 
to----
    Senator McCain. How could we know unless you give them to 
us?
    Dr. Sambur. That is an issue beyond my paygrade, sir, to--
--
    Senator McCain. Would you be glad for us to have the e-
mails, Dr. Sambur? Personally?
    Dr. Sambur. You are asking me personally? I have nothing to 
hide, because you will see what they mean.
    Senator McCain. Would you like for us to have the e-mails, 
Dr. Sambur?
    Dr. Sambur. Personally?
    Senator McCain. Yes.
    Dr. Sambur. Again, I will answer this from my personal 
point of view. I will be glad to show you the e-mails, because 
it does portray the Air Force as always intending to get the 
best deal. But there are other issues besides my personal 
comments here that have to be taken into consideration.
    Senator McCain. One thing that is clear, Dr. Sambur, is, 
the Air Force was not getting the best deal. One thing that is 
totally clear is, the taxpayers were going to be ripped off to 
the tune of $5.7 billion, by objective observers. Not me. The 
Office of Management and Budget, the General Accounting Office, 
and other objective observers. That was----
    Dr. Sambur. Can I comment?
    Senator McCain.--that was what the deal was, Dr. Sambur. 
Thank God we had a hearing in the Commerce Committee and had 
this investigation going in the Commerce Committee, and these 
aspects come to light of what happened, and the changes that 
were taking place in Boeing. Unfortunately, no changes have 
taken place, so far as I can see, in the way the United States 
Air Force does business, and that is very sad. Now you can 
respond.
    Dr. Sambur. Thank you. The $5 billion that we are talking 
about only occurs if we were willing to pay, up front, for all 
of the aircraft. That is the same way as saying you can save a 
lot of money if you are willing to spend all of the cash up 
front for your house and you do not spend the mortgage. You 
have to remember----
    Senator McCain. I will be glad to provide for the record--
that is just simply not a factual statement. But go ahead.
    Dr. Sambur. How is it not a factual--the $5 billion is 
based upon the assumption that if you pay for all of the 
tankers up front, just as if you pay for a house--a $500,000 
house, if you pay cash up front, you save money over a mortgage 
payment. The important point to remember is, in order to pay 
for these tankers up front, we would have had to take $10 
billion out of our budget for other things. The rule of thumb 
is that for every dollar you subtract from funding, you have to 
put $3 back in, in the future. That means that $10 billion we 
have taken away from other programs, we would have had to put 
$30 billion in to make those programs whole.
    Senator McCain. You can argue with whoever you want to, but 
this is from the Under Secretary of Defense, Ken Krieg. He 
says, ``We find that leasing provides no inherent economic 
efficiencies relative to direct purchase of tankers, and, 
therefore, are more expensive in the long run.'' So it is just 
foolishness, Dr. Sambur, for you to hold a position that is 
contradicted by every outside governmental entity with 
responsibilities.
    My time is expired, Mr. Chairman, and I hate to keep----
    Senator Sessions. Well, I know.
    Senator McCain.--going through this, but it is the most 
disgraceful conduct that I have seen in 44 years of serving 
this country. I have never seen anything like this. After we 
think that we got things on track here, the Vice Chief of the 
Air Force comes over and says something in direct contradiction 
to the Secretary of Defense's policy. I ask him why, and he 
said, ``Well, that's my personal opinion,'' without being asked 
what his personal opinion is. So if I get a little frustrated, 
Mr. Chairman, you can understand. This is not the way we are 
supposed to do business, and that--the Congress of the United 
States, and specifically this committee, exercising its 
oversight responsibilities--they will not give us the 
communications within the United States Air Force. Yet when 
these nominees come before us, they sign a piece of paper that 
says, ``Will you provide this committee with all 
communications, upon request?'' ``Yes.'' But we do not get 
them. Now Dr. Sambur is claiming that he has e-mails that will 
prove his case. How do we know that? How do we know that if we 
do not get them?
    I thank you, Mr. Chairman.
    Senator Sessions. I will just say a couple of things. 
First, a lot of money is involved. I thank Senator McCain for 
raising the issue. When the dust settles, we will probably have 
a wiser proposal when this analysis of alternatives comes 
through than we have had before. If you take it as a policy 
that you want these aircraft on short order, virtually 
immediately, it is going to cost you more. In the crazy budget 
system we operate on here, you have to--probably a lease was 
the only way to do it. But I am inclined to believe that was 
not, in the long-run, in the interest of the taxpayers.
    Senator McCain. Could I remind you, Mr. Chairman----
    Senator Sessions. Yes.
    Senator McCain.--they can only produce so many airplanes a 
year. We could not purchase all of these airplanes all at once, 
because they produce a certain small number every year. That is 
another fallacy of Dr. Sambur's statement that----
    Senator Sessions. I respect your view on it, and we are 
going to come out better in the long run. I do recognize, Dr. 
Sambur, that it is higher than your paygrade, the concern over 
producing, to the United States Congress, all the Defense 
Department's internal e-mails concerning the procurement 
program. That is a matter that deserves some careful thought. 
But, in general, you need to be forthcoming to the authorizing 
committees.
    Senator Chambliss. Mr. Chairman, before you leave that 
issue can I just say whether you agree or disagree on the lease 
issue, Senator McCain's right about this. If we cannot demand 
correspondence that supposedly substantiates their position 
that we are debating and questioning, then something is wrong 
in the system, and maybe legislation ought to be passed to cure 
that.
    Senator Sessions. Before they write you your paycheck, they 
want to see all your e-mails. It is a matter of seriousness 
that--it is not blithely to be entered into, for the Secretary 
of Defense to say, ``Well, whatever e-mails we have in the 
Department of Defense, everybody in Congress can have a copy 
of.'' I have been there. I have subpoenaed documents before, 
and I know that you normally have to have, under a subpoena, a 
basis for the subpoena. You have to maintain the secrecy of the 
documents and assurance of that. So maybe at some point this 
could be observed in a way that maintains some confidentiality, 
but I am a little bit sympathetic with those in the Department, 
based on my experience as a Federal prosecutor who has 
investigated cases like this. They would not want everything 
they do turned over to----
    Senator Chambliss. Classified documents--Senator, that 
would be, right. But when we are----
    Senator McCain. Senator Sessions, could I mention that----
    Senator Sessions. Go ahead.
    Senator McCain. This is obviously an issue of great 
controversy. There has been the retirement of the chief 
executive officer of one of the major corporations in America. 
This issue has become controversial to a degree that we have 
the right to know all the facts. We are not asking for every e-
mail ever sent within the DOD; we are asking only for the 
communications that went on that address this specific issue. 
Why is that? The e-mails that we got from Boeing are directly 
related to many of the individuals in the Department of 
Defense, including Dr. Sambur, who defends himself by saying, 
``We have e-mails that will prove that that was wrong.'' But 
yet he will not show it to us.
    Finally, in the nomination process, the form says, ``Will 
you provide communications to this committee, upon request?'' 
Answer: ``Yes.'' We ought to change the form, or change what we 
do.
    Again, Mr. Chairman, we do have oversight responsibilities. 
This is a $20 billion deal. This was not--this is not chicken 
feed here.
    Senator Sessions. I agree with that.
    Senator McCain. According to objective observers, the 
taxpayers were going to be abused to the point of $5.7 billion. 
This is a serious issue.
    But there is also another thing that is more serious about 
this, and that is this relationship and this revolving door 
that is going on now between the Defense Department and 
lobbyists. It is a serious issue. All of this--all these e-
mails, they are all on a first-name basis with each other--
Marv, Jim, Mike. It is really concerning and should be 
concerning to all of us. I intend to pursue this aspect of the 
issue.
    I thank you, Mr. Chairman.
    Senator Sessions. I think you should. You are to be 
congratulated for raising the issue and pursuing it. We are 
going to be better off having not gone forward with the plan as 
originally proposed. I would designate you the $5 billion man, 
so far, on behalf of the taxpayers. [Laughter.]
    Senator McCain. Thank you, Mr. Chairman, and I thank the 
witnesses.
    Senator Sessions. With regard to the Defense Department 
official who went to Boeing and has resigned, is there an 
investigation of that?
    Dr. Sambur. Yes, there is an investigation.
    Senator Sessions. By Federal prosecutors or IG?
    Dr. Sambur. There is an IG. I do not know how far it has 
advanced.
    Senator Sessions. IGs have an obligation to refer any 
uncovering of wrongdoing to a Federal prosecutor at some point.
    Let me just ask you on this. Now we are in limbo about this 
thing. We are proposing to eliminate or retire 68 KC-135E 
aircraft. They continue to perform at good rates. The KC-135R 
is operating at a mission-capable rate of 82 percent, and the 
old KC-135E is at 75 percent, which is not much different than 
full-aircraft average. They are refurbished, and there is a 
desire to go on for a new aircraft, because they are over 40 
years old. I know that. But would we not be making a mistake if 
we continued to retire so many of these aircraft? Should we not 
slow down until this matter is cleared up somewhat?
    Dr. Sambur. Mr. Chairman, I would like the operations 
individual to answer that, because it is more applicable from 
him.
    Senator Sessions. General Keys?
    Dr. Sambur. Yes.
    General Keys. Yes, sir, the way we look at it is this, the 
135E, when you look at 75 percent on a mission-capable rate, 
you also have to take into consideration how many of those 
airplanes do you actually have on a ramp, because that is how 
many that you have on your ramp that you can actually fly. So 
there is a certain number of that fleet that is not available 
because it is in depot. So when we get down to real numbers, 
you are--of the total fleet of 135Es that you own, it is about 
64 to 68 percent that are--flyable.
    Now the question becomes that in order to keep these things 
flyable, I have to put more money into them. Eventually, I am 
going to have to put new pylons in the airplanes, just because 
of the corrosion, to keep them safely flyable. If, on the other 
hand, I take the 135E fleet down, which we are getting to the 
point that we believe that that is the prudent course, I lose 
about 11 percent of my tanking fleet. If I take the money, the 
people, plus-up my crew ratios, I can fly my Rs now to the 
point that I am losing about 4 percent of my total tanking 
capability. Our belief is that that is the prudent course of 
action at this point.
    Senator McCain. Could I just ask, Mr. Chairman, as follow-
up to that, have you done a corrosion study?
    General Keys. We should have the corrosion study--I think 
it is due this May.
    Senator McCain. But you have not done a corrosion study?
    General Keys. We have done an internal one. We were asked 
to do another study.
    Senator McCain. The internal one was not a complete study?
    General Keys. Sir?
    Senator McCain. The internal one was not a complete study?
    General Keys. That was the assertion, and that is why we 
are doing another.
    Senator Sessions. I thank Senator McCain for raising that 
issue and asking for that, the more complete study, to be done. 
That is important. Yes, I know there is some corrosion, but we 
do not seem to have too much of a problem in getting these 
aircraft back in first-rate service, at least a lot of them--
you would identify those that have serious problems.
    We probably need to slow down a little bit on a 
decommissioning of the----
    Senator Lieberman. Can I ask one--with apologies to Senator 
Pryor--because you have touched on something really important 
here, and it obviously follows on Senator McCain's questions. 
The question I have is, how many of the KC-135Es are in the 
depot now? How many would be there in fiscal year 2005? General 
Keys, do you know?
    General Keys. Okay. Right now, in depot status, the 135Es, 
we have 22 of them in depot. We have another 30 that are unit 
possessed, but they are not mission capable. So we have 50 that 
are----
    Senator Lieberman. I should have said this while Senator 
McCain was in the room. Just in case the Boeing agreement does 
not go forward. [Laughter.]
    This is a concern, is it not? Your answer about the 135Rs 
is quite correct. What I would worry about is, in our 
intensified conflict situation where we would need a surge 
capacity, might we not need some of those K-135Es? Assuming the 
Boeing agreement does not go forward, at least not in a timely 
way.
    General Keys. Of course, we have to look at that, looked at 
going both ways. If we have to go east and west, for example, 
swing the force because that tanker air bridge is very 
important. It is important to enabling our long-range strike 
assets. Again, we believe that separate from how we 
recapitalize the tanker force. There is an agreement that we 
will need to recapitalize our tankers at some point, some point 
fairly in the near future. But separate from that point is the 
question of the airworthiness of these KC-135Es, and how much 
money does it take for me to continue to keep them FMC? They 
are maintained by our ARC forces, and they are doing a great 
job.
    Senator Lieberman. Right.
    General Keys. They are old airplanes, but it takes a lot of 
maintenance man-hours per flying hour, and we put a lot of 
money into depot in order to get these airplanes through depot.
    Dr. Sambur. Senator Lieberman, may I add just one more 
little thing to that?
    Senator Lieberman. Sure.
    Dr. Sambur. The Es right now are on flight restrictions. In 
order for them to be relieved of those flight restrictions, we 
have to do a major replacement on the struts. That is a 
considerable sum of money. You have to weigh whether or not you 
want to put in a lot of money on 43-year-old planes. If we do 
the struts and re-engining, that, in and of itself, is $40 
million per plane, for the re-engining and re-strutting, which 
is a considerable amount of money for 43-year-old planes.
    Senator Lieberman. Thank you. Thank you both.
    Senator Sessions. Thank you.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. I must tell you 
that I do concur with what Senator Chambliss said a few moments 
ago. Regardless of your view of the Boeing contract, there must 
be a way for us to get the information that we want to get. We 
can do it in a discretionary way if we need to.
    Senator Sessions. There might be something that can be 
worked out. Just a broad blanket, produce everything that we 
have ever done, you have me nervous. But the IG has access to 
it. If any Federal investigation by a prosecutor gets involved, 
they will have access to all internal e-mails.
    Senator Pryor. Thank you, Mr. Chairman. Secretary Sambur, I 
bet you do not want to talk about Boeing anymore, so let's talk 
about Lockheed Martin. How does that sound? [Laughter.]
    Dr. Sambur. Sounds fair.
    Senator Pryor. I have some questions for you about the F/A-
22.
    Dr. Sambur. Okay.
    Senator Pryor. The Air Force announced, I think it was 
yesterday, that we agreed, with Lockheed Martin, to buy the 
fiscal year 2004 F/A-22s. I believe it was for less than $110 
million per aircraft. Is that right?
    Dr. Sambur. There are various ways of looking at this. 
There is a flyaway cost----
    Senator Pryor. Okay, and that is what I was going to ask 
you about.
    Dr. Sambur. Right.
    Senator Pryor. Explain that to the subcommittee, please.
    Dr. Sambur. $110 million--they are giving me a cheat-sheet.
    Senator Pryor. That is good. I need those from time to 
time.
    Dr. Sambur. $110 million is basically the aircraft itself.
    Senator Pryor. Okay.
    Dr. Sambur. When you look at the flyaway costs, you have to 
include the engines, which is approximately $20 million. Plus, 
the way it is calculated. They amortized tooling costs and all 
these other issues associated with production into the cost. 
When you look at it that way, you are in about the $150 million 
range. The reason why the $110 million was quoted is it is a 
standard that we are trying to hold Lockheed Martin's feet to 
the fire. That is the aspect of the target price curve. If we 
achieve that target price curve, then we are able to get the 
number of F/A-22s that we want, and it gives us a measure of 
how effective they are, in terms of producability and meeting 
their price objectives.
    Senator Pryor. Okay. I guess I was just a little bit 
confused about the announcement, because when I read $110 
million per aircraft, I think that means $110 million per 
aircraft. But really we are still at the $150 million figure, 
basically, when you add everything up. Is that right?
    Senator Sessions. We have to have an engine, do we not?
    Dr. Sambur. But it is a way of holding, as you mentioned, 
with Lockheed Martin--we are holding their feet to the fire, 
because it is very important that we maintain this target price 
curve.
    Senator Pryor. Right.
    Dr. Sambur. As I mentioned before, we were able to do that 
because you, in Congress, have given us stability in funding. 
When you have stability in funding the vendors will be able to 
take certain risks that they would not do if there was an 
instability in this program.
    Senator Pryor. Right.
    Dr. Sambur. So the stability you have given us has really 
paid off, and your demand on us giving management attention to 
this program has also paid off in dividends. You were not here 
at the beginning, but we talked about the good news with 
respect to our march on IOT&E, how avionics stability is 
getting there, how the effectiveness of the plane has been 
characterized as very impressive.
    Senator Pryor. Great. Is it fair to say that the cost of 
the program is holding steady? Are we seeing some savings in 
the program, given the stability that Congress has given you?
    Dr. Sambur. It would be fair to say that our budget 
estimates for development are holding, that the production--
that by achieving the price--target price curve, next year we 
are hoping to get 24 planes. If you do not take funding away 
from us, we will achieve that 24. If funding is taken away from 
us, it adds instability, and the number may be significantly 
less. But what it does say to you is that if you give us the 
funding, we will get 24 next year.
    Senator Pryor. Right. Also, while we are on the subject of 
the F/A-22, I understand that the Air Force has been looking at 
the development of a bomber version of that. I think it is FB-
22. Is that what that is going on?
    Dr. Sambur. That is the number.
    Senator Pryor. Give me a status report on that, or tell 
this committee what is going on with that.
    Dr. Sambur. Basically--and then I will let General Keys 
elaborate on that--but we have actually just formed an 
Integrated Product Team (IPT) within the Air Force to look at 
long-range----
    Senator Pryor. What's an IPT?
    Dr. Sambur. Integrated Product Team or IPT. We speak 
acronym-ese. [Laughter.]
    After awhile, it sounds like English.
    Senator Pryor. Right.
    Dr. Sambur. We formed this group to look at long-range 
strike. Within long-range strike, one of the interim solutions 
is the FB-22. Having set that up, I can give you General Keys, 
who can give you some particulars. But we have not really made 
a decision as to where we are going.
    General Keys. A lot of pieces to it. When you look at the 
long-range strike, you are looking all the way from current 
bombers to the future of hypersonics, those kinds of systems. 
What we are looking at is, we have a certain current long-range 
strike system--the B-2, the B-1, the B-52. At some point, we 
have to start recapitalizing and looking at the future of long-
range strike. Now the question is, can I bridge the force that 
I have by incrementally bringing them into the net, making them 
more capable, doing some maintenance and logistics upgrades to 
the airplanes, and use them as a bridge force to get me to the 
point where a new long-range strike system happens to be 
appears, whether it is manned, unmanned, whether it is a 
hypersonic or whether it is a conventional kind of airplane, or 
do I need something in the middle, as a bridge force?
    Since you are already building an airplane, naturally one 
of the things that would come up would be, what if you made 
this airplane bigger, put different wings on it, and called it 
an FB-22?
    Senator Sessions. Just modified----
    General Keys. That is easy to say. It may become expensive 
and hard to do.
    Senator Pryor. So, in other words, talking about modifying 
an existing design, to see if you can do it?
    General Keys. Yes, sir. So those are just a number of the 
things that are being looked at in an analysis of alternatives 
of long-range strike systems. How do we get to where we need to 
be? What do we do for the bridge force in the interim?
    Senator Pryor. Are you in a position today to estimate how 
much time and money it will take to develop an F-22, if that is 
the route we go, or are you all just too early in the process?
    General Keys. I think way too early.
    Senator Pryor. Way too early?
    General Keys. Way too early.
    Senator Pryor. The last question I had was for Secretary 
Young. I must tell you that sometimes when I talk to folks that 
deal with the military, they say they are--it is too slow in 
dealing with them and trying to get in to supply the military. 
Also, sometimes they see what we are paying for systems, and 
they think it is too much. There are various examples of that. 
We do not need to go into that right now.
    I know that you have been involved in Operation Respond, 
and I would like to hear from you about that and how that is 
going so far and what is coming of that, if you do not mind.
    Mr. Young. The starting point of it was when Secretary 
England visited General Conway at Camp Pendleton. As the 
Marines prepared to launch, General Conway, General Mattis, and 
General Amos' comments were the materiel establishment had 
responded very well to their needs, and all their vehicles 
would have an armor kit. The helicopters going in country would 
have survivability equipment. They would also have other tools, 
communications and other systems, to deal with IEDs.
    To further institutionalize that, Secretary England asked 
that we stand up this Operation Respond. We set up a Web site, 
where marines in the country can identify a problem and send it 
back asking for help. We have a group of people to look at 
whether there are technology-system solutions we can bring to 
bear on their problem. There is a council that is clearing 
those ideas, so we do not overwhelm the marines. We work with 
the leadership to tell them what we would bring in country and 
give them a choice to say, ``Test it here in our labs and 
warfare centers before it comes in country.'' In many cases, 
General Conway's been forward-leaning in saying, ``I will take 
equipment and give you a real-world test environment.''
    We are meeting on roughly a weekly basis right now, hearing 
what reports and things we need to do. One of the first things 
we received from the Marine Corps concerns ballistic goggles. 
They feel they could use better equipment, because they are 
encountering IEDs and blasts. We're in the process of trying to 
respond very quickly in order to provide those items. We are 
also looking at augmentation of body armor, an additional armor 
kit that can be added to the limbs and extremities, to provide 
better protection than they have. We are working right now to 
identify dollars, and make sure that General Conway and his 
team want it. We are going to proceed with that. We are going 
to keep that flow. Secretary England is adamant, saying that 
this is a war, and we are going to respond to troop needs, 
because the safety and effectiveness of the marines in country 
is the penultimate challenge before the Department of the Navy.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Sessions. Thank you.
    Now I will recognize Senator Lieberman. Dr. Sambur, you 
deserve some historical perspective here. This whole idea of 
the lease proposal came out of Congress, did it not?
    Dr. Sambur. Exactly.
    Senator Sessions. It was not in the Armed Services 
Committee, but the appropriators. The Appropriations Committee, 
they directed this proposal that this lease arrangement be 
entered into. It has been shown not to be economically wise. 
Also, it has some problems with that classical approach to 
acquisition in Congress. In the long run, for the record, you 
did not come up with this idea and propose it, to begin with, 
did you?
    Dr. Sambur. No. No.
    Senator Sessions. Okay.
    Senator Lieberman.
    Dr. Sambur. We were responding to the legislation from 
Congress.
    Senator Sessions. It actually was mandated by Congress?
    Dr. Sambur. Mandate from----
    Senator Sessions. Yes.
    Dr. Sambur.--to specifically--and this is what is so 
puzzling--to specifically look at the Boeing 767.
    Senator Sessions. All right.
    Dr. Sambur. So they told us to do it, and now they are 
criticizing us for doing it.
    Senator Lieberman. Welcome to Washington. [Laughter.]
    Senator Sessions. I will give credit to Senator McCain, who 
fought it when it was proposed in Congress.
    Senator Lieberman. It is true. I know that this was not 
your idea. I am just wondering whether anybody in the room with 
John McCain today would claim parentage of the idea. That would 
be another question, whoever did come up with it.
    This has been a good hearing, Mr. Chairman. I appreciate 
it. It is what Congress should do with oversight--in our 
oversight responsibility. I hope you all appreciate that we 
appreciate what you are doing. Part of our responsibility in 
this relationship is to ask these questions. So thank you very 
much.
    I just have one, and it is about the EA-6Bs----
    Dr. Sambur. Yes, sir.
    Senator Lieberman.--which are very much in demand, an 
extraordinary role in providing jamming support for almost all 
aircraft strikes, including those for stealth aircraft. The EA-
6Bs are aging, too.
    Secretary Young, in your prepared testimony, you spoke to 
the plan that the Navy has to replace the EA-6Bs with a variant 
of the F/A-18E/F, which will be called the EA-18G, two-seat 
aircraft, not the four-seat, as the EA-6B is. I wanted to ask 
you, since these are so important and have been in so much 
demand--in light of the Joint Strike Fighter delays that we 
have talked about, are you comfortable that this new program, 
the EA-18G program, will be able to deliver capability in time 
to replace the aging EA-6B aircraft?
    Mr. Young. Admiral Nathman may want to add comments. We 
signed the contract in December for the System Development and 
Demonstration phase. I visited St. Louis ahead of that a few 
months earlier. They have a well-laid-out schedule as a 
specific agreement between the acquisition community and the 
requirements community about what items of capability, weight, 
and power will go on this aircraft and what we might have to 
trade if we encounter problems. But the fact that they have 
identified to that level of detail, we know what needs to be 
done. The aircraft are included in the F/A-18 multi-year, so we 
have a very solid acquisition program to go forward and deliver 
that capability. It is time-phased with when the EA-6Bs go out 
of the force. The fundamental effort is for the acquisition 
team to continue to execute the program.
    Senator Lieberman. I wonder if I could ask, maybe Admiral 
Nathman and Secretary Sambur, General Keys, or General Hough, 
what the plans are for replacing the Marine Corps and Air Force 
parts of the EA-6B fleet.
    Admiral Nathman. Sir, I will let General Hough talk 
specifically to the Marine Corps requirement on that issue. 
What I would add, on the EA-18G, is, if you look at it in terms 
of risk, often folks ask for what your risk-reduction plans 
are, and you are building, now, this aircraft on a proven 
aircraft, the Super Hornet airframe.
    Senator Lieberman. Right.
    Admiral Nathman. You are incorporating this advanced crew 
station, which allows you to integrate, I believe strongly, 
along with the avionics world that we are going to see in the 
ALQ-99, so you can go from four- to two-crew--that is the 
advanced crew station--that is being proved on the current 
Super Hornet. You are going to, as it were, an improved ICAP 
jamming system and integrated ALQ-99, so you are seeing proven 
systems put on a proven airframe. It is really an integration 
issue. It is very aggressive, because what we saw--we really 
appreciate the support we have gotten from Congress and from 
this committee for the EA-6B--is that it is very clear we have 
to walk away from that airplane as fast as we can to avoid 
overinvestment in that airframe and engines and, frankly, some 
safety issues that we saw in the engines several years ago.
    Senator Lieberman. Yes.
    Admiral Nathman. So we have overcome those issues because 
of your support, but it is time for us to move on. I see, in 
that airplane, one, it very clearly supports our CONOPs; two, 
it has a lot of proven systems, which give us a lot of 
confidence about the risk that we have in those programs. That 
is our view, because that is the Navy CONOPs, that we will 
provide all around jamming in an electronic attack. The 18G 
also comes with a striking capability, and I do not think we 
should forget that. We have, basically, a HARM improvement, 
called ARGM, which makes a very effective jamming, as well as 
killing system. So we are moving from an electronic attack, in 
terms of suppression, to actually a lethality, to killing 
things. That is where we use the term Destruction of Enemy Air 
Defenses.
    It is very supportive of our CONOPs; it is integrated; and 
we are trying to be as aggressive, Senator, as we can, with 
that aircraft.
    Senator Lieberman. That is great. Thank you.
    General Hough? How about the Marine EA-6B.
    General Hough. Sir, in concert with my sister Service, the 
Navy, we are going to steam along with the EA-6B. We have four 
squadrons of five each, expeditionary squadrons, as you well 
know. With the Navy fielding the Growler, we will be the last 
ones flying EA-6Bs, in the hopes that there will be 20 good 
ones left to forge ahead. Now, that does not resolve the 
problem, as you well know, because with my other sister 
Service, the Air Force, 2 years ago under the tutelage of OSD, 
they asked us to sit down and come up with, ``what's your plan 
here?,'' instead of, ``my way or the highway,'' or ``doing it 
your own way,'' or ``why don't you plan the force?'' You have a 
system approach to leverage off each other. Knowing full well 
that we didn't have the capability of C\4\I and some other 
things that we had to take a look at, and some studies that 
were being done down at OSD, we agreed to come together again 
next year and sit down. At that point, now that we know EA-6B 
is only getting older, the Growler is being fielded, the Air 
Force, Navy, and Marine Corps will sit down and come together 
with a plan so that by 2012-plus, before 2015, we have an 
integrated plan that is strategic in nature and serve us all 
well.
    Senator Lieberman. Obviously, one that will not leave a gap 
in the----
    General Hough. That is correct. That is what we are looking 
for. Because the Growlers----
    Senator Lieberman. Right.
    General Hough.--the EA-6B. The Marine Corps will continue 
to fly the four expeditionary squadrons. With the capabilities 
the Air Force brings to the table, we have to sit down next 
year and come up with a plan that is moderate risk, can be 
achieved in the time frame, so that we have this capability to 
meet the threats that are resident in the 2012 time frame.
    Senator Lieberman. Thanks, General.
    Secretary Sambur, General Keys, do you want to add anything 
for the Air Force?
    General Keys. Just to pile on, we believe it is a system of 
systems, and we look at the Growler, for example, as part of 
that system. We are looking at the B-52, which we have planned 
now to put jamming pods on the B-52 where those external fuel 
tanks are. We believe we can get the power and antennas and the 
technical kinds of receive suites in there that will make it an 
excellent standoff jammer. Then, of course, the Compass Call, 
we are upping the block-up grade rate on the Compass Call, 
which will give it more capability. It primarily is a C-2 sort 
of jammer. Then looking at the miniature air-launched decoy, 
with a jamming feature in it, because we believe the wave of 
the future is a lot of these unmanned systems--small unmanned 
systems seeded into the areas. So now that we take that entire 
system and put it together and operate, and that is the point 
of sitting down together to make sure that, as we, in our 
minds, concocted this brilliant plan, that we have not left 
some gap in there that some frequency is not going to be 
covered, or something is going to require a stand-in jammer 
that we have only covered standoff, et cetera. So we believe 
that the plan is going to work.
    Senator Lieberman. Very good. Thank you all.
    Thanks, Mr. Chairman.
    Senator Sessions. Thank you.
    Now, I just briefly want to ask about the joint unmanned 
combat air systems. In the National Defense Authorization Act 
for Fiscal Year 2001, the Floyd Spence Act, we established a 
goal that within 10 years, one-third of U.S. military 
operational deep-strike aircraft would be unmanned, which is a 
dramatic event. My question to you is--and, of course, this is 
now being done as a joint operation. DARPA is involved with it, 
and managing it. What are your--Secretary Young and Sambur, 
would either one of you comment--what responsibility do you 
have and what input do you have into the development of the 
unmanned air systems?
    Dr. Sambur. We have been sharing our requirements with 
DARPA to make sure that the Air Force's need for a low 
observable is definitely a part of what they are trying to 
develop. We have given them several other requirements, and we 
are basically in a stage of monitoring them. Correct me if I am 
wrong, John--in 2007, the Services come into the picture. We 
will then give operational assessments of the suitability of 
this J-UCAS group, the Air Force's needs, and the Navy is 
doing----
    Senator Sessions. Do you want to add on that, Secretary 
Young?
    Mr. Young. There was an EXCOM set up. I was not able to go 
to the first one. Some decisions were made in light of the 
funding situation.
    Senator Sessions. EXCOM is what?
    Mr. Young. Executive committee. I apologize, sir.
    Senator Sessions. Thank you.
    Mr. Young. When we embarked on this strategy, a year or so 
ago, conscious of the committee's mandate, the Navy actually 
was able to pull itself forward, partner with the Air Force 
exactly the way Secretary Sambur talked about, and leverage the 
work that had been done on the X-45. That has migrated into 
this Joint-UCAS program. But at this point in time, it appears 
the decisions are that the Navy variants having carrier 
capability may move later in the program, so the acceleration 
we had achieved earlier may not be achieved right now. We need 
to have an opportunity to spend some executive time 
understanding why these changes are being made and whether they 
serve the Navy's interest.
    Senator Sessions. Is this one-third within 10 years? Is 
that a pie in the sky, or is that something that is achievable? 
Maybe I will ask the uniformed officers.
    Admiral Nathman. It is pie in the sky, sir. You have a 
goal. Maybe you ought to look at the goal, why we reached that 
goal.
    There is a lot of attraction and pull from the standpoint 
that people pitched unmanned as being inexpensive; and so we 
always hear the word ``inexpensive unmanned,'' and I do not 
believe that is the case. Why? What we are looking to leverage 
in the battle space, in terms of deep ISR, intelligence, 
surveillance, and reconnaissance, or deep electronic attack, it 
requires the airframe to be very low observable and have 
autonomous capability. You add those capabilities in there, 
because you are removing the other calculator, a computer, and 
it is called the pilot. So you lower the risk to a man, or a 
human, but you incur other risks, in terms of the total 
integration of your system.
    Part of the discovery is that we are seeing in this joint 
interim capabilities review with the Air Force a fairly 
expensive thing to do. When we look at the deliverables inside 
the operational assessment which we will get from DARPA--so it 
is really to look at the ability to deliver on those CONOPs and 
how doable it is.
    We will have a much better feel for the total price of that 
kind of system, before you turn it into a program, and will the 
concept of ops really work the way we want it to, before we 
commit to really big programs.
    So I, for one, would say that we are not going to reach the 
goal, and we have to look at why we think that goal is 
attractive to us, based on the ability to afford it, as well as 
the different challenges of being autonomous or manned. What 
are those particular advantages?
    So there are some cases where unmanned has a great leverage 
on the battle space, in terms of long time on station, and that 
is worthwhile paying that price. But is it worth the total 
trades that you have to make, in terms of affordability? That 
is the next challenge we have. The goal sometimes has to be 
looked at.
    Senator Sessions. General Hough, did you want to comment, 
or General Keys?
    General Hough. Sir, it is actually similar. We tend to bite 
off a heck of a lot here thinking that this is a great CONOPs; 
it sounds terrific. But when you enter the high-risk arena, you 
are onto the unknown unknowns that we have never faced because 
we have never been there before. I would liken it to the fact 
that the first time they gave me a computer at Naval Air 
Systems Command, we sat on them for 3 years because we did not 
have an Internet to play with. It took 20 years to get that 
Internet. So a tremendous amount of integration, C\4\I, a lot 
of thinking through this. It will bring a tremendous 
capability, but it is a ways off. The original date is pie in 
the sky.
    General Keys. We have a lot of experience with the Predator 
and the Global Hawk, bringing on the Predator B. So our 
decision point really is, once we get to this operational 
evaluation, in 2007, where we bring the airframes together and 
we see if they can do the things that we want them to do, they 
have to earn their way onto the battlefield. There are some 
attractive features of these airframes--the fact that you can 
make them more stealthy, you can make them survive for a long 
time. The question is, how much are you willing to pay to 
strike probably fixed targets deep, and what kind of payload 
can these things have, and what kind of range are they going to 
have, and are they going to be air-refuelable? That makes them 
more persistent, and they can go deeper, but that also makes 
them more expensive, probably, more complicated. So those are 
the things we have to wrestle with.
    We know a lot about simple UAVs. We all do--Predator and on 
down, and even the Global Hawk, but from an ISR standpoint, and 
limited strikes. So we are pressing. There are some economies 
to be made there, but there are going to have to be some hard 
tradeoffs. You could say 30 percent of the deep-strike force 
has to be UAVs, but that is the 117 mission, that is the B-1 
mission, the B-2 mission, F-15E mission. So those need to come 
off the table then. We have to be confident that these UAVs 
will do the job. I think there is--they may. We are willing to 
see.
    Senator Sessions. I thank you for that, because Congress is 
pretty serious about it. I thank you, Admiral, for your 
frankness about where you see us heading. Congress does believe 
that we can utilize unmanned aerial vehicles more. We know 
there has been a reluctance in the Department of Defense to 
embrace that. You will continue to see pressure to go further 
and quicker. You should get serious about it. I know you are. 
But be serious, and pursue it with a positive attitude, and see 
how far we can go with it.
    Senator Pryor, do you have anything else?
    Senator Pryor. No, thank you.
    Senator Sessions. Senator Lieberman?
    Senator Lieberman. No, thank you.
    Senator Sessions. It has been a very worthwhile hearing. It 
is good to see these programs moving along on a pretty good 
course, seems to be getting on track. We have to deal with the 
Joint Strike Fighter, and the weight program, and a few other 
issues. But, all in all, if we can conclude these acquisition 
efforts, we will maintain air dominance and that is what we 
have to do.
    If there is nothing else, we will have a few days to offer 
any additional questions we may have. If there is nothing 
further, we are adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain

                          JOINT STRIKE FIGHTER

    1. Senator McCain. Secretary Sambur, two of the key lessons learned 
from Operation Enduring Freedom and Operation Iraqi Freedom are that 
aircraft ``reach'' and ``persistence'' matter. What factors cause the 
U.S. Air Force (USAF) variant of the F-35 to have over 130 nautical 
miles less range (and thereby less reach and persistence) than the Navy 
variant?
    Dr. Sambur.The range difference between the Navy version of the F-
35 (CV) and the Air Force version (CTOL) is the result of three 
factors:

        1. Mission Profile: The variants are modeled using Service 
        specified mission profiles as identified in the Operational 
        Requirements Document. The CTOL profile (specified by the Air 
        Force) is more demanding (lower altitude, higher airspeed) than 
        the optimal altitude and airspeed CV profile (specified by the 
        Navy).
        2. Wing Design: The CV, which is required to land on an 
        aircraft carrier at nominal speeds of 145 knots, has a larger 
        wing. This larger wing provides the CV better cruise 
        performance than the CTOL.
        3. Fuel Capacity: Due to the larger wing, and the fact that the 
        CV has no internal gun, the CV carries 1,600 lbs. more internal 
        fuel than the CTOL.

    Of note, the CTOL range requirement of 590 nm allows the USAF 
access to a majority of areas of interest around the world without 
sacrificing aircraft performances, and exceeds current F-16 capability 
by approximately 100 nm.

    2. Senator McCain. Secretary Young and Secretary Sambur, I 
understand that in addition to a 1-year delay, $5 billion has been 
added to development costs of the F-35 mostly to address the weight 
issue in the F-35 Short Takeoff and Vertical Landing (STOVL). Can we 
still afford to have the F-35 STOVL remain the second in the cue 
despite these cost and schedule overruns in this variant of the F-35 
program? Please fully explain your answer.
    Mr. Young. The weight challenge for JSF impacts all variants. The 
STOVL variant is impacted the most due to the Key Performance 
Parameters (KPP) related to short takeoff (STO) and vertical landing 
(VL) aboard L-Class ships. Much of the anticipated design improvements 
for weight reduction for STOVL are expected to be common across all 
variants, most specifically the CTOL variant. Concurrent with the 
weight reduction efforts in the STOVL airframe, we believe the most 
efficient and cost effective way to demonstrate success in the overall 
program is to press ahead on CTOL development (with STOVL second). This 
allows the detail design teams to reap maximum benefits in common 
weight reduction that are equally transferable to not only the STOVL 
variant, but eventually to the CV variant too. Additionally, other 
lessons that can be learned from CTOL detailed development are equally 
transferable to the STOVL variant. There are risks other than weight 
reduction in STOVL development that benefit significantly from CTOL 
development in advance of STOVL design. As a result, delays and cost 
increases are actually minimized by keeping the same development order 
among the three variants. STOVL variant is a key element in the Navy 
and Marine Corps TACAIR integration plan, and we are focusing upfront 
effort to ensure STOVL viability for our warfighters.
    Dr. Sambur. As the JSF Service Acquisition Executive, the Navy is 
providing a coordinated response to this question.

    3. Senator McCain. Secretary Young and Secretary Sambur, I 
understand that the Joint Strike Fighter (JSF) STOVL is having 
difficulty meeting four key performance parameters (fuel mission 
radius, flat deck short takeoff, ski jumps short takeoff, and bring-
back). What efforts are you undertaking in conjunction with the Joint 
Program Office to mitigate these challenges?
    Mr. Young. The JSF Program office has extended the JSF System 
Development and Demonstration (SDD) program approximately 18 months to 
provide time to get the airframe design improvements in place. We 
expect the design improvements will reduce aircraft weight to a point, 
when combined with optimized operating procedures, where the JSF will 
deliver suitable performance again in the areas of combat radius, short 
takeoff, ski jump short takeoff, and vertical landing bringback. We are 
re-planning JSF SDD to make sure we succeed. Specifically, our SDD plan 
recognizes: (1) STOVL performance is absolutely vital; (2) we are 
focusing upfront to ensure STOVL viability for our warfighters; (3) we 
are aggressively pursuing trade studies to improve performance by 
reducing weight; and (4) we are aggressively pursuing installed 
propulsion enhancements to improve performance.
    Dr. Sambur. As the JSF Service Acquisition Executive, the Navy is 
providing a coordinated response to this question.

    4. Senator McCain. Secretary Young and Secretary Sambur, from 
December 2002 to December 2003 the JSF has experienced nearly a $7 
billion cost increase and a 12-month program slip. What key factors 
have contributed to these dramatic cost and schedule changes, and what 
confidence do you have that the program is now on track?
    Mr. Young. The JSF development activities for propulsion, vehicle 
systems, mission systems, and integrated testing development are on 
schedule and performing well. The airframe design effort, however, is 
taking longer and is more complex than had been originally anticipated. 
Additional design time is needed to mature the airframe design to 
address projected performance issues that emerged during the past year. 
Consequently, the fiscal year 2005 President's budget request reflects 
extension of the SDD schedule, additional SDD funding, and a 1-year 
delay for the start of Low Rate Initial Production  (LRIP). The largest 
contributor to the $7 billion increase is in the extension of SDD by 18 
months. The increase also includes added costs for anti-tamper 
requirements and software risks.
    The Department is finalizing the details of a program replan. We 
have replaced the CDR with an Integration Maturity Review scheduled for 
April 2004, which will be followed by a series of Airframe CDRs for 
each variant that will take place over the next 2.5 years. This 
approach allows us to conduct additional trade studies with the goal of 
reducing weight and regaining performance. The Department has formed an 
independent review team to look at the complete program, including a 
near-term engineering view, assessing the present design, with specific 
emphasis on weight, aircraft structural design, and other technical 
risk areas. Then in a broader review, the independent review team will 
evaluate the program's overall system engineering processes, from 
design through supportability perspective.
    Dr. Sambur. As the JSF Service Acquisition Executive, the Navy is 
providing a coordinated response to this question. 

                                 F/A-22

    5. Senator McCain. Secretary Sambur, what percentage of the 277 F/
A-22s do you intend to purchase under the low rate initial production 
(LRIP) authorization before an operational evaluation has been 
conducted? Based on your projection and knowing that LRIP purchases 
typically constitute about 10 percent of the total buy, how do you 
justify the increased procurement you have planned for F/A-22, despite 
the added cost and schedule risk?
    Dr. Sambur. By the time the Initial Operational Test & Evaluation 
(IOT&E) concludes in September 2004, the Air Force will have a total of 
74 Raptors (PRTV 1 through Lot-4) on contract, which amounts to 27 
percent of the projected 277 aircraft profile. While this exceeds the 
10 percent ``rule of thumb,'' the Air Force assesses the overall risk 
for incurring additional costs as low due to the extensive risk-
reducing testing completed to date, including over 5,500 flight test 
hours, 2 lifetimes worth of fatigue testing, and completion of the 
first phase of Operational Test and Evaluation.

    6. Senator McCain. Secretary Sambur, I understand that the F/A-22 
is behind schedule and that you anticipate catching up by December 
2005. Given that the program is behind schedule and above cost, does it 
make sense to increase the number of aircraft you intend to buy this 
year (from 22 in last year's budget to 24 this year)? Please explain 
your answer fully.
    Dr. Sambur. In December 2003, the Air Force and Lockheed-Martin 
concluded a comprehensive scrub of the Raptor production program, 
resulting in 383 production improvement initiatives. The net result is 
that the program now has a high confidence, re-baselined delivery 
schedule in place. This revised delivery schedule includes the time 
needed to implement these initiatives and the program office now has 
real-time visibility into the production metrics via a new web-based 
information system. The Air Force is confident deliveries will return 
to the original contract schedule in Lot 3, well before December 2005. 
Based on this confidence, and the additional costs that would  be 
incurred if the production rate were fixed at 22, it is prudent to 
maintain an orderly ramp-up toward full rate production, with 24 
aircraft in Lot 5 (fiscal year 2005). 

    7. Senator McCain. Secretary Sambur, the March 2004 General 
Accounting Office (GAO) report states that it will cost $11.7 billion 
to put the ``A'' in the F/A-22 and that another $40 billion may be 
required to support this program through full rate production. In your 
recent testimony to this subcommittee, you refuted this conclusion by 
stating that you had already included about $3 billion in the 
President's budget request to support ground attack capabilities. 
Please provide the justification for why the F/A-22 is the right 
aircraft for the ground attack role given current and projected 
threats, capabilities, and vulnerabilities of the F/A-22 platform.
    Dr. Sambur. Senator, as you are aware, the ability of aircraft to 
penetrate a complex and integrated air defense system to deliver a 
weapon on target is contingent upon many factors. These include 
awareness of the threat, avoidance of the threat, minimizing exposure 
to the threat, and if necessary, the suppression and or destruction of 
the threat. In the past, it has taken complex mission planning, coupled 
with a substantial support package with many aircraft to address each 
of these factors; often with high risk to the aircraft and aircrews 
involved.
    For the first time, attributes that can overcome or mitigate these 
challenges can be rolled up into one aircraft--the F/A-22. Using a 
blend of integrated avionics, stealth, superior maneuverability, 
sustainable high speed, and combination of weapons, the Raptor has the 
ability to penetrate and operate in an advanced surface-to-air missile 
and air threat environment to deliver ordnance on target, with limited 
exposure and little additional support. The F/A-22 is right for the 
air-to-ground role because these characteristics make the Raptor lethal 
and survivable in the most robust threat environments. No other 
aircraft, present or future, provides the Joint Force Commander with 
the total capabilities and survivability of the F/A-22.

    8. Senator McCain. Secretary Sambur, please provide your analysis 
justifying the requirement for the number of F/A-22s the USAF will 
require.
    Dr. Sambur. The study ``Sustaining Air Dominance'' validated the 
Air Force requirement as at least 381 aircraft. This study is 
classified, but we will make it available for your review.

    9. Senator McCain. Secretary Sambur, please provide a detailed list 
of current and future weapons/munitions that the Raptor will carry and 
what sensor/software changes will be required for the attack version of 
this tactical aircraft.
    Dr. Sambur. The F/A-22 that the warfighter will receive prior to 
initial operational capability (IOC) will have inherent air-to-ground 
capabilities using the AIM-120, AIM-9M, GBU-32 (1,000 pound JDAM), and 
the 20mm cannon. The aircraft has already demonstrated capability with 
air-to-air weapons, and ongoing JDAM testing will be completed prior to 
IOC.
    In Spiral 2, the JDAM envelope will be expanded to enable 
supersonic delivery of the weapon. A software upgrade will accompany 
Spiral 2 to improve pilot-vehicle interface and radar performance.
    In Spiral 3A, a robust set of capabilities will be added to the 
Raptor. Sensor upgrades planned for Spiral 3A include adding air-to-
ground modes to the 4th generation active electronically scanned array 
(AESA) radar and adding Link-16 datalink transmission capability. The 
new 4th generation AESA radar mode will provide high definition and 
synthetic aperture radar ground mapping and aided target detection. 
Spiral 3A will also incorporate small diameter bomb (SDB) on the 
Raptor. A software upgrade will accompany Spiral 3A to incorporate 
these capabilities.
    Spiral 3B will expand on the capability added in previous spirals. 
For weapons, Spiral 3B plans to improve SDB capability and incorporate 
AIM-9X onto the Raptor. Additionally, ground moving indication 
capability will be added to the radar. As in previous spirals, a 
software upgrade will be included.
    Beyond Spiral 3B, the list of candidates are still being 
considered. Some possible candidates include adding side-mounted 
arrays, advanced air-to-air and air-to-ground weapons, and moving 
target attack capability. These capabilities are projected beyond the 
FYDP, and they are still being definitized.

    10. Senator McCain. Secretary Sambur, please comment on what 
additional burden  will  be  placed  on  the  tanker  fleet  by  
providing  an  attack  capability  in  the F/A-22.
    Dr. Sambur. Senator, there should be no additional burden placed 
upon our tanker fleet due to the additional capability of the Raptor. 
Since the aircraft carries its weapons internally, the air-to-ground 
mission will not change the aircraft flight characteristics--there will 
be little distinction between fuel requirements for an air-to-air 
mission and an air-to-ground mission.

                                TANKERS

    11. Senator McCain. Secretary Sambur, where do we stand with 
respect to the 20/80 tanker proposal? Specifically, has the USAF 
renegotiated the unit cost of these tankers, down from $138.5 million 
to a figure closer to $120.5 million, that is, the figure determined to 
be ``fair and reasonable'' by the Department of Defense's own 
contractor--the Institute for Defense Analysis (IDA)?
    Dr. Sambur. The KC-767 program is currently paused per the December 
1, 2003, memorandum from the Deputy Secretary of Defense. At the time 
of the memorandum, the price to purchase a KC-767 was $13 million in 
fiscal year 2002. IDA's value was only an analytic estimate--the Air 
Force has a fixed price after negotiating with Boeing for over a year, 
with limitation of profit controls and most-favored customer clauses 
that are both auditable. The controls were seen by the OSD leasing 
panel headed by the Under Secretary of Defense for Acquisition, 
Technology, and Logistics (AT&L) and OSD Comptroller as giving the 
Department of Defense (DOD) a good deal. If profits exceeded 
limitations, the excess is returned to the taxpayers.

    12. Senator McCain. Secretary Sambur, how much will reconfiguring 
the tankers under the 20/80 program with a multipoint simultaneous 
refueling capability (a ``WARPS'' system) cost the taxpayers? Develop 
your answer fully to include figures for total program costs and per 
unit costs.
    Dr. Sambur. The KC-767 is more capable than the KC-135E in cargo 
capacity, passenger capacity, available offload, and has the ability to 
refuel ALL Air Force, Navy, and Allied aircraft on the same mission 
regardless of boom or drogue configuration from delivery of the first 
plane. Currently, the USAF has no estimate of the cost for engineering, 
to procure the pods, and to modify and strengthen the wings. The new-
design refueling pods require aerodynamic testing and engineering to 
ensure proper performance. Italy is planning to procure these pods for 
their Boeing 767 Global Tanker Transport Aircraft (GTTA). The pods for 
us are planned for inclusion in the second spiral of development of the 
USAF KC-767. Out of the more than 600 current KC-135 and KC-10 tankers, 
only 40 aircraft are configured to accept 35 pod sets. It should be 
noted that none of the current pod-equipped aircraft will be retired by 
the time the initial 100 KC-767s are planned to enter service.

    13. Senator McCain. Secretary Sambur, will the lease of up to 20 
tankers be structured around a ``special purpose entity,'' as under the 
original proposal? If so, what additional costs will be incurred by the 
taxpayers for leasing the tankers as opposed to buying the tankers 
outright?
    Dr. Sambur. The lease of 20 planes will be structured around a 
``special purpose entity.'' The structure is quite common in commercial 
markets. It facilitates investor confidence because it gives investors 
more direct insight into how their money will be used. In the event of 
manufacturer bankruptcy or other financial trouble, the investors are 
at less risk when the lease structure uses a special purpose entity (in 
contrast to a direct lease by the manufacturer). Interest rate 
financing is a function of investor confidence. To the extent that this 
common commercial practice of using a special purpose entity increases 
investor confidence, interest rates will be lower and this reduces the 
Air Force's total bill.
    The costs to establish the special purpose entity are borne by 
Boeing since they are responsible for paying transaction costs. We do 
not have direct insight into these specific costs since they are a 
Boeing responsibility.
    There are lease specific costs involved with the construction and 
permanent financing of the tanker lease. Lease costs are best compared 
to purchase costs on a net present value (NPV) basis, as required by 
OMB. NPV analysis is the standard both within the Department of Defense 
and the commercial sector for making business decisions--such as this 
decision to lease or purchase airplanes. In our report to Congress in 
July 2003, we demonstrated that lease costs were within 1 percent of 
purchase costs in net present value terms. The magnitude of the 
difference is less than 1 percent under a lease 20/purchase 80 
scenario.

    14. Senator McCain. Secretary Sambur, do you agree with Acting 
Under Secretary of Defense for Acquisition, Technology and Logistics 
(AT&L) Michael Wynne's statement that the USAF will obtain budget 
authority for the acquisition of the tankers at the time of order--not 
at delivery?
    Dr. Sambur. When the pause is lifted by the Office of the Secretary 
of Defense, the Air Force will comply with the Department's direction 
on the path forward. We will budget consistent with the congressional 
authorities that we have been given. We will put a program in place 
that meets the warfighter's need for tankers, but which also fits 
within the Air Force budget.

    15. Senator McCain. Secretary Sambur, do you intend for the 
contracts for this proposal to be executed before or after an Analysis 
of Alternatives (AOA) has been completed?
    Dr. Sambur. When the pause is lifted by the Office of the Secretary 
of Defense, the Air Force will comply with the Department's direction 
in executing contracts. The AOA is anticipated to complete in August 
2005.

    16. Senator McCain. Secretary Sambur, the AOA Guidance requires 
that the tanker program be supported by a valid capabilities document. 
To that end, the Guidance requires that the USAF generate a new Mission 
Needs Statement (MNS) and Operational Requirements Document (ORD), now 
called an Initial Capabilities Document and Capabilities Development 
Document. Different name, same idea. If the Office of the Inspector 
General concludes that Boeing established or modified the requirements 
of the original tanker ORD, do you concur with the position that the 
contract cannot be executed until a new ORD is performed?
    Dr. Sambur. It would be inappropriate for me to speculate on the 
findings of the Inspector General or future directions from the Defense 
Department leadership. Once the program is released from its current 
paused status, we will comply with the instructions directed by the 
Office of the Secretary of Defense.

    17. Senator McCain. Secretary Sambur, the Deputy Secretary of 
Defense promised that I will get a copy of the new contracts and a 
briefing on them in a timely manner--before they are executed. Will you 
personally ensure that this will occur?
    Dr. Sambur. The program is currently paused. When the pause is 
lifted by the Office of the Secretary of Defense, the Air Force will 
comply with the Department's direction on the path forward. 

    18. Senator McCain. Secretary Sambur, I imagine that the contracts 
here will have cancellation ceilings exceeding $100 million. In that 
context, do you agree that the DOD will comply with statutory 
requirements that call for 30 days written notice to defense committees 
of the proposed contracts and cancellation ceilings? Please explain 
your answer fully.
    Dr. Sambur. Due to the Office of the Secretary of Defense's 
directed pause in KC-767 program execution, we have not yet defined the 
terms and conditions of a prospective multi-year procurement contract. 
If the Air Force is directed to proceed by OSD with a multi-year 
contract, we will fully comply with congressional authorities and 
applicable requirements of 10 U.S.C. 2306b, the Federal Acquisition 
Regulation and its supplements. With regard to any cancellation ceiling 
provision that establishes a liability in excess of $100 million, we 
will ensure that, ``. . . the head of the agency . . . shall give 
written notification of the proposed contract and of the proposed 
cancellation ceiling for that contract to the Committee on Armed 
Services and the Committee on Appropriations of the Senate and the 
Committee on Armed Services and the Committee on Appropriations of the 
House of Representatives, and such contract may not then be awarded 
until the end of a period of 30 days beginning on the date of such 
notification.''

    19. Senator McCain. Secretary Young and Admiral Nathman, the MNS 
for tankers states: ``New design, and/or procurement of air refueling 
[tanker] aircraft must be compatible with all U.S., NATO, and allied/
coalition forces receiver-type aircraft. Air refueling [tanker] 
aircraft shall be capable of refueling receptacle and probe-equipped 
receiver aircraft on the same mission, as well as refueling multiple 
aircraft simultaneously.''
    On June 25, 2002, then Vice Chief of Naval Operations Admiral 
Fallon conditionally signed off on a Joint Requirements Oversight 
Council Memorandum on Air Refueling Aircraft (ARA) ORD by stating that 
``it is a critical requirement for any air refueling tanker to have the 
capability to refuel two receivers simultaneously.'' In concurring with 
the ORD he stipulated to the following, which I quote:

        <bullet> ``Critical: Change sentence to read: `The aircraft 
        must have the capability to refuel two receivers simultaneously 
        (Threshold).' ''
        <bullet> Admiral Fallon's rationale: ``Dual drogues maintain 
        the current refueling capability of the KC-10 and KC-135 
        aircraft for the probe-equipped aircraft.''

    Is it still a critical Navy requirement for any new refueling 
tanker to have the capability to refuel two receivers simultaneously, 
as Admiral Fallon suggested? I would like both of you to answer my 
question as to the Navy's position as stated previously by Admiral 
Fallon when he conditionally signed off on the ORD on June 25, 2002, 
and as is also represented in the MNS, which Admiral Fallon noted in 
his response.
    Please provide the information within 2 weeks of notification with 
respect to this question.
    Mr. Young and Admiral Nathman. Our requirement remains that any new 
tanker be capable of refueling two receivers simultaneously. The Tanker 
Mission Needs Statement validates that requirement and Admiral Fallon's 
previous statements are consistent with this requirement and, 
additionally, underscores that the simultaneous capability should exist 
today in all of the ``big-wing'' tanker fleet's aircraft types.

    20. Senator McCain. Secretary Sambur, are you aware that the USAF 
MNS and the Navy, Marine Corps, and our allied and coalition partners 
have a critical requirement for any air refueling tanker to have the 
capability to refuel receivers simultaneously? If so, then why would 
you have endorsed a plan to deliver Boeing 767 tankers that will not be 
capable of simultaneously refueling two receivers when Boeing has 
demonstrated this capability in Boeing 767 tankers delivered to both 
Italy and Germany?
    Dr. Sambur. Senator McCain, the Air Force recognizes the valid 
requirement for a simultaneous air refueling capability within the Air 
Force tanker force. As a result, the ARA ORD, which was approved by the 
JROC, included the simultaneous refueling capability requirement as a 
Spiral 2 threshold. A Spiral 2 threshold is a requirement that could be 
deferred until later deliveries.
    While Boeing plans to deliver tankers to Italy with a simultaneous 
refueling capability, the development and testing are still ongoing. 
Also, you should note that the Italian aircraft will not meet all the 
USAF requirements. Germany did not procure any Boeing 767 tankers, but 
actually procured four Airbus 310 tankers, which do not have a boom and 
therefore cannot refuel any USAF aircraft. Regarding simultaneous 
refueling capability, the Air Force currently possesses the capability 
through 20 KC-135 and 15 KC-10 aircraft. The Air Force is retaining all 
of these aircraft and will continue to support the Navy/Marine aircraft 
with these assets. Future analysis will determine how many future 
aircraft need the simultaneous capability. Additionally, all KC-767 
aircraft will have the capability to refuel both Air Force and Navy/
Marine receivers on the same sortie--a significant capability over the 
existing KC-135 fleet.

    21. Senator McCain. Secretary Sambur, on February 24, 2004, Acting 
Under Secretary of Defense (AT&L) Wynne transmitted to you Guidance for 
Conducting an AOA on Recapitalizing the KC-135 Fleet. This Guidance 
clearly strives for transparency, objectivity, and a clear methodology 
that takes into account joint requirements. None of these elements were 
present in the original ORD for tankers. This was because, as these 
documents indicate, Boeing ``modified and established the requirements 
to prevent an AOA from being conducted.'' In other words, the ORD was 
changed not to reflect current tanker capabilities and joint Service 
requirements, but to improperly tailor the requirements to accommodate 
a specific type of aircraft, namely the Boeing's KC-767A. Apparently, 
the Office of the Secretary of Defense has realized this and has issued 
new guidance to the USAF directing them to conduct a new initial 
capabilities document. I understand that the Air Force will also 
conduct a capabilities development document. Both of these are intended 
to supercede the original MNS and ORD, respectively. If the original 
ORD is so fundamentally flawed that it cannot support the USAF's long-
term plan to recapitalize the KC-135 fleet, how could you possibly 
expect it to be valid enough to justify the current 20/80 deal? 
Similarly, how do you expect to finalize the current tanker proposal if 
it is neither supported by a new AOA nor a valid capabilities-based 
document? Please explain your answer fully.
    Dr. Sambur. Senator McCain, the ARA ORD was written by the 
warfighter, fully vetted through the Services and combatant commanders, 
and ultimately approved by the JROC. As the ARA ORD proceeded through 
the normal requirements validation process, it underwent multiple 
levels of review. The KC-767 tanker will meet the warfighter's 
requirements defined in the ARA ORD and is the initial step in 
recaptializing the air refueling fleet. The AOA will provide the Air 
Force with additional analysis--necessary to continue recapitalizing 
the remaining KC-135 fleet.

    22. Senator McCain. Secretary Young, Admiral Nathman, and General 
Hough, if you learned, immediately before executing a contract for a 
given program, that the ORD that was used to validate that program was 
in fact invalid because a contractor improperly modified or established 
the requirements of the ORD, would you execute that contract or would 
you consider this a compelling reason not to execute the contract for 
that program?
    Mr. Young and Admiral Nathman. We would not award a contract if the 
requirement it intended to address was invalid. The fact that a 
contractor may have had some involvement in developing a requirement, 
however, does not automatically mean the requirement is invalid. In 
fact, it should generally have no impact on the validity of the 
requirement. Approving operational requirements is clearly an 
inherently governmental responsibility and, ultimately, is always 
performed by government personnel. Contractors do not approve 
requirements. If we were advised of potential issues with a 
requirements document immediately before award of a contract, we would 
generally postpone award until we could get the organization 
responsible for its establishment to validate the requirement. In some 
instances, we might proceed with contract award--it would depend on 
such factors as the nature of the potential issues, the urgency of the 
requirement, the likely impact on the contract of a post-award change 
in requirements, and whether proceeding with contract award, in the 
face of the improper behavior, would cast doubts on the integrity of 
the procurement system.
    General Hough. A warranted contracting officer is the only 
individual with the authority to obligate the Government and award and 
execute a contract. The contracting officer is legally bound to comply 
with all applicable statutes and regulations. In the scenario you have 
provided, there are potentially multiple violations of statutes or 
regulations that may preclude contract award or execution. Any 
substantive determination regarding the legality of any contractual 
action is contingent upon the application of the law to the facts. In 
the absence of specific facts, it would not be prudent to recommend a 
course of future action.

    23. Senator McCain. Secretary Sambur, on April 3, 2003, you 
testified before this subcommittee that the Air Force would not conduct 
an AOA for tanker aircraft before executing the Boeing KC-767 tanker 
lease for three reasons:
    First of all, you said ``we [Air Force] have made a compelling case 
as `Why to lease [Boeing 767 tankers].' '' However, on June 20, 2003, 
OSD Program Analysis and Evaluation (PA&E) Ken Krieg wrote to 
Secretaries Wynne and Zakheim, ``We find that leasing provides no 
inherent economic efficiencies relative to direct purchase of tankers 
and is, therefore much more expensive in the long run.'' In fact, Mr. 
Krieg went on to state in his memo that leasing would cost $6 billion 
more than a direct purchase. Do you still agree that the Air Force has 
made a compelling case to lease the Boeing 767 tankers?
    Dr. Sambur. Subsequent to the June 20, 2003, memorandum, the 
Department of Defense, including PA&E, reviewed and supported the final 
findings in the ``Report to the Congressional Defense Committees on KC-
767A Air Refueling Aircraft Multi-Year Lease Pilot Program'', dated 
July 10, 2003. The report stated, ``the Department of Defense 
determined that the net present value of the multiyear lease option and 
a traditional purchase option results in a NPV favoring a purchase of 
$150 million.'' The Air Force supports the KC-767 program to lease 20/
buy 80 aircraft. The Air Force has an urgent and compelling need to 
start recapitalization of the KC-135 tanker fleet. The proposed lease 
gets this process started quickly and the currently negotiated 
contracts offer an affordable path. When the pause is lifted by the 
Office of the Secretary of Defense, the Air Force will comply with the 
Department's direction on the way ahead.

    24. Senator McCain. Secretary Sambur, second, you said ``. . . we 
are concerned about the safety, about the corrosion of Es [KC-135Es].'' 
You went on to say, ``I know there has been an Air Force study a couple 
of years ago [KC-135 Economic Service Life Study (ESLS)] that seems to 
indicate that there is life expectancies of these KC-135s that is far 
greater than we are now telling you. But the actual finding is that the 
corrosion is very serious. It is much more serious than the study ever 
anticipated.''
    However, the Congressional Research Service (CRS) disputes your 
claim. It has told us that, since the ESLS, the Air Force has not 
conducted a thorough corrosion assessment. In that context, the fact is 
that no data and analysis invalidates the conclusions of the ESLS (and 
Tanker Requirements Study), which indicate that the need to 
recapitalize the fleet is not urgent. If the very thorough KC-135 ESLS 
[which was drafted by Boeing, Headquarters USAF, USAF Active Duty, 
Reserve, and Air National Guard participation, and Tinker Air Force 
Base logistics center] was so wrong, then why did the USAF have to 
doctor corrosion documents that were sent to this committee?
    Dr. Sambur. The KC-135 Economic Service Life Study was compiled 
using fiscal year 1999 cost data. Since then, more accurate cost data 
has become available, for example the cost estimate for the E model 
engine strut repair was estimated at $1 million per aircraft in 1999, 
but the actual costs are nearly $3 million per aircraft. Regarding the 
corrosion documents (copies of placards on display during a tour of the 
Oklahoma City Air Logistics Center KC-135 line) that were provided to 
the Committee at the request of a professional staff member, Secretary 
Roche stated in his letter 27 February 2004, ``You can be assured that, 
far from any assertions to the contrary, factual data--and only factual 
data--were presented to the PSMs during that trip. As those placards 
featured `Tinker-only' information, and because our installations and 
logistics professionals strive to present a complete and timely picture 
of our fleet, they amended the placard file by omitting the `Tinker-
only' occurrence factors. Above all, they wanted to eliminate the 
possibility that the data at Tinker could be misunderstood as `fleet-
wide' corrosion data . . . the Tinker professional wanted to avoid the 
confusion that may have resulted from incomplete data. After the PSM 
requested the exact files shown on the tour, those files were provided 
along with highlighted, auxiliary notes to ensure that those placards 
could be seen in their proper context.''
    While corrosion is an issue, the greater issue is that this 43 
year-old fleet continues to age. As we sustain aircraft longer than we 
ever have, we are learning how to sustain them at the same time. As 
these systems have aged we have encountered grounding situations such 
as two incidents between 1999 and 2000 when stabilizer trim actuator 
problems affected 139 aircraft in the first incident and 161 in the 
second one. Additionally, the E models are currently under flight 
restrictions due to their engine struts. The likelihood of finding more 
of these surprises or unknowns increases with time. We do not know how 
an aircraft manufactured with 1950s technology will stand up to 45, 50, 
or 60 years of operation. We can analyze, model and predict, but there 
are and will continue to be more unknowns . . . unknowns that we cannot 
allow to ground the backbone of our air refueling capability.

    25. Senator McCain. Secretary Sambur, finally, you said ``. . . we 
are going forward with the lease because it is the most affordable way 
of getting assets in the shortest possible time.'' Do you feel that in 
light of the five ongoing investigations and criminal cases on the 
Boeing 767 tanker lease/procurement that this is still the best option 
for the USAF to pursue? Your statement suggests a pressing urgency to 
recapitalize the KC-135 tanker fleet that is not supported by USAF 
budget requests or studies. Since the Boeing 767 tanker lease/
procurement has never been included in the President's defense budget 
request alongside other competing requirements, it suggests that tanker 
recapitalization has never been a pressing concern for the USAF. 
Furthermore, the conclusions of the KC-135 ESLS, which examined the 
cost of ownership (projected sustainment and operational costs) and 
availability of the aircraft to the warfighter, did not support your 
position, so I request that you base your answer on statistically 
derived, well-formulated conclusions rather than anecdotal evidence.
    Dr. Sambur. As you are aware, the KC-767 program is currently 
paused per a December 1, 2003, memorandum from the Deputy Secretary of 
Defense. It would be inappropriate to speculate on the findings of 
ongoing studies and investigations. What is clear is that the KC-135 
fleet's average age is 43 years old--we had an event in 1999 that 
grounded 40 percent of the fleet and the KC-135E are presently under 
flight restrictions. The need to begin recapitalization is clear and 
present. Costs to support this aging fleet are rising and the risk of 
operating a fleet of over 500 aging aircraft has become unacceptable. 
We fully support the decision by the Deputy Secretary of Defense to 
pause this program. We will be prepared to follow the direction from 
the Department of Defense, which will have the added benefit of the 
assessments to which you refer.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

            C-17 AIRCRAFT PROCUREMENT AND AGING C-5 AIRCRAFT

    26. Senator Clinton. Secretary Sambur and General Keys, in recent 
testimony on March 10, 2004, before this committee's Seapower 
Subcommittee, General Handy, the Commander of U.S. Transportation 
Command, spoke of the need to continue the C-17 program beyond the 
current 180 airplanes. New York is very interested in this news for 
several reasons. Not only is the State of New York among the top five 
suppliers to the C-17 program, but also our Air National Guard Unit at 
Stewart Air National Guard Base (ANGB) in Newburgh is equipped with 
aging C-5 aircraft that could possibly be replaced with new C-17s. 
Further, General Handy described today's strategic airlift system in 
the DOD as not being capable of meeting the minimum requirements of 
Mobility Requirements Study--2005 (MRS-05) which is 54.5 million ton-
miles (MTM) a day. In addition, he stated that the new strategic 
airlift study commencing next year will no doubt produce a 
significantly higher MTM requirement.
    What is the USAF's plan for procurement of additional C-17 aircraft 
above the current authorized and appropriated 180 aircraft to ensure an 
adequate airlift force, and does this plan address both the active and 
Reserve components, consistent with the total force concept?
    Dr. Sambur and General Keys. Our current modernization plan 
includes procuring 180 C-17s as well as modernizing as many of our C-5s 
as is required to meet validated air mobility requirements. Results 
from future studies and analyses, such as the Mobility Capabilities 
Study (MCS), may indicate an increase in strategic airlift 
requirements. However, the current plan stands at 180 C-17s. Our future 
plans include maintaining the partnership that exists between the 
active and Reserve component in both associate and unit equipped 
relationships. We will continue to rely heavily on the air mobility 
contributions of our Total Force partners.

    27. Senator Clinton. Secretary Sambur and General Keys, what is the 
USAF's transition plan for C-5 bases such as Stewart ANGB (the only Air 
National Guard unit qualified to operate and maintain the C-5), and 
what are your current plans for replacing the C-5s at Newburgh with C-
17s as part of your total force modernization efforts?
    Dr. Sambur and General Keys. Our Total Force Modernization Plan for 
C-5 units, including Stewart, involves programs to modernize C-5 
avionics and other aircraft systems, to include installing new engines. 
This will maintain a unit's ability to be an integral and valuable 
Total Force contributor to our Nation's overall air mobility capability 
far into the future. Currently, there is no plan to transition the C-5 
unit at Newburgh to C-17s.

    28. Senator Clinton. Secretary Sambur and General Keys, what is 
222+, which we often hear as the desired number of C-17s?
    Dr. Sambur and General Keys. Our current airlift force structure 
plan is based on the Mobility Requirements Study (MRS)-05, completed in 
January 2001. The study indicated that 180 C-17s and 112 C-5s was the 
appropriate airlift fleet mix to maintain moderate risk and meet 
requirements. The new National Military Strategy (NMS) with the 1-4-2-1 
construct has different assumptions and drives new requirements. The 
``222+'' indicates that 222 or more C-17s may be needed to mitigate 
risk, increase operational capability/flexibility, and achieve an 
appropriate lift capacity. The actual requirement will become more 
clear when the MCS completes in 2005.

    29. Senator Clinton. Secretary Sambur and General Keys, what 
combination of C-17s and modified C-5s will be required in the future 
force structure concept?
    Dr. Sambur. Our current airlift force structure is based on the 
MRS-05, completed in January 2001. The study indicated that 180 C-17s 
and 112 C-5s was the appropriate airlift fleet mix to maintain moderate 
risk and meet requirements. The new NMS with the 1-4-2-1 construct had 
different assumptions and drive new requirements. Taking into account 
the increasing support needed outside the primary warfight (i.e. 
Homeland Defense, Special Operations, Support for other Combatant 
Commands), the future force structure may change. The actual 
requirement, and future force structure, will become clearer when the 
MCS completes in 2005.

                     RETIREMENT OF LEGACY AIRCRAFT

    30. Senator Clinton. Secretary Sambur and General Keys, as legacy 
aircraft are retired from the Reserve component, what is the USAF's 
plan to replace those aircraft and ensure that those flying wings are 
maintained as part of the future force structure of the USAF?
    Dr. Sambur and General Keys. We are retiring legacy aircraft due to 
the increasing costs associated with maintaining those legacy aircraft. 
The previously briefed Air Mobility and Tanker Roadmaps highlighted our 
plan to recapitalize our tanker and airlift fleets while maintaining 
the proper mix of Active Duty and Reserve component flying wings. 
Additionally, the Active Duty, Guard, and Reserve are engaged in daily 
discussions regarding how best to transform our Air Force while 
maintaining and/or enhancing the significant contributions of the Air 
Reserve components.

    31. Senator Clinton. Secretary Sambur and General Keys, in the 
midst of the upcoming base realignment and closure (BRAC) round, what 
impetus drives the USAF to retire legacy aircraft when a pathway 
forward for modernization is not clear?
    Dr. Sambur and General Keys. We are retiring legacy aircraft at the 
same time we are quantifying requirements to acquire additional airlift 
and air refueling capability because of the increasing costs associated 
with maintaining those legacy aircraft at usable levels. As legacy 
aircraft continue to age, logistics support costs continue to increase 
to a point that it is wiser to invest in modernizing airlift and air 
refueling capabilities. The Air Force realizes the need to remain 
flexible to meet ever-changing global challenges in a fiscally 
constrained environment. However, we cannot delay efforts to modernize 
the legacy fleets, as some already average over 40 years of age.

    32. Senator Clinton. Secretary Sambur and General Keys, the 
retirement of legacy aircraft without the concurrent stationing of 
modernized aircraft will place certain installations at a military 
value disadvantage for BRAC 2005 and skew the BRAC analysis. Please 
provide your insights on this topic.
    Dr. Sambur and General Keys. I do not believe it will. Military 
value is the primary consideration in making base closure or 
realignment recommendations. That military value is based upon the 
value of the installation consistent with the selection criteria, not 
necessarily the unit that is currently assigned. In fact, most 
installations will have equipment and/or mission changes over the next 
20 years. The role of the BRAC process is to determine what 
infrastructure we need to keep to accommodate current and future 
missions.

             FUTURE USAF TANKER REQUIREMENTS/STAGING ISSUES

    33. Senator Clinton. Secretary Sambur and General Keys, any future 
tanker acquisition program will include a review of two key elements, 
aircraft utilization rates and basing. Future tankers will have 
tremendous flying capabilities and will be capable of flying virtually 
all day long. The airlines do this to maximize profitability. The USAF 
could also do this, especially by fully utilizing capable bases like 
Niagara Falls Air Reserve Base to be airline type hubs or staging 
bases. For example, Niagara has the billeting, ramp, runway, fuel 
facility, et cetera, where this could be done efficiently and at a 
tremendous cost saving to the government. Niagara could easily support 
an active duty detachment in support of the staging concept. Because of 
the tremendous capabilities of any modern tanker aircraft, do you have 
a plan to increase the sortie generation rate of any future tanker?
    Dr. Sambur and General Keys. Senator Clinton, sortie rate (sortie/
day) is the number of sorties per aircraft per day that can be 
scheduled and confidently executed. Increased sortie generation in 
conjunction with increased availability is one method for providing 
additional tanker support to the warfighter. By recaptalizing our aging 
tanker fleet, the Air Force seeks improvements in both areas. Although 
wartime sortie generation rates are classified in the USAF War and 
Mobilization Plan, the Air Force does intend to increase the sortie 
generation rate on future tankers. As written in the ARA ORD, the Air 
Force requires sustained sortie rates at least 8 percent greater than 
the current KC-135 sortie rate for the air refueling.

    34. Senator Clinton. Secretary Sambur and General Keys, as a result 
of the high demand for refueling sorties in the Northeast, what is the 
feasibility of integrating the future tanker into the Reserve 
component?
    Dr. Sambur and General Keys. Currently, a strong Air Reserve 
component tanker presence exists in the Northeast with 50 Air National 
Guard (ANG) KC-135 E-models across 6 locations. This is in addition to 
32 active duty KC-10s. Initial delivery of the follow-on tanker will be 
to the active duty to ensure maximum utilization on a daily basis. As 
we continue recapitalization of the KC-135 fleet, the follow-on tanker 
will be fully integrated across all mobility forces, including the Air 
Reserve component. The detailed basing plan will be founded upon 
analyses currently being conducted.

    35. Senator Clinton. Secretary Sambur and General Keys, would the 
concept of staging the future tanker at the three Northeast Tanker Task 
Force sites (Bangor, ME; Niagara, NY; and Pease, NH) be the optimal way 
to support the Atlantic Air Bridge, which supports operations in Europe 
and Southwest Asia?
    Dr. Sambur and General Keys. Yes, staging tankers as we currently 
do at these three bases--combined with the proximity of other east 
coast and European locations--optimizes Atlantic Air Bridge operations. 
This, along with established infrastructure to support staging 
operations, makes for the most efficient support to the war fighter. 
The Air Force continually reviews our global air refueling 
requirements. Any future tanker assets would be fully integrated into 
an operational concept that ensures the Northeast Tanker Task Force 
could continue its outstanding job supporting the European or Southwest 
Asia's combatant commander air refueling needs. 

                               FIRE SCOUT

    36. Senator Clinton. Secretary Young and Admiral Nathman, I have 
learned that the Navy has cut the number of Fire Scout UAVs to be 
purchased from the $36.5 million in the fiscal year 2004 budget from 
eight to two. Congress directed the Navy to purchase eight vehicles 
with these funds. Can you explain this change in direction?
    Mr. Young and Admiral Nathman. The nonrecurring design and 
development effort for Fire Scout has not been completed and the 
funding provided in fiscal year 2004 was not sufficient to complete the 
nonrecurring engineering and procure eight air vehicles at the same 
time. Furthermore, in view of the Army choosing the upgraded version of 
Fire Scout for their Future Combat System Class IV UAV, the best use of 
the funds was to complete the design modifications that meet both Navy 
and Army requirements for a common air vehicle that would accommodate 
Service unique missions. Two Fire Scout air vehicles will be procured 
along with the nonrecurring engineering efforts. The benefit will be 
lower production costs for both the Navy and Army with a potential 
savings for common maintenance and support. 
    The CNO's fiscal year 2005 Unfunded Program List of March 1, 2004, 
identifies critical programs not funded in the fiscal year 2005 
President's budget request. Included in this list is $48 million for 
the Fire Scout program. The additional money would fund the procurement 
of six LRIP Fire Scout air vehicles and associated payloads and support 
equipment. This equipment, in conjunction with equipment already 
procured, would provide two complete Fire Scout VTUAV Systems for 
testing on the Flight 0 LCSs.

    [Whereupon, at 4:00 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                        TUESDAY, MARCH 30, 2004

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                         ARMY AVIATION PROGRAMS

    The subcommittee met pursuant to notice at 2:00 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Sessions and Lieberman.
    Majority staff members present: Ambrose R. Hock, 
professional staff member; Gregory T. Kiley, professional staff 
member; and Thomas L. MacKenzie, professional staff member.
    Minority staff members present: Daniel J. Cox, Jr., 
professional staff member; Creighton Greene, professional staff 
member; and Michael J. McCord, professional staff member.
    Staff assistants present: Michael N. Berger and Sara R. 
Mareno.
    Committee members' assistants present: Arch Galloway II, 
assistant to Senator Sessions; and Frederick M. Downey, 
assistant to Senator Lieberman.

      OPENING STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. The Airland Subcommittee will come to 
order.
    Today the Airland Subcommittee meets to receive testimony 
on the Army's amended fiscal year 2005 budget request for those 
aviation programs for which this committee has oversight 
responsibility. I would like to thank our distinguished panel 
for taking time out of their busy schedules to be with us. 
Welcome.
    Lieutenant General Cody, it is a pleasure to see you again, 
the Deputy Chief of Staff for Operations and Plans. Major 
General Joseph Bergantz, Program Executive Officer for 
Aviation; and General Edward J. Sinclair, Commanding General, 
United States Army Aviation Center, Fort Rucker. It is good to 
see you again, General Sinclair.
    We are delighted you are here and thank you for your 
testimony.
    As we meet today, Army aviation is operating at 
extraordinary tempo in Iraq, Afghanistan, and other places in 
the world. Soldiers operating these systems have performed 
magnificently, as one would expect from our armed services. In 
the hands of well-trained soldiers, aviation systems have been, 
and will continue to be, relevant combat multipliers.
    Over the past several years, the Airland Subcommittee 
supported the Army's transformation and development of its 
future combat systems. We also supported the Comanche armed 
reconnaissance helicopter. However, we have also expressed our 
concern regarding the ability of the Army to fund this 
transformation. Frankly, we never understood fully how all the 
budget demands were going to be met as we moved towards 
transformation.
    On September 30, 2003, the Chief of Staff of the Army (CSA) 
directed a top-to-bottom review of Army aviation as one of his 
16 focus areas. The CSA's guidance was to make Army aviation a 
capabilities-based maneuver of armed optimized or joint fight 
with a shortened logistics tail. Last month, the Army announced 
the initial results of the Aviation Task Force. A significant 
recommendation was to reallocate Comanche funds to improve the 
overall capabilities and health of the aviation force.
    Comanche represented 40 percent of the current aviation 
budget and 47 percent of the aviation budget in the extended 
planning period. By reallocating approximately $14.6 billion 
over 2004 through 2010, the Army is now able to restructure 
Army aviation to meet current and future requirements.
    While the Comanche's termination may be the right decision 
for the Army, and though some would disagree, your testimony 
today will help this subcommittee understand the rationale for 
the termination and the near-term and long-range impacts on 
Army capabilities. The main assumption I would use, as you 
explain the long-range impact, is that all the $14.6 billion 
will remain solely for Army aviation.
    The subcommittee is also interested in hearing about the 
progress of other aviation programs, such as the Apache Block 
III upgrade, the UH-60M Black Hawk program. We are interested 
in the Army's aviation restructure, evolving doctrine, and 
training to include Flight School 21 and the Army's attempt to 
modularize its aviation force. We are concerned with the 
requirements associated with that modularity and how the Army 
intends to fund this important decision.
    Last but not least, we want to discuss the Army's progress 
on unmanned aerial vehicles (UAVs). I am very interested in 
their role in the transformed aviation force and within the 
future combat systems based units of action. To that end, I 
hope I hear how your acquisition and training plans are 
evolving, as well as the collaborative work you are doing with 
other Services.
    Thank you again, gentlemen, for your service to America, 
for those who work with you to give tireless hours that have 
helped us maintain air dominance, helped us provide the highest 
degree of technology and mobility to our soldiers, making them 
more lethal to the enemy and at less risk themselves.
    I want to thank Senator Lieberman for his leadership on 
this subcommittee. He clearly understands our national defense 
issues. He has been a student of it. He believes in this 
country and wants to see it strong, vibrant, and a positive 
force in the world.
    Senator Lieberman.

            STATEMENT OF SENATOR JOSEPH I. LIEBERMAN

    Senator Lieberman. Thanks, Mr. Chairman, for your kind 
words. It continues to be an honor for me to work with you on 
behalf of our national security and our men and women like the 
three honorable gentlemen before us today, who carry it out. I 
thank you for this partnership, and I thank the witnesses for 
all that they have done to protect America and all we stand 
for.
    For a number of years, I have watched the Army struggle 
with its aviation modernization program. Here is what the 
overall modernization program--as the chairman indicated, the 
Army confronted the vexing problem of how to transform for the 
future, while maintaining current readiness. The central 
problem has been what it so often is around here and in life, 
insufficient funding to do both. But that is exactly what the 
Army tried to do.
    The Army strongly advocated for Comanche as the aviation 
centerpiece of its transformation effort, calling it, among 
other things, the quarterback of the battlefield of the future. 
But while claiming that the Comanche was its highest aviation 
priority, unfortunately the Army, regularly, was forced to 
under-fund the program as it struggled to recapitalize and 
modernize its existing and aging aviation fleet.
    As a result, the Comanche program was restructured six 
times in its 2-decade history, the last time 2 years ago--less 
than 2 years ago, in fact. Ironically, it seemed to me that the 
last restructure solved the program's problems. It was on-cost 
and on-schedule in meeting or exceeding every milestone 
objective. But because of budget pressures, the recent success 
of the Comanche program did come at the cost of the remainder 
of the Army aviation force, which was itself, underfunded.
    For instance, the Army limited the procurement of Black 
Hawk helicopters, relying on annual congressional additions to 
keep the production line open. With the overdue retirement of 
the H-1 Huey utility helicopter, the Army, and particularly the 
Army National Guard, found itself short of helicopters for the 
Reserve component.
    More troubling, I have watched in dismay over the years as 
the Army was pressured to delay, and even recently terminate, 
its effort to upgrade aircraft survivability equipment, taking 
risks that we should not have put you in a position to take. 
Now comes the decision on Comanche to terminate it, which to me 
was a shocking decision, shocking in the sense it was 
unexpected because the budget submitted just 3 weeks before had 
included $1.2 billion for the Comanche program.
    Of course, with it came the decision to move the funding to 
correct long-standing problems in the rest of the aviation 
force, which makes it certainly look more like a fiscal 
judgment than a judgment based on a recognition of a changed 
operational environment.
    So, today I want to ask some questions and hear about the 
analysis that led the Army leadership to make this decision, 
and particularly the analysis that indicated that Comanche is 
somehow less relevant today. I must say, as I come into the 
hearing, that part of the analysis that I have heard on 
previous conversations I find troubling, which is that the 
conflict in Iraq demonstrates that the characteristics of 
Comanche are less necessary or less relevant.
    But obviously, the next battle may look a lot different 
than the battle in Iraq. The new enemy may have radar and more 
sophisticated defensive and offensive capability against 
helicopters, that will make critically necessary the stealth 
capability Comanche, and only Comanche, would give our 
commanders. In fact, in Kosovo, we faced radar-guided missiles. 
So, it is not just the putative battlefield of the future 
against a sophisticated great power like China or Russia, in 
which we would have to worry about that.
    So, my questions are as follows: What now is the vision for 
Army aviation for the future? Does the aviation component of 
Army transportation now rely solely on the recapitalization and 
limited upgrade of existing platform and the purchase of non-
developmental or less sophisticated light utility and armed 
reconnaissance helicopters? How does the Army intend now to 
acquire the capabilities that Comanche was supposed to provide 
and we may well need the next time we go to war?
    I must say, here, that seeing that the Army is going to 
pursue a joint multi-role helicopter in the future is not, at 
least for me, an adequate answer; not only because it is so far 
in the future but also because I wonder what indications we 
have had yet that the other Services are interested in such a 
project.
    Assuming that there will be enough commonality in 
requirements to make such a helicopter feasible may not be an 
accurate assumption. If it is not, with the same budget 
pressures the Army faces today, will the Army itself then find 
itself forced again to fund an expensive new helicopter 
program? How does the Army intend, finally, to ensure that the 
$6.9 billion previously invested in Comanche is not wasted, 
that there is a process whereby technologies developed in the 
Comanche program, if it is to be terminated, will be 
transferred to planned upgrades to the existing force or 
returned to the tech base for further development?
    Those, Mr. Chairman, are some of the important questions 
that I hope we will address today. Again, I thank the witnesses 
for being here. This is an important hearing. I thank you, Mr. 
Chairman, for your continued outstanding leadership.
    Senator Sessions. Thank you, Senator Lieberman. You raise 
some very important questions and I am glad you are a member of 
this committee. I think they are questions that we need to 
answer. I know you have thought about those questions, and we 
will be getting into some of that in more detail as time goes 
by.
    General Cody, I believe you will start with a statement; 
and then we will hear from the others as you choose.

 STATEMENT OF LTG RICHARD A. CODY, USA, DEPUTY CHIEF OF STAFF 
              FOR OPERATIONS AND PLANS, U.S. ARMY

    General Cody. Thank you, Mr. Chairman. With your 
concurrence, what I would like to do is have a small opening 
statement, then defer to General Bergantz and General Sinclair 
for their statement. Then what I would like to do, with your 
concurrence, is, based upon the questions that you and Senator 
Lieberman have teed up, I have four slides that will get to the 
heart of some of the issues. If I could brief those and then 
take questions, it might help us all.
    Senator Sessions. That will be fine. You have given us a 
witness statement that is impressive; so, we will make that 
part of the record.
    General Cody. Thank you very much. Mr. Chairman, Senator 
Lieberman, I appreciate the opportunity to appear before you 
today to provide an update on the state of Army aviation, which 
I think is very critical. I am going to show you, I hope, as 
well as my esteemed colleagues, how we intend to meet our 
current operational requirements, while simultaneously 
transforming Army aviation to the future force that not only 
entails Army aviation but also the modularity and the FCS-
equipped future force.
    I would like to thank the committee for your support and 
for the faith you have shown throughout the global war on 
terrorism for our American sons and daughters, as they 
selflessly and tirelessly serve our Army and our Nation at war. 
It is important to me as a father. I have two sons who just 
returned from Iraq, who are Apache pilots with the 101st, and 
they, too, enjoy your support.
    This is a historic time for our Army and our aviation 
force. The contributions of Army aviation to combating and to 
fighting terrorism, to defeating the Taliban and al Qaeda in 
Afghanistan, to ousting Saddam Hussein, and to preserving peace 
in the Balkans is and continues to be a vital resource for our 
combatant commanders. We are applying three times as many hours 
in support of Operation Enduring Freedom (OEF) and Operation 
Iraqi Freedom (OIF), as compared to our annual home rates.
    The environment and operational tempo have placed 
incredible wear and tear on our fleet. While we have asked a 
lot of our aviation systems in the past 2\1/2\ years, we have 
also asked a heck of a lot of our pilots, and especially our 
crew chiefs, who have maintained these great aircraft.
    In recognition of this, Mr. Chairman, you have already 
discussed that with General Schoomaker, our Chief of Staff, and 
included Army Aviation Re-Look as part of his focus areas. 
General Sinclair and General Bergantz were part of that task 
force.
    The task force looked at about 108 recommendations, which 
were a result of a very comprehensive review, to include, as 
Senator Lieberman pointed out, the Kosovo campaign, of which I 
was part of, Task Force Hawk, in 1999 when we discovered some 
cracks in the capabilities of our fleet, as well as training 
and as well as our modernization accounts. The task force took 
a look at across the full spectrum of seven major Army studies 
as they went through this, and it was very comprehensive.
    We owe it to our soldiers now who are out there in the sand 
and the dirt, fighting in harm's way, to take those 108 
recommendations and reset Army aviation, not only for this 
fight but also for the future. Our mission is to be ready and 
relevant when called upon. The future operational environment 
demands that we have trained, standardized, and modular units 
in aviation that can fight not only with our modular units in 
the Army but also as a joint force. We need to be able to 
leverage the joint fires and the joint force that this great 
Nation has.
    Based upon our current and projected aircraft inventories 
and optimization of the force as a key parameter, we are going 
to restructure the current, nonstandard aviation formations we 
have. We will form up 11 active duty, 2 Reserve component 
multi-functional aviation brigades, and 6 aviation 
expeditionary regiments in the Army National Guard. The 
aviation designed incorporates lessons learned directly from 
recent operations and corrects deficiencies in our current 
structure; it also moves the Army aviation structure to mirror 
what we are doing with our modularity and our FCS unit of 
action force.
    By reallocating the money from Comanche, about $14.6 
billion, during fiscal year 2004 to 2011, that would have 
bought 121 Block I Comanches, the Army will be able to 
restructure and enhance our $100 billion investment in the 
total aviation force.
    The net result of this reallocation in 2004 through 2011 is 
the procurement of over 900 new aircraft, about 850 that were 
not in the budget; the recapitalization of more than 1,000 
aircraft; and the modernization of 1,400 aircraft to increase 
their capabilities; but more importantly, to bring some of 
those fleets up to the full potential because of lack of 
modernization dollars in the past.
    We have also targeted, as number one, survivability 
equipment, as well as maintainability and supportability. This 
represents a revamp in the modernization and recap of over 70 
percent of our rotary wing fleet. But most importantly, this 
reallocation will fund enhanced aircraft survivability across 
the fleet that we need so desperately.
    In short, we are fixing all aspects of Army aviation from 
the way we organize, from the way our formations will look. We 
are researching how we want to look and fight in the future. 
This is no small undertaking, as we are engaged in the global 
war on terrorism. We have the right soldiers, the right 
leaders, and certainly the right support from Congress to be 
able to get this done.
    Mr. Chairman, that concludes my remarks. I look forward to 
your questions.
    [The prepared statement of General Cody follows:]

             Prepared Statement by LTG Richard A. Cody, USA

                              INTRODUCTION

    Chairman Sessions, Senator Lieberman, distinguished members of the 
committee, we appreciate the opportunity to appear here today to 
provide an update on the state of Army aviation and how we intend to 
continue meeting current operational requirements while we also prepare 
for the future.
    We are witnessing historic times in our Army and our aviation 
force. As a former Division Commander for the 101st Air Assault 
Division and now as Deputy Chief of Staff, G-3, I can testify that our 
Army in general, our aviation leaders, and soldiers are well-trained, 
ready, and committed. I thank this committee for your resolute support, 
concern, and faith in America's sons and daughters, who serve our Army 
and our Nation. I believe you all would agree that while aviation 
hardware and other systems are vital components of our Nation's 
defense, our most precious and irreplaceable assets are the great 
Americans operating and repairing them.
    General Peter Schoomaker, Chief of Staff, Army (CSA), directed a 
top-to-bottom review of Army aviation in August of last year. The 
Chief's guidance was to make Army aviation a capabilities-based 
maneuver arm optimized for the joint fight with a shortened logistics 
tail. An Aviation Task Force was formed with a select group of aviation 
professionals under the leadership of MG James Thurman, Aviation Task 
Force Director; MG Joseph Bergantz, PEO-Aviation; and BG Edward J. 
Sinclair, Commanding General, United States Army aviation Center and 
School, who are in attendance today. Although the Task Force is still 
working through many of the details associated with the 108 
recommendations required to transform this force, I will provide an 
overview of some key initiatives the Army will implement to prepare the 
force for ongoing responsibilities and to pace aviation transformation 
relative to the rest of the Army. But first, I would like to discuss 
the context and present state of our aviation force and briefly 
highlight lessons learned from current operations.

               CURRENT AVIATION FORCE AND LESSONS LEARNED

    Army aviation currently has over 450 aircraft deployed in Bosnia 
(SFOR-13), Afghanistan (OEF-5) and Iraq (OIF-2). Since September 2001, 
the operational tempo for Army aviation is the highest it has been 
since the height of the Vietnam conflict. We are flying three times as 
many hours in support of Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF) as compared to annual home station rates and the 
majority of those hours are under combat conditions. The contribution 
of Army aviation to combating terrorism, defeating the Taliban, ousting 
Saddam Hussein, and preserving the peace on the Sinai, Korean 
Peninsulas, and in the Balkans is and continues to be a vital resource 
for our combatant commanders. However, this success has not been 
achieved without a price.
    The Army has lost 44 aircraft (an additional 23 are pending repair 
analysis) in hostile and non-hostile incidents since 1 October 2001, 
and a total of 38 aviation soldiers have given their lives in service 
to their nation and to the accomplishment of these missions. These 
losses have not been without purpose. They have informed us for the 
future and have placed an unprecedented sense of urgency in improving 
our capabilities, systems, and doctrine.
    Army aircraft and aircrews have performed superbly at an 
unparalleled pace in one of the harshest, most unforgiving environments 
on the planet. The environment and operational tempo have placed 
incredible wear and tear on our fleets. We have initiated an aggressive 
campaign to reset our deployed aviation systems to a higher state of 
readiness than when deployed. The Army is planning to expend $1.6 
billion (fiscal year 2004) to reset 1,054 aircraft as well as aviation 
support equipment. Reset includes special technical inspection and 
repair at unit locations and depot repairs for crash and battle damage 
aircraft. The impacts of desert-induced damage led us to fund 
approximately $55 million (fiscal year 2004) in Desert Kit improvements 
including aircraft engine inlet barrier filters, auxiliary power unit 
inlet barrier filters, OH-58D hydraulic filters, ALQ-144 filters, rotor 
blade protection and aircraft covers. All deploying aircraft will also 
receive these upgrades. The magnitude and impact of this initiative is 
that nearly 60 percent of the Army's tactical aircraft fleet is 
currently either in reset or deployed.
    At the end of the day, our mission is to be ready and relevant when 
called upon. As recently witnessed for OIF and OEF, there may not be 
sufficient time to train before we go. Therefore, we need to have 
trained, standardized and modular units that are fully connected to the 
combined arms team and joint forces.
    Our aviation leaders and troopers performed admirably, adjusting to 
ad-hoc task organizations during OIF and OEF. Today our aviation 
structure is designed to support five different active component 
divisional organizations (air assault, airborne, heavy division, light 
division, Korea) and two different Reserve component structures. 
Specific divisional structures led us to specific, but different 
aviation organizations. For example, we have 18-ship Apache battalions 
in heavy divisions, but 21-ship battalions at Corps and 24-ship 
battalions in the 101st Air Assault Division. We quickly discovered 
that 18-ship Apache battalions did not provide enough aircraft for 
continuous close support to maneuver commanders in non-contiguous 
operations. Additionally, aviation forces were lift deficient at almost 
every level. Our units were extremely taxed accomplishing intra-theater 
cargo and troop movement. Even though the U.S. Air Force provided 
continuous intra-theater lift support, Reserve component C-23 Sherpas 
were activated to augment CH-47 Chinooks. Sherpas, however, are 
payload-challenged in terms of performance and internal dimensions. 
More utility and cargo capacity was required to support the long 
division maneuver from Kuwait to Baghdad. Heavy Divisions consisted of 
only 16 UH-60 Black Hawks for general support. With limited intra-
theater lift and Corps assets already overloaded, there were minimal 
cargo assets to augment divisional supply requirements.
    The future demands more standardized modular formations, standard 
operating procedures (SOPs) and joint training. Disparities in types, 
numbers, mission and SOPs for aircraft and their assigned units impede 
flexibility that is traditionally a hallmark capability of Army 
aviation. Standard basic building blocks are the first step in creating 
modularity. Second, these standard units must use similar SOPs. The 
whole concept is standardized and modular units that can ``plug and 
play'' with other units. Finally we must train more aviation at Combat 
Training Centers (CTC) to further strengthen our combat arms 
capability. Every OIF commander I have talked to has stated that the 
CTC prepared them for this war. The Army's CTC program is vital to the 
future; however, we must strive to include more jointness in our 
training activities.
    The Army must also improve on combat safety. For aviation, that 
includes improving the power margins required to fly at extreme 
altitudes similar to those in Afghanistan as well as avoid or operate 
in ``brown-out'' conditions that occur in desert environments like 
Kuwait and Iraq. There are materiel improvements that we intend to 
incorporate on our current aircraft such as ``fly-by-wire'' systems 
that provide hands-off recovery and/or landing in obscuration and low 
visibility conditions similar to those found in today's commercial 
jets.
    The distances covered in today's warfight will only grow in the 
future. Our operations require satellite-based communications that can 
span the maneuver distances and varied terrain to effectively operate 
in a net-centric system-of-systems construct.
    Of further concern is the synchronization and impact of bandwidth 
and frequency spectrum on what will eventually be a proliferation of 
Unmanned Aerial Vehicle Systems (UAVS) on the future battlefield. In 
Iraq, forces had a difficult time operating UAVS due to limitations in 
the bandwidth and limited frequency spectrum. The Army will take a 
holistic approach to the development and utilization of UAVS. Next 
month, the Army will deploy a UAVS Task Force to the USCENTCOM Theater 
to study methods and procedures for more effective integration of UAVS 
into Army and Joint operations.
    With continuing lessons learned in our ongoing combat operations, 
let me stress that the Army still has the best aviation forces in the 
world thanks to this committee and the dedication and hard work of 
outstanding commanders and soldiers who are accomplishing the mission. 
But, we still owe them the very best equipment and training this nation 
can provide, now and into the future.

 ARMY AVIATION AS A CAPABILITIES-BASED MANEUVER ARM OPTIMIZED FOR THE 
                JOINT FIGHT AND LOGISTICS TAIL SHORTENED

    The mission to transform Army aviation into a capabilities-based 
maneuver arm optimized for the joint fight with a shortened logistics 
tail requires a structure that is more modular and tailorable to 
support a range of missions and/or units. In addition to organizational 
and structure changes developed from lessons learned in current 
operations, Special Operations Aviation (SOA) capabilities were 
reviewed to determine what could be migrated into the conventional 
aviation force. Examples of previous SOA capabilities migrated into the 
regular force include night vision goggles, aviation life support 
equipment, and crashworthy fuel tanks. The Aviation Task Force also 
studied active and Reserve component responsiveness in order to 
optimize force readiness for deployability, limit Reserve activations 
and enhance unit and soldier stability. Finally, we looked at current 
and planned systems to determine their relevancy and synchronization in 
meeting Future Force requirements to include interoperability with the 
Future Combat Systems (FCS) and joint tactical warfighting.
    Army aviation is a unique combat element with requirements that 
extend across all joint functional and operating concepts. We analyzed 
required capabilities from joint doctrine down to the company level. 
This enabled us to focus on the development of basic building blocks 
for units. These company building blocks permit the creation of a truly 
capable aviation Unit of Action (UA) with standardized formations. 
Based on current and projected aircraft inventories and with 
optimization of the force as a key parameter, we will restructure the 
current non-standard aviation brigades into 11 active and two Reserve 
component multi-functional Aviation UAs. These multi-functional 
aviation UAs will support four to five brigade combat teams. The 
aviation UA design incorporates the lessons learned from recent 
operations and corrects deficiencies in our current structure by moving 
aviation assets closer to the warfighter.
    The aviation UA is able to organize by task, purpose, and mission. 
This provides several advantages over the current force structure. The 
new organization now includes robust reconnaissance, attack, air 
assault, utility, and cargo capabilities. It also includes organic 
aviation maintenance support in the aviation support battalion (located 
today at the division support command). Combat medical evacuation 
aircraft are directly organic to the aviation brigade commander to 
better support our forward forces. Further, it will be much easier to 
task-organize across divisions in order to meet the maneuver 
commander's air requirements.
    AH-64 Apache battalions in the new aviation structure are all 24-
ship organizations. Black Hawks are increased from 16 to 30 aircraft to 
provide every division the capability to conduct, at a minimum, a 
battalion-sized air assault in one lift or sortie as well as increase 
overall aerial logistics capacity. Aerial cargo support was also moved 
closer to the warfight by shifting CH-47 Chinooks from corps to the 
divisional aviation brigade. Additionally, a new fixed-wing Operational 
and Organizational (O&O) document is in the staffing process that 
proposes increasing tactical (TOE--Table of Organization and Equipment) 
aircraft, reducing administrative support (TDA--Table of Distribution 
and Allowances) aircraft and significantly increasing intra-theater 
lift potential.
    The aviation UA will contain the Class IVa UAVS that will enhance 
manned-unmanned teaming and add more reconnaissance and surveillance 
capabilities to the maneuver UA. At least $300 million will be added to 
our UAVS programs to accelerate this critical capability.
    We learned from SOA about their utilization of robust liaison teams 
habitually attached to the Special Operations ground forces they work 
for. In turn, we developed a brigade aviation element (BAE) organic to 
every ground maneuver unit equipped with long-range joint 
communications packages to better synchronize and deconflict airspace 
for responsive planning and execution of combat operations. 
Additionally, starting this year the Army will field an interim 
standardized logistics automation system migrated from SOA to fill an 
automation void and improve aviation maintenance.
    Logistics will be our ``Achilles heel'' in the future if we do not 
transform it correctly now. The Army requires future force systems that 
have predictive, embedded diagnostics and prognostics--similar to those 
in new cars that tell you when an oil change or maintenance is 
necessary. Common Transitional System--Aviation (CTS-A) with Aircraft 
Maintenance Aid Concept (AMAC) interface are aviation logistics 
automation systems that will serve as critical sustainability enablers 
for the future. Aviation maintenance must also transform to support 
standardized and modular concepts. Our logistics transformation 
initiatives include tooling Reserve component Aviation Classification 
Repair Activity Depots (AVCRAD) for full integration into the National 
Maintenance Program mission. The non-linear battlefield will require 
transitioning to two-level condition-based maintenance, meaning 
defective parts are replaced on the system when forward deployed and 
defective parts are repaired off the system in rear areas or in the 
U.S. Condition-based maintenance also means repairing equipment only 
when it breaks or is predicted to break. This concept reduces spare 
parts requirements, maintenance equipment, forward stationed 
maintainers and ultimately, the logistics footprint. We must also 
pursue spares commonality to further reduce logistics and supply 
distribution overhead. Procurement of sets, kits, and outfits (SKO), 
special tools, test equipment, and ground support equipment (GSE) will 
further enable our transition to two-level condition-based maintenance. 
However, modularity also implies that maintainers must also be 
proficient warriors. Every member of the Army team is a soldier first 
and must be proficient in combat skills regardless of unit type. The 
nature of warfare in the future demands this.
    As I mentioned earlier, there is no substitute for demanding and 
realistic training. Leader development and individual/crew training is 
the foundation for everything we do. Our training strategy during this 
period of change is to fully implement Flight School XXI to produce 
more competent and trained flight crews. We will procure and field six 
additional Aviation Combined Arms Trainers (AVCATT) suites to conduct 
collective combined arms training, and we will leverage our simulations 
capability by upgrading or fielding additional AH-64 training devices. 
To complement our revised training strategies, we will apply over $1.3 
billion to our munitions accounts to resource our unguided training 
munitions ($1.1 billion Hydra 2.75'' Rockets) and to bridge the gap 
between the Hellfire missile family ($180 million) and the forthcoming 
Joint Common Missile (JCM).
    Recent lessons learned have informed us concerning our doctrine, 
tactics, techniques, and procedures. Our aerial gunnery (Field Manual 
1-140) techniques and procedures are being updated to include the 
``running and diving fire'' engagement technique. The United States 
Army Aviation Center and School is now qualifying all AH-64 pilots on 
night vision goggles and there is increased training emphasis on 
aircraft survivability equipment. As a result of preliminary findings 
from our Aircraft Shootdown Assessment Team (ASDAT), we have initiated 
maneuvering flight training. A comprehensive review of UAV doctrine is 
also underway at the United States Army aviation Center and School. 
Tactics, techniques, and procedures for aviation in Military Operations 
in Urban Terrain (MOUT) have been revised and continue to be refined. 
Lastly, we must revise our current Army aviation employment doctrine as 
we transition to multi-functional brigade (UA) and Army National Guard 
(ARNG) Aviation Expeditionary Regiment structures under the modularity 
concept.

                      ARMY AVIATION MODERNIZATION

    On 23 February of this year, the Army leadership announced initial 
results of the Aviation Task Force. A significant recommendation was to 
reallocate RAH-66 Comanche funds to improve the overall capabilities 
and health of the aviation force. Terminating Comanche was neither an 
easy decision nor one made without considerable Task Force and 
leadership analysis. It was the right decision from both an operational 
and investment perspective that was made in the context of the changing 
operational environment, numerous studies in the last 25 years, and 
what we have learned from recent and ongoing operations.
    Comanche is unquestionably one of the most sophisticated aviation 
platforms in the world today. The Comanche team of engineers, software 
developers, testers, and fabricators epitomize American ingenuity and 
represent the world's finest. We anticipate multiple opportunities to 
horizontally integrate leading Comanche technologies into current and 
planned programs. For example, we envision harvesting the Radar 
Electronics Unit, Integrated Communications, Navigation and 
Identification Avionics (ICNIA), radar warning receiver, and fly-by-
wire technologies. The Comanche Image Intensification TV (I2TV) system 
is also under consideration.
    The central issue to this difficult decision was that Comanche 
program growth accounted for 40 percent of the current aviation budget 
and up to 47 percent in the Extended Planning Period (EPP). By 
reallocating approximately $14.6 billion (fiscal year 2004-2011) that 
would have bought the initial 121 Block I Comanches, the Army is able 
to restructure and enhance our $100 billion investment in the total 
aviation force to meet current and future requirements.
    There will be contract termination costs associated with this 
decision. Military and industry representatives are working diligently 
to determine the exact figure. Preliminary estimates are between $480 
million-$680 million; however, the process will take some additional 
time since we must work with 400+ subcontractors that have contracts 
valued in excess of $100,000. The Army will disseminate the termination 
costs when determined and finalized.
    Termination of Comanche reflects the Army's recognition of new and 
changing global security challenges and national security requirements. 
The result of this reallocation will be a new buy of almost 900 
aircraft over the Program Objective Memorandum (POM) to build modular 
tailorable forces and provide our Reserve component with more modern 
systems. The Army will accelerate modernization to include aircraft 
survivability equipment (ASE) for all airframes. This includes 
modernization of 1,400 aircraft to increase capabilities, 
survivability, and maintainability beyond 2020. The Army will buy 368 
armed reconnaissance helicopters, initially upgrade 284 AH-64Ds to the 
Block III configuration with an ultimate objective of 501, and procure 
303 light utility helicopters. This will enable us to completely divest 
880 obsolete UH-1 Hueys and OH-58A/C Kiowa Warrior helicopters and to 
return UH-60 Black Hawk aircraft from our support and testing 
communities back to operational units. These FAA certified, commercial 
off-the-shelf (COTS), light utility aircraft will provide 
administrative support at our training bases and will also be assigned 
to Army National Guard units to conduct state missions, assist in 
counternarcotics operations, and to respond to homeland security 
requirements.
    The identified intra-theater lift shortfalls will be addressed 
through the procurement of approximately 25 Cargo Fixed Wing aircraft, 
additional procurement of 20 CH-47 aircraft, and recapitalization 
acceleration for 19 CH-47D aircraft. The plan also provides for new 
procurement of at least 80 UH-60 L/M Black Hawk aircraft to increase 
lift capabilities for our Aviation and Maneuver UAs.
    The net result of reallocating aviation resources includes 
procurement, recapitalization, and modernization of 70 percent of the 
rotary wing fleet plus enhanced ASE. In conjunction with our sister 
services we will begin development of joint vertical lift platforms 
that provide commonality and revolutionary capabilities in the future. 
In the meantime, Army aviation will take a huge step towards the future 
with balanced and integrated capabilities, modular and tailorable 
formations, and cohesive and highly lethal units that are deployable, 
versatile and able to operate in the joint warfight.
    As the Army modernizes the fleet, priority of fielding new, 
recapitalized or remanufactured aircraft is based upon operational unit 
rotations and support to the global war on terrorism. Following current 
operations and the global war on terrorism, units with shortfalls are 
the next priority. The Army's policy is to provide deploying units in 
both the active and Reserve components with the newest and best 
available equipment. Overall, this reinvestment should provide no net 
loss of business and revenue in the rotorcraft industry.

                 AVIATION SURVIVABILITY EQUIPMENT (ASE)

    ASE and aircrew protection is Secretary Brownlee's number one 
aviation priority. The Army equips the AH-64, UH-60, CH-47, OH-58D, and 
fixed-wing Special Electronic Mission Aircraft (SEMA) with A-kits to 
accept ASE consisting of detectors, Infrared Red (IR) and Radio 
Frequency (RF) jamming devices, and chaff and flare munitions to 
counter RF and IR threat systems. All active Army, National Guard, and 
Army Reserve deployed aircraft, are equipped with ASE. Additionally, 
protection against direct fire from small arms weapons is provided by 
armor panels, most frequently located in crew compartments and 
sensitive areas of the aircraft (such as the engine). On 9 January 
2004, an Army G3 Policy Board approved the acquisition of Aircraft 
Ballistic Protection Sets (APBS) for deployed cargo and utility 
helicopters that will ensure an enhanced degree of protection 
throughout the cargo/passenger compartment.
    Currently, the Army is modifying the OIF utility fixed-wing fleet 
to accept ASE while upgrading in theater and deploying CH-47s with the 
ALE-47 Flare/Chaff Dispenser to counter anticipated anti-aircraft 
threat missile systems. On 14 January 2004, the Chief of Staff approved 
an accelerated ASE acquisition plan that will initially focus on 
upgrading to the next generation Common Missile Warning System (CMWS) 
and Improved Countermeasure Munitions Dispenser (ICMD) for OIF/OEF 
deployed and deploying helicopters and fixed wing aircraft. This effort 
will commence by upgrading CH-47s, followed by selected fixed wing 
aircraft, UH-60s, and AH-64s. Over the POM period, the Army's 
modernized aviation fleet will be modified to accept an advanced 
countermeasure system consisting of CMWS/ICMD and a Multi-Band LASER 
Jammer. With respect to training, the Army formed an assessment team to 
review in-theater missile/helicopter incidents. The goal of this team 
is to develop lessons learned for incorporation into Standard Aviation 
Programs of Instructions and tactics, techniques, and procedures (TTPs) 
adhered to by Army aviation units.

                 AVIATION SCIENCE AND TECHNOLOGY (S&T)

    The Army aviation science and technology (S&T) program fuels 
revolutionary aviation development, expands scientific knowledge in the 
area of manned and unmanned helicopters, and matures and demonstrates 
new technologies in support of the future force and Joint Vision 2020. 
Based on the Army Transformation Plan, this effort has been focused on 
investigating and developing technologies applicable to unmanned 
systems and to support selected opportunities for manned systems. The 
Army has a unique responsibility within DOD as the service lead for 
rotorcraft S&T investment. Under DOD Project Reliance, the Army has the 
responsibility to address the rotorcraft S&T requirements of all 
services and the Special Operations Command (SOCOM) in the areas that 
are not service or command unique.
    The aviation S&T program invests in three areas: basic research, 
applied research, and advanced technology development. The Army invests 
in world-class expertise in academia, industry and other government 
agencies, as well as in state-of-the-art equipment in the area of basic 
research.
    A highlight of basic research is investment in the Rotorcraft 
Centers of Excellence at Pennsylvania State University, Georgia 
Institute of Technology and the University of Maryland. Basic research 
is conducted by the Aviation and Missile Research, Development and 
Engineering Command (AMRDEC) Aeroflightdynamics Directorate (AFDD) 
located at the Ames Research Center, Moffett Field, CA and by the Army 
Research Laboratory (ARL) Vehicle Technology Directorate at the Glenn 
Research Center, Cleveland, OH and the Langley Research Center, Langley 
Air Force Base, VA.
    The Army aviation applied research program provides the enabling 
technology and baseline for aviation development. This research 
includes enabling technologies for manned and unmanned rotorcraft in 
propulsion, rotors, drive train, and structures. A highlight of the 
program is the expansion of knowledge in air system autonomy and 
manned-unmanned teaming. The applied research program also invests in 
the National Rotorcraft Technology Center. The Center is a partnership 
of government, industry, and academia for developing air vehicle 
designs and other rotorcraft technologies. The program is executed at 
AFDD at the Ames Research Center, the Langley Research Center, and the 
ARL Vehicle Technology Directorate at the Glenn Research Center.
    A key element of the aviation applied research program is the 
longstanding partnership the Army has established with the National 
Aeronautics and Space Administration (NASA). This partnership, first 
established in 1965, has resulted in an exemplary, highly integrated 
national technology program that is fully coordinated with industry and 
devoid of duplication of facilities and programs. All fielded United 
States military rotorcraft, and derivations that have established our 
commercial base, can be traced back to this Army/NASA partnership. DOD/
Army rotorcraft and the Vertical Takeoff and Landing (VTOL) UAVS 
technology development strategy depends on the continuing partnership 
with related NASA technology programs.
    The VTOL UAVS potentially bring unprecedented agility, 
maneuverability, and lethality to the Future Force, while reducing 
signatures and logistics burdens. The transformational nature of the 
UAVS, both in capabilities and new paradigms, has energized the 
aviation field (in industry and academia) to truly ``think outside the 
box.'' The benefit to the DOD and the Army will be revolutionary 
warfighting capabilities, as well as enhancements to the current force.
    The aviation advanced technology development program is focused on 
UAVS, with an emphasis on demonstrations to provide the warfighter with 
the menu of technology for development and integration into the force. 
The demonstration programs will mature technology into realistic and 
robust prototypes. Technologies that enable autonomous flight, higher 
aerodynamic airframe loads, and increased maneuverability possible with 
UAVS will be demonstrated. A highlight of this effort is the Airborne 
Manned-Unmanned System Technology (AMUST) and the Hunter-Standoff 
Killer Team (HSKT) Advanced Concept Technology Demonstration (ACTD). 
These programs constitute the major effort to demonstrate manned-
unmanned teaming. The program also invests in propulsion, drive train 
and structure technologies that enable UAVS application and have 
technology transfer opportunities to manned airframes. The advanced 
technology development program is managed by the AMRDEC Aviation 
Applied Technology Directorate (AATD) at Fort Eustis, VA.
    Another notable highlight of the advanced technology development 
program is the Army-Defense Advanced Research Projects Agency (DARPA) 
partnering on UAVS platforms for lethality, surveillance and 
communications relay. The Army is pursuing increased lethality for the 
Future Force through the Unmanned Combat Armed Rotorcraft (UCAR) 
program (an armed VTOL UAVS) designed to team with manned or unmanned 
systems. Increased surveillance capability is being pursued through the 
A-160 Hummingbird Program, a medium altitude, long endurance VTOL 
sensor and communications platform, and the Organic Air Vehicle (OAV), 
a ducted fan VTOL UAVS that can be carried by the soldier and/or 
launched from a vehicle.
    The investment by the Army in aviation S&T is guided by the 
requirements of the Future Force. Our investment in advanced technology 
development will grow in the coming years to meet the challenges of 
those requirements. The Army is confident that the aviation S&T 
investment represents a prudent program that meets the DOD and Army 
Transformation goals.

                               CONCLUSION

    In closing, I have been very impressed and pleased with the 
performance of Army aviation in our recent and ongoing operations. But 
we can get better. We have to get better. Strengthening Army aviation 
and investing for a successful future reaffirms to our soldiers, our 
sister services, and the Nation, that only the best equipment and 
capabilities put into the hands of the finest soldiers in the world 
will be brought to bear in protecting our way of life, defeating 
terrorism, and the fight for freedom over tyranny.
    Thank you for allowing me to share our work and participate in this 
session. We look forward to answering your questions.

    Senator Sessions. All right. You say the procurement of 800 
new aircraft for the fleet in general, plus the modernization 
of 1,400?
    General Cody. That is correct, sir.
    Senator Sessions. Then 1,000, you mentioned another 1,000 
aircraft, or was that part of the 1,400?
    General Cody. We are going to recapitalize more than 1,000 
aircraft. We are going to modernize and put new systems and 
modernize about 1,400 airframes. The total buy, in 2004 through 
2011, will be over 900 aircraft; I will show you that in the 
charts.
    Senator Sessions. We will probably get into that in more 
detail in a minute and the merits of that. But let me ask you: 
How does this, General, overall vision affect your vision of 
Army aviation? With regard to utilizing Army aviation in the 
field, how will it change? How will it impact a commander's 
ability to utilize these forces, as compared to what they would 
with Comanche?
    General Cody. With Comanche what we were buying was an 
aircraft that had low visibility in low observable technology. 
I do not want to get into the specifics of it because of the 
classification of this briefing, but it is not a stealth 
aircraft. I have been part of several different programs in my 
test pilot days that dealt with those type of capabilities. 
Comanche was going to bring to the table a much lower 
observable radar cross-section than the current helicopter 
fleet but it was not wholly immune to radars.
    Comanche had the sensor systems and the reconnaissance, 
surveillance, and target acquisition systems teamed with 
Apache, teamed with our ground force, and teamed with our joint 
force, as well as the manned and unmanned teaming of UAVs to 
cover the reconnaissance, surveillance, and target acquisition 
requirements of the force.
    With this change, what we are doing is we are going to take 
the Apache Longbow to full Block III. In the 2004 to 2011 time 
frame, 284 Apaches will go to Block III, and in the extended 
planning period, (fiscal year 2012-2020) 501. The only 
difference in capabilities between Comanche risk capabilities 
and Apache Longbow was the low, observable piece of the Apache 
compared to the airframe of the Comanche termination.
    Senator Sessions. All right. So, you do not expect that to 
impact significantly----
    General Cody. No, sir.
    Senator Sessions.--a warfighter----
    General Cody. Now we have run several runs----
    Senator Sessions. I guess I should allow General Bergantz 
and General Sinclair to go forward. I am sorry I butted in 
there, but thank you for that.
    General Bergantz.

  STATEMENT OF MG JOSEPH L. BERGANTZ, USA, PROGRAM EXECUTIVE 
                      OFFICER FOR AVIATION

    General Bergantz. Chairman Sessions, Senator Lieberman, it 
is a pleasure to be here to speak with you today.
    From a programmatic and a material developer standpoint, 
many positive actions are being taken in the near term to 
improve Army aviation programs with the funding harvested from 
the Comanche termination. For quite some time, Army aviation 
frankly struggled with a funding bow wave that could not be 
satisfied within our available resources.
    The Army is redirecting Comanche resources now to fully 
address and fully fund the acceleration of aircraft 
survivability equipment, procure light-armed reconnaissance 
helicopters, light utility helicopters, and some fixed-wing 
cargo aircraft. We are also going to enhance the current 
production and fielding of the Apache, the Black Hawk, and the 
Chinook. We will invest in aviation munitions programs and 
increase the resources for unmanned aerial vehicles, both 
existing and new ones.
    The Comanche termination has caused some internal issues, 
all of which are being addressed. First and foremost, the Army 
wants to complete the termination of the Comanche contract and 
harvest any residual fiscal year 2004 funds that we can, to 
include de-obligating and redirecting the funds to other Army 
aviation efforts.
    Second, reference assignment of personnel, the reassignment 
of government personnel is nearly complete while we have 
maintained a necessary small cadre of program personnel to 
complete the termination activities.
    Third, a set of Comanche technologies exist that the Army 
would like to migrate to other platforms. These include the 
image intensification TV, the radar electronics unit, the fly-
by-wire flight control system technology, the radar warning 
receiver, the T-802 engine, and the integrated communications 
navigation identification avionics (ICNIA) technology, along 
with its associated downsized antennas.
    The intent is to carry these technologies through the end 
of fiscal year 2004 and then migrate them with their funding 
tails to the recipient platforms for fiscal years 2005 and 
beyond.
    Program Executive Offices for Command, Control, 
Communications, Tactical (PEO C3T) and myself are currently 
doing a 30-day study on the ICNIA to see which piece parts we 
want to bring forward from that. We will conclude that in the 
short time. Then we will bring those results of that study 
forward to the G3 and G8 for resolution.
    That concludes my remarks, and I look forward to your 
questions.
    Senator Sessions. Thank you.
    General Sinclair.

 STATEMENT OF BG EDWARD J. SINCLAIR, USA, COMMANDING GENERAL, 
       UNITED STATES ARMY AVIATION CENTER AND FORT RUCKER

    General Sinclair. Chairman Sessions, Senator Lieberman, I 
sincerely appreciate the opportunity to appear and provide an 
update of the point of view of the commanding general at Fort 
Rucker and the United States Army aviation Center, representing 
the aviation soldiers worldwide.
    As Lieutenant General Cody mentioned, we are at a dynamic 
time in our Army and the same remains, if not more so, for Army 
aviation. The aviation branch is determined and resolute in 
transforming to meet the future needs of our Army. Our mission 
is to ensure every single aviation soldier is trained and 
equipped to fight our Nation's war. As General Cody discussed 
equipping our force, I will provide some thoughts on training 
our force.
    As you are well aware, Fort Rucker, Alabama, is the home of 
Army aviation. We execute all initial flight training for U.S. 
Army aviators. The through-put for our initial entry rotary 
wing pilots is 1,200 per year. In addition to initial entry 
rotary wing pilots, we also train about 3,500 graduate-level 
pilots from the Army, Marines, Air Force, several governmental 
agencies, and 39 allied countries.
    In the past, we trained our aviation forces on tactics, 
techniques, and procedures that were developed for use on the 
planes of Europe. It was common for us to use the capabilities 
and standoff created through the superior technology of our 
aviation systems to engage a threat and win. Army aviation saw 
a drastic change, though, when we deployed into Afghanistan. We 
saw an enemy that used terrain and environment to their 
advantage.
    The skill sets we taught our flight crews were no longer 
the skill sets that maximized our survivability. We realized 
that technology alone did not create or provide the edge we 
needed to ensure future successes. Furthermore, our operations 
in OIF, coupled with the lessons learned during OEF, provided 
us the definite data points to adjust our flight schools 
programs of instruction. Recently, a Fort Rucker-led team, 
known as ASDAT, which stands for Aircraft Shoot-Down Assessment 
Team, deployed to Iraq at the request of the combatant 
commanders to investigate the cause of recent Army aviation 
aircraft losses. This team's invaluable insights and lessons 
learned were briefed to the Army senior leadership, as well as 
the tactical commanders.
    Our significant effort to capture lessons learned has 
already begun to generate the necessary changes our branch must 
undergo to remain relevant and lethal on the battlefield. I 
will highlight a few of these.
    First, the base of maneuvers: our flight crews' training 
was restricted to certain limits pertaining to the aircraft 
maneuver. For instance, during a normal flight period, an 
aviation student could not exceed a 60-degree bank in the 
aircraft. While an instructor might demonstrate maneuvers 
greater than 60 degrees, the student was never allowed to 
execute them.
    While this might be considered safe, we were not providing 
the appropriate or necessary skills to our aviators. During 
operations in both Iraq and Afghanistan, our crews often had to 
exceed these maneuver restrictions, but often much greater 
maneuvering limits had to be exceeded to avoid enemy fire.
    Another lesson learned was running and diving fire. Lessons 
learned in both OEF and OIF demonstrated the need to execute 
running and diving fire in our reconnaissance and attacked 
aircraft. What that means is that crews are now being trained 
in a different set of skills than their predecessors. This 
change was driven because of extreme heat and high altitude 
operations that severely reduce the power margins of our 
helicopters and their ability to sustain a hover.
    Our crews were driven to adapt to the conditions and use 
running fire techniques to decrease these power requirements. 
Further, the running fire proved much more survivable than 
exposing helicopters in sustaining hover mode in a desert 
environment. We are now training this at Fort Rucker to all 
aviators completing the attack helicopter reconnaissance 
aircraft transitions.
    We also changed our night-vision goggle training for Apache 
pilots. Lessons learned resulted in adding night vision goggle 
(NVG) qualification training to all Apache AH-64 pilot 
training. Qualifying our attack pilots supplied with NVGs gives 
the crews the necessary redundancy to successfully complete 
their combat missions. Pilots graduate today using the best of 
both infrared and imaging supplying technology, reducing the 
level of risk associated with their combat missions.
    Two more examples of this drive to improve our warfighting 
programs and instruction are the survival, evasion, resistance, 
and escape training known as SERE Level-C, and our dunker 
training. In December, we ran our first students through the 
aviator underwater egress trainer. This state-of-the-art 
facility was completed in November and reflects a conscious 
decision to infuse survivability training into our helicopter 
aircrews. Prior to this development of this facility, the 
execution of this training for each operational aviation unit 
in the Army was required to send aviators to places like 
Jacksonville and Pensacola, Florida, to train under U.S. Navy 
supervision. As you might imagine, this requirement for egress 
training, while vital to survivability, was difficult for the 
field to acquire.
    Fort Rucker now certifies every aviation student prior to 
graduation in this dunker. Likewise, the addition of SERE 
training arms our air crews with additional skills required to 
combat enemy forces in the event of capture. We have all seen 
the benefits of this SERE training, which CW3 Dave Williams, a 
prisoner of war (POW) during OIF, applied this training when he 
was captured by the Iraqis.
    On a collective training side, Fort Rucker is transitioning 
to Flight School 21 model. We are instituting a push towards 
the increase in collective warfighting training scenarios. This 
change in training focus is enhanced by each student having 
more time in their go-to-war aircraft. Go-to-war aircraft are 
defined as advanced aircraft they will fly once they arrive in 
a unit, being a Chinook, Black Hawk, Kiowa Warrior, or Apache.
    With this advancing training model, we are now having the 
luxury that each Flight School 21 will have the exposure to 
complex missions that he will face when he arrives at his first 
unit. We execute this collective training by sending students, 
aircraft, and instructors to operations with the infantry 
school at Fort Benning and at the Florida ranger camp.
    We are conducting air assault operations and close combat 
attack operations with these students. Further, we are 
incorporating the air traffic services students into these 
scenarios, so they can have the opportunity to provide air 
traffic services that they would normally apply in a tactical 
field environment.
    In the future, we will incorporate unmanned aerial vehicles 
into a manned/unmanned teaming and integrate them into these 
scenarios. The infusion of these different assets in training 
venues, in a realistic tactical scenario, enhances our 
soldier's skills and prepares him for combat.
    We also make great use of our state-of-the-art simulation 
facilities as we replicate combat operations in a collective 
and joint environment at a reduced cost. We continue to be the 
training center for each deploying aviation unit for the 
requirement for sustained combat operations, as units deploy to 
Kosovo, Bosnia, Afghanistan, and Iraq.
    As you can see, we are moving out to ensure that the 
Aviation Warfighting Center at Fort Rucker is contributing to 
the evolving missions and the joint fight as we transform Army 
aviation.
    On behalf of everyone of the 58,000 Army aviation soldiers, 
I would just like to thank you for your support and what you 
have done for us each and every day. Thank you.
    Senator Sessions. Thank you, General Sinclair.
    I see the chart has appeared. Anybody want to explain that 
one?
    General Cody. Yes, sir, with your permission.
    Senator Sessions. Proceed, General Cody.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Cody. What I would like to do is go through a 
couple of charts that, based upon your questions, Mr. Chairman, 
and Senator Lieberman's, I think that will get to the heart of 
the issue.
    This is a chart which I briefed the President on when we 
went and took the decision to him to tell him what was going 
on. Basically, when we started the task force, we did not tell 
the task force to go look at trades. We told the task force to 
take a holistic look at Army aviation through a functional area 
analysis, and come back and tell us what needs to be fixed.
    We did not have anybody sitting off to the side, saying, 
``well, if you do this, we can trade this.'' We did not give 
them that. So, they came back and they said, ``these are things 
we need to fix in Army aviation.'' When they gave that to us, 
then I put a small team together to take a look at our 
investment accounts, the training, technology, doctrine, leader 
development, organization, materiel, and everything else.
    What we came up with, at the end of the day, is the balance 
in 2004 and 2011, which is $14.6 billion, 121 Comanches, versus 
this $12.9 billion at the time, it is now a little higher, to 
fix Army aviation. What they told us was, and they knew this, 
that the IR threat from now until we can see out to about 2015, 
is the most significant threat that we cannot deal with unless 
we fix aircraft survivability equipment on our aircraft. There 
was nothing new from what we found out from Task Force Hawk, 
except that the proliferation of these missile systems are out 
there. None of our aircraft that were shot down were shot down 
by missile systems that we knew were out there but not to that 
level.
    Senator Lieberman. Excuse me, General. IR is infrared?
    General Cody. Infrared, yes, sir.
    Senator Lieberman. As in heat-seeking?
    General Cody. That is correct.
    Senator Lieberman. That is what we are facing in Iraq?
    General Cody. That is correct, sir. It is the same as what 
we are facing in Afghanistan and in Kosovo, as well as the 
radar systems in Kosovo, the Serbian radar systems.
    The next thing they came back to us and said, ``we have 
several helicopters in our fleet that, over time, we have not 
brought to their full potential, one of them being the Apache 
Longbow.'' The Longbow Block III was not funded. When you take 
a look at all the things that Block III Longbow can carry, they 
came back to us and said, ``it does not make any sense not to 
bring Longbow up to its full potential for the future 
battlefield to fight in a joint air/ground team environment 
that we know we are going to have to fight'' not so much the 
Afghanistan fight or the Iraqi fight, but for the future 
battlefield.
    They also said, ``we need to take a look at our 
reconnaissance helicopter manned and unmanned mix, UAVs. We 
need to resource them and put them into the organization of 
aviation.'' The aviation branch at Fort Rucker is the component 
now for UAV training and operations maintenance and all that.
    We had, on the books for years, a light utility helicopter 
that we never resourced. They recommended to us that, as we 
take a look at the homeland security mission set for the 
National Guard, and when we take a look at how we are moving to 
a more modular Army coming out of armies, corps, divisions, and 
brigades, and going to Units of Employment Y (UEy), Units of 
Employment X (UEx), and brigades, there is still a requirement 
out there for a light utility helicopter; so, they recommended 
that.
    We are retiring the Vietnam-era UH-1s and Cobras and the 
OH-58 As and Cs. We have no replacement aircraft to be able to 
cascade to the National Guard. They recommended that we go out 
and buy--as Senator Lieberman said, we have been living off of 
what Congress has been giving us every year. They said if we 
are going to fix Army aviation and continue to employ the 
National Guard formations the way we are, we have to get more 
Black Hawk helicopters in the fleet. So they recommended, as 
well as fully funding the M-model, which is the newest Black 
Hawk helicopter, fully funding that program.
    Chinooks; we do not have enough Chinooks. We do not--in 
fact, we are working now to work through the CH-47 F-model and 
the MH-47 G-model. But with the number of Chinooks we have 
right now, to be able to give the National Guard the requisite 
number they need, again their homeland security missions, 
homeland defense, as well as for the warfight, we were short 
some 56 Chinooks that we needed for our programs.
    We have a niche gap in intra-theater combat service 
support. Right now we have some 40 Sherpas. We have 16 of those 
Sherpas, C-23s, out there. They are a good aircraft but they do 
not meet the requirements right now that we have. They 
certainly will not meet the requirements for a more modular 
joint expeditionary Army that we are going to put in the battle 
space. They recommended that we go back and review the cargo 
fixed-wing fleet and what capabilities we need to have, and 
they made some recommendations to us.
    They talked about common cockpits and fly-by-wire. Common 
cockpit, and this is what we took from the special operations 
community, where their Black Hawks and their Chinooks have the 
common displays and common software. We, for some reason, were 
not going down that road. We were going to build the M-model. 
We were going to build the Foxtrot model Chinook, two utility 
cargo helicopters without the same cockpit. They recommend we 
not do that and we fully fund a common cockpit program, not 
only for training but also for logistics in the out-years, as 
well as for integrating the air/ground team as we continue to 
invest in the C\4\ISR.
    Fly-by-wire: we have suffered several aircraft losses to 
the brown-out conditions in Afghanistan and in Iraq. We will 
not get to the level of control to assist the pilot to be able 
to safely land those aircraft in those type of conditions until 
we go to a fly-by-wire system.
    Senator Sessions. Can you explain that or is that----
    General Cody. I will let my air support--I will get it 
about 50 percent right.
    General Bergantz. Just briefly, sir, the fly-by-wire system 
takes a lot of the older mechanical drive systems out that were 
bell cranks, and cables, and that sort of thing that controlled 
the rotor system and replaces it with wires, basically. It is a 
fly-by-wire. So, you are sending electronic signals over the 
wire to an actuator out there that makes the blades go up and 
down and do those sorts of things.
    You make it triply redundant by putting in basically three 
sets of wires there. So you have the redundancy and there is no 
single point failure. But when you do that, it makes it a much 
more reliable system. It gets rid of a lot of weight, which 
increases your performance. It makes life easier on the 
maintainer, because it gets rid of a lot of parts in there, the 
bell cranks, the cables, and so forth that he used to have to 
worry about replacing and so forth.
    General Cody. We think this is going to be--we will lead 
off, of course, with the UH-60 M-model, but then we will be 
looking at cascading this technology into other aircraft. 
Comanche had fly-by-wire. In fact, I am one of the few pilots 
that have flown Comanche.
    General Bergantz. Right. Comanche, in fact, is the first 
rotor craft that had fly-by-wire.
    General Cody. It is absolutely the best flying helicopter 
the industry ever built for us. I'm surprised when the 
cancellation came out that they didn't have several quotes from 
General Cody saying it's the best aircraft they ever built, 
because I go on record as saying that it is.
    Senator Lieberman. There is still time. [Laughter]
    General Cody. I believe I just did.
    Senator Lieberman. Thank you. We have that on the record.
    General Cody. But the capability of putting fly-by-wire in 
is really going to save us helicopters and for the investment. 
So, they came back----
    Senator Sessions. That will be a Comanche technology that 
you will be able to----
    General Bergantz. Yes, sir. That is one of the ones I 
mentioned that we will carry forward.
    General Cody. That is one of the ones we will carry 
forward. We also have some shortages in our rocket strategy, in 
our acquisition of rockets. We have used up quite a few rockets 
in this fight, as well as in the Afghan fight. We had some gaps 
until we bring on the new rockets, as well as gaps in our 
Hellfire line, as we go forward to the joint common missile. We 
have fixed our Army aviation munitions.
    The UAV requirement: the study said we need to have UAVs in 
the aviation brigade formations. We also need to take a look at 
the manned and unmanned teaming of UAVs, level three and level 
four. Level three, you will hear people talk about. That means 
if you are flying a helicopter, you can throw a switch, and you 
can drive the package of the UAV that is flying out ahead of 
you 50 miles or 100 miles. So, you now control the sensor 
system.
    Level four means you not only control the sensor system, 
but you also control the helicopter. We will be able to put 
level three and level four on the Apache Longbow Block III. We 
will be able to put at least level three on our Army aviation 
command and control system (A2C2S) Black Hawks and level three 
on our light-armed reconnaissance helicopter.
    All of this on this side of the fence, on this side was 121 
Block I Comanches. As we did our analysis that General Sinclair 
talked to you about what was shooting down our helicopters, if 
the Comanche was flying today in Iraq, those same missiles that 
took down those nine aircraft would take down the Comanche, 
because Comanche does not have an active IR system for IR 
missiles. Once you start putting IR active systems on an 
aircraft that was built for a radar cross-section, you start 
getting into those quick trade-offs of what your radar cross-
sections look like. I cannot go much farther than that in this 
type of setting.
    That was one of our problems. So, we are faced with buying 
121 Comanches knowing that we were going to have to upgrade it 
to the IR threat that we know that was out there. We would 
still have this problem in 2011, because we did not have any 
money in the Army to be able to take care of all of this.
    That is where we came up with the decision. I do not think 
it was a business decision, because--in some cases it was but 
in other cases, I am not sure--in fact, I know after I have 
looked at this for a long time, knowing what I know now, 
knowing what I know going into the future, I am not sure that I 
would pursue buying Comanche the way it was structured because 
it provides a niche capability.
    Fifteen years ago, we sent Apaches after radar sites to 
start off the first Gulf war. Today, I do not think we would 
send a Comanche against those radar sites because we have other 
joint systems that can deal with that type of threat that we 
did not have back in 1990/1991.
    As great an aircraft as Comanche was, it was starting to 
get squeezed into a niche capability that we kept holding on to 
for low observable, never achieving stealth, at quite a cost. 
It was going to really affect our ability to have Army aviation 
as a joint and air/ground team member on the next battlefield. 
So, that is why we made the decision.
    What I want to do real quickly, because it goes to the 
other point, I want to show you how we looked to build a 
capabilities base once we went to this. We looked across all 
our aircraft fleet and we said, Okay, we have to redesign the 
air/ground.
    So, what we basically did was we said in the attack role, 
the basic mission unit, we wanted to have a troop or a company 
of either 8 Apaches or 10 light-armed reconnaissance aircraft 
as a building block. For the assault mission, we said 10 Black 
Hawks; for the general support mission, 8 Black Hawks; for the 
heavy assault and cargo, 12 Chinooks; and for 12 medical 
evacuations (MEDEVACs).
    We looked across, and we wanted to say we need to have 
modular, tailorable and more sustainable formations so we could 
push them down. Once we did that, we looked at where all our 
helicopters were. We had them in formations above division and 
above corps. So, we said we are going to take all those 
helicopters out of corps and take all the helicopters above 
corps, and we are going to make our formations more robust at 
the division level so they can fight with the ground teams.
    So what we did, we took the 11 different aviation brigades 
in the Army, and we said this will fix the National Guard. We 
have two National Guard divisions that are part of the 
warfight. They will be heavy divisions, as we design them. We 
also have six active duty divisions that, when we redesign 
them, will be heavy divisions.
    So, we designed an aviation brigade that gives them two 
attack helicopter battalions of 48 Apaches, a Black Hawk 
battalion of 30 Black Hawks, a general support battalion that 
gives them 8 command-and-control UH-60 helicopters, and 12 CH-
47 Chinooks and 12 MEDEVACs. We put the MEDEVACs into the 
aviation brigade.
    We also gave the aviation brigade its own sustainment. In 
other words, the intermediate two-level maintenance for 
aviation and maintenance we put in there. We created space for 
the Class IV UAV. So, this is what the aviation brigade will 
look like.
    In comparison, when the 3rd Infantry Division crossed the 
berm last year, their aviation brigade had 18 Apaches, 16 Black 
Hawks, and 24 Kiowa Warriors. This is a much more robust 
formation. We will build 11 of these formations.
    For the National Guard divisions, the other six divisions 
themselves, we created expeditionary regiments. They will have 
the same building block as what we built for the baseline. 
Because we are short of aircraft, they will have the same 
building blocks, but will be short a company across the board, 
except in the UH-60. We have optimized them for homeland 
security, homeland defense, stability support operations 
(SASO), Balkans, and Afghanistan. If we put them in the heavy 
warfight, we will backfill them with modules from the active 
component (AC).
    They are structured here at the support, and they are 
structured at the brigade. They are all the same. So, this is a 
much more tailorable and adaptable formation to be able to do 
that.
    So, we are breaking the paradigm here of reinforcing active 
duty activation with National Guard. Aviation in this case, for 
these types of units, we will actually chop AC units to them.
    When we look at our light division, 25th Infantry Division 
and the 10th Mountain Division, we used the same design except 
we're resourcing them with light attack aircraft versus the 
Apache, but they have the same formation.
    For the 101st and the 82nd, our two vertical envelopment 
divisions, as we transform those two divisions here in the next 
3 years, we are retaining the air assault division with four 
maneuver brigades. We will retain the 82nd Airborne as an 
airborne division with four maneuver brigades.
    The delivery of these assets, primary delivery of the 
combat formations for the 101st will be by helicopter. That is 
why they will get two of these brigades. The 82nd will be 
primarily delivered by parachute or by some other means. We 
gave them the same tactical mobility by giving them a full-up 
aviation brigade, which is much larger than the brigade they 
have right now.
    But the beauty of all this is, for the 18th Airborne in 
particular, they can cut these brigades to any of the divisions 
when they employ them. If the 82nd went to combat next week, 
they could take two of these brigades with them because they 
are all the same formation.
    So, that is where we moved to. We think we have this thing 
about right.
    Senator Sessions. You can draw on the National Guard?
    General Cody. The National Guard has signed up for this; 
yes, sir.
    Senator Sessions. But you would be able to draw on them 
parts or whole as you chose?
    General Cody. Yes, sir. I will use the 10th Mountain as an 
example right now. They are Apaches in Afghanistan rather than 
two battalions of light attack aircraft. We can take one Apache 
battalion to try and give it to them, and it would not change 
this formation. We have the right support mechanisms.
    Senator Sessions. All right.
    General Cody. So, let me recap for you. Then I will get off 
the stage here, and I will answer your questions.
    What does this all mean on how we redid this? About 903 new 
aircraft for the AH-64 will take Block I aircraft, 284 will go 
to Block III in this cycle 2004 to 2011. We will take another 
217 after 2011 to build it up to 501 for the objective.
    The CH-47, we are going to buy 24 new ones, recap 19, and 
accelerate to the F-Model and G-Model lines starting in 2005. 
The UH-60s, we are going to buy 90 new ones in 2004 through 
2011; 51 L-Models and 39 M-models, as well as 9 MEDEVACs.
    Regarding the armed reconnaissance helicopter, we have a 
requirement that is coming into the building from the Training 
and Doctrine Command (TRADOC). We think it is about 368 
aircraft we need between now and 2011, and then sometime in the 
next 2 or 3 years, we will reevaluate that number. We know 
between now and 2011, with the formations we have, this will 
fill up those brigades with the light-armed reconnaissance 
helicopter, and then we will be able to divest ourselves of the 
OH-58 Kiowa Warrior.
    On the light utility helicopter, we need 322 new aircraft. 
What that allows us to do is to backfill the UH-1s that are 
being divested, but also, more importantly, there is about 144 
what we call TDA, Training Distribution and Allowance Aircraft 
which support our garrison and training units not combat 
aircraft, in places like our combat training centers and our 
test centers, MEDEVAC for CONUS that they will be able to 
displace Black Hawks so we can put them in the Guard formation. 
Then the rest of those aircraft will go into the Guard OH-58 
battalions for their homeland security to replace the 
Reconnaissance and Interdiction Detachment (RAID) aircraft.
    So, that is what this does. What is not on here is $390 
million we have in the program for procurement of UAVs. We have 
a team going down range to Iraq in April. Some will come from 
General Sinclair's aviation center and the others from TRADOC, 
the future center. I am sending my requirements people, and 
General Bergantz is sending his. It will be a team to go down 
range for about 4 weeks and take a look at the IGNAT UAV 
Predator-type class UAV we have in the country now that are 
flying.
    It will look at the Hunter UAV. It will look at the Shadow 
200 UAV and the Raven UAVs, those four types of UAVs, and then 
will come back and generate the requirements of what type of 
UAVs we want to put in these formations.
    Senator Sessions. All right. Thank you, General Cody. That 
was a good presentation. It will give us some feel for how we 
are going to be configured and how we will go to war with 
aviation.
    General Bergantz, I know you and--I assume the senator will 
be back. Maybe we can talk some more about that Comanche later. 
But I do recall being at Fort Rucker last year. It was the 4th 
of July, maybe. The wife of a senior helicopter trainer said, 
``Well, I'll tell you what I think.'' Comanche had been 
mentioned. She continued, ``No, I'll tell you what my husband 
thinks.'' I said, ``What is that?'' She said, ``He thinks you 
could upgrade the Apache Longbow, and you don't need the 
Comanche.''
    That had not been our position, the official position, of 
the Army. I guess we have invested a lot in it. It is always 
better to bite the bullet sooner rather than later, but we 
cannot say this is real soon that we are biting the bullet.
    What can you say in defense of the criticism that can 
rightly be raised, that if this is so, why did we not know it 
sooner?
    General Cody. I will take it first, while these guys try to 
figure out how to back me up. First off, let us remember that 
Comanche, when the acquisition decision memorandum was signed 
for 650 Block I Comanches, it was to replace the aging Kiowa 
Warrior fleet, because we had a helicopter in the Kiowa Warrior 
that was really a gap measure until we could get Comanche on 
board. What Comanche brought to the table was its electro-optic 
sensor system (EOSS), its sensor suite, its communications 
package, the Longbow radar system that picked up targets, as 
well as being an extremely agile and fast aircraft.
    So, that is what it was going to do in Block I. It was to 
replace the Kiowa Warrior for the reconnaissance, surveillance, 
and target acquisition. Then in the Block II and Block III 
upgrades of it, they were looking at a newer engine and a newer 
transmission so that the Comanche could carry more armament and 
be almost as lethal in terms of carrying combat loads as the 
Apache in the out-years.
    That is what, as we looked at the trades, we kept coming 
back to as part of the problem: we never brought the Longbow to 
its full potential. The Longbow carries almost--well, it 
carries 16 Hellfires on any given day. That is an airframe that 
does not really care that much, because it is a pretty stout 
aircraft.
    We also looked at if we are going to keep Longbow out for 
that many years, what is our recap strategy going to be. So, we 
went through all those space trades, and that is how we came to 
the conclusion that with a light-armed reconnaissance aircraft, 
that was more deployable we would fill one of the required 
voids. I forgot to add this. That was one of the other things 
that came out of Task Force Hawk, as well as getting into 
Afghanistan, as well as some of the other contingencies that 
have popped up that were on our radar screen, was how do we get 
a light-armed reconnaissance aircraft into the fight as fast as 
our new, more deployable, more responsive ground forces?
    Comanche is larger than the Cobra and a little smaller than 
an Apache. We started taking a look at all those type of 
trades. We felt we could fill the gap of retiring the Kiowa 
Warrior by bringing on a more air transportable, smaller, 
certainly less expensive, easier to keep close to the ground 
troops light-armed reconnaissance helicopter. With UAVs and a 
fully potential Block III Longbow Apache, we saw no 
degradation.
    Now, we have had the mobile battle labs run several 
iterations now of future battles, where we used to run it with 
Comanche and the FCS force. Now we have run them with Apache 
Longbow and a surrogate, less capable aircraft. With UAVs and 
joint fires and Longbow AH-64D Block III, we are seeing no 
degradation right now to the fighting capability on the high 
end of the FCS-equipped force.
    Senator Sessions. You refer on your chart to the light-
armored reconnaissance aircraft. How does the viability of that 
aircraft play into the picture and your decisionmaking process?
    General Cody. I will kick that one down to General 
Sinclair. He was on the task force, and he could talk a little 
bit about it.
    General Sinclair. Sir, the light-armored reconnaissance 
aircraft will prove to have reconnaissance capability for--
especially in the light infantry divisions to go out and find 
the enemy. Then it still has the capability and has the weapons 
capability to go ahead and destroy a smaller force. It is not 
going to be the true punch force that you look for from 
Apaches. But it will have the survivability, the ability to 
conduct reconnaissance, the sensors on it that can detect 
forces, be able to designate targets for artillery and for 
Apaches and, probably more importantly, for the joint fighters.
    Senator Sessions. How has it been performing? How many 
more? Are these the new 322s you are projecting to buy?
    General Sinclair. 368, sir.
    Senator Sessions. 368?
    General Sinclair. Yes.
    Senator Sessions. 368. How has it been performing?
    General Sinclair. Sir, right now we do not have an aircraft 
identified. We are looking right now, looking at----
    Senator Sessions. This is new, not in the inventory?
    General Sinclair. Correct, sir. We are looking at different 
options for it.
    Senator Sessions. How long are we looking at?
    General Bergantz. We anticipate that the proposals will 
start to come in. We will go ahead, now that General Sinclair 
has completed the interim concept development (ICD) work and is 
in the building being approved, then we will be able to go out 
with a request for proposal (RFP) and compete this. Then what 
we will do is come back in and figure out which is the best 
platform that meets the requirements that were laid out in each 
document.
    As we narrow down and winnow down the contenders through 
the source selection process, it may be that there are only a 
couple out there that can actually do what we want the set of 
requirements to be, the capabilities that we want. If that is 
the case, it may make it simpler than if there are five or six 
of them.
    General Sinclair. Our plan is that the first unit----
    Senator Sessions. This has to be rapidly acquired. I guess 
my question is: How rapidly is rapidly?
    General Sinclair. We plan to have these----
    General Cody. The first unit equipped is fiscal year 2007, 
sir.
    General Bergantz. Right, and to have the majority of them 
all bought by the end of the POM period.
    Senator Sessions. All right. On the conversion of 501 
Apaches to Block III configurations leaves 203 A model Apaches 
in the fleet for National Guard. So, how is that going to work 
out for us?
    General Cody. Sir, based on the 2006 to 2011 program we 
have put about $175 million in the Apache line for either 
upgrade or transition to D models for those A model aircraft we 
have in fiscal year 2008. Right now, industry is looking at 
rotor blades, rotor systems, newer engines, the 701-D engine, 
as well as new transmissions. We have money to do a focus recap 
of the A models, so we keep the National Guard Apaches in much 
better condition--we are not going to go back and do like we 
did to the National Guard the first time, where we gave them 
the Cobras and did not put any money in them.
    We have $1.9 billion in a focus recap of the Apache A model 
line, as well as $175 million starting in 2008 for upgrades 
and/or a transition to the D or to whatever upgrades industry 
comes back and tells us is possible.
    Senator Sessions. Will this have the kind of modularity 
capability that you are looking for?
    General Cody. It is not the optimum. I mean, quite frankly, 
we would like to have all the Apache D models be Block III. But 
we think it is more than prudent, right now, to get ourselves 
through this bow wave in terms of training and in terms of what 
can get off the production line during this time frame, and 
this is reflected in our amended budget.
    But the most important thing is we have put money into 
making sure that these A models stay fully up with the changes 
we will make in any type of drive train on the Longbow.
    Senator Sessions. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Thanks to you, 
General Cody, and your colleagues.
    Look, I appreciate the kind words you had for the Comanche. 
You are in a position to know, having flown it. This gets to my 
concern that the decision to terminate ultimately was a 
budgetary decision. It is not that there is anything scandalous 
about that. It is just that it makes me worry about what we 
have sacrificed. It is not scandalous in the sense that there 
are budget limits. But as I look at this chart, fixing Army 
aviation, what is in the balance? A lot of the programs on the 
side that now will be funded, as a result of the termination of 
Comanche, look a lot like programs that we have heard described 
here as Army needs over the last decade or so.
    So in some sense maybe this means that the Army has been 
pushed to finally make a really tough decision because of the 
resource shortfall that is not your fault but it is what 
successive administrations and Congresses have given you. My 
concern is that we have sacrificed. In some ways we are 
modernizing, but we are not transforming. I know that the 
orientation of the Army, the desire of the Army, is to 
transform. So we are now proposing, you are now proposing, the 
termination of a truly transformational helicopter and using 
the money to modernize and fix some problems with Army aviation 
but perhaps, again, at the risk of having us unprepared for the 
future threat environments.
    So, let me begin with that general question. The bottom 
line is: Is this not ultimately a budgetary decision that you 
were forced to make?
    General Cody. Let me take that on, Senator Lieberman. 
First, we looked very hard at this. One could make the case 
that this is a Fram oil filter, on the left-hand side of that 
chart, that came due.
    Senator Lieberman. That this is a----
    General Cody. Fram oil filter that came due.
    Senator Lieberman. Fram.
    General Cody. I testified in 1999 that it was out there 
from Task Force Hawk. Due to shortages of modernization dollars 
of about $5 billion each year in the accounts, it still 
lingered out there. It became more of a problem for us with the 
amount of aviation we had in OIF and OEF--over 800 aircraft 
flying three times the operation tempo. We have lost 45 
already, and there is another 24 that we think we will lose 
once the estimates come back. This certainly weighed in the 
balance of making the decision.
    Transformation is about battle command, about seeing first, 
understanding first, and being able to act first. When we 
looked at Comanche and did the trades, we said, okay--what are 
the capabilities we need for the transformational force? Do we 
have other ways to mitigate? Such as taking this helicopter 
that has low observable technology, certainly great technology 
in terms of sensor to shooter linkages, in terms of equipment 
packages on board?
    What we asked ourselves is, can we bring Longbow, can we 
bring a light-armed helicopter, and can we bring the linkages 
to the air/ground team of the FCS-equipped force? Can we get 
the sensor packages? Can we mitigate with the new technologies 
that we are now seeing on the battlefield? You were not here 
when I discussed the fact that we are studying, right now, the 
four types of UAVs we have employed in Iraq. We are sending a 
team in there.
    When we looked at it across the board, we said the 
transformation piece of this is not so much the platform, it is 
more about seeing first, understanding first, and being able to 
act first. We came to the conclusion that we had some 
transformational technologies and some transformational changes 
in the way we set up our battle command systems to deal with 
these platforms and employ these platforms and that we would be 
okay.
    I believe that Comanche provided us a niche capability in 
2011 because of its low observable technology. I also believe 
that we will probably lose a lot of that advantage if we would 
try to optimize it for an active infrared (IR) threat that is 
getting bigger, which means we would only fly it at night. 
Because if the testing said if we put this active jamming 
system on this fuselage that was designed, and all of a sudden 
your radar cross-section balloons on you, we would probably 
have made the decision on that $50 million helicopter not to 
put the active jammers on, which would have driven us to not 
risking that aircraft in the daytime. Now, we really have a 
niche capability because we cannot fly the air/ground team 24 
hours a day.
    So, all these things came into play. I think we have it 
right. However, at the end of the day, today we had a problem, 
about $12.6 billion and it was going to be a problem in 2011 no 
matter what. That is how we came to the conclusions.
    Senator Lieberman. Let me focus on one part of that answer. 
It is the idea, the estimate, that the threat from infrared is 
rising more than from radar-guided missiles. I understand we 
faced that in Iraq and in Afghanistan. But we also, as I 
indicated earlier, faced the radio controlled and radar threat 
in Kosovo. My presumption was that in the more sophisticated 
conflict environments of the future, we would be more likely to 
face a threat from radar, as opposed to infrared or heat-
seeking.
    So, I know I heard you set a date that the task force 
estimated that the greater threat would be from the infrared, 
sometime--what? 2015, did you say?
    General Cody. About 2015, look at the threat out there, 
because we are dealing with the suite of integrated radar 
frequency--we are bringing suite of integrated radio frequency 
countermeasures (SIRFC) on to deal with radar for our Special 
Operations Forces (SOF), as well as for the Apache and for the 
Black Hawk. So, we are concerned about the radar threat, and we 
are dealing with active and passive measures.
    But also, when you have radar missiles and radar systems, 
you have to turn them on. We have several very capable joint 
systems that we did not have 10 to 12 years ago in our sister 
Services to deal with these radar systems in a much better way 
than sending helicopters against them. That does not mean that 
helicopters will not have to deal with that threat here. We 
have money in the budget, taking a look at IR missiles and how 
we are going to deal with that, not only with the Apache but 
also with other aircraft systems.
    Senator Lieberman. Yes, that was my worry. I presume we 
want to maintain a deep attack function for the helicopters.
    General Cody. Yes, sir.
    Senator Lieberman. If we start to rely on some of the other 
joint systems, are we going to limit that function?
    General Cody. No. That is why the unit unmanned and manned 
teaming of UAVs and the different type of mission packages, 
Senator Lieberman, that we are going to put on our UAVs is 
going to help us with the survivability of our airframes in the 
future against a radar threat. I probably do not want to go 
much further than that, here. But that is one of the things we 
are looking at, as well as the systems we are going to put on.
    Let me just check. Colonel Rife is one of my smart guys.
    What are we doing with SIRFC right now?
    Senator Lieberman. Come on up so you are on the mike.
    General Cody. Yes. Just come right up here.
    Senator Lieberman. Thanks.
    General Cody. He is also a great Army aviator.
    Colonel Rife. Sir, we have looked at the system, and we are 
continuing right now with the tech development. We are working 
with PM-AES to make sure that we sustain the tech base on it. 
We put enough in it to look at the A-kitting (software wiring) 
for the initial modernized aircraft airframes. But right now, 
the acceleration in the IR, as General Cody said, is a 
priority.
    Senator Lieberman. So the bottom line, again resource 
constraints, is it fair for me to conclude that we are putting 
considerably more money in the foreseeable future into 
defending against the IR threat than we are?
    Colonel Rife. Yes.
    General Cody. We are because of two reasons. One is because 
of the threat; but two, because the technology right now to get 
the systems to defeat the radar threat is just not there.
    Senator Lieberman. The best evidence that we have, to the 
extent that you want to testify to it in open session, is that 
the IR threat will be a greater threat in the years ahead, 5, 
10 years ahead rather than later?
    General Sinclair. Yes, sir; I think it is through the 2015 
time frame. We think that will definitely be the bigger threat. 
I know that we cannot use Afghanistan and Iraq as a sole basis 
because there are other threats out there. But as General Cody 
said, the ones that are there, we will have the joint 
interdependence with other forces, as we execute those 
missions.
    Senator Lieberman. Am I making a mistake in considering the 
IR threat to be less sophisticated than the radar? That is my 
nonprofessional view.
    General Sinclair. I think that is not a good assumption. I 
think the IR threat, especially when you look at some of the 
developments--the SA-18, for example, is a very capable system.
    Senator Lieberman. Right. Did you want to add anything, 
General?
    General Cody. I was going to say that I am very concerned 
about the sophisticated IR threat.
    Senator Lieberman. Yes.
    General Cody. I am real concerned about it. That is why we 
made this the number one thing. We are also doing other 
suppression and passive measures on all our fleet to deal with 
this IR threat above and beyond using active systems. I have 
seen the technology, and we are going to be bringing that 
forward here very quickly to our fleet.
    Senator Lieberman. Okay. Let me now pursue the question of 
how you intend to ensure that the almost $7 billion invested in 
Comanche is not lost. Let me focus on the parts of the programs 
that are salvageable. We have talked about some of them. But at 
the risk of--let me just do it. I want to mention some from 
your statement and ask what the plans are to keep them alive. 
This is the--``We anticipate multiple''--I am reading from the 
statement--``to horizontally integrate leading Comanche 
technologies in the current and planned programs. For example, 
we envision harvesting''--and I am going to read each of them 
off and ask you to tell me what the plans are at this point--
the radar electronics unit.
    General Bergantz. Yes, sir. That is a program that the fire 
control radar on the Longbow Apache was depending on the 
Comanche to help miniaturize and make it a more reliable 
system. There presently are two boxes on the Apache program, a 
low-power RF box that generates a wave form and a programmable 
signal processor. Both boxes weigh about 80 pounds each.
    What Comanche was doing was consolidating those into one 
box and getting the weight down under 120 pounds. So, it was a 
pretty significant effort. It was making it on the same form 
factor, a two-level maintenance type of a system. It was a 
remove-and-replace-a-bad-card system that went into one of 
these centralized boxes on the Apache--pull it out; put in a 
new card; and then send the old card back to a depot somewhere.
    General Cody. The fire control computer is significant. 
One, it is able to pick up about 256 targets with a sweep to 
include radar-type targets if they are emitting and everything 
else. It also processes it and tells you--and you can 
prioritize it as a pilot. So, your first 16 priority targets 
will pop up on a screen.
    Longbow has that now. Comanche was going to have the 
Longbow radar. But as Joe said, they are a much smaller 
package, are more reliable and easier to maintain. We do not 
sacrifice that when we go to 501 Block III Longbows. You will 
have the capability to be able to pick these targets up, 
especially if they emit.
    Senator Lieberman. So, is part of the transfer of funding 
going to guarantee that transfer of technology to the Longbow?
    General Cody. Yes, sir.
    General Bergantz. Right.
    Senator Lieberman. That is in the budget now?
    General Cody. Yes, sir.
    Senator Lieberman. Okay. Let me go to the next: integrated 
communications navigation and identification avionics (ICNIA).
    General Bergantz. Yes, sir. The ICNIA system is a system 
that is akin to joint tactical radio system (JTRS) that the 
ground forces are working on. They were working for the JTRS 
for the rest of the aviation development work. What we intend 
to do there is to look both at the box itself, which once again 
is a reprogrammable radio that can transmit on 12 different 
channels, 7 of them simultaneously. So, it does the same sorts 
of things that JTRS does.
    We want to take a look at that and see which piece parts of 
that, if any, we can pull forward into the JTRS program; or 
perhaps this could even be a replacement for the JTRS, and we 
could get it sooner. We are taking a look at both options.
    Senator Lieberman. So again, is that money taken care of to 
carry out that transfer?
    General Bergantz. Right. What we left on the contract is 
through the end of fiscal year 2004, the money is to keep these 
efforts--these six that I mentioned, sir--going. Then, as we go 
through our deliberations and figure out which ones we want to 
carry forward to other platforms, we will take the tails and 
put into the other platforms.
    Senator Lieberman. So, the same for the radar warning 
receiver and the fly-by-wire technology?
    General Bergantz. Yes, sir.
    Senator Lieberman. How about the Comanche's Image 
Intensified Television (I2TV) system?
    General Bergantz. Right. That is another. The I-squared 
system, the image intensification system, was somewhat better 
on the Comanche, because it had taken and looked at some of the 
problems that the Apache had been dealing with, so it was 
solving those by putting in a new chip and so forth. That is 
migrate-able also to the Apache Block III helicopter.
    Senator Lieberman. I take it that you have funds committed 
to it to help migrate it?
    General Bergantz. I think it does right now.
    Senator Lieberman. Does it?
    General Bergantz. Through 2004 it does.
    General Cody. It does through 2004. As we deal with the 
Apache MTADS, which is the Modernized Target Acquisition 
Display System, and we look to upgrade the Apache, which we 
have money in, the Apache sensor suite. If this works, then we 
will put that in the Apache pilot navigation system, as well as 
the target acquisition system.
    Senator Lieberman. Let me go to a different part of the 
termination, which is: What is your range of estimate Comanche 
termination costs, which is obviously important to us generally 
in terms of the budget, but then important to the folks at 
Sikorsky and Boeing?
    General Bergantz. Yes, sir. Let me take a whack at that. 
Our budget this year was roughly about $880-some million. Of 
that, about $380 million of it was sunk cost, those that had 
already been logged, paid, and so forth. So, that left us about 
$530 million to finish out the remainder of where we were in 
the fiscal year when this happened.
    We had a $123 million special termination clause on the 
contract, which means that the Army has to be prepared to pay 
that, if it happened in the fiscal year at a sufficiently late 
time, where there was not enough money to draw out of the 
remaining funds. In this case, we believe there is sufficient 
money available to take it out of the remaining funds to pay 
the $123 million, which should be a cap of what the termination 
costs end up being, no more than that.
    So what happens now is, on May 18, we issued a termination 
for convenience letter to the prime contractors, Boeing and 
Sikorsky. It takes them a certain amount of time working with 
the Defense Contract Management Agency (DCMA) folks to figure 
out what the bills are that have yet to be paid. Those include 
things like termination of long-lead parts that had been 
ordered, relocation fees for people to have to be moved around, 
severance pay, all those kinds of things.
    So, it is going to take them some time, and they have 
contractually up to a year to settle that. What we are trying 
to do now is figure out how we can accelerate that in some 
manner, so that we could possibly recoup some fiscal year 2004 
funds.
    Senator Lieberman. So again, the maximum range on that, by 
your estimate, would be?
    General Bergantz. I think right now I am saying we had $550 
million left. If you take the $123 million out, which we could 
have to pay up to that amount, there could be as much as $437 
million left. But right now, we are not counting on any of that 
money because it depends on how long this gets dragged out.
    Senator Lieberman. Yes.
    Senator Sessions. Was that contract? Was that $123 million 
part of the----
    General Bergantz. That is the special termination clause on 
the contract.
    Senator Sessions. In the contract?
    General Bergantz. In the contract, yes, sir.
    Senator Lieberman. You probably know that there are numbers 
floating around that are much higher than that, that go into 
the billions. Frankly, I mention them to you. I presume you 
have heard them. I am not in a position to be able to evaluate. 
But if you have heard them, when you hear them, what do you 
say?
    General Bergantz. I have not heard them, sir; but I will--
if I hear them--I will tell them that is not accurate. Maybe I 
am misunderstanding it. We have $6.9 billion invested at----
    Senator Lieberman. Yes; understood.
    General Bergantz. That is true; we have spent that amount 
of money.
    Senator Lieberman. Right.
    General Bergantz. But to finish out the contract, we were 
incrementally funding it with research and development (R&D) 
funds every year. So, we are only obligated for what we have on 
this fiscal year 2004.
    Senator Lieberman. Is there a process for doing the kind of 
cost benefit analysis of subsystems regarding that termination 
cost? In other words, to evaluate how much has been spent to 
date and if, on a particular system, the termination costs get 
to be high enough that you begin to wonder whether it is worth 
going ahead and buying the system? Does the process allow for 
that?
    General Bergantz. Yes, sir. A couple of the efforts that we 
had talked about carrying forward fell into that neck of the 
woods. The T800 engine, we were very close to finishing up the 
FAA qualification on the 802 variant of that. So, it made 
sense. It was one of those kind of trades where you could 
finish up; you could terminate it, stop it right then, and it 
would cost like $12 million. Or you could spend maybe $10 
million to finish up the qualification work that was done, have 
the qualification, and convert that to a fixed price contract 
that would deliver us--I believe we are going to get 10 
engines.
    So, that is what we elected to do, actually keep that 
going, finish up, get a qualification out of it, get some 
engines out of it, and then be able to use those in the future, 
perhaps for a UAV or perhaps for one of these other systems 
that is being competed.
    Senator Lieberman. Just a last question on this round, Mr. 
Chairman.
    Again on the fixing Army aviation chart, this is a multi-
year program. My question is: Does the Army have a commitment 
from OSD to maintain that additional funding for Army aviation 
requirements over that period of time?
    General Cody. Yes, sir. I briefed the Deputy Secretary of 
Defense, and I briefed the Secretary of Defense before we went 
to the President. We led off by saying this is about fixing 
Army aviation, not about canceling Comanche. We got a solid 
commitment from both the DOD leadership and the President, as 
well as from the Office of Mangement and Budget (OMB) when we 
went over and laid out what we wanted to do.
    But more importantly, inside the Army--because you know how 
we work budgets--I have signed a memorandum for record, with 
the Army's G8, that lays out the Army campaign plan through 
2010 where every bit of these dollars go. We have commitment 
from the Chief of Staff of the Army and the Secretary of the 
Army. It takes a Chief of Staff of the Army decision that he 
probably has to take forward above him to move the money 
around. I do not believe that we will have problems retaining 
it. This is the first time I have seen that happen.
    But we understand the concerns. We are concerned because we 
know how we got here. There were trades made every year over 10 
or 12 years.
    Senator Lieberman. Okay. Thanks, gentlemen. I am going to 
yield back to Mr. Chairman. I have just a few more questions, 
whenever you are done.
    Senator Sessions. If you would like to go right now?
    Senator Lieberman. It is totally up to you.
    Senator Sessions. Please, finish up.
    Senator Lieberman. Okay. These are kind of offshoots of 
where we are now.
    Senator Sessions. I know this is an issue you have followed 
closely for a number of years.
    Senator Lieberman. Thanks, Mr. Chairman.
    Senator Sessions. This is an opportunity to----
    Senator Lieberman. I have a load of questions. I am going 
to submit a lot of them in writing to you. But I do want to ask 
a few here.
    What are the operational implications of having three 
different attack helicopter models, for example, the logistical 
implications? I know you talked about shortening the logistical 
tail. But if we are going to have three Apache variants, and 
reconnaissance aircraft, and a new light utility helicopter, it 
sure looks like we are increasing the different kinds of 
helicopters that we have to support from the training base to 
the battlefield.
    General Cody. We have looked at it, Senator, and, quite 
frankly, we are going to end up with less mission design series 
when we get through this than we have right now, when you count 
the OH-58 Alpha, the OH-58 Charley, the UH-1, the Cobra, the A 
model Black Hawk, the L model Black Hawk, the M model Black 
Hawk, the Block I AH64 Apache Longbow and the different models 
of Chinooks. When we get onto this program, we are going to be 
able to reduce it.
    But more importantly, what we did was we structured--when 
we restructured--and this was a total restructuring of our 
footprint in Army aviation. The 58,000 soldiers that General 
Sinclair talked about are going to be in different formations. 
By being able to restructure, we think we have the aviation 
intermediate maintenance unit and the aviation unit maintenance 
unit set up in such a way that we are going to be able launch, 
recover, and launch again these airframes much better than we 
are doing right now.
    Would it be nice to have a pure fleet of attack helicopters 
that could do everything?
    Senator Lieberman. Sure.
    General Cody. That is why we are putting money into the 
joint multi-role helicopter, so we can take a look. Would it be 
nice to have a Black Hawk that could do all of the missions? 
Yes. But the Black Hawk, in the case to the light utility 
helicopter (LUH), is a more expensive aircraft than we need to 
have out flying around at the National Training Center. We need 
one, but not a Black Hawk, because it is pretty expensive, as 
well as for the raid mission in homeland security.
    So, we think we are doing the right thing. I will defer to 
General Sinclair on the training piece because he is the one 
that has to train the fleet.
    General Sinclair. Senator, it will obviously be a challenge 
with the number of aircraft. But again, as General Cody said, 
the way we restructured our maintenance into two-level 
maintenance and combining some of the functions, we have worked 
very hard to establish a new maintenance structure that can 
operate across that full gamut of these different types of 
aircraft.
    Also, we have put several, I think $293 million, into 
providing the right sets, kits, and outfits to maintain these 
aircraft, which we never invested in the proper way we should 
have before. So, that will be a big improvement, also.
    On the light utility helicopter, that is going to be FAA-
certified parts and commercially maintained. So, I think that 
actually is one we will out-source and have maintained, get the 
parts through a commercial source. So, the maintenance burden 
of that will be very light.
    Senator Lieberman. Let me ask just the last couple of 
questions, which in some ways comes from the last one I asked 
about the joint multi-role helicopter program. What is the 
developmental time-line that the Army has in mind for this? At 
this point, obviously, this is concept now. What missions would 
such an aircraft perform and what helicopters would it replace?
    General Cody. First, the money, Senator, I think goes in, 
in 2008, our portion. It is concept right now. All new systems 
in DOD have to be born joint through the Joint Requirements 
Operation Capabilities Board. We are talking about the time 
frame of probably development starting in 2015, as the 
replacement for the Black Hawk, and the attack helicopter.
    In the special operations regiment, which I used to 
command, you have the Black Hawk, the K model, that does the 
assault. But we also have the defense armed penetrator that 
does the attack role. It was not designed that way from the 
get-go. We probably would have saved a lot of money had we 
designed it up front to be multi-role.
    So, there are some of the things we are looking at. That is 
one airframe for light--or not light but assault and attack. 
Then for the joint arena--the other joint program is the heavy-
lift joint aircraft that we are looking at. There, we do know 
that there is great interest by the Navy, the Marines, as well 
as us, for a replacement of the CH-47, again in about the 2020 
time frame, sir.
    Senator Lieberman. Maybe I missed it, but is there a stated 
interest in the other Services in the joint multi-role 
helicopter at this point?
    General Cody. I believe the Marines--let me take that for 
the record, sir, so I can be more accurate with you. I know we 
have discussed it. OSD clearly has interest and I have talked 
to Mr. Wynne. There is interest there, however, we have not 
culled this out between the Services. I need to take that for 
the record and get back to you.
    [The information referred to follows:]

    Current interest in the joint multi-role helicopter is limited. The 
Joint Warfighting Concepts will define the requirements for the next 
generation of attack, reconnaissance, utility, and heavy lift 
helicopters. We are still very early in the stages of defining the 
requirement for this type of helicopter. As we continue to outline our 
helicopter requirements for the future both in the attack/
reconnaissance roles and heavy lift support we see growing interest 
from other Services. Clearly both we and the Marine Corps will require 
similar capabilities in a future multi-role helicopter.

    Senator Lieberman. That is fine.
    Thanks, Mr. Chairman. Thanks to all of you. Look, these are 
tough decisions. There is a lot on the line. I asked them 
because we have the same goals here. I want to make sure that 
we achieve them in the best way for the Army and for the 
country. So, I thank all three of you. I look forward to 
continuing the conversations. Thank you.
    Senator Sessions. Very good. Talking about the Black Hawk, 
has the decision to buy LUHs for the National Guard impacted 
your Black Hawk requirements?
    General Cody. No, sir. In the formations the National Guard 
will have, as I showed you, they will have 30 Black Hawks in 
their assault formations. What the LUHs are going to enable us 
to do with the National Guard is, by putting the first 140-
some-odd that we buy, displace Black Hawks that are in our 
tables, our TDA outfits, like the national training centers, 
our MEDEVAC, and be able to displace those Black Hawks that are 
being used right now for the warfight and cascade them to fill 
the National Guard formations.
    The rest of the LUHs will be replaced in the OH-58 A and C 
RAID craft. So, that is what it does to assist us to do that. 
Also, we think it optimizes them for the homeland security and 
homeland defense mission sets with the right sized aircraft.
    Senator Sessions. General Bergantz, from what I understand, 
the Army intends to upgrade and recapitalize a number of 
existing UH-60A Black Hawks to the model M, as well as rebuild 
the remainder of the A models, but that they will not be 
upgraded. Last year, because of development and production 
issues, Congress worked with the Army to restructure the 
program and transfer the $100 million from procurement to RDT&E 
and delay the program by 1 year. It appears that the Army is 
prepared to move forward with the program.
    Do you believe this program is now ready to enter 
production?
    General Bergantz. Yes, Senator Sessions. There are 
different pieces of the program. There are 193 A model Black 
Hawks that we intend to recapitalize, bring them in and put new 
parts on them and all that sort of thing, but not make them 
into L models. Now eventually, over time, they will start to 
come back in on the back end of the A and L to M model 
remanufacture line up in Connecticut; that will happen.
    But in order to keep their half-life at around 10 years, we 
intend to do these 193 aircraft at the Corpus Christi Army 
depot to refresh them and keep them going. Then the remainder 
of the aircraft, about 988 A models, those are our older 
aircraft. Those would start to go into the A to M remanufacture 
line first. Then L models would go in later, and we will start 
to remanufacture those into Ms.
    To get up to our final requirement of Black Hawks, we will 
have to buy probably another 80 or so new M models. We are in 
the process of buying new L models right now. As General Cody 
pointed out on the chart he showed you there, we were going to 
buy an additional plus 90 roughly more Black Hawks into all 
this.
    Senator Sessions. The amended budget request adds Comanche 
funding to the UH-60M. I think you have answered that.
    Let me ask a little bit more about the UAVs. You had your 
chart, and it had a dotted line for the UAV out there?
    General Cody. Yes, sir.
    Senator Sessions. So, we are not real sure where that is. 
First of all, what role would you see a UAV play?
    General Cody. Sir, first, that dotted line is because we 
are expediting the fielding of the Shadow 200 UAV baseline to 
every brigade combat team that is in combat. Over time, once we 
continue the fielding of 41 baseline systems, which is what I 
believe we are fielding to the aviation brigade commander will 
have his two platoons of UAVs. They may be as big as the 
Shadow. That is what this team is going to go over and assess.
    The role of that UAV platoons will be to go out in front of 
the aircraft, conduct screen missions, reconnaissance missions, 
communications relay missions on deep attacks, as well as other 
types of missions that will enhance the aviation brigade 
commander's ability to mix and match his attack and 
reconnaissance systems. I envision a UAV on an air assault to 
be able to clear the route or to do other things and make 
people think that is the route we are using. There are all 
types of mission sets that we intend to use the UAV for.
    Would you like to discuss it?
    General Sinclair. Sure. That is just on the aviation side. 
We are looking at UAVs for logistical resupply for possible 
MEDEVAC missions. So, we are looking across. We are truly doing 
a holistic look at every conceivable way that we could use UAVs 
in the future, but as General Cody said, I think 
reconnaissance, attack, radio relay are the primary ones, with 
the reconnaissance being primary for the immediate future. In a 
manned/unmanned team, it really becomes critical as we tie that 
with our aircraft.
    Senator Sessions. Where will that training take place?
    General Sinclair. The initial manned/unmanned training, we 
are anticipating, will take place at Fort Rucker. We have a 
restricted airspace just to the northwest by Troy; I think I 
showed you on the map one time. So, that will be the manned/
unmanned.
    The individual UAV pilot training right now is still 
scheduled to continue at Fort Huachuca because of their space 
limitations.
    Senator Sessions. What about the opportunity to work 
jointly on this? Where are we on that?
    General Cody. We are working jointly now on UAVs. The Air 
Force has deployed four of the Predator B systems in support of 
General Sanchez and General Abizaid. So we are using the sensor 
suite for whatever missions the commanders in the field need 
over there. We are looking at some of the other UAVs that the 
Marines are using. We are teamed with the Navy on the Fire 
Scout UAV and we are looking at that.
    But in the joint world, what we are really looking at is 
the sensor suite and the ability to pass the situational 
awareness and situational understanding that the UAV brings to 
the whole joint team. That is being dictated to us by the joint 
requirements boards.
    So, when we talk about ``jointness'' in terms of systems, 
it is not really the platform. It is the sensor suite and how 
it can send you through data links to the ground commander, or 
to an aircraft, or to a Navy fighter, or to a Marine fighter, 
or whatever. That is the over-arching battle command 
architecture that the sensor suite will be able to ride on and 
pass that information.
    Senator Sessions. Do you expect to be able to coordinate a 
JDAM with a UAV immediately? Will that be an instantaneous 
virtual communication?
    General Cody. We have the capability right now, Mr. 
Chairman, to check, identify, and to do that. We have that 
capability. Have we trained to it? Have we practiced to it? No. 
That is part of what the assessment team we are sending over 
will be able to do.
    The same is for Army UAVs. We are going to put some Viper 
Strike on our Hunter UAVs. General Metz, the commander of III 
Corps at CJTF-7, has requested and is sending an operational 
needs statement to us. We have 25 of the Viper Strike weapons 
that we are ready to put onto our Hunter UAVs, which is very 
similar to what the Air Force is doing with our Hellfires on 
their Predator Bs. So, we have that capability and that 
technology now, sir.
    Senator Sessions. Briefly, the fixed wing aircraft, we 
understand that the Army intends to initiate a CXX cargo fixed-
wing procurement to address shortfalls in the intra-theater 
lift identified during Operation Iraqi Freedom. Have you 
consulted with the Air Force? Is that not primarily an Air 
Force requirement? What is your thinking on that issue?
    General Sinclair. Sir, we have studied that very 
extensively, especially based on the optempo that was required 
on especially our CH-47s. I will just use the example from 
Mosul, Iraq, to Kuwait which was 1,200 kilometers. We were 
sending four Chinooks a day just to haul supplies back and 
forth because of the availability of intra-theater airlift.
    There has been discussions with the Air Force on this 
capability. It is seen as a niche capability for the Army, a 
limited capability to provide the intra-theater airlift for 
sustainment operations for a short-term duration, especially 
early on in operations as the Air Force will continue to flow 
forces into theater.
    Senator Sessions. Is this a decision basically because 
someone has decided that intra-theater lift is an Army 
responsibility? Or is it that the Air Force capabilities do not 
fit the demand you have?
    General Cody. We have the Sherpa now, Mr. Chairman, 40 of 
them. What we have, though, is we have 40 aircraft that of 
course were not designed for the aircraft survivability. Of 
course, we only have so many Chinooks and this is the scenario 
that General Sinclair talked to you about, where you have maybe 
one or two pallets worth of critical stuff for the Army, but 
certainly not critical enough to tie up an entire C-130. That 
is why we say it is a niche capability.
    It has to have short takeoff and landing capability because 
of denied access and stuff like that, where we will be putting 
our combat teams. So, when we took a look at--and we have had 
several studies that said we need it, very similar to the way 
we needed the Caribou and other assets we had in Vietnam, and 
then when we looked at the additional homeland security 
requirements of moving RAID teams around and other assets that 
the National Guard would come up with in support of their 
homeland security mission, we saw this as an aircraft bigger 
than the Sherpa but smaller than the C-130.
    So, that is where we started shaping and taking a look at 
the optempo of more modular forces, more dispersed about the 
battlefield. As we did that, we kept coming up with a shortfall 
where our Chinooks and our Black Hawks could not carry it. We 
would be in areas where you could not put a C-130 in. Nor would 
you want to because of the size of the C-130, for some of the 
critical stuff that we would haul through these formations we 
had. It is a niche capability but one that we need.
    Senator Sessions. There is no doubt that an Army or Marine 
combat unit has needs, often times immediate needs. Maybe they 
are not huge but they are critical to their munitions or their 
communication systems that you have to get in there.
    What about the Marine Corps CH-53X units of heavy lift 
program? Has an analysis of alternatives been done? Do you 
anticipate doing that to work through how to get what you need 
to the warfighter?
    General Cody. Yes, sir. That will be done by the joint 
requirements process. As we work our initial capabilities 
documents through, they will do an alternative analysis look 
across the joint force before the approval of our requirements 
documents. It will go through that lens.
    Senator Sessions. Very good.
    Senator Lieberman. Mr. Chairman, I have asked all the 
questions that I wanted to ask.
    Senator Sessions. We are going to have some written 
questions that we will submit to you for sure. But we thank all 
of you for your service. I know the Comanche was a tough call. 
Somebody had to make it soon or you could not go on much 
longer. So, you have made that. It certainly has been saleable 
to a lot of us in the sense that we did not know where we were 
going to get the money to do the things that you needed to do 
to modernize the fleet and to enhance it. But at the same time, 
we know we lost something in capability. We hope, and I trust 
your judgment, that it is not a major loss in capability. In 
fact, the overall plan will enhance our effectiveness.
    Thank you for your testimony.
    If there is nothing further, we are adjourned.
    [Questions for the record with answers supplied follow:]

  Questions Submitted by Senator Jeff Sessions and Senator Joseph I. 
                               Lieberman

                          COMANCHE TECHNOLOGY

    1. Senator Sessions and Senator Lieberman. General Cody and General 
Bergantz, the Comanche termination follows by less than a year a 
decision by the Army to restructure the program. Since the restructure, 
it appeared that the program was on track and capable of delivering a 
helicopter. What actions do you intend to take to ensure that the $6.9 
billion invested in Comanche to date is not completely wasted? For 
instance, the Comanche's well-tested engine is a prime candidate for 
use in a forthcoming armed reconnaissance or light utility helicopter 
(LUH) variant, isn't it?
    General Cody and General Bergantz. The Defense and Army acquisition 
executives directed the Comanche project manager to evaluate the 
Comanche technologies under development and recommend continuance of 
the ones that are affordable and transferable. To determine which 
technologies are candidates for continuation the project manager 
identified objective systems that could use selected technologies, and 
determine the short term (fiscal year 2004) and long term (2005 and 
beyond) continuation/integration costs to complete the development and 
integration for that objective system. Finally, the project manager 
must coordinate with the user to determine the priority of the 
particular capability to determine overall affordability. The project 
manager recommended and received approval from the Army acquisition 
executive for continuation of identified technologies.
    The Comanche engine for use in the light utility helicopter is not 
a good example, the contractor, LHTEC, has self-terminated his effort. 
The government is currently working to settle this contract and issue a 
formal termination notice.

    2. Senator Sessions and Senator Lieberman. General Cody and General 
Bergantz, are there any parts of the program that are salvageable and 
transferable to other Army aviation programs? Please provide a list of 
Comanche technologies you expect to migrate to other platforms by 
platform and the anticipated date for incorporating the technology.
    General Cody and General Bergantz. The following technologies will 
be transferred to other Army aviation platforms:

------------------------------------------------------------------------
             System               Receiving Platform         Date
------------------------------------------------------------------------
Radar Electronics Unit..........  Apache............  1st quarter fiscal
                                                       year 2005
Image Intensification TV........  Apache............  1st quarter fiscal
                                                       year 2005
Fly-by-Wire.....................  Apache and Black    2nd quarter fiscal
                                   Hawk.               year 2005
Communications Antennae.........  Across the
                                   aviation fleet.
------------------------------------------------------------------------


    3. Senator Sessions and Senator Lieberman. General Cody and General 
Bergantz, what other technologies do you believe you can return to the 
technological base for further development and possibly future 
application?
    General Cody and General Bergantz. We do not currently have any 
technologies identified for transfer to the technology base. The 
acquisition development process requires that each technology funded in 
the systems and technology funding lines must achieve a certain level 
of technological maturity before being integrated on a development 
platform. All technologies used in the Comanche were developed, 
validated, and prioritized into the Comanche program. Some of these 
technologies will transfer to other aviation platforms, but all the 
technologies on the Comanche are too mature to be returned to the tech 
base.

    4. Senator Sessions and Senator Lieberman. General Cody and General 
Bergantz, what is the process for doing so, and what level of funding 
has been allocated for that purpose?
    General Cody and General Bergantz. The project manager coordinated 
with all Program Executive Office (PEO) aviation project managers, 
identified technologies that were at the proper maturity level, and 
aligned with candidate platform mission requirements. These 
technologies were funded through fiscal year 2004 by the Comanche 
program. Fiscal year 2005 funding must be provided by the gaining 
platform. Also, the Comanche project manager held a technology fair at 
Redstone Arsenal, Alabama. He invited all other system managers to this 
event and briefed them on the technologies of Comanche that were 
available. The project manager also briefed the Deputy Assistant 
Secretary for Science and Technology on all available technologies for 
his consideration. No specific funding was allocated for continuation 
of technologies beyond fiscal year 2004; the Comanche budget for fiscal 
year 2005 and beyond was redistributed to other aviation program 
entirely. These programs will fund the continuation of technologies 
that they inherit.

    5. Senator Sessions and Senator Lieberman. General Cody and General 
Bergantz, please provide a list of those Comanche technologies that 
will not be migrated to other platforms and the reason why these 
technologies cannot be migrated to other platforms.
    General Cody and General Bergantz. There were many unique 
technologies being developed for Comanche. Most of them are not being 
transferred due to the high cost of integration into a system for which 
they were not designed, and others are not a high enough priority for 
an existing system. Some of the more significant technologies not being 
transferred include:

        <bullet> The Comanche passive low observability technology will 
        not be transferred. The reduced radar cross section and low 
        infrared signature features are not economically transferable 
        to existing platforms.
        <bullet> Regenerative nuclear, biological, and chemical (NBC) 
        filters (pressure swing absorber) in the environmental control 
        system is not being continued because existing and planned 
        aircraft either do not have environmental control systems or 
        they are not compatible with a regenerative filter of this 
        type.
        <bullet> 270 volt DC electrical power system including the all-
        electronic control system (no mechanical circuit breakers) is 
        not being continued because existing and expected new systems 
        will have conventional electro-mechanical systems of either 28 
        volt DC or 115 volt AC primary power systems.
        <bullet> Advanced composite structures development is not being 
        continued because all the (new) Army aircraft are expected to 
        have metal structures.
        <bullet> Subsystems power unit/APU is not being continued 
        because this type of power unit that operates continuously 
        during flight is not used on other systems.
        <bullet> Composite rotor hub and blades development will not be 
        continued because no existing or new system is expected to use 
        composite dynamic components except for blades that already 
        exist on some systems.
        <bullet> Fault detection/fault isolation (FD/FI) is not being 
        continued because current aircraft electronic architectures do 
        not support this capability and none of the new aircraft 
        systems are expected to be able to support it at the levels 
        planned for Comanche.
        <bullet> Wide field of view (FOV) helmet mounted display system 
        and wide FOV night vision pilotage system are not being 
        continued because other systems do not have a 52-degree FOV as 
        does Comanche. Changing the other systems to a wider FOV would 
        not be practical due to extensive redesign/cost.

    6. Senator Sessions and Senator Lieberman. General Cody and General 
Bergantz, do you have a process for determining whether it makes more 
sense to complete the development of certain subsystems vice paying the 
termination costs? For example, we understand that $77 million has been 
spent to date developing the subsystem power unit (SPU) which provides 
electrical and hydraulic power to mission essential systems, including 
to the environmental control system that provides nuclear, biological, 
and chemical protection, rather than paying termination costs for 
approximately $10 million and 1 year of work that SPU could be 
qualified and available for corporation into a variety of military 
applications.
    General Cody and General Bergantz. Yes. The project management 
office and the prime contractor reviewed all major developers to 
determine the current status of their development, the requirement 
within Army aviation for their specific technology, and the cost to 
continue their effort compared to the cost of termination. The decision 
to continue or terminate was based on the following:

        1. The development activity of a technology was continued if 
        the technology was to be migrated to another aviation platform 
        and funding for migration was available.
        2. The development activity of a technology was continued if 
        the cost to complete a given contract was less than costs 
        associated with termination.

    If one of the above criteria were not satisfied, the effort was 
terminated.

                       APACHE ATTACK HELICOPTERS

    7. Senator Sessions and Senator Lieberman. General Sinclair, is the 
Apache now intended to be a multi-role helicopter and also do 
reconnaissance missions?
    General Sinclair. The Apache attack helicopter was designed and 
fielded to fill the Army's attack helicopter requirements. It continues 
to perform well in that role in combat operations around the world. 
Reconnaissance is a mission that is performed by every soldier in 
today's Army and from that reference point Apache crews do perform 
reconnaissance; however, the aircraft was designed primarily for the 
attack mission profile. There are not a sufficient number of Apache 
helicopters to fill both attack and reconnaissance roles. Procurement 
of the Block III Apache for a multi-role versus a more affordable 
reconnaissance platform would quickly prove to be a cost prohibitive 
plan.

    8. Senator Sessions and Senator Lieberman. General Sinclair, how 
does this change the requirement for reconnaissance helicopters?
    General Sinclair. The Apache attack helicopter does not change the 
need for a reconnaissance platform. There is documentation going back 
to the 1981-1982 Army Aviation Mission Area Analysis culminating in 
Defense Planning Guidance 2004 Studies reflecting a critical shortfall 
in Army aviation's ability to conduct the armed recon mission. The OH-
58D Kiowa Warrior, developed and fielded in the 1980s was an interim, 
partial solution to bridge recon capabilities until the Comanche 
helicopter was fielded. With the termination of Comanche a significant 
capabilities gap in manned aerial armed recon continues to exist as the 
OH-58D reaches the end of system life expectancy. The Army intends to 
fill this gap with the light-armed reconnaissance helicopter.

    9. Senator Sessions and Senator Lieberman. General Cody, General 
Bergantz, and General Sinclair, while it is impossible to have the 
entire Army--active and Reserve--in completely modernized aircraft, one 
would think that, in the interest of ``plug and play'' modularity, 
there should not be widely differing capabilities among them. However, 
that will be the case with three different versions of the Apache. Why 
would you not choose to upgrade all attack helicopters to a similar 
Longbow configuration, even if less capable than the Block III, in the 
interest of standardization, modularity, and pure fleeting, vice 
upgrading only one third of the fleet to the Block III configuration?
    General Cody, General Bergantz, and General Sinclair. The Block III 
Apache Longbow is the configuration that is compatible with the Army's 
Future Force. The current aviation transformation plan has programmed 
the upgrade of the entire 501 AH-64D aircraft fleet from Block I and II 
aircraft to Block III. The first increment will transform 284 Block I 
aircraft to Block III from 2007 through 2012. This initiative reduces 
the number of Apache aircraft configurations from three to two.

    10. Senator Sessions and Senator Lieberman. General Cody, General 
Bergantz, and General Sinclair, what are the operational and logistical 
implications of three different attack helicopter models? How would it 
affect the modularity concept?
    General Cody, General Bergantz, and General Sinclair. The current 
logistical implications of three different attack helicopter models are 
inherently expensive and cumbersome to manage. It requires intense 
management for the Army to successfully implement the modularity 
concept dictated by the Army Campaign Plan. The biggest single factor 
that drives the Army to pursue Block III is to provide an affordable 
attack platform that remains relevant to the Army in the Future Force. 
Apache is scheduled to implement open system architecture (OSA) on the 
Block III model. If OSA is not implemented the obsolescence costs 
associated with keeping Block I/II aircraft relevant to the future 
force are anticipated to be cost prohibitive.

    11. Senator Sessions and Senator Lieberman. General Cody, General 
Bergantz, and General Sinclair, conversely, what are the implications 
for aviation in the network-centric future force if only 284 Apache 
Longbows are upgraded to the digital Block III configuration?
    General Cody, General Bergantz, and General Sinclair. The current 
Army campaign plan upgrades all AH-64D aircraft to a Block III 
configuration. If only 284 attack aircraft are upgraded it will limit 
the number of attack battalions available to integrate with the future 
force. This would hamper the ability of the Army's attack fleet to 
participate in simultaneous operations around the world.

                       LIGHT UTILITY HELICOPTERS

    12. Senator Sessions and Senator Lieberman. General Cody, General 
Bergantz, and General Sinclair, we understand the Army will procure the 
LUH in fiscal year 2005 and will field it to the Army National Guard 
units to displace UH-60s. What is the Army requirement for an LUH?
    General Cody, General Bergantz, and General Sinclair. The Army has 
a requirement for 322 LUHs that will be procured fiscal year 2005-2011. 
The Army National Guard (ARNG) will receive 204 LUHs and 118 will go to 
active component (AC) units. In the ARNG, the LUH will displace 60 UH-
1s, 125 OH-58NCs and provide a growth of 19 aircraft above current 
structure. The 118 LUHs going to the AC will displace 23 UH-60s 
currently supporting the National Training Center and the Joint 
Readiness Training Center, 77 UH-1s and 18 OH-58A/Cs.

    13. Senator Sessions and Senator Lieberman. General Cody, General 
Bergantz, and General Sinclair, what role will the LUH play and what 
missions will it perform?
    General Cody, General Bergantz, and General Sinclair. The LUH is 
being procured to replace Vietnam era UH-1 and OH-58 aircraft scheduled 
for retirement in the fiscal year 2004-2005 time frame. The Army is 
retaining limited numbers of these legacy aircraft as a bridge to 
continue support for continental United States (CONUS) missions and 
limited roles in Europe. The LUH will perform medical evacuation 
(MEDEVAC) missions at the Army's three national training centers, Fort 
Rucker and in the four ARNG MEDEVAC companies with ``generating force'' 
mission designated to backfill CONUS-based AC UH-60 MEDEVAC units at 
State-side installations. The ARNG will use the LUH to perform 
reconnaissance missions in support of CONUS counterdrug operations and 
other homeland security` requirements. In addition to MEDEVAC, the AC 
will use the LUH to provide general aviation support to the national 
training centers in both CONUS and Europe, as well as supporting 
research and development activities at our test centers in locations 
such as White Sands Missile Range and Aberdeen Proving Grounds.

    14. Senator Sessions and Senator Lieberman. General Cody, General 
Bergantz, and General Sinclair, does the Army plan to deploy the LUH on 
contingencies, and, if so, how does it fit in the new modularity 
concept?
    General Cody, General Bergantz, and General Sinclair. The Army is 
studying the potential of deploying the LUH for contingencies in a 
permissive environment. An example of a permissive environment would be 
humanitarian assistance to a Central or South American nation. As part 
of the modular concept, the Army increased its total UH-60 requirement 
from 1,680 to 1,806 aircraft in order to support all of its wartime 
contingency needs. The Army used funds from the Comanche program to 
accelerate the procurement of 90 additional UH-60s to meet these 
requirements. The Army's robust UH-60 fleet eliminates the need to 
deploy LUH to hostile environments. There are 144 LUH aircraft in the 
ARNG that are included in the Army's new modular structure. These 
aircraft are in the reconnaissance and security battalions of the six 
ARNG division designated specifically for homeland security missions. 
If feasible, these are the LUHs that the Army may deploy in support of 
operations in permissive environments.

    15. Senator Sessions and Senator Lieberman. General Cody, General 
Bergantz, and General Sinclair, what are the operational and logistical 
implications of deploying LUHs?
    General Cody, General Bergantz, and General Sinclair. The Army is 
studying the requirements for and implications of deploying the LUH for 
contingencies in a permissive environment. One of the expectations of a 
permissive environment is that the Army will have access to the same 
levels of commercial logistical support used to sustain the LUH fleet 
in the CONUS.

    16. Senator Sessions and Senator Lieberman. General Cody, General 
Bergantz, and General Sinclair, why would it not make more sense to buy 
additional Black Hawk helicopters vice yet one more platform?
    General Cody, General Bergantz, and General Sinclair. The Army has 
increased its total requirement for Black Hawk helicopters from 1,680 
to 1,806 and is accelerating procurement of these aircraft to meet all 
of its deployable wartime contingency requirements. The UH-60 exceeds 
the capabilities necessary to perform the CONUS and European based LUH 
missions. The LUH offers much lower procurement and operating costs 
while meeting or exceeding mission requirements. The Army views LUH as 
a prudent and economical option to meet our homeland security, training 
and testing requirements, enabling the Army to focus its more capable 
Black Hawk fleet on wartime missions.

                        UNMANNED AERIAL VEHICLES

    17. Senator Sessions and Senator Lieberman. General Cody, we 
understand the Army is deploying the Improved GNAT (I-GNAT) unmanned 
aerial vehicle (UAV) to Iraq this week. As you are well aware, the Army 
version of the I-GNAT is a Predator UAV without the satellite over-the-
horizon communications capability. One of the lessons learned from 
Operation Iraqi Freedom (OIF) is that the Army needs a beyond line-of-
sight capability in its UAVs. If that is indeed correct, why not equip 
the Army I-GNAT with that capability (from what we understand is a 
quick fix since the aircraft comes pre-wired for an airborne satellite 
capability) or look at acquiring the Predator B which carries 3,000 
pounds external weapons or sensor payload and has beyond line-of-sight 
communications capability? This platform would be an excellent addition 
to the U.S. Army aviation inventory.
    General Cody. For clarification, the I-GNAT is not an Army 
``program of record.'' In fiscal year 2003 the Army was provided a 
congressional plus-up of $10 million for the purpose of procuring an I-
GNAT system in order to develop the tactics, techniques and procedures 
(TTPs) essential for the Extended-Range/Multi-Purpose (ER/MP) UAV 
program. Because of increased operational tempo (OPTEMPO) and demand 
for UAV capability in OIF, the Army deployed the I-GNAT to complement 
the Hunter UAV unit from V Corps that arrived in theater to replace two 
Hunter units, which re-deployed from theater and were being reset. This 
I-GNAT system (three air vehicles operated primarily by contractors) 
complements the V Corps Hunter unit, which is in theater now. According 
to the Project Manager (PM) UAV, the cost to integrate a satellite 
communication (SATCOM) capability in the I-GNAT system, which the Army 
procured with the fiscal year 2003 congressional plus-up, would be 
$11.3 million; this would double the cost of the system. A beyond line-
of-sight communications link is one of the requirements in the ER/MP 
Operational Requirements Document (ORD), which was approved by the Army 
Requirements Oversight Council (AROC) in December 2003. The Army's 
intent is to run a ``best-value'' competition for ER/MP and we expect 
the Predator to be one of the systems to participate in this 
competition. The Army's next UAV in this class will have a beyond line-
of-sight capability. The Army believes that a competition is an 
essential part of the acquisition strategy.

                  JOINT MULTI-ROLE HELICOPTER PROGRAM

    18. Senator Sessions and Senator Lieberman. General Cody and 
General Sinclair, we understand the Army intends to initiate a program 
to develop a joint multi-role helicopter. The Marine Corps is committed 
to the V-22 and has initiated a CH-53X heavy lift helicopter program. 
Why do you think the Marine Corps would be interested in a joint multi-
role helicopter? Have you had any discussions with Marine Corps 
officials concerning such an aircraft?
    General Cody and General Sinclair. The Marine Corps V-22 is a troop 
transport aircraft, while the CH-53X is a cargo transport aircraft. The 
joint multi-role helicopter that the Army envisions would be designed 
to provide a single system to accomplish reconnaissance, and attack 
currently performed by Kiowa, and Apache in the Army, and the Super-
Cobra in the Marine Corps. The concept is to develop multi-service 
requirements and capabilities, and optimize the platform and mission 
equipment package design with state-of-the-art weapons, sensors, and 
survivability equipment to provide a common multi-role platform for the 
Services to conduct these missions. While we have not communicated 
directly with the Marine Corps, we have worked with the Office of the 
Secretary of Defense on a joint rotorcraft roadmap for future 
development.

    19. Senator Sessions and Senator Lieberman. General Cody and 
General Sinclair, what developmental time line is the Army considering 
for the joint multi-role helicopter?
    General Cody and General Sinclair. Currently we are planning on 
initiation of joint multi-role helicopter program in fiscal year 2009. 
Our expectation is a 5-year development (SDD) followed by a 5-year 
production and deployment period. However, these are very rough 
planning timeframes. A more accurate timeline will be developed when we 
have an approved set of requirements on which to base our planning.

    20. Senator Sessions and Senator Lieberman. General Cody and 
General Sinclair, conceptually, what missions would such an aircraft 
perform, and what existing helicopters would it replace?
    General Cody and General Sinclair. We are still in the conceptual 
stages of this program and do not have a current validated requirement 
for the joint multi-role helicopter. However, we do envision an 
aircraft capable of performing both the attack and reconnaissance 
missions in all operational environments. We see an aircraft equipped 
and designed to conduct security type of operations as we see today in 
Iraq or if needed conduct attack operations as we witnessed during the 
early stages of the war by the 101st Air Assault Division. Eventually, 
we see this aircraft replacing the AH-64, the Marine Corps Cobra, and 
our armed reconnaissance helicopters.

    21. Senator Sessions and Senator Lieberman. General Cody and 
General Sinclair, does the Army now have any renewed interest in a 
Joint Transport Rotorcraft?
    General Cody and General Sinclair. The Army has conducted a study 
on the employment of the future force that requires the aerial movement 
of forces to operational depths. We envision a Joint Transport 
Rotorcraft as one of the options to accomplish this mission. The Army 
currently has the Air Maneuver and Transport operational requirements 
document (ORD) in staffing which potentially could be a solution to 
this requirement.

                            LOGISTICAL TAIL

    22. Senator Sessions and Senator Lieberman. General Cody, in your 
written statement you say your plan shortens the logistical tail. 
However, it would appear that three Apache variants, yet another 
reconnaissance aircraft, and new light utility aircraft, in fact, 
increase the different types of helicopters you have to support from 
the training base to the battlefield. It seems that this aviation plan 
would lengthen the logistical tail if the Army deploys all of those 
types of helicopters. Why do you say it would shorten the logistical 
tail?
    General Cody. Presently there are three variants of the Apache: the 
AH-64A models (primarily located in the Army National Guard) and two 
variants of the Longbow (Block I and II configurations). The Army plans 
to upgrade all Longbows to the Block III variant. This will reduce the 
total Apache variants to two: the AH-64A models in the Army National 
Guard and Block III Longbows primarily in the active component. The new 
reconnaissance helicopter will retire the Vietnam-era OH-58D Kiowa 
Warrior, reducing logistics requirements for scout aircraft. The LUH 
program will be a low-cost, commercial off-the-shelf (COTS) procurement 
that the Army plans to sustain using Federal Aviation Agency (FAA) 
certified parts. The aircraft will be used for administrative and 
training center support, medical evacuation, and homeland security 
missions. As such, it is designed for deployments within the United 
States and limited to other deployments in permissive, non-hostile 
environments. The Army plans to procure 322 LUH in order to retire 880 
OH-58A and UH-1 helicopters and, in doing so, significantly reduce our 
logistic requirements. Our long-term Aviation Logistic (AVLOG) 
Transformation Strategy is a holistic approach that seeks to reduce the 
aviation logistics tail by transitioning from the current maintenance 
intense system to a proactive condition based maintenance (CBM) 
approach by fiscal year 2015. This transition to CBM is a multifaceted 
approach, which employs multiple tenants such as commonality, 
technology integration, automation, retooling, and restructuring units 
for modular maintenance support. Details of the AVLOG transformation 
include plans to pursue a common engine for its Apache and Black Hawk 
helicopter fleets, a common avionics architecture system (CAAS) cockpit 
for its Chinook and Black Hawk fleets, plus integrate fly-by-wire 
technology and improved drive train technologies into future aircraft 
fleets. This commonality will reduce the variety of spares required on 
the battlefield and reduce strategic transportation requirements. In 
addition, the Army is capitalizing on advancements in technology. 
Beginning in fiscal year 2005 the Army will field a new standardized 
Aviation Maintenance Management Information System and system 
architecture to aviation units. This enhanced Unit Level Logistics 
System-Aviation (ULLS-A) version 6, will be fielded to units 
commensurate with transformation to the Multifunctional Aviation 
Brigade (MFAB) structure. ULLS-A will bridge the technology gap pending 
release of the Global Combat Support System-Army, scheduled for 4th 
quarter, fiscal year 2008.
    The Program Executive Office-Aviation has teamed with the Program 
Manager, Digital Source Collection (DSC) to integrate cockpit voice 
recorders and flight data recorders, as well as health usage monitoring 
systems (HUMS) capable of providing embedded diagnostics and 
prognostics on aircraft platforms. The application of HUMS will provide 
valuable aircraft flight regime and usage data enabling the U.S. Army 
Materiel Command's, Research, Development and Engineering Command 
(RDECOM) to develop appropriate component replacement timelines, that 
will enable item managers to better forecast when and where parts are 
need. We are resourcing the aviation classification repair activity 
depots to support the National Maintenance Program. This initiative 
invests $84 million in fiscal year 2005-2006 in the procurement of 
depot level repair tools to increase the Army National Guard aviation 
classification repair activity depots (AVCRADs) repair capability in 
both peacetime and war. Additionally, we are restructuring Army 
aviation with robust modular aviation maintenance organizations. We are 
reorganizing aviation maintenance organizations from the current three 
levels of maintenance, which employs redundant echelons of pass-back 
aviation maintenance, to tailored, more robust and mobile aviation 
maintenance units. This modular maintenance concept allocates 
personnel, tools, and equipment resources where they are most 
effective. This change will result in two echelons of robust aviation 
maintenance consisting of a field and sustainment echelon. The field 
echelon of maintenance is resident in each aviation unit of employment 
(UEx) or MFAB. The MFAB will have one organic aviation support 
battalion, capable of performing aviation intermediate maintenance 
(AVIM) and individual battalions will have an aviation support company 
(ASC) comprised of modular aviation support platoons, which provide 
aviation unit maintenance (AVUM) support to flight companies. The 
second echelon is the sustainment base, which is comprised of the 
AVCRAD, the organic aviation depots and also includes the original 
equipment manufacturers. The goal is to eliminate redundancy where 
possible while retaining core capabilities. These long-term efforts 
will culminate in significant reductions to the aviation logistics tail 
beginning in fiscal year 2006.
                                 ______
                                 
               Question Submitted by Senator John McCain

                     COMBAT SEARCH AND RESCUE RADIO

    23. Senator McCain. General Bergantz and General Sinclair, it is my 
understanding that the Services, and in particular the deployed forces, 
have a critical need for additional combat search and rescue (CSAR) 
radios. Further, reports from the field indicate that the Global 
Positioning System (GPS)-112 and PRCs currently fielded have been doing 
extremely well in CSAR missions with downed aircrews. With the delay in 
the Combat Survivor Evader Locator (CSEL) development, testing, and 
slip in the approval for production, do you need additional off-the-
shelf CSAR radios to satisfy your urgent mission requirements?
    General Bergantz and General Sinclair. The AN/PRC-112 CSAR radios 
have performed very well in CSAR missions with downed aircrews and 
Special Operations Forces. Because the Army did not procure the total 
required quantity of this radio, we were forced to redistribute radios 
from the training base to deploying forces. This redistribution has 
enabled the Army to adequately meet urgent CSAR radio requirements 
pending the production of the CSEL radio.
    The CSEL radio recently completed the Multi-Service Operational 
Test and Evaluation (MOTE). The Air Force Operational Test and 
Evaluation Center (AFOTEC) rated CSEL as operationally suitable and 
effective. These results support a favorable full rate production 
decision expected in the June-July 2004 timeframe. In anticipation of 
this decision, the Army Strategic Planning Board (ASPB) recently 
approved the CSEL fielding plan. The fielding plan prioritizes units 
based on the Unit of Action (UA) modularity initiative and deployment 
schedules. Initially, the fielding plan will leverage on-hand low rate 
initial production (LRIP) quantities pending full rate production 
deliveries. The 3rd Infantry Division will be first unit equipped in 
August 2004. In conjunction with fielding the CSEL, the Army will 
simultaneously redistribute the AN/PRC-112 to other units. This 
approach ensures that units will have a CSAR radio capability provided 
by the CSEL or the AN/PRC-112.
    Unfortunately, the Army is unable to procure the total CSEL 
requirement of 18,531 radios. Based on current funding, the Army will 
procure approximately 43 percent (8,816 radios) of the required 
quantity. The result is that until such time as the Army can increase 
CSEL procurement, the forces will have a combination of CSEL and the 
AN/PRC-112. While the radios are interoperable in the line-of-sight 
(LOS) voice mode, there are training and sustainment implications with 
maintaining two CSAR radios.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                IDENTIFIED INTRA-THEATER LIFT SHORTFALLS

    24. Senator Inhofe. General Cody, in your statement, you justify 
reallocating resources from the Comanche program to procure 
approximately 25 cargo fixed wing aircraft. Specifically, you have 
based this decision on ``identified intra-theater lift shortfalls.'' 
Where were the shortfalls in the global war on terrorism which justify 
this new fixed wing requirement not currently met by C-130s? Can you 
provide empirical data, which justify this requirement?
    General Cody. The requirement for the Army future cargo aircraft is 
based on the transport of critical, time sensitive supplies and 
personnel to forward deployed units. It will be a joint use airframe 
that will transport heavy, outsized and palletized cargo from the SPOD/
APOD over a non-secure, asymmetrical battlefield. It is not in 
competition with the C-130 but is additive and compatible to the C-130 
and its existing intra-theater mission. The Army currently utilizes the 
C-23 Sherpa to conduct this mission but it has proven to have severe 
limitations in high/hot conditions and is not an effective cargo 
aircraft. The requirement to support these ever increasing logistics 
demands to forward deployed troops, over extended distances, require 
increased air delivery that is not available. There is currently a 
shortage of strategic lift (MRS-05) and with Service requirements 
growing will continue to put strain on the availability and timeliness 
of intra-theater support. Three combatant commanders have specifically 
identified the need for increased intra-theater support and in one case 
the need for an airframe that has short take-off and landing 
capabilities (STOL). The smaller cargo aircraft that Army is looking at 
to replace the C-23 has that STOL capability and will be compatible 
with the C130 and the CH-47 logistics delivery systems.

    25. Senator Inhofe. General Cody, how well did U.S. Transportation 
Command (USTRANSCOM) meet the combatant commander's (COCOM) intra-
theater airlift needs?
    General Cody. USTRANSCOM met our inter-theater requirements; 
however, it could not meet the intra-theater requirements generated by 
the high operational tempo (OPTEMPO) and size of the area of 
responsibility (AOR). This OPTEMPO required the Army to pull prime 
tactical helicopters assets to perform routine daily re-supply mission.

    26. Senator Inhofe. General Cody, what fixed wing aircraft are you 
planning to buy to meet this need?
    General Cody. The specific airframe has not been identified as Army 
is still evaluating what vendors can meet the requirements. The future 
cargo aircraft (C-)XX cargo) will be a twin engine propeller cargo 
aircraft that has the capability to carry 18,000 lbs. internal, 300 
knots airspeed, short takeoff and landing (STOL), 2,400 nautical mile 
range, three 463L (standard United States Air Force) pallets, 30,000-
25,000-foot service ceiling and capable of casualty evacuation 
(CASEVAC) for return trips. It will be roughly half the size of the 
C130 but have commonality with that asset to supplement its mission.

    27. Senator Inhofe. General Cody, have you already developed a 
Program Objective Memorandum (POM) for this new requirement in the 
Future Years Defense Program (FYDP)?
    General Cody. The funding from Comanche to procure 25 systems in 
the POM is only a portion of the overall cargo program. Planned funding 
is currently in the POM for 37 systems. There is additional funding in 
the out years to continue procurement of this aircraft towards a total 
requirement of 128 aircraft. Part of the funding from Comanche 
termination was applied towards this program because of the growing 
need in Operation Iraqi Freedom/Operation Enduring Freedom for intra-
theater support.

            REQUIREMENTS OF U.S. SPECIAL OPERATIONS COMMAND

    28. Senator Inhofe. General Cody, General Bryan Brown, Commander, 
U.S. Special Operations Command (USSOCOM), has previously stated that 
he needs additional resources. How are you planning to reallocate 
Comanche resources to meet his specific requirements at USSOCOM?
    General Cody. The Comanche funding was redistributed only to major 
force program (MFP) 2 (Army) programs. The Army did not fund any MFP-11 
requirements (Special Operations Forces (SOF) specific) from the 
Comanche funding. However, the reallocation of Comanche funding will 
address (both directly and indirectly) some SOCOM requirements. For 
instance, the Army identified $74 million to fund a SOCOM-identified 
shortfall in aircraft survivability equipment. Additionally, the Army 
is investing in a common cockpit for the UH-60 and CH-47. Since this 
cockpit is based on SOCOM's cockpit, this will now become a common 
program between Army and SOF. The positive impact for SOF is that given 
this increased production requirement will reduce costs for SOCOM. 
Additionally, SOCOM will benefit from the Army's investment in CH-47F 
procurement, aircraft survivability equipment, standardized maintenance 
program, hydra rockets, flares, UH60-M, and increased platform 
commonality across all systems.

    29. Senator Inhofe. General Cody, what kinds of capabilities do we 
need to add to enhance the Special Operations Forces (SOF) mission?
    General Cody. We need to continue to fund SOF aviation requirements 
for Army common aviation survivability equipment (ASE) and ammunition, 
especially in precision rockets. Additionally, I see a growing need for 
SOF aviation to have a multi-purpose cargo fixed wing aircraft that 
will support full range of operations to include transport of critical 
personnel and equipment.

                  CURRENT FORCES AND FUTURE INVESTMENT

    30. Senator Inhofe. General Cody, many members have asked questions 
of the Army during the past several years about the balance of 
maintaining the current forces and investing in the future. The Army 
has invested tremendously in Future Combat Systems (FCS), and some feel 
they have neglected some of the so-called legacy systems. What are your 
thoughts on this balance?
    General Cody. We are in the process of adjusting the balance 
between our current and future forces to reflect the realities of an 
Army at war as we build our fiscal year 2006-2011 program. Our past 
assumptions about a ``window of opportunity'' for transformation and 
the processes developed for a Cold War Army are no longer relevant to 
the current security environment. The Army continually seeks to balance 
resources and effort between the current and future force. Since 11 
September 2001, the Army has put a great deal of emphasis on the 
current force, while continuing to transform. To support the global war 
on terrorism, we have spent in excess of $5.5 billion over fiscal year 
2003-2004 addressing emergent central force requirements. We are in the 
process of resetting over 950 helicopters, 5,700 tracked vehicles, and 
46,000  wheeled vehicles from our current force that took part in 
Operation Iraqi Freedom. The recent termination of the Comanche program 
will enable us to procure a mix of approximately 800 light utility, 
armed reconnaissance, UH-60 Black Hawk, and CH-47 Chinook helicopters; 
provide aviation survivability equipment for the current fleet; and 
invest in aviation logistics automation to improve sustainment 
operations. However, the Army remains committed to transforming our 
equipment, organizations, training, doctrine, soldiers, and 
installations. We have already seen numerous benefits of past efforts 
to transform our force, from digitized battle command systems 
distributed throughout the force to our first Stryker Brigade Combat 
Team that is currently engaged in Operation Iraqi Freedom. We continue 
to find opportunities to spiral future force technologies to the 
current force. Through a continuous cycle of innovation, 
experimentation, experience, and change, the Army will improve its 
capabilities to provide dominant land power to the joint force now and 
in the future. We are fully committed to fielding Future Combat Systems 
units of action this decade. These forces will contribute significantly 
to Army capabilities and complement the enhanced current force we are 
generating today. The end result will be a joint and expeditionary Army 
with campaign qualities.

    31. Senator Inhofe. General Cody, what are your plans for 
maintaining today's forces and investing in the future?
    General Cody. The Army continually seeks to balance resources and 
effort between current and future forces. Over the past 30 months, the 
Army has put a great deal of emphasis on the current force, while 
continuing to transform. Today's Army is committed throughout the world 
as we fight the global war on terrorism. Our commitment to the current 
force success can be seen as we provide what is needed to keep our 
forces manned, trained, equipped, and sustained. We are committed to 
completing reset 10/20 delayed desert damage maintenance and aviation 
special technical inspection and repair for equipment that is returning 
from current operations. Despite the demand on our current force, we 
remain dedicated to our future force. Our commitment to the future 
force can be seen in our research, capabilities, and system support 
programs. We have already seen numerous benefits of past efforts to 
transform our force, from digitized battle command systems distributed 
throughout the force to our first Stryker Brigade currently engaged in 
Operation Iraqi Freedom. We will continue to find opportunities to 
spiral future force technologies to the current force while using 
current force lesson learned to inform the future force.

    32. Senator Inhofe. General Cody, how does Army aviation tie into 
joint fires?
    General Cody. Army aviation plays an integral role in the 
employment of joint fires. With the use of Apache and Kiowa Warrior 
sensors such as forward looking infrared radiometer (FLIR), fire 
control radar (FCR), and thermal imaging system (TIS) to locate and 
identify hostile targets combined with their advanced designation 
systems (laser and global positioning system (GPS)), Army aircraft are 
able to designate for the employment of joint air and surface fires. 
Army aviation routinely conducts Joint Air Attack Team (JAAT) missions 
at the lowest command levels in support of the ground maneuver 
commander. JAAT missions integrate the combined capabilities and 
effects of Army aviation, close air support, and indirect fires at a 
single point on the battlefield, providing massed synchronized joint 
fires to overwhelm and destroy enemy forces.
    Army aviation in the future force will provide supporting and 
complementary fires, and other maneuver support at extended distances, 
or in conditions that preclude timely and effective use of ground 
systems. Aviation crews will employ their sensors in cooperative 
engagements for timely and accurate fires, to include joint naval or 
air fires. Additionally, the integration of Army and Joint Non-Line of 
Sight (NLOS)/Beyond Line of Sight (BLOS) fires by an armed 
reconnaissance aircraft, coupled with its contribution to situational 
awareness, will enable massing of effects without massing units. 
Aviation will provide man-in-the-loop terminal control of joint 
precision effects even after launch, supporting the employment of 
improved precision munitions and their effects.

                         ORGANIZATION OF UNITS

    33. Senator Inhofe. General Cody, the Air Force organizes many of 
its wings into a concept called associate/Reserve wings where they 
blend active, Guard, and Reserve personnel into one wing. What do you 
think of applying a similar concept to the Army's high demand/low 
density units?
    General Cody. The Army has similar opportunities and unit programs. 
Our multi-component units include elements from two or more of the 
three components (active, Guard, and Reserve). In these units, we take 
advantage of skills derived from civilian occupations that have 
military application. Many of these units exist in our high demand/low 
density combat service support (CSS) structure. The size of the unit, 
mission complexity, and equipment requirements impact the viability of 
this option. Larger units with more complex mission sets require more 
collective training which the Reserve components generally do not have 
the time to conduct prior to mobilization. This makes a multi-component 
unit as a whole less deployable and responsive. Therefore, 
implementation of this concept proves too difficult for most combat and 
combat support units of battalion or greater size in terms of 
developing into cohesive and effective fighting forces. Additionally, 
Army missions are more enduring than the Air Force missions. As a 
result, Army units are less likely to have the opportunity to change 
teams or crews as readily as the Air Force does with its flight crews. 
This concept works well for small, modular units, with discrete 
missions that directly correlate to civilian skills. The Army will 
continue to employ the multi-component program where it works, for 
these types of high demand CSS skill sets. It is less conducive for 
larger units with complex missions involving direct combat due to the 
extensive and specialized collective training required.

                      VERY IMPORTANT PERSON FLEET

    34. Senator Inhofe. General Cody, I think you are aware that each 
of the Services, to include the Reserve and Guard, has a very important 
person (VIP) fleet of fixed wing aircraft. Additionally, each Service 
has an independent tasking agency or operations center. Do you think 
USTRANSCOM ought to have COCOM of the operational support airlift 
(OSA)/VIP fleet?
    General Cody. USTRANSCOM is currently scheduling all Army OSA fixed 
wing aircraft with the exception of the three long-range and three 
short-range aircraft assigned to the Headquarters, Department of the 
Army at Andrews Air Force Base in Maryland. The Office of the Secretary 
of the Army schedules these aircraft. The aircraft are in direct 
support of the Army's most senior leadership and when requested, the 
Office of the Secretary of Defense, Congress, and when approved by 
Office of the Secretary of Defense, other Federal agencies on a 
reimbursable basis. This is the most effective and efficient scheduling 
process to provide short turnaround, mission tailored support to the 
Army's senior leadership.

    35. Senator Inhofe. General Cody, especially now, as the Army is 
transforming, don't you think that each of the Service's independent 
(fixed wing) OSA/VIP fleets could be consolidated into a single 
(possibly joint) organization reporting directly to Joint Operational 
Support Airlift Center (JOSAC) under USTRANSCOM?
    General Cody. Such central scheduling provides no advantage over 
the current process of intra-service coordination at the seat of 
government. This process provides maximum flexibility to each 
Department to support their significantly different Title X 
responsibilities. This independent scheduling process coupled with an 
informal but highly effective intra-service coordination agreement 
allows each Department to support our leadership, and when 
operationally necessary to assist our sister Services, the Office of 
the Secretary of Defense, Congress, and other Federal agencies.

    36. Senator Inhofe. General Cody, at a minimum, shouldn't JOSAC 
have command and control (C2) over the Service's OSA/VIP fixed wing 
fleet?
    General Cody. The current process allows each Service to budget its 
own operational requirements. Placing command and control under JOSAC 
would provide no discernible advantage to the military departments, nor 
does JOSAC schedule outside continental United States (OCONUS) missions 
whereas the individual VIP fleets are staffed to accomplish both short 
and long-range missions when cost effective. Since the terrorist 
attacks of 11 September 2001, the Army has had an extremely high 
operational tempo with many short notice requirements to move the 
Army's senior leadership both CONUS and OCONUS. Having scheduling 
authority over our small detachment adds to the flexibility to meet 
these enormously vital mission needs in the shortest possible amount of 
time, and still guarantee immediate recall capability to our most 
senior leaders. The independent scheduling of small fixed wing 
detachments gives the Services a critical advantage in the worldwide 
efforts on the global war on terrorism. This is essential since the 
Secretary of the Army is the sole arbiter in cases of competing 
requirements. This authority of the Secretary and the knowledge that he 
will resolve scheduling conflicts is a tremendous incentive to resolve 
the conflict at lower levels of authority. This flexibility would 
disappear with command and control relinquished to the United States 
Transportation Command (USTRANSCOM).
                                 ______
                                 
          Question Submitted by Senator Hillary Rodham Clinton

                   PROCUREMENT OF FIRE SCOUT VEHICLES

    37. Senator Clinton. General Cody, General Bergantz, and General 
Sinclair, with cancellation of the Comanche program, the Army will be 
increasingly dependent upon the use of unmanned vehicles to perform 
missions that traditionally were performed by manned aircraft. The FCS 
program has selected the Fire Scout Vertical Takeoff and Landing 
Tactical Unmanned Air Vehicle (VTUAV) for its Class IV requirement, and 
it is also being considered for the Class III requirement. Since Fire 
Scout is now in low rate initial production for the Navy, do you 
support accelerating the procurement of Fire Scout vehicles for FCS and 
increasing the quantity of Fire Scout systems to be purchased?
    General Cody, General Bergantz, and General Sinclair. The FCS 
Program of Record, as approved by the Under Secretary of Defense 
(Acquisition, Technology, and Logistics), is structured to meet the 
Army's transformation objective to achieve Initial Operational 
Capability (IOC) of the first Increment I FCS-equipped Unit of Action 
(UA) in 2010 with Full Operational Capability (FOC) in 2012. Currently, 
the FCS Program's Fire Scout Class III/IV UAV development effort and 
fielding plan, in coordination with the Navy, support achieving this 
objective. Thus, there is no Army requirement to accelerate procurement 
of Fire Scout for the FCS Program nor to increase procurement 
quantities.
    Additionally, the Navy Fire Scout UAV now in LRIP is the RQ-8A. 
However, both the Army and the Navy are procuring the RQ-8B which 
includes a different main rotor and upgrades to the transmission among 
other improvements. Furthermore, the intelligence, surveillance, and 
reconnaissance (ISR) and target designation (TD) mission payloads and 
tactical communications relay mission payloads being fielded with the 
Navy Fire Scout are not the same as those being developed for the Fire 
Scout FCS Class III/IV UAV. Unique ISR, TD, and communications payloads 
as well as manned-unmanned teaming capabilities are required in order 
to ensure that the Fire Scout FCS Class III/IV UAV is a seamlessly 
integrated capability on the FCS Network, currently under development 
in the FCS Systems Development and Demonstration (SDD) phase. As such, 
accelerated fielding of the Navy Fire Scout would not meet FCS Class 
III/IV UAV required networked-capabilities.

    [Whereupon, at 3:47 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
